No. 20-443

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

JOINT APPENDIX
(VOLUME 2)
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

GINGER D. ANDERS
Munger, Tolles & Olson LLP
601 Massachusetts Ave., N.W.
Washington, D.C. 20001
Suite 500
ginger.anders@mto.com
(202) 220-1107
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: NOV. 5, 2020
CERTIORARI GRANTED: MAR. 22, 2021

TABLE OF CONTENTS

Page
Volume 1
Court of appeals docket entries (16-6001) ............................ 1
District court docket entries (1:13-cr-10200-GAO-1) .......... 18
Photos of 2013 Boston Marathon finish-line area .............. 97
Tsarnaev’s computer records ............................................... 99
al Qaeda magazine accessed by Tsarnaev ......................... 104
Additional Tsarnaev computer records ............................. 110
Tsarnaev’s pre-bombing text messages ............................ 113
Tsarnaev’s pre-bombing tweets ......................................... 121
Photo of Tsarnaev taking bombing position ..................... 124
Photos of bombing aftermath ............................................ 125
Photos of shrapnel fragments from Martin Richard
autopsy ............................................................................ 139
Tsarnaev’s post-bombing tweets ....................................... 143
Tsarnaev’s post-bombing text messages .......................... 146
Photos of Tsarnaev engaging law-enforcement
officers in Watertown and driving SUV
toward them .................................................................... 147
Photo of boat ....................................................................... 150
Photo of Tsarnaev’s boat carving ...................................... 151
Photos of Tsarnaev’s boat message ................................... 152
Jury trial—day thirty (Mar. 10, 2015) ............................... 155
Jury trial—day twenty-seven (Mar. 4, 2015) .................... 160
Jury trial—day forty-three (Apr. 6, 2015) ........................ 198
Jury trial—day one—a.m. session (Jan. 5, 2015) ............. 276
Jury trial—day five (Jan. 16, 2015) ................................... 284
Jury trial—day seven (Jan. 21, 2015) ................................ 304
Jury trial—day nine (Jan. 23, 2015) .................................. 334
Jury trial—day eleven (Jan. 29, 2015) ............................... 354

(I)

II
Table of Contents—Continued:

Page

Jury trial—day thirteen (Feb, 4, 2015) ............................. 380
Jury trial—day fifteen (Feb. 6, 2015) ................................ 395
Jury trial—day sixteen (Feb. 11, 2015) ............................. 416
Jury trial—day eighteen (Feb. 13, 2015) .......................... 431
Volume 2
Jury trial—day nineteen (Feb. 17, 2015) .......................... 443
Parties’ agreed-upon preliminary jury instructions
(Dec. 1, 2014) ................................................................... 472
Joint sealed motion for leave to file document under
seal (Dec. 2, 2014) ........................................................... 474
Lobby conference (Dec. 30, 2014) ...................................... 478
Lobby conference (Jan. 2, 2015) ........................................ 484
Tsarnaev’s requested voir dire questions (general)
(Jan. 13, 2015) ................................................................. 489
Jury trial—day four (Jan. 15, 2015) .................................. 490
Jury trial—day five (Jan. 16, 2015) ................................... 495
Jury trial—day seven (Jan. 21, 2015) ................................ 499
Jury trial—day six (Jan. 20, 2015) ..................................... 504
Jury trial—day eight (Jan. 22, 2015) ................................. 509
Jury trial—day nine (Jan. 23, 2015) .................................. 513
Jury trial—day ten (Jan. 26, 2015) .................................... 516
Jury trial—day eleven (Jan. 29, 2015) ............................... 521
Jury trial—day fifteen (Feb. 6, 2015) ................................ 527
Jury trial—day sixteen (Feb. 11, 2015) ............................. 531
Status conference and motion hearing
(Nov. 12, 2013) ................................................................ 535
Status conference (Nov. 12, 2014) ..................................... 551
Status conference (Apr. 9, 2015) ........................................ 555
Tsarnaev’s motion to compel discovery (Oct. 7, 2013) ..... 560
Government’s opposition to defendant’s motion to
compel discovery (Oct. 21, 2013) ................................... 563

III
Table of Contents—Continued:

Page

Tsarnaev’s further motion to compel discovery of
favorable evidence (Mar. 28, 2014) ................................. 566
Supplemental memorandum respecting Tsarnaev’s
second motion to compel discovery of favorable
evidence (Todashev statements concerning
Waltham murders) (June 13, 2014) ............................... 569
Florida State Attorney’s Office report on AgentInvolved Shooting of Ibragim Todashev
(Mar. 17, 2014) ................................................................ 575
Tsarnaev’s motion to compel discovery
(Oct. 10, 2014) ................................................................. 580
Letter from U.S. Attorney Carmen M. Ortiz to
Tsarnaev’s defense counsel (Aug. 15, 2014) .................. 583
Government’s opposition to Tsarnaev’s fourth
motion to compel (Oct. 24, 2014) ................................... 586
Supplemental memorandum in opposition to
government’s motion in limine to preclude any
reference to Waltham triple homicide or other
alleged bad acts of Tamerlan Tsarnaev
(Apr. 24, 2015) ................................................................. 589
Penalty phase verdict (May 15, 2015) ............................... 592
Motion hearing (Apr. 16, 2014) .......................................... 624
Status conference (Aug. 14, 2014) ..................................... 630
Sealed motion hearing (Apr. 13, 2015) .............................. 632
Sealed lobby conference (Apr. 7, 2015) ............................. 649
District court order (Nov. 27, 2013) .................................. 652
District court order (Apr. 17, 2014) ................................... 655
District court opinion and order (Nov. 25, 2014) .............. 656
Reply to government’s opposition to motion to compel
discovery (Nov. 7, 2013) ................................................. 660
Government’s opposition to Tsarnaev’s motions to
compel (Apr. 11, 2014) ..................................................... 662

IV
Table of Contents—Continued:

Page

Tsarnaev’s reply to government’s opposition to
motion to compel discovery (Nov. 4, 2014) .................... 665
Opposition to government’s motion in limine to
preclude any reference to Waltham triple homicide
or other alleged bad acts of Tamerlan Tsarnaev
(Apr. 14, 2014) .................................................................. 667
Photo of Tsarnaev showing middle finger to
camera while in federal-court holding cell ................... 672
Jury trial—day thirty-four (Mar. 17, 2015) ...................... 673
Jury trial—day fifty (Apr. 27, 2015) .................................. 680
Jury trial—day fifty-one (Apr. 28, 2015) ........................... 683
Jury trial—day fifty-two (Apr. 29, 2015) .......................... 688
Jury trial—day fifty-four (May 4, 2015) ........................... 691
Jury trial—day thirty-one (Mar. 11, 2015) ....................... 695
Jury trial—day thirty-four (Mar. 17, 2015) ...................... 700
Jury trial—day thirty-eight (Mar. 24, 2015) ..................... 709
Jury trial—day thirty-nine (Mar 25, 2015) ....................... 721
Jury trial—day forty-seven (Apr. 21, 2015) ...................... 725
Jury trial—day fifty (Apr. 27, 2015) .................................. 741
Jury trial—day fifty-one (Apr. 28, 2015) ........................... 776
Jury trial—day fifty-five (May 5, 2015) ............................ 786
Jury trial—day fifty-nine (May 13, 2015) ......................... 794
Jury trial—day forty-seven (Apr. 21, 2015) ...................... 882
Jury trial—day forty-eight (Apr. 22, 2015) ....................... 886
Map showing relative location of homes of Dzhokhar
and Tamerlan Tsarnaev ................................................... 889
Volume 3 - Under Seal
Bomb making instructions from Tsarnaev’s al Qaeda
magazine.......................................................................... 890
FBI 302 report on Ibragim Todashev interview
(May 21, 2013) ........................................................................ 900

V
Table of Contents—Continued:

Page

Transcript of recording of Ibragim Todashev interview
(May 21, 2013) ........................................................................ 919
FBI 302 report on Dylan Mess interview (Nov. 5, 2013) ...... 968
Tsarnaev’s ex parte motion for orders to produce for
in camera review material regarding Tamerlan
Tsarnaev’s involvement in 2011 Waltham murders
(Apr. 22, 2015) .................................................................. 970
Government’s motion in limine to preclude any
reference to Waltham triple homicide or other
alleged bad acts of Tamerlan Tsarnaev
(Dec. 30, 2014) .................................................................. 974
Excerpt of D. Ct. Doc. 112, Ex. A (Government’s
Sept. 30, 2013 response to Tsarnaev’s letter of
Sept. 23, 2013 requesting additional discovery) .......... 980
Application for a search warrant, including
Affidavit of FBI Special Agent Steven Kimball
(June 3, 2013) .................................................................. 983
Seizure and Search Warrant (June 3, 2013) ................... 1007
Ex parte conference (July 3, 2014) .................................. 1012
Lobby conference (Mar. 31, 2015) ................................... 1025

443
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Feb. 17, 2015
10:56 a.m.
JURY TRIAL—DAY NINETEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

444
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[19-42]
* * * * *
THE CLERK:

Juror No. 480, please.

THE JURY CLERK:

Juror No. 480.

THE CLERK: Juror No. 480. Please have a seat.
Just make sure the microphone is pulled up to you.

445
THE COURT:

Good afternoon.

THE JUROR:

Good afternoon.

THE COURT: Have you been able to follow my instructions to avoid talking about the case with anyone?
THE JUROR:
to avoid.

Pretty much, yeah.

It’s really hard

THE COURT: Well, I told you that you could talk
about the fact that you had to come here. But have you
talked about the case itself?
THE JUROR:

Somewhat.

THE COURT:

Tell us what you’ve talked about.

THE JUROR: Pretty much with my mother as far
as having to call every week. And it was starting to get
stressful. And then when it came down to every other
day, I knew I would get called in sooner or later.
THE COURT: Okay. So you’ve talked about the
schedule [19-43] that you’ve been on to try to keep up
with whether you had to come back, is that—
THE JUROR: Yes, because I spoke to them at
work, made sure it was okay with them that I would be
able to serve.
THE COURT:

Is it okay with them?

THE JUROR: Yes. And it—basically, the unknown. You call up. Okay. Wait till—I’m sure everyone is going through it, but—
THE COURT: Have you talked about the merits of
the case at all with anyone?
THE JUROR:

No.

446
THE COURT: Have you also been able to avoid
reading or hearing media stories about the case?
THE JUROR: That’s very hard, too, yeah. So
much news on lately with the storms and everything.
You try to look the other way. So, for the most part, I
try to do my best there.
THE COURT: Okay. So let me ask you about
your work. You are a telecommunications engineer, is
that it?
THE JUROR: Yup. I’m a telecom engineer for
Partners HealthCare. I work at Mass. General. I really don’t have patient interaction. We’ve been working on a big upgrade with 30,000 phones. So it’s a big
overtaking.
THE COURT: Is your work confined to the Mass.
General campus? Partners has other entities.
THE JUROR:
tucket.

Partners has Brigham’s and Nan-

[19-44]
THE COURT: Are you involved in any of the others, or are you just Mass. General?
THE JUROR: We are involved in them. Whether
we have to go to those sites is a different story. Mostly
it’s remotely.
THE COURT: Okay. The day of the bombing, after it occurred, people were brought to the emergency
room at MGH. Were you working that day?
THE JUROR: I was working. We have a lot of
buildings at Mass. General. The building I’m in is

447
White Building, and it’s sort of like near the main entrance. But I’m on the 14th floor. We had the TV on.
As far as seeing patients come in, they have a new entrance and stuff like that, that they come in that way.
THE COURT: So you were in the hospital itself,
but you weren’t nearby where the people were—
THE JUROR: Yeah. We’re sort of out of the way.
We don’t hang out in the E.D. There’s just so much
going on there.
THE COURT: Let me just go back to—if you’d
look at the questionnaire, I want to go back to Page 5 for
a minute, Question 9.
THE JUROR:

Yup.

THE COURT: Let me just ask: Would that be an
issue for you if you were a juror in the case?
[19-45]
THE JUROR: It’s hard to say because, like, when
we were sitting up here earlier, I was focusing on you,
and I could pick up everything pretty good.
THE COURT:

Okay.

Do you use any assists?

THE JUROR: I don’t wear a hearing aid. I did
years ago. It was too distracting. Maybe some day
I’ll try it again, but—
THE COURT: Okay. Let me just ask you. We
asked about use of social media. You use Facebook, Instagram, Twitter, almost daily.
THE JUROR:
THE COURT:
you do?

Pretty much, yeah.

I’m on those.

Can you tell us what kinds of things

448
THE JUROR: Before I got back to Mass. General,
I used to work for a travel company, and I’ve been—I
traveled all over and met people all over. It’s a good
way to keep in touch with people from the Caribbean and
stuff like that.
THE COURT: Okay.
than as a business matter?
THE JUROR:

As a social matter rather

Just basically social.

THE COURT: Let me ask you to look at Page 20,
Question 77, near the top.
THE JUROR:

Yup.

THE COURT: We asked here whether—based on
things you’d seen or read in the media or from other
sources whether [19-46] you had an opinion—formed
any opinions about whether the defendant was guilty or
not or whether he should receive the death penalty or
not. That’s Part (a), (b), (c), and (d). And to each of
those you checked “unsure.” Could you tell us about
that?
THE JUROR: Yeah. Basically, when it did happen, it was all over the media. Everyone comes up with
their own opinion. Mine is I don’t know whether he was
involved or not. I’m not there. I mean, I need to sit and
look at evidence that would be provided and make my
decision from that.
THE COURT: You understand that in a criminal
case the defendant is presumed to be innocent, or not
guilty, of anything he’s charged with unless the government proves him guilty by producing evidence at trial
that is convincing to the jury so that they can conclude

449
that the defendant is guilty of the charge beyond a reasonable doubt. You understand those principles?
THE JUROR:

Yes.

THE COURT: Are you saying you would be able to
faithfully apply those principles if you were a juror on
the case?
THE JUROR:

Sure.

THE COURT: And if—for any particular charge, if
you thought the government had failed in its burden of
proof, would you be able to vote not guilty on that
charge?
[19-47]
THE JUROR:

I could, yeah.

THE COURT: We asked a series of questions
about your attitude toward the death penalty beginning
at Page 23. And in Question 88 we asked a general
question. If you had any views, what were they?
THE JUROR:

What question was that?

THE COURT: 88. It’s on Page 23. There it is.
Can you tell us what you were getting at in that answer?
Take a minute to read it.
THE JUROR: I guess basically what I was saying
is, in terms of the death penalty, sometimes it’s—I feel
it’s better to have life in prison depending on the situation.
THE COURT: Okay. Well—okay. Let me ask
you to turn to Page 24, Question 90. We set out a series
of possible statements and asked if there was one that

450
you thought best reflected your own view, and you selected statement (e). Why don’t you just take a minute
to review the question and see—what I’m going to ask
you is whether that still represents your best choice as
to what matches your thinking about the matter.
THE JUROR: I think that goes back to the last
question where I felt that life in prison could be in some
cases more favorable than the death penalty.
THE COURT:
THE JUROR:
how to put that.

More favorable to whom?
Be more favorable to—I don’t know

[19-48]
THE COURT: Okay. Well, Statement (e) says
if—I’m just reading Statement (e). It says, “I’m in favor of the death penalty.” So that indicates a general
disposition to favor the death penalty. Is that your
view?
THE JUROR:

Yeah.

THE COURT: “But I could vote for a sentence of
life imprisonment without the possibility of release if I
believed that sentence was called for by the facts and
the law in the case.” Is that also your view?
THE JUROR:

Yeah.

THE COURT: I’m trying to—depending on how
you understood the facts—and you heard me describe
the so-called penalty phase this morning, right?
THE JUROR:

Uh-huh.

THE COURT: Are you prepared to be able to consider that the death penalty is the right punishment?

451
THE JUROR:

I believe so.

THE COURT: And also consider that life imprisonment might be the right punishment?
THE JUROR:

I believe so.

THE COURT:

Okay.

Follow-up?

MR. CHAKRAVARTY: Just very briefly. Good
afternoon. My name is Aloke Chakravarty. I’m one
of the prosecutors in the case. Just a couple quick
questions.
THE JUROR:

Sure.

[19-49]
MR. CHAKRAVARTY: Your work in the telecom
department at Mass. General, will that affect your ability to be fair and impartial and listen to the evidence in
court to be able to make up your decisions in this case?
THE JUROR: I don’t think it would affect it because I’m working with telephones and stuff like that.
I’m not doing anything with patient care or—you know
what I mean?
MR. CHAKRAVARTY: And the—whatever you
had seen about the case on the news, are you prepared
to put that aside and listen to the evidence in the case in
court to be able to make up your decisions?
THE JUROR:

Yeah, I could.

MR. CHAKRAVARTY:

That’s all.

Thank you.

MS. CLARKE: Hello. My name is Judy Clarke.
I’m one of the lawyers for Mr. Tsarnaev, and I had a few
questions if that’s okay.
THE JUROR:

Sure.

452
MS. CLARKE: Just to follow up on your work, inside Mass. General, you’re actually stationed inside the
hospital facility?
THE JUROR: I am—most of our telecom people
are placed over in the Charlestown Navy Yard. Unfortunately, we’re—have lack of space, and we are building
a new site in Somerville in a couple years. Then we will
be all together. We’ll be out of the hospital. There is
a spot up on the 14th [19-50] floor at the hospital that
they’ve had forever, so they decided to keep that for
now.
MS. CLARKE:
out of?
THE JUROR:
MS. CLARKE:
THE JUROR:

So that’s where you actually work
Yes.
The 14th floor of the hospital?
Yes.

MS. CLARKE: You were there at the hospital the
day of the Marathon?
THE JUROR:
MS. CLARKE:
THE JUROR:
MS. CLARKE:
heard that day?

Yes.
Working?
Working.
Can you tell us what you saw or

THE JUROR: Basically, there’s about six to eight
of us in the office at any given time. We do have a TV
if there’s emergencies. One of the gentleman that works
with us, his brother works for BWH. He called him.
He said, There’s an emergency going on at the Marathon,
so we turned the TV on. That’s how we knew.

453
MS. CLARKE:
THE JUROR:

And saw the events of the day?
Yeah.

MS. CLARKE: What about, as people came into
the hospital facility, did you see any of that activity?
THE JUROR: Like I mentioned, Mass. General is
so big. I could be at one end of the place, and the other
end could be [19-51] something going on and we would
never know.
MS. CLARKE:
THE JUROR:

Sure.

But did you see anything—

No.

MS. CLARKE: —that afternoon, the rest of that
day or the next day?
THE JUROR: No. They have a brand-new emergency room that the ambulances and patients come in at
this different entrance. So us, where we were, I wouldn’t
see them.
MS. CLARKE: Were you aware of any of the activities at the hospital that week or in the few days after
the Marathon?
THE JUROR: Obviously, I was aware that the
bombing did happen, and they brought people to all different hospitals throughout the city. That is usually common knowledge. They send out all user emails stating
what’s going on.
MS. CLARKE:
emails?

What did you learn from those

THE JUROR: Basically, the same as what we
heard on TV when we were—when we turned the TV on
after we heard of the incident.

454
MS. CLARKE: Can you recall more specifics about
what you got from the emails as opposed to what you got
from the TV?
THE JUROR: I think it was basically the same. A
lot of times they get the emails from the reports from
the news media.
MS. CLARKE: Were there any fund-raising efforts at [19-52] the hospital or any meetings about helping people?
THE JUROR: Like I said, I’m more of a technical
person, and I’m not involved in any patient care and
stuff like that. So it was sort of out of the picture.
MS. CLARKE: Were you able to carry on your
work that week the same as ordinary?
THE JUROR: Yeah. Like I said, I mean, Partners and Mass. General have so many sites and—you
could feel something in the air. You know what I
mean? You could feel a buzz that something happened.
MS. CLARKE:
more for us?

Could you describe that a little bit

THE JUROR: I think the thing was—I mean,
you—how do I put it? You know something is going on,
but you don’t really have all the facts. We knew there
was a bombing. We knew there were a lot of injured
people. Other than that, we—I mean, even though it
was up there, we still have work to do.
MS. CLARKE: Sure. I guess one of the things to
think about is whether you got information that nobody
else got. And so you got that sort of buzz feeling.
That’s what I’m really trying to explore.

455
THE JUROR: Well, I think—if I was in patient
care, I would have got probably different emails. I get
the generic email for—
[19-53]
MS. CLARKE:

The telecom email?

THE JUROR: Yeah, basically, an all-user email.
But if you’re in patient care, I mean, there’s probably
different types of information provided.
MS. CLARKE:
Okay, okay.
On Question 77,
which was at Page 20, that was the questions about the
opinions. And I certainly appreciate you saying it was
all over the media, but as a juror, I have to listen to the
evidence. The question is: Have you ever formed an
opinion about Mr. Tsarnaev’s guilt or about the penalty
outside of thinking about being a juror?
THE JUROR: Well, I would say so when—first
happened, I mean, with all the media attention, you say,
Okay. They got the person who they assumed did this.
Other than that, I mean—they had two or three other
reports out there that other people had done this as well.
So it was, like, who was right and who was wrong? So,
I mean, so—
MS. CLARKE: But you weren’t able to form an
opinion based on anything you knew before you came in
to fill out your questionnaire?
THE JUROR:

Not really, no.

MS. CLARKE: How about as to the penalty that
should be imposed?
THE JUROR: I haven’t had a chance to go through
all the counts and all the charges.

456
MS. CLARKE: Sure. That makes absolute sense
that you [19-54] would wait to hear the evidence. But
did you have an opinion when you came in to fill out the
questionnaire—
THE JUROR:
MS. CLARKE:
THE JUROR:
MS. CLARKE:

No.
—about the penalty?
No.
You didn’t?

When you say, on Question 88, Page 23, that the
“death penalty can be overrated sometimes and it may
be better from the defendant’s view if he is guilty than
to live out his life in prison.” Can you talk to us just a
little bit more about what you meant?
THE JUROR: I guess—I mean, when I came in to
fill this out, it was a long day already. I guess what I
was trying to say, I mean, due to the fact his age was—
he was in his 20s and stuff like that, sometimes I thought
it might have been—this is my answer I should have said
to you earlier—was it might be, from my standpoint,
that he lives the rest of his life in prison versus the death
penalty. I mean, I’m still going back and forth on that.
I mean, I wrote something down, but I’m not sure what
I really was trying to get across.
MS. CLARKE:
ond?
THE JUROR:

Okay.

Can I just have one sec-

Sure.

(Discussion held off the record.)
MS. CLARKE:
you.

Thank you very much.

Thank

457
THE COURT:

All set.

Just leave the form there.

[19-55]
You’re done.
*

*

*

*

*

[1969]
THE CLERK:

Juror No. 487, please.

THE JURY CLERK:

Juror 487.

THE CLERK: Juror No. 487. You may have a
seat. Just make sure you speak into the microphone.
THE COURT:

Good afternoon.

THE JUROR:

Hi.

How are you?

THE COURT: Have you had success in avoiding
any discussion of the case with people?
THE JUROR:
THE COURT:
erage?
THE JUROR:

Yes.
And how about avoiding media covAbsolutely, yes.

THE COURT: Okay. So that’s the questionnaire
you filled out. We’re going to follow up on some of the
questions.
THE JUROR:

Okay.

THE COURT: I want to start with Question 10 on
Page 5 where we asked about the schedule in the case
and what it might mean for you. First of all, did you
have your trip?
THE JUROR: Yes, I did. Can you tell I was a little [19-70] panicked about that?

458
THE COURT:
But anyway—

You only said it three times, I think.

THE JUROR:

Happy belated birthday to me.

THE COURT:

Hope you had a nice trip.

THE JUROR:

Thank you.

THE COURT: That’s one of the few advantages of
this drawn-out process, is that people get to take their
trips.
THE JUROR:

Yeah.

THE COURT: Now, you also were, I think, concerned about whether, if you were a juror on the case,
you would be sequestered. That would be a problem
for the family. That’s not going to happen.
THE JUROR:

Okay.

THE COURT: With that—the way I read your answer, that if it’s not the case, you’re okay with the schedule?
THE JUROR: Yeah. My—I have four kids: one
in college; my next one is a senior in high school, who
has her own car, who would be able to help with my two
eighth-grader twin boys. It’s not ideal coming from
the Cape, but there would be worse off people than me
in that sense.
THE COURT:
ployer?

Would it be okay with your em-

THE JUROR:

Yes.

THE COURT:

Will you continue to get paid?

THE JUROR:

I do get paid.

459
[19-71]
THE COURT: So I think the next thing I want to
go to is Page 20, Question 77.
THE JUROR:

Okay.

THE COURT: There we asked whether, based on
things you’d seen or read or learned from whatever
source, you had formed an opinion that the defendant
was guilty or not and whether he should receive the
death penalty or not. As to (a) and (b), which were
about whether he was guilty or not guilty, you said you
had formed an opinion that he was guilty. As to the appropriate penalty, you said you’re unsure. Okay.
Then at the second part of the question, just below
that, you were asked, If you answered yes to any of these
questions—and you answered yes to Part (a)—would
you be able or unable to set aside your opinion and base
your decision about guilt solely on the evidence presented to you in court, and you checked “able.” You
would be able to do that. Can you tell us about that?
THE JUROR: Okay. Basically, I’m not a huge
news follower to begin with. But the little bit that I
knew of the case, you know, there was video evidence
and, you know, being in the boat, the whole bit, obviously, it seemed he played a role in it. So that was, like,
my feeling of guilt.
On the death penalty, I’ve never had an opinion about
it one way or the other. I just didn’t—I’ve never been
questioned on how I feel about that. So, to me, since I
don’t [19-72] already have strong feelings about it, I
could—if—once I knew the rules of it and what goes into
it, then I think I could be—form an educated opinion
about it. Whether—that’s what I mean about, like, on

460
the evidence presented to me. Like, I understand
you’re not guilty until you’re proven guilty.
So I would have to—I think I would be able to put
that aside until I see all the evidence because, obviously,
I have not seen any evidence really other than what’s
been out there. But if someone said to me, like this, Do
you think he’s guilty?, Yeah, I thought so because of
what I’ve seen so far.
THE COURT: But from what you’ve said, I guess
you recognize the principle that the government has the
obligation to prove somebody’s guilty—
THE JUROR:

Right, right.

THE COURT:

—by the evidence at trial.

THE JUROR:

Right.

THE COURT: And that’s what the jurors will focus
their attention on and decide whether, based on that evidence and not ideas from other sources, they can make
their judgment.
THE JUROR: That’s what I feel. I would be able
to put that aside and see what the real evidence really
is.
THE COURT: Do you understand that the burden
of proof is exclusively with the government; that is, the
government has the responsibility to prove somebody
guilty?
[19-73]
THE JUROR:

Yes.

THE COURT: A person accused doesn’t have any
obligation to prove he’s not guilty.

461
THE JUROR:

Okay.

THE COURT: It’s always—the question is never
which side has convinced me. It’s has the government
convinced me that this person is guilty as charged. Do
you understand that?
THE JUROR:

I do understand that.

THE COURT:
principle?

Do you think you could apply that

THE JUROR:
principle, yes.

I do think that I could apply that

THE COURT: We asked a series of questions
about the death penalty and your attitudes about it beginning on Page 23, and Question 88 is the first one.
That asks whether you have any views about it in general; and, if so, what are they? And you say you’ve
never really had a strong opinion either way. Is that—
THE JUROR: It’s true. You know, I—I don’t
have an opinion either way. I do think life imprisonment is a horrible life, but it’s a life, you know. Obviously, death would be the worst penalty you can have.
But I’ve never felt it shouldn’t exist. I really didn’t
have an opinion one way or the other on it.
THE COURT: Okay. On Page 24, Question 90, we
asked [19-74] you to review a series of statements and
see if one of them reflected your feelings about the death
penalty involving someone guilty of murder.
You
picked (d). If you want, why don’t you just take a moment to review the entire question and see—obviously,
what I’m going to ask you is does that still represent
your choice?

462
THE JUROR: Okay, yeah. It definitely—I don’t
have a strong opinion one way or the other, so it would
have to be (d).
THE COURT: Okay. Based on your—I gather
from the answer then, you think that, based on your assessment of the evidence—you heard me describe the
penalty phase and how the government would be trying
to convince you that there were aggravating factors that
made this a serious—more serious offense and, therefore, punishable by the death penalty while the defense
would likely present evidence of things that arguably
mitigate the punishment and make life imprisonment
the better punishment and so on. You would be able to
consider all that before making up your mind whether
death—
THE JUROR:
THE COURT:
priate?

Yeah.
—or life imprisonment was appro-

THE JUROR: I would hope so, yes, I mean, because I’m not for or against it. So I think I would think,
once I knew the criteria and if it felt that the guiltiness
leaned more towards what that criteria is, then I would
be for it. If it [19-75] wasn’t, I would be against it.
THE COURT:

All right.

Follow-up?

MR. CHAKRAVARTY: Just very briefly. Good
afternoon. My name is Aloke Chakravarty. I’m one
of the prosecutors.
THE JUROR:

Okay.

MR. CHAKRAVARTY: Just a couple quick things.
One, on Page 23, Question 87.

463
THE JUROR:

Yup.

MR. CHAKRAVARTY: I just want to—so nobody
wants to see disturbing things. The question is will you
view the evidence—will you be able to view the evidence
even if it’s disturbing and pay attention to it and not look
away essentially even if you—it’s not a pleasant experience? You think you will be able to do that in this case?
THE JUROR: I think that would be the hardest
part for me, but I would know that would be my job to
do that, so I would have to.
MR. CHAKRAVARTY: Then on Page 26, Question
98, I think it’s just a clarification. Your answer there,
was that in reference to essentially whether you were
going to get paid?
THE JUROR: No, no, because I do get—I receive
child support. He’s not an option. If I was sequestered, he’s not an option for my kids to go to him.
MR. CHAKRAVARTY:

So it’s the commuting.

THE JUROR: It was the commuting, like, them
having a [19-76] parent around. I’m their only parent.
MR. CHAKRAVARTY: Finally, at the end of the
day in this case, there will be two phases. It’s one thing
to intellectually arrive at a decision that the death penalty or life imprisonment is appropriate.
THE JUROR:

Right.

MR. CHAKRAVARTY: But do you feel confident
that you can make the decision to take somebody’s life?
MS. CONRAD:
THE COURT:

Objection.
Yeah, phrased that way.

464
MR. CHAKRAVARTY: Sorry. In—not in this
case particularly but just in the process of doing a death
penalty trial in federal court, a juror is asked to cast a
vote for life imprisonment or the death penalty. And
you will be given the criteria, and you will be given the
rule of law from the judge. You’ll have to assess the
fact as to whether it merits that.
THE JUROR:

Right.

MR. CHAKRAVARTY: Do you feel confident that
you can make that decision?
MS. CONRAD:
THE COURT:
MS. CONRAD:

Objection.
No.

Go ahead.

“Feel confident”?

THE COURT: Go ahead.
you can, if you understand it.

Answer the question if

[19-77]
THE JUROR: I do understand it. I would feel
confident if I—from the evidence presented and the criteria, if it’s met and that’s the law and those are the
things that it falls under, then I would feel confident that
that would be the choice I would have to make.
MR. CHAKRAVARTY: Well, you never have to
make—you have your own will to be able to make whatever choice you want.
THE JUROR:

No. Right.

MR. CHAKRAVARTY: I just want to get a sense
of whether—if you thought conscientiously that it was
the appropriate thing, that you could cast that vote.
MS. CONRAD:

Objection.

Asked and answered.

465
THE COURT:

No. Go ahead.

THE JUROR:

Yes.

MR. CHAKRAVARTY:
MS. CONRAD:
THE JUROR:

You can answer it.

Okay.

Good afternoon.
Hi.

MS. CONRAD: My name is Miriam Conrad.
one of Mr. Tsarnaev’s lawyers.
THE JUROR:

I’m

Okay.

MS. CONRAD: First, let me ask you a little bit.
You work for the school system?
THE JUROR:

I do.

MS. CONRAD: Were there any events that the
school system held either to raise money for victims of
the Marathon [19-78] bombing or sort of Boston Strong
type events that you recall?
THE JUROR:

No, not on—at our school.

MS. CONRAD:
children attend?

What about the schools that your

THE JUROR:
work at right now.

My children attend the school I

MS. CONRAD:
THE JUROR:
MS. CONRAD:
sent?

But then?
But then, no, no.
Do you know anybody who was pre-

THE JUROR: My ex-husband’s cousin was a runner, but I didn’t even know that until afterwards.

466
MS. CONRAD:
schools?
THE JUROR:
MS. CONRAD:
the events?

How about anybody within the
No.
And did you talk to your kids about

THE JUROR: Well, my kids are a little bit older.
And we were in Texas for April vacation that year, and
we couldn’t fly home. So, yeah, I mean, they understood. They knew what was happening. They knew
the flights were all canceled and we couldn’t get back.
MS. CONRAD:

Were they upset?

THE JUROR: I don’t—I mean, I wouldn’t think it
was—probably not to the extent. We were on vacation,
so they weren’t sitting in front of a TV. They didn’t see
a lot of the—you know, it kind of—it downplayed it a little bit in [19-79] that sense for them. You know, they
didn’t see a lot of it.
MS. CONRAD: Do you understand—I assume you
know that one of the people who was killed was an eightyear-old boy.
THE JUROR:
MS. CONRAD:
THE JUROR:

Yes, I knew that.
As a mother of three sons—
Right.

MS. CONRAD: —do you have any thought about
how you would feel listening to and hearing and seeing
evidence about that death?
THE JUROR: Yeah. That would be—I would
think that’s going to be the hardest part for me.

467
MS. CONRAD: Do you think that would make it
hard for you to be impartial, listening to the evidence?
MS. PELLEGRINI:

Same objection, your Honor.

THE COURT: Yeah, sustained, I think.
there it was okay, but—

Up to

MS. CONRAD: Do you think that would affect your
decision about the appropriate penalty in this case?
MS. PELLEGRINI:

Objection.

MS. CONRAD: Your Honor, if I may, Mr. Weinreb
asked that exact question in a previous—
THE COURT: The problem is that it asks both permissible effect and impermissible effect. I assume—
maybe this is a rash assumption, but I assume that that
would be part [19-80] of the government’s aggravation
case.
MS. CONRAD: Fair enough, fair enough.
try a different question.

Let me

If I could just ask you, ma’am, to turn to Question 89.
THE JUROR:
MS. CONRAD:

Which page is it?
I’m sorry.

It’s Page 23.

THE JUROR:

Okay.

THE COURT:

You selected 6 on the number scale.

THE JUROR:

Okay.

MS. CONRAD: Does that reflect that you are
slightly more in favor of the death penalty than against
it?

468
THE JUROR: Oh, isn’t that interesting? I didn’t
even realize that I did that. No. I think that I would
be right in the middle.
MS. CONRAD:
the next question.
THE JUROR:
MS. CONRAD:

And that’s what you reflected on
Right because, I mean, I just—
You also said—well, strike that.

Let me stick with the death penalty for a second.
You mentioned the guidelines, that you would listen to
what the guidelines were for the penalty phase—
THE JUROR:
MS. CONRAD:
THE JUROR:

Right.
—if you got to that point.
Right.

[19-81]
MS. CONRAD: As Judge O’Toole told you this
morning, the penalty phase would include things about
the crime as well as things about the defendant.
THE JUROR:

Okay.

MS. CONRAD: Would you be willing to consider
things that have nothing to do with the crime itself, but
facts about the defendant, in deciding whether or not the
death penalty was appropriate?
THE JUROR:
MS. CONRAD:
THE JUROR:

Not the evidence itself?
No, not the crime itself.
Not the crime itself.

MS. CONRAD:
You would hear evidence, for
example—let me just make this general. In a death
penalty case generally, would you be willing to consider

469
facts about the defendant such as his criminal history,
his personal background, childhood, and so forth?
THE JUROR:

Yes.

MS. CONRAD: The judge also described how you
would—the jury would be instructed to weigh the aggravating factors and mitigating factors. Do you think
that the fact that the death of a child was part of this
case would make it difficult for you to weigh both sides
before—
MR. CHAKRAVARTY:
MS. CONRAD:
THE COURT:

Objection, your Honor.

—before coming to a decision?
Sustained.

[19-82]
MS. CONRAD:
THE JUROR:

On Page 19, Question 74.
Yes.

MS. CONRAD: You said that when you realized
when you—basically, when you realized it was this case,
you weren’t very happy about it. Was there anything
about that other than the length—
THE JUROR: Length. Well, I mean, and the brutality and the gruesomeness of it probably, you know, is
my first—and the length.
MS. CONRAD: On Page 21, Question 82, you said
that you bought a Boston Strong T-shirt for your
nephew.
THE JUROR:
MS. CONRAD:
you?

Yeah.

He’s a cross-country—

What does that phrase mean to

470
MR. CHAKRAVARTY:

Objection, your Honor.

THE COURT: Yeah. I’ll sustain the objection to
that. This isn’t a discovery deposition.
MS. CONRAD:
reflection—

Well, your Honor, but I think it’s a

THE COURT: You can ask about the circumstances if you want.
MS. CONRAD: Okay. So can you tell us why you
bought a Boston Strong T-shirt for your nephew?
THE JUROR: My nephew is a cross-country runner, and he originally lived in Boston. And so, to me, it
was more like a Boston thing.
[19-83]
MS. CONRAD:

How old is he?

THE JUROR: How old is my nephew?
age as my oldest. Nineteen.

The same

MS. CONRAD: Would the fact that you have children of your own make it difficult for you to be a fair and
impartial juror in this case?
MR. CHAKRAVARTY:

Objection, your Honor.

MS. CONRAD: Your Honor, that’s the exact question Mr. Weinreb asked. I have it in my hand from the
transcript.
THE COURT:
MS. CONRAD:
THE COURT:

Was it objected to?
I’m sorry?
Was it objected to?

471
MS. CONRAD: No, it was not objected to, but it
seems to me—well, I still think it’s a fair question. It
wasn’t objected to because it’s a fair question.
THE COURT:

Go ahead.

You can answer it.

THE JUROR:

Repeat the question.

MS. CONRAD: Sure. Would the fact that you
have children of your own, including three boys, make it
difficult for you to be a fair and impartial juror in this
case?
MS. PELLEGRINI: I’m going to object to the
question being phrased that way because that puts more
emphasis, sounds to me, on the gender of the victims,
and we get right back to the question of the child.
MS. CONRAD: I’m tracking what Mr. Weinreb
asked. But [19-84] would the fact that you have children of your own make it difficult for you to be a fair and
impartial juror in this case?
THE JUROR: No. I mean, Mr. Tsarnaev was a
child also during this. Is that what you mean? Because of him?
MS. CONRAD:
a child.
THE JUROR:
MS. CONRAD:

No, I meant more that a victim was
No.
Thank you.

THE COURT: All right. We’re done.
you very much. Please leave that there.
*

*

*

*

*

Thank

472
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Crim. No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Dec. 1, 2014
AGREED-UPON PRELIMINARY JURY INSTRUCTIONS

Counsel for the government and for the defendant,
Dzhokhar Tsarnaev, hereby submit the attached
agreed-upon proposed jury instructions to be given (1)
to the jury venire members prior to the distribution of
written questionnaires, and (2) prior to the beginning of
oral questioning of prospective jurors on their voir dire.
Dated:

Dec. 1, 2014
Respectfully Submitted,
DZHOKHAR TSARNAEV
By his attorneys
/s/

DAVID I. BRUCK
DAVID I. BRUCK
Judy Clarke, Esq. (CA Bar# 76071)
CLARKE & RICE, APC
1010 Second Avenue, Suite 1800

473
San Diego, CA 92101
(619) 308-8484
JUDYCLARKE@JCSRLAW.NET
David I. Bruck, Esq. (SC Bar # 967)
220 Sydney Lewis Hall
Lexington, VA 24450
(540) 458-8188
BRUCKD@WLU.EDU
Miriam Conrad, Esq. (BBO # 550223)
*

*

*

*

*

JOINT REQUESTED PRELIMINARY INSTRUCTIONS
CONCERNING JURY QUESTIONNAIRES

*

*

*

*

*

There has been a great deal of publicity about this
case. I expect that the media will continue to report on
it. The mere fact that you may have read or heard
something about the case does not mean that you cannot
be a juror. We simply need to know what you have
read, seen, heard, or experienced in relation to the case.
There are no “right answers.” We only want your honest and true thoughts and opinions. The purpose of the
jury selection process is to try to ensure that each person selected is an appropriate juror for this case, and
that the jury as a whole will fairly represent the community.
*

*

*

*

*

474
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Crim. No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Dec. 2, 2014
FILED UNDER SEAL
JOINT SEALED MOTION FOR LEAVE TO FILE
DOCUMENT UNDER SEAL

The United States of America, by and through its undersigned counsel, and Dzhokhar Tsarnaev, by and through
his undersigned counsel, respectfully request leave to
file this motion and the attached joint proposed jury
questionnaire under seal. As grounds for this motion,
the parties state that the goal of obtaining candid responses to the questionnaire could be jeopardized if potential jurors obtain advance copies of it.
Respectfully Submitted,
CARMEN M. ORTIZ
United States Attorney
/s/

WILLIAM WEINREB
WILLIAM WEINREB
Aloke S. Chakavarty
Nadine Pellegrini

475
Assistant U.S. Attorneys
DZHOKHAR TSARNAEV
by his attorneys
/s/

JUDY CLARKE, ESQ.
JUDY CLARKE, ESQ.
David I. Bruck, Esq.
Miriam Conrad, Esq.
Timothy Watkins, Esq.
William Fick, Esq.
*

*

*

*

*

JUROR QUESTIONNAIRE
PRELIMINARY INSTRUCTIONS
*

*

*

*

*

78. How would you describe the amount of media coverage you have seen about this case:
A lot (read many articles or watched television
accounts
A moderate amount (just basic coverage in the
news)
A little (basically just heard about it)
None (have not heard of case before today)
79. What did you know about the facts of this case before you came to court today (if anything)?

476
80. What did you think or feel when you received your
jury summons for this case?

81. To the best of your recollection, what kinds of
things did you say to others, or did others say to
you, regarding your possible jury service in this
case?

82. If you did any on-line research about this case, or
about anything relating to it, after receiving your
jury summons, please describe it:

83. As a result of what you have seen or read in the
news media, or what you have learned or already
know about the case from any source, have you
formed an opinion:
(a)

that Dzhokhar Tsarnaev is guilty?

(b)

that Dzhokhar Tsarnaev is not guilty

(c)

that Dzhokhar Tsarnaev should receive the
death penalty

(d)

that Dzhokhar Tsarnaev should not receive
the death penalty?

477
If you answered “yes” to any of these questions,
can you set aside your opinion and base your decision about guilt and punishment solely on the evidence that will be presented to you in court?

84. If you answered “yes” to any of the above, have you
expressed or stated your opinion to anyone else?
If “yes,” please explain.

*

*

*

*

*

478
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Dec. 30, 2014
10:35 a.m.
LOBBY CONFERENCE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

479
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

WILLIAM W. FICK and TIMOTHY G. WATKINS,
Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[47]
* * * * *
THE COURT: Okay. Obviously, these will get renumbered because we’re eliminating . . .

480
Now, I’m on 18—79. I guess I see this as a [48]
question that will cause trouble because it will be so unfocused I don’t know if—I mean, I guess it’s one that
might get very interesting answers. Maybe it’s a trigger to follow-up.
MS. CLARKE:
point.

I think it is.

I mean, you know the

THE COURT: I expect you’ll get answers which
have untrue facts.
I mean, something everybody
would agree was untrue.
MR. BRUCK: Or very prejudicial facts which are
not going to come into evidence. People know everything about this case, it’s been reported, whether it’s
true or not, whether it’s admissible or not.
MS. CLARKE:
lines.

You might want to add a few more

THE COURT: You would have to. I guess that’s
one of my concerns. But if you want to live with it—
this is a question that we’ll probably be asking every voir
dire person.
MR. FICK: I think it helps to flush out at the top
whatever anybody said. No matter how they impressionistically treated it, it’s useful to trigger a follow-up.
MR. WEINREB: I suppose it could be amended to
say what are the, you know, three or four most memorable things.
MR. BRUCK: That will reduce the value. Everyone will say the same thing: Bombs went off at the
Marathon. A police officer was killed.

481
[49]
MR. WEINREB: I guess my concern about it is
that—is the opposite of an overlong answer which is getting a partial answer, you know, that a juror may know
ten things about it, and if you only put down two of them,
does that give you a fair picture?
MR. BRUCK:
follow-up.

Well, that’s a probe and it’s for

MR. CHAKRAVARTY: We could end up following
up on every fact asserted. Then that would be—I’m
not sure how constructive that would be. This would
take forever with every witness.
MR. WEINREB: Yeah. And if the question is designed to determine whether the jurors have been exposed to pretrial publicity, that might have affected their
ability to be fair and impartial, but I do think that the
case law of the Supreme Court ruled it is not necessary
to ask jurors what the pretrial publicity is to which they
have exposed; it’s only possible to ask whether they can
put it aside and be fair and impartial.
And I am concerned that this one question will turn
out to be the question that dominates the entirety of voir
dire of the individual jurors unnecessarily.
THE COURT: Yeah, I guess that’s my concern as
well, I guess. There will be sort of unmanageable data,
I guess is my concern about that. I think that the preconceptions, and so on, we deal with in a series of other
kinds of questions—I [50] think we’re better off without
this one as a narrative.
MR. BRUCK:
We would—I think our feelings
about that would be affected by the extent to which

482
there will be questioning on this exact issue in individual
voir dire where jurors can—
THE COURT: I think one of the common questions
is going to be to a juror who answers to 83A, that she
thinks Dzhokhar Tsarnaev is guilty, and then we’re going to have to ask regardless of that idea that you have
now, would you be able to hear the evidence and judge
it fairly and perhaps change your mind if the evidence
warranted that? We’ll do all that with these other
questions, I think.
MR. BRUCK: But it’s true that there is a 5-to-4 Supreme Court decision that says it does not violate due
process not to ask for content, Mimin versus Virginia.
It’s very much the minority view among courts, state
and federal, in the country. And it tends to, in a case
like this where you—where you have really no ideas
what the juror may have swirling around in their head,
it makes the juror the judge of their own impartiality in
the end not to be able to—
THE COURT:

To a large extent that’s true.

MR. BRUCK:

I’m sorry?

THE COURT: To a large extent that’s true, the juror is ordinarily—
MR. BRUCK: But the Court can evaluate more [51]
realistically when you know what it is the juror and how
much—
THE COURT: I think the other questions will help
us do that. I think this is—I think we can do without 79.
I mean, I think what we touched on is the biggest issue
in voir dire, obviously, because there are going to be a
lot of people with preconceptions. As a matter of fact,

483
you may even wonder about people who have a preconception in the other direction, whether they pay attention to anything in the world. If they say, no, I know
he’s not—that’s another—maybe touching on that—so
we’re going to get a lot of “yes” answers to 83A.
MR. MELLIN: Your Honor, Question 78 talks
about how much have you been exposed to.
THE COURT:
with that.

Right.
*

*

So I think we’ll do okay
*

*

*

484
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 2, 2015
11:05 a.m.
LOBBY CONFERENCE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
FEDERAL PUBLIC DEFENDER OFFICE

By:

WILLIAM W. FICK and TIMOTHY G. WATKINS,
Federal Public Defenders
51 Sleeper Street

485
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC
By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[7]
* * * * *
MR. BRUCK: It was 79, “What did you know about
the facts of this case before you came to court today, if
anything?”
THE COURT: Yeah. Right. Yeah. No, we took
that out. We took it out. It implied that there were
facts of the case that they could objectively know and I
didn’t want to support that misimpression.
MR. BRUCK: If it were changed to “What did you
read or hear about this case before you came here,” it
would solve that problem.

486
THE COURT: No, I think it—again, I think it’s too
unguided. I think the questions we asked are okay, so
. . .
*

*

*

*

*

487
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
SEALED

No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Jan. 13, 2015
SEALED MOTION TO SEAL DEFENDANT’S
PROPOSED FOLLOW-UP QUESTIONS
RE VOIR DIRE

Defendant moves that this Court grant him to leave
to file both the instant Motion and the attached Defendant’s Proposed Follow-up Questions Re Voir Dire under
seal, per the Court’s instruction.
Respectfully Submitted,
/s/

DAVID I. BRUCK
DAVID I. BRUCK
JUDY CLARKE
MIRIAM CONRAD
WILLIAM FICK
TIMOTHY WATKINS
Attorneys for Dzhokhar Tsarnaev

488
Certificate of Service

I hereby certify that this document was served by
email upon counsel for the government this 13th day of
Jan., 2015.
/s/

DAVID I. BRUCK
DAVID I. BRUCK

489
DEFENDANT’S REQUESTED VOIR DIRE
QUESTIONS (GENERAL)

1)

Before coming here today, have you heard or read
about anything this case?

2)

What stands out in your mind from everything you
have heard, read or seen about the Boston Marathon bombing and the events that followed it?1
[If juror has difficulty responding, prompt with:
Do you recall anything. . . . ]
a)

About how the bombings occurred?

b)

About the people who are supposed to have carried it out?

c)

About any of the bombing victims who died?

d)

About any of the victims who were hurt but survived?

e)

About the MIT police officer who was killed
several days later?

f)

About the defendant, Dzhokhar Tsarnaev?

g)

About any members of Mr. Tsarnaev’s family?
*

*

*

*

*

Skilling v. United States, 561 U.S. 358, 371 (2010) (noting that
jurors were asked on questionnaire “to report on ‘what st[ood] out
in [their] mind[s]’ of ‘all things [they] ha[d] seen, heard or read about
Enron.’ ”
1

490
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Thurs., Jan. 15, 2015
9:29 a.m.
JURY TRIAL—DAY FOUR

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

491
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[4-35]
* * * * *
MR. BRUCK: Again, we feel that—we had hoped
that since none of these questions were put into the
questionnaire despite our requests, that this would be
the time that we would find out what jurors bring into

492
the courtroom given the unprecedented level of publicity and the unprecedented level of direct talk, verbal
communication and direct experience of the marathon
bombing in this division of the Massachusetts—of the
District of Massachusetts. So we would—we really feel
that it’s impossible to assess the impartiality of a juror
like this without getting to what he has heard or read.
In addition, it’s—this is a juror who believes the defendant is—I’m sorry. This is a defendant [sic] who
says he’s unsure whether he’s guilty or not. That covers an awful lot of territory. We think our Number
11—our 10 and 11, which asks the juror to imagine that
he was on the jury and the government didn’t prove its
case and they acquitted Mr. Tsarnaev and he went
home, and then the juror is asked to [4-36] say, Well,
how do you think people would react, how would you react, how would you feel about that prospect, that gets at
whether or not jurors can put it aside; not the verbal formulation of whether they could listen to the evidence
and come to their own conclusion.
But this is reality, and there may be jurors who say,
If the government didn’t prove their case, sure, I could
do that. But there are going to be a lot of jurors who
will say, Well, we all know he’s guilty and people would
be furious and there would be an uproar. But if we
don’t ask the question, we’ll never know.
So we think that these questions are really quite critical. In effect, we’re asking can these jurors really presume this man innocent or is it a situation where everybody knows he’s guilty and let’s get on to the penalty
phase, but, sure, I could listen to the evidence and, you
know, make it look like I was a regular juror.

493
*

*

*

*

*

*

*

*

*

*

[4-38]
MR. MELLIN:
that?
THE COURT:

Your Honor, may I respond to
Go ahead.

[4-39]
MR. MELLIN: As to the issue about the pretrial
publicity, I think the Court has been able to determine
and assess the credibility of witnesses based on their answers concerning that. If there was some concern that
the Court had about their truthfulness about whether or
not something they read or saw before they came into
Court today, the Court would be able to follow up on
that.
Up to this point these jurors have been very clear
about the fact that they are not affected by what they
have read or seen prior to coming into court. So I don’t
think there’s any need for what Mr. Bruck is asking for,
which would be to ask each of these jurors exactly what
article did you read or which news story did you see on
television. I think that’s completely unnecessary. I
think in a case-by-case basis based on the answers that
a juror gives, I’m sure the Court will ask some follow-up
questions, but I think it’s unnecessary at this time.
*

*

*

*

*

*

*

*

*

*

[4-41]

494
THE COURT: As it goes for other matters, I make
the same observation about publicity questions. We
have detailed answers in the questionnaire concerning
what exposure to the media about this is. I don’t think
as a general matter we have to repeat all of that and
get—there are multiple concerns about that, one of
which is committing the witness, the juror witness, to
positions that he’ll feel he has said here and has to stick
with. And so digging for details from someone who
hasn’t prepared by spending time reflecting and recalling all of that will not likely yield reliable answers
and, again, it’s [4-42] a matter I covered in the questionnaire.
*

*

*

*

*

495
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 16, 2015
9:24 a.m.
JURY TRIAL—DAY FIVE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and FEDERAL PUBLIC DEFENDER OFFICE

By:

MIRIAM CONRAD and WILLIAM FICK, Federal
Public Defenders

496
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC
By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[5-9]
MR. BRUCK: If I could finish with our request,
what we have done here, your Honor, is to boil down the
earlier series of requests. We’re not withdrawing any
of the ones that we made in writing in our prior filing,
which were three sets of requests: one on publicity,
one on Morgan, and one on Witherspoon. But I have
combined them for efficiency sake into a single followup request. I’d like to say a couple of things about
some of the other ones that Miss Conrad didn’t refer to.
The first one, as we noted, What stands out in your
mind?, is the question that was included in the Skilling
transcript at the defense request, and the Court cites
that with approval. That question was excluded from

497
the questionnaire when we asked for it or any similar
question about content. And the Court at that time—
it told us that that would be covered in the oral voir dire.
So we think it’s—to ask this Skilling question is, to say
the least, appropriate.
And then we’ve suggested some prompts for jurors
who say, Well, just what I read in the papers, or Nothing
particular. Got to say that the investigation that we’ve
done [5-10] tells us that jurors know an extraordinary
amount of detail. They know things about the welfare
history of this family. It’s constantly being talked
about on talk radio. They know things—derogative information, much of it false, about the defendant’s sisters. And that is the staple of talk radio. But if there
isn’t a question posed, these people will be on the jury,
and none of us will be any the wiser. We really—if ever
there was a case where some modest amounts of content
inquiry is necessary, this is the case.
*

*

*

*

*

[5-14]
MR. WEINREB: Your Honor, if I might, I’ll respond in reverse order. With respect to that last request, the government agrees that a searching and
probing voir dire of the jurors is appropriate in this case,
but we also believe that that is the process that has
taken place. And the parties jointly negotiated over a
100-plus-question questionnaire, were given an opportunity to review those, ask for follow-up on specific questions. The Court has asked follow-up on many of the
questions, asked follow-up on questions of his own. It
[5-15] will always be the case that one more question

498
could be asked or a hundred more questions could be
asked if you had more and more information.
The whole point of that process was to try and come
up with an approach that satisfied the objectives and the
needs of voir dire without making the process unduly
cumbersome, lengthy, and perhaps even counterproductive from having to drag on too long. We don’t
believe that there’s any need for these additional specific questions. * * *
*

*

*

*

*

[5-18]
THE COURT: Let me—I don’t want to prolong
this by again going through each of the questions and
addressing it. I understand the arguments, and I think
you will—I think largely we—particularly as we got going and got further experience with the jurors, we did
most of this satisfactorily yesterday. I expect I might
make some modest amendments, and so you’ll—I understand your positions. You’ll see what they are as they
come up.
In other words, one of the difficulties here is being
too tied to a script. Every juror is different. Every
juror has to be sort of questioned in a way that is appropriate to the juror’s questionnaire answers and then to
the preceding voir dire answers and so on. So to try to
stick with a repeatable formula is—can be counter-productive actually rather than helpful. So I understand
the points.
*

*

*

*

*

499
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Jan. 21, 2015
9:21 a.m.
JURY TRIAL—DAY SEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

500
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[7-16]

First, we would ask that the Court explore the facts
before instructing the juror; that is to say, to find out
what the juror thinks, what the juror knows, what the
juror has heard, the basis of the juror’s opinions, if they

501
have any, before telling the juror what the law is and
their obligation, if they can, to put those opinions aside.
We think that it’s important to understand the underlying facts behind the juror’s opinion in order to assess
[7-17] its strength, and that’s why we’re asking that it be
done in that order. The particular questions that
probe for the facts are listed on the second page of our
request.
We appreciate the latitude the Court has given us,
and to the extent the Court does not itself ask these
questions, we would—we will seek to ask them ourselves, but we think it’s better for the Court on the initial
round to ask probing questions of the jurors because the
Court has greater authority and greater prestige with
each juror, and we just think we’re going to get better
results if that is done.
*

*

*

*

*

*

*

*

*

*

[7-19]
MR. WEINREB: Your Honor, as a general matter
the government objects to these requests. And I say
“as a general matter” because I think if the Court were
to determine in a particular case that asking one or more
of these questions made sense, we wouldn’t necessarily
object to it. But as a general matter, asking jurors the
basis of their opinions I would suggest starts off voir
dire in the wrong direction. It gives the jury—it would
suggest to the jurors that all the things that they have
heard and seen in the press and the things that [7-20]
they have—the opinions they formed based on that is

502
the important thing in this case, the important thing going forward, when they’re not. The important thing is
the jurors’ ability to put aside what they have heard and
what they might believe based on what happened outside the courtroom and decide the case based on the evidence inside the courtroom.
And I think that that same consideration counsels
against asking in detail how you first heard about it, how
did the news make you feel and so on. It suggests—it
will suggest to the jurors that all of those things are the
essential considerations for them when, in fact, they are
not.
*

*

*

*

*

*

*

*

*

*

[7-22]
THE COURT: Okay. I have your requests in
mind. I think by and large the manner in which we’ve
conducted the voir dire has been successful, and I don’t
think I intend to make [7-23] major changes in it. We’ve
had the discussion about how to ask the questions about
Question 77. I agree with the government with respect
to that, that detailed questioning about what the juror
thinks he or she knows about the events and the sources
places the wrong emphasis for the juror. Many, obviously, have views about this because of the extensive
publicity. That’s far from limited to the local community. And to emphasize them, I think, misdirects things
a little bit.
It’s been my experience over the years that jurors
take their responsibilities very seriously, including particularly the obligation to hold the government to its

503
proof. I think reminding them of that is not—and getting their reaction to that task that they will have, knowing what they know, I think is a way of determining
whether the juror is prepared to undertake the service
that we might ask of him or her.
Jurors tell me from time to time that they can’t do
that, so it’s not an automatic answer, and it’s one, of
course, that we make observations of the juror as well
when he or she is answering that question and can form
some judgments about whether that’s a rogue answer or
a sincere one and a commitment to look forward to the
presentation of evidence rather than look backward to
the exposure to the events.
So in general I’m satisfied with the course we’ve been
following and, again, subject to adjustment as necessary
for [7-24] each witness—sometimes we do have to get
more specific because of what the juror says. But generally, I think as I say, I’m satisfied with the method
we’ve been using.
*

*

*

*

*

504
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Jan. 20, 2015
8:37 a.m.
JURY TRIAL—DAY SIX

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

505
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[6-38]

MS. CLARKE: On Question 73, that asks about
how much media coverage you had followed and you
marked “a lot.” Can you tell us what you remember—

506
what stands out most in your [6-39] mind about what you
read or heard?
THE JUROR: Probably the boat incident, when it
was covered by world news—
MS. CLARKE:
about that?
THE JUROR:
ation.
MS. CLARKE:
THE JUROR:
MS. CLARKE:
THE JUROR:

Can you tell us what you remember
—live.

Just kind of the chase situ-

Where were you that night?
Home watching television.
Very far away?
Somerset, Massachusetts.

MS. CLARKE: Okay. Anything else come to
mind, stand out in your mind?
THE JUROR: You know, just the scenes. Obviously, I work in healthcare, so I think every hospital
learned or became more aware of emergent needs in situations like that. So, yeah, as part of my work, I think
I became more aware as well.
MS. CLARKE: Okay. Did you have anything to
do with any healthcare for people that were involved?
THE JUROR:

No, no, no.
*

*

*

*

*

*

*

*

*

*

[6-93]

507
MR. BRUCK: The judge asked you about Mass.
General’s role in treating wounded. Do you recall anything else out of the ordinary that involved Mass. General in the week of the immediate aftermath of the
bombing? I guess I should be clearer. You said you
read a moderate amount—you checked the box—about
this in the news media.
THE JUROR:

At the time, you mean?

MR. BRUCK:

At the time, right.

What does that mean? Can you tell us what stands
out about what you saw or read about the marathon?
THE JUROR: I know I was watching the news during that time. As far as what I saw or—I don’t recall
reading anything because I don't really read newspapers.
MR. BRUCK:
THE JUROR:
was—

Okay.
I don’t know.

Just really what

MR. BRUCK:

As far as Mass. General.

THE JUROR:

Oh, as far as Mass. General?

[6-94]
MR. BRUCK: I mean, that’s just as an example.
Do you remember hearing anything—
THE JUROR: The only thing I remember hearing
about Mass. General was that it seemed like—I remember that either there were people being brought to
Mass. General or thought to be brought to Mass. General, but I’m not even sure—I’m not even sure, like, who
that was.

508
MR. BRUCK: Do you remember that the President
of the United States visited Mass. General?
THE JUROR:
MR. BRUCK:
call?

I did not remember that.
That was not something that you re-

THE JUROR: No. Now that you’re saying it, I
vaguely, maybe, remember that, but I did not remember
it.
MR. BRUCK: Okay. And you didn’t recognize
the names of any doctors from Mass. General on the witness list?
THE JUROR:
tors there.

No, I did not.

MR. BRUCK:

I understand.
*

*

*

*

We have a lot of doc-

*

509
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Thurs., Jan. 22, 2015
9:12 a.m.
JURY TRIAL—DAY EIGHT

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

510
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[8-81]

MS. CONRAD: Good morning. My name is Miriam Conrad. I’m one of Mr. Tsarnaev’s lawyers.
I think you said something about the media was
thrown in your face. What sticks out in your mind

511
about what you heard, read about this case or about the
events?
THE JUROR: The day it occurred there was no
school, obviously. It’s a holiday. And my son and I
went to lunch that afternoon. And I didn’t really pay
attention to what happened at that time.
I think it was later on during the week when some
[8-82] other incidents had happened where I followed a
little bit more, not so much on the—Boston itself but out
of Boston, the Watertown. That’s when everything
just started coming together.
So I think I focused more on that, the whole Watertown incident. But other than that . . .
MS. CONRAD:

And how old is your son?

THE JUROR: He will be 15 in March.
freshman in high school.

He’s a

MS. CONRAD: But about—you said that you focused more on the Watertown?
THE JUROR: I think just because it was—at the
time it happened, nobody really knew what was going
on, and then later on as the week went on, just so
much—just the constant—just constant media.
MS. CONRAD: And were there any particular
facts that stand out in your mind as you sit here today?
THE JUROR:

Not necessarily, no.

MS. CONRAD: Well, you said that based on what
you’ve read and heard you’ve formed an opinion that Mr.
Tsarnaev is guilty. So what were the facts that you
read or heard that caused you to form that opinion?

512
THE JUROR:
capture.

The capture of him.

MS. CONRAD:
that—

The day of the

Anything in particular about

[8-83]
THE JUROR:
MS. CONRAD:

Sure.
—that stands out?

THE JUROR: Hiding in the boat. I think that’s
the biggest thing that sticks in my mind, is the whole
town being closed down and looking for the individual.
MS. CONRAD:
that?
THE JUROR:

Were you personally affected by
No.
*

No.
*

*

*

*

513
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 23, 2015
9:26 a.m.
JURY TRIAL—DAY NINE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB and ALOKE CHAKRAVARTY,
Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

514
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[9-31]

MS. CLARKE:
Monday?

Where were you on that marathon

515
THE JUROR: I was at work. I was right at the
end of my day. We leave work at three, so we’re usually back a little before—like 2:40 or so—watching TV.
MS. CLARKE:
fold on TV?
THE JUROR:

And did you watch the events unYeah.

Yes.

MS. CLARKE: And the 19th of April, the last day
of the week when Mr. Tsarnaev was arrested, where
were you then?
THE JUROR: We were still working. I think I
was—I think I worked every day that week. I’m trying
to remember.
MS. CLARKE: Let me ask this:
the events on TV or radio?

Did you follow

THE JUROR: Not really a lot. I mean, here and
there I would catch bits and pieces of it, but it was
mostly watching for the weather-wise.
*

*

*

*

*

516
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., Jan. 26, 2015
9:31 a.m.
JURY TRIAL—DAY TEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

ALOKE CHAKRAVARTY and NADINE PELLEGRINI,
Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

517
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[10-155]

MS. CONRAD:

Interesting.

You said you had obviously, as most people have
been, been exposed to news reports and media reports

518
about the Boston Marathon bombing. Can you tell us
what sticks out in your mind about what you have seen,
heard, read?
[10-156]
THE JUROR: After it happened what sticks out in
my mind that I read?
MS. CONRAD: Yeah. Just everything you’ve
been exposed to. What are the main things?
THE JUROR: Just about how many people did get
injured, and, you know, how people were in shock, and
the horrificness [sic] of it.
*

*

*

*

*

[10-173]
MS. CLARKE: Can you tell us what stands out in
your mind as to what you saw or heard in the media?
THE JUROR: When it first happened, it was basically all over the news. And in the beginning actually I
—what I saw was—the thing was the whole, the beginning of everything, of what took place. After that, it
fade out. That was it. Is not something I like go on
Internet or something to follow up or something like
that. If it’s on the news, maybe I might work and start
playing on the television or something, and people talking about it. That’s basically all I learned about it.
MS. CLARKE: And did anything stand out in your
mind that you heard or learned about?
THE JUROR:

Not really.
*

*

*

*

*

519
[10-174]
MS. CLARKE: One last question, I think, about
the [10-175] news coverage. Do you remember anything about the news coverage that you saw?
THE JUROR:
MS. CLARKE:

Yes.
What?

THE JUROR: I remember the guy—I remember
this old guy that was Jack Ryan, and when he—the explosion went off, and he fell. Yes. I remember that.
MS. CLARKE: Were you watching the television
as it occurred, or was this playbacks?
THE JUROR:

No, this is playback.

MS. CLARKE: Where were you on the 15th of
April, 2013, the day of the marathon?
THE JUROR: April 15? I’m not sure. I’m not
sure. Probably sleeping, because I work nights, so I
sleep during the day.
MS. CLARKE:
week, the 19th?
THE JUROR:
sure.

What about on the Friday of that
I’m not sure.

The 19th?

I’m not

MS. CLARKE: That Friday was when there was
the shelter-in-place order. Do you remember that?
THE JUROR:
MS. CLARKE:

Yes.
Does that help at all?

THE JUROR: I think I was either home—I’m not
sure, to be honest with you.
MS. CLARKE:

Okay.

Thank you very much.

520
*

*

*

*

*

521
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Thurs., Jan. 29, 2015
11:10 a.m.
JURY TRIAL—DAY ELEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

522
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[12-99]

MS. CONRAD: And I think you indicated that
you’d heard or read a lot about this case.
THE JUROR:

Yes.

523
MS. CONRAD:
read?

Can you tell us what you heard or

THE JUROR: I would say probably the—I don’t
know anybody personally involved in the case at all.
No one. When I looked at the list of names, I didn’t
know a single name. So to be honest, I’ve heard really
what the general public in this area has heard.
MS. CONRAD:

What?

THE JUROR: Anything that was on TV at the
time, you know. The day that basically Boston was
shut down, I was [12-100] working at a job in downtown
Boston that day, and I was one of the many people who
was inconvenienced in terms of transportation issues.
So really I’ve heard kind of what everybody else has, but
I recognize that sometimes the media can be inaccurate.
I can tell you that I recall hearing conflicting reports on
aspects of this case depending on what channel I was
watching.
This is going back to the time of the case.
MS. CONRAD:

Sure.

THE JUROR: And I remember feeling frustrated,
Well, those two things contradict each other. They
can’t both be right.
MS. CONRAD:
was the conflict?

Do you remember what it was that

MR. WEINREB:
THE COURT:

I object.

Yeah, sustained.

THE JUROR: So I remember feeling confused
about the media reports, but I think it’s safe to say that

524
I’ve heard just about the same thing that most people
living in this area have heard.
MS. CONRAD: Is there anything in particular that
stands out that you heard?
MR. WEINREB:
THE COURT:

I object.

You can answer that.

THE JUROR: I’m trying to think—different—
[125-101] can’t tell you with clear preciseness, but I remember hearing conflicting reports about what the
friends of the defendant heard at different times and
where they were at different times, and I just remember
not getting consistent reports from the media about
that. That does stand in my mind. And I remember
feeling aggravated at times and snapping the TV off and
saying, Enough of this already.
*

*

*

*

*

[12-131]
MS. CONRAD: Well, you did say in Question 74—
73, excuse me—that you had seen a moderate amount of
media coverage in this case.
THE JUROR: I seen it at work, which I’m in the
break room 10 to 15 minutes three times a day.
MS. CONRAD: Okay. I’m just asking you, sir.
I’m sorry. I’m just trying to find out what you’ve seen
about this case and how it might affect your thinking
about the case.
THE JUROR:

Okay.

MS. CONRAD: So can you tell me what you have
seen or read about this case?

525
MR. WEINREB:
THE COURT:
general terms.

Objection.
Well, no, go ahead.

You can—in

THE JUROR: Honestly, I don’t—it was, what, over
a year ago? So, I mean, I don’t live around here so I
[12-132] wouldn’t—I didn’t pay as much attention, probably, to people that live up here, but I know something
bad happened.
MS. CONRAD:
out in your mind?
THE JUROR:
days that it was.
MS. CONRAD:
ports on TV?

Okay.

Anything else that stands

No, just what was on TV for the few
So you did watch some of the re-

THE JUROR: In the break room at work, yeah.
The TVs are on. There’s three TVs.
MS. CONRAD: Sure.
news from the Internet?

And you also get some

THE JUROR: I don’t have anything listed on my
thing. I just get whatever comes up on my phone.
MS. CONRAD: Yeah. But, no, you said on 68
“What is your primary source of news?” you said the Internet.
THE JUROR:
MS. CONRAD:

That’s my phone.
I’m just asking you—

THE JUROR:
Maybe I wasn’t—I really don’t
watch the news, okay? Whatever comes up on my
phone—if I see something that’s posted, then I’ll read it.
That’s it. I’m not chasing after anything.

526
MS. CONRAD: Sir, I’m sorry. I didn’t mean to
suggest that you were. I’m just trying to find out what
you might have seen or heard about this case.
[12-133]
THE JUROR: Well, I said Fox at work too. On
71? Yeah, that’s where I’ve seen it, is Fox at work.
They have Fox at work in the break room.
MS. CONRAD:
bombing?

Were you at work on the day of the

THE JUROR: I honestly couldn’t tell you. I don’t
remember. What day was it on, what time? I work
second shift.
MS. CONRAD:
THE JUROR:
MS. CONRAD:
THE JUROR:

April 15, 2013.
What time?
About 2:30, 2:40 in the afternoon.
I would just be going to work.

MS. CONRAD: Okay. And you don’t remember
—do you not remember how you found out about the
bombings?
THE JUROR:
were on.

Probably at break while the TVs

MS. CONRAD: It wasn’t something that people
were talking about when you got to—
THE JUROR: I would just be going to work at
three o’clock. I’m not with a bunch of people.
*

*

*

*

*

527
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Feb. 6, 2015
10:19 a.m.
JURY TRIAL—DAY FIFTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

528
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[15-153]

MS. CONRAD: I appreciate your understanding of
the concepts of needing to be impartial, but part of what
we’re trying to do here is to find out what’s in your mind

529
and what’s in your heart. And let me ask you this:
Before you ever knew you might be a juror in this case,
did you have any opinion one way or another about
whether Mr. Tsarnaev was guilty?
THE JUROR:
MS. CONRAD:
TV?

No, I just know what I saw on TV.
Okay.

And what did you see on

THE JUROR:
Just the hunting down of—you
know, when they come up—him being in the boat, and
then you hear about the MIT officer and some other
shootout when his brother was killed.
MS. CONRAD: So when you saw that on TV, did
you draw from that that he was guilty?
THE JUROR:
was, you know.
MS. CONRAD:
THE JUROR:
MS. CONRAD:
THE JUROR:
MS. CONRAD:
body?
THE JUROR:

No, I just—I don’t know what he
Well, did you think it wasn’t true?
No.
Did you think it was true?
I didn’t know.
Did you ever discuss it with anyNope.

MS. CONRAD: And where were you on the day of
the [15-154] bombing? I’m sorry if the judge already
asked you that. I apologize.
THE JUROR:

I believe I was at work.

MS. CONRAD: And you said that EMC, the headquarters in Hopkinton, shuts down, right?

530
THE JUROR:

Yes.

MS. CONRAD:
too?

So your office doesn’t shut down

THE JUROR: No, I’m in manufacturing.
totally different building. I’m in Franklin.

I’m in a

MS. CONRAD:
Okay.
But I’m still asking
whether—because the headquarters shuts down, whether your office shuts down.
THE JUROR:

No.

MS. CONRAD: Do you remember when and how
you learned about the bombing?
THE JUROR: I think it was near the end of the
day, someone on their phone said that there was a—
excuse me—a bombing at the marathon.
MS. CONRAD:
footage that day?

And did you watch any of the TV

THE JUROR: Just when I’m going through and,
you know, the news came on with the quick blips and
stuff like that.
MS. CONRAD: So you don’t recall watching the TV
news that evening about—
THE JUROR: No.
watch the [15-155] news.
*

*

Like I said, I really don’t
*

*

*

531
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Feb. 11, 2015
10:26 a.m.
JURY TRIAL—DAY SIXTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

532
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[16-52]

MS. CLARKE: Okay. You mentioned—let me
see if I can find it—on page 19, Question 70, up at the
top of page 19—
THE JUROR:

Yeah.

533
MS. CLARKE: —that you listen to the Howie Carr
Show two or three times a week?
THE JUROR:

Yeah.

MS. CLARKE: Have there been any presentations
on that show about this case or about the Tsarnaev family?
THE JUROR: No, no. He’s just—not that I know
of. I read the Herald, you know, like his show. Not
that I know of.
MS. CLARKE: And have you heard him talk about
or read anything that he’s written about the Tsarnaev
family?
THE JUROR:
MS. CLARKE:
THE JUROR:
MS. CLARKE:
THE JUROR:
family?
MS. CLARKE:

Yes.
And what is that?
What I’ve read about his family?
Yes.
Or what Howie’s talked about his
Yes.

THE JUROR: I think he’s mentioned his parents’
background and stuff.
MS. CLARKE: Can you tell us what you remember
about [16-53] that?
THE JUROR: I know something that he said his
mother went back to—or got caught shoplifting or something at the mall, or one of the family members. So
that’s what I remember.
MS. CLARKE:

Does that influence you in any way?

534
THE JUROR:
MS. CLARKE:
heard that?
THE JUROR:

No, not really.
What was your reaction when you
More comical.

MS. CLARKE: More comical?
what the Howie Carr Show—

Is that sort of

THE JUROR: Yeah, absolutely.
Boston, you know Howie Carr.

If you’re from

MS. CLARKE:
THE JUROR:

You know Howie Carr?
Absolutely.

MS. CLARKE: Even if you’re not from Boston I
think you know Howie Carr.
THE JUROR:

Okay.
*

*

*

*

*

535
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Nov. 12, 2013
10:02 a.m.
STATUS CONFERENCE AND MOTION HEARING

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
FEDERAL PUBLIC DEFENDER OFFICE

By:

MIRIAM CONRAD, ESQ., TIMOTHY G. WATKINS,
ESQ. and WILLIAM W. FICK, ESQ., Federal Public
Defenders
51 Sleeper Street

536
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC
By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[40]

The government has not responded to our request for
any communications among government agents, prosecutors, government officials in general, and communications with the Court regarding Mr. Tsarnaev’s request
—repeated request both orally and in writing—for a
lawyer.
With respect to the government’s—our request for
information about the Waltham murders and Mr.—and
Tamerlan Tsarnaev’s alleged involvement in that, the
government simply says it’s an ongoing investigation.
Well, that is a qualified privilege, and under the local
rules the government’s declination does not carry the
day. The Court has an obligation, including in camera
inspection, if necessary, to determine whether or not
that information should be disclosed.
With respect to the A files and Rule 16, the government’s reliance on United States versus Armstrong,

537
frankly, is misplaced because in that case the information that was sought was information that was relevant to a pretrial motion to dismiss based on selective
prosecution. What we’re seeking here is information,
documentary information, that the [41] government has
within its possession that we have been denied, even
with releases from the individual—signed releases from
the individuals concerned, that would assist us in our development of mitigation.
And it seems to me this is precisely the type of area
where the Court’s supervisory authority comes into
play. There is absolutely no reason why this information shouldn’t be provided to us, especially under the existing protective order. It would make our work easier. It would be—add to our efficiency in trying to do
this. And the government, on the one hand, seems to
want to be pushing for an early trial date, and at the
same time is withholding information that could give us
the ability to move forward more quickly.
Going back, if I might, for one moment to the issue of
both surveillance before April 15th and interceptions
and tips provided by Russian authorities, the government says this is premature. As I mentioned, it doesn’t
say when it intends to either disclose this or tell us it has
such information. The Classified Information Procedures Act, Section 2, permits any party to request a pretrial conference to address the existence of such information. So it’s within the Court’s authority to schedule
such a conference and to address this.
Your Honor, with respect to the Court’s comment
that your Honor does not see what we’re requesting as
Brady, I’m frankly somewhat at a loss. I mean, it
seems to me we’ve [42] identified particular areas.

538
And crucial among those areas are issues regarding the
family—Mr. Tsarnaev’s family—issues regarding the
relative roles of Tamerlan and Dzhokhar Tsarnaev in
the bombings. And it seems to me that those are precisely the core types of issues that go to mitigation and
are—and the government’s—
I’m not sure if your Honor is saying that your Honor
feels that the disclosures so far are adequate or that
those are not issues that go to mitigation. And it would
be helpful if your Honor could expand on that.
THE COURT: Your better argument, in my view,
is under Rule 16 than under the Brady doctrine, which
I view as, I guess, more specific and limited than perhaps you do.
MS. CONRAD:

Well—

THE COURT: Brady is essentially a remedy for
what we might call knowing suppression of identified information that is recognizable to the government as exculpatory in the various categories. It is not a general
materiality standard as might be more generously available to you under Rule 16.
MS. CONRAD: Well, I understand your Honor’s
point, but the government, nevertheless, has an obligation under Brady as it’s broadly used. And as we have
discussed in some of the cases, they addressed—and
we’ve discussed the government’s opposition in which
the government talks about materiality.
Materiality is the postconviction standard. And
Brady [43] does impose an obligation, but it also imposes
a remedy. The remedy comes into play when the government has failed to disclose or has suppressed material exculpatory or mitigating evidence.

539
But the fact that we are in the pretrial stage, I would
submit, expands rather than contracts the scope of the
government’s obligation. And that’s something that’s
recognized in the U.S. Attorney’s manual. We cited
the case United States versus Safavian that talks about
the fact that in addressing pretrial disclosure in the pretrial standpoint, the government should—that the withholding of evidence should not be viewed with the benefit of hindsight after trial.
It is true that Rule 16 requires disclosure of material
documents and objects, and we believe that that requires the government as well to provide this. But
Rule 16, the government notes, also talks about evidence
relating to the case-in-chief.
Now, we think that is too narrow a view of the Armstrong case. But I think materiality is clearly not the
standard under Brady in the pretrial posture in which
we currently find ourselves.
And it seems to me that some of the cases we cited,
including the Karake case, the Delatorre case, the Perez
case, the Ablett case, all of those are cases in which the
government was ordered to provide mitigating evidence
in a capital case [44] before notice was filed.
May I just have one—
And I think McVeigh addresses this as well. It talks
about the government’s burden under Brady which includes information that is helpful to the defense both
with respect to punishment and guilt or innocence.
So, your Honor, I would submit that the government
has not complied, and, frankly, the whole tenor of the
government’s opposition, especially this line about virtually all mitigating evidence, is, you know, We’ll give it

540
to you if we feel like it, when we feel like it. And your
Honor has the authority to order full disclosure at this
juncture so that we can make effective, and I would
stress efficient, use of that information in our development and investigation of this case.
THE COURT:

All right.

Mr. Weinreb?

MR. WEINREB: Your Honor, I think it is a completely untrue and unfair characterization of the government’s motion or of its position in this case of how we’ve
conducted discovery to say that our view has been, We
will give you what we want, when we want. On the contrary.
As the Court itself acknowledged in the beginning, as
we all have to acknowledge, because it’s written in ink in
the local rules, there is no requirement that mitigation
evidence be produced at any particular time, under Rule
16 or under the local rules. And under the Constitution, it seems clear that [45] Brady—to the extent mitigation evidence rises to the level of Brady, it need only
be produced in time for it to be used.
Notwithstanding that, the government has produced
virtually all the mitigation evidence in its possession already; in other words, we have voluntarily stepped up,
combed through our files carefully to look for both evidence identified by the defense as mitigating and evidence that in our own judgment could be mitigating, and
we have given it to the defense early so that they could
make the greatest use of it.
We have not withheld any favorable material information from them and we do not intend to. We have
not tacked close to the wind, in a phrase that’s favored

541
by the defense and from Kyles v. Whitley; on the contrary, we’re erred on the side of caution and we have
produced everything that we believe corresponds to
genuine categories of—or falls within genuine categories of favorable material evidence that they could use
either at trial or in sentencing. In some cases we’ve
given over entire reports. In virtually all cases, we’ve
just given them all the reports even though those reports contain much—much of what’s in those reports,
under no conceivable standard, could be considered
Brady or mitigating.
In some cases we’ve provided complete and accurate
summaries of what the witnesses have said that either
corresponded to categories identified by the defense as
[46] mitigation theories or that we have judged are potentially mitigating. To characterize them as tweets
sounds like a statement being made for the benefit of the
press, not an argument to the Court.
Obviously, these are not meant to be—maybe I
shouldn’t say “obviously”—it’s obvious to us; I hope it’s
obvious to the Court—but these are not meant to be
bare minimum statements, but rather, complete, accurate, total summaries of all the information that bears
on the categories that were identified.
What the government has not produced is unfavorable information, information that we believe we could
use against the defense, either at trial or in sentencing,
or that we might use to impeach defense witnesses.
That is our right under the adversary system.
In asking for access to our files, the defendant is not
asserting a right that exists under Brady, under Rule
16, under the local rules or under any other law. They

542
admit in their motion that they don’t even know their
mitigation theories yet.
If you look at page 6 of the defense reply brief they
write, “At this stage the defense does not have fixed mitigation theories; instead, various hypotheses under our
investigation in the alternative are not necessarily consistent with each other”—that’s what they characterize
as their [47] Brady—”and therefore,” they go on to say,
“the attempt to characterize facts as either favorable or
unfavorable is a futile attempt.” It can’t be done.
Essentially what the defense is trying to do here is
obliterate the distinction between favorable and unfavorable evidence and say, Since every single nugget of
information in your files is potentially favorable to us,
you should open it up to us and let us go on a fishing
expedition looking for things that we might turn to our
advantage.
That obviously is not the law. It’s certainly not the
law under the Constitution, it’s not the law under Rule
16—under any reading of the Rule 16—the local rules,
and it’s not compatible with the adversary system. To
the extent that there is overlap evidence, evidence that
could be used both at trial and at sentencing, we have
produced it. So that is a nonissue.
As for our asserting, with respect to some specific requests of the defense, that the requests are premature,
the purpose of that is, first of all, to raise the general
objection that it’s all premature, because we believe that
as a purely legal matter it is all premature. No legal
right to any mitigation evidence has yet attached. The
only legal right to mitigation evidence, as I said earlier,
exists under the Constitution, and it’s clear under Brady

543
that the standard is that it be produced in time for them
to make use of it.
[48]
In this case we not only don’t have a trial date, but
the defense is urging the Court not to set a trial date for
months hence. To say that at this point the legal right
to all mitigation evidence has attached would be novel
under the case law, I believe. Instead, we have asserted that defense simply to make the point that we are
producing what we are producing voluntarily, and that
in a very few narrow cases, we are essentially still working on certain matters.
And let me turn to the specific requests so that I can
address those specifically. Essentially, with respect to
Requests 5, 7 and 8, the government’s position is not
that we have material responsive to those requests and
that we are refusing to produce it; our response is that
to the extent that there is material responsive to those
requests, we will either produce it or we will file an appropriate pleading with the Court. But at this point a
motion to compel is premature because there’s no legal
obligation on our part to produce that information at this
time.
With respect to Request 9, which is the information
about the Waltham homicide, that’s a different matter.
That is a matter that is still actively under investigation
by the Middlesex District Attorney’s Office. For that
reason, we have tacked closer to the wind when it comes
to information with respect to that investigation. Obviously, as is the case with any criminal investigation,

544
revealing the details of it while [49] it’s still under investigation would have a tendency to jeopardize it, to undermine it.
If there were, in fact, a legal right for the defense to
have that information at this point, formal compliance
with the requirements of the local rules and so on might
be required, but that’s simply not the case at this point.
The defense cannot articulate a reason why they need
all the information relating to that investigation at this
point. They may never be able to articulate that kind
of argument. But even if they could come up with any
kind of argument on that score, they can’t possibly show
that with respect to that narrow issue they need it now.
The defense spent a great deal of time earlier today
talking about how they’re so overwhelmed with discovery that it’s going to take them months and months and
months to go through it, and even more time because
they have to write motions simultaneously. For them
to say that despite all of that they need the information
that falls into these very narrow categories immediately
is disingenuous. It is certainly not based in any legal
right.
Given what the Court said, let me just address one
other thing. With respect to in camera review, the government has nothing to hide. We have complied with
our obligations. We have no objection to allowing the
Court to review anything that’s in our possession to assure compliance with our legal [50] obligations, if that’s
what the Court desires. We do not, however, think the
defense has a legal right to demand that that be the case.
They’re not entitled to second-guess the government’s
judgment of whether it has complied with its obligations

545
under Brady. That, under the law, is committed to the
government in the first instance.
We have complied with our obligations. And although it is the case that the government sometimes, in
cases where it feels uncertain about whether something
is Brady, asks the Court to review it in camera and render essentially an advisory legal opinion on it, we are not
doing so in this case because we’re confident that we
have fulfilled our obligations by going above and beyond
what the law requires in this area.
The defense also said at some point that the Court
under its supervisory authority could order that things
be produced, such as the A files of people remotely connected to the defendant: friends of his, you know, relatives, cousins, nieces, nephews. The government objects to that. There is no right. The Court cannot,
under its supervisory authority, simply create new rules
of discovery that the defense can then come in and ask
it to compel.
Congress, in writing Rule 16, the court in drafting the
local rules, and the Supreme Court in interpreting the
Constitution, have created and articulated what the
rights to discovery are for the defense, and there’s no
legal basis for [51] the Court to simply draft new ones
because it suits the defense, or they claim it would save
them work or allow them to substitute our investigation
for theirs.
And that’s really what this boils down to, your Honor,
from the government’s point of view. We are not in any
way attempting to inhibit the defense from conducting a
thorough investigation of this case. We acknowledged
when the indictment was filed, yes, 17 of the charges

546
carry a potential death penalty. Obviously, it was a potential death penalty case from the start. We did not
object to the defense having learned counsel, counsel
learned in the death penalty appointed days after the
defendant had his initial appearance, indeed, which was
months before the indictment was even filed.
The defense has been thoroughly investigating the
case since then, including any mitigation case. The
government has been investigating its case. Under the
adversary system, they don’t have to open their files to
us and we don’t have to open our files to them. To the
extent that fairness requires that we produce certain information to them, we’ve produced it. But we also have
an obligation to zealously represent the United States in
this case, and to that extent, it’s our duty to assert our
rights to keep in our own files information that are the
fruits of our investigation that we can use down the road
in the event that there is a trial and a sentencing phase
in this case.
[52]
And that is all we are seeking to do in this case.
MS. CONRAD:
your Honor?
THE COURT:

May I just respond very briefly,
Go ahead.

MS. CONRAD: First of all, I’m going to start with
the—down in the weeds and hopefully work my way up
a little bit.
On this business about the A files, let’s be clear about
what we’re talking about here. Mr. Weinreb talks
about, you know, peripheral people. We’re talking
about the defendant’s nuclear family. We’ve asked for

547
other individuals; it is true. We have asked immigration for the A files. We have provided signed release
forms. We have been refused. We are now probably
going to have to embark on FOIA litigation to get those
files, which the government could get with a phone call
and provide to us.
Now, if the Court wants to see CJA counsel and CJApaid investigators spend their time on FOIA litigation
to obtain something that we submit these individuals
have a legal right to, that the government could provide
to us at will, it seems to me that that is a very poor use
of judicial resources, especially in this difficult budget
time. And I think it falls squarely within Rule 16(a)(1)(E).
It is not a new rule. It’s been there for a very long
time, although it used to be called 16(a)(1)(C), but it still
said the same thing, which is [53] documents material to
the preparation of the defense. And Armstrong doesn’t
cover it, and the government could provide it and has
not offered a single reason why it won’t.
And it seems to me that this is illustrative of the government’s position throughout this matter. The government keeps saying it doesn’t have to provide this information now, but that is because the government is of
the—has taken an extremely narrow view of 16(a)(1)(E),
and the government also takes a view that is contrary to
the decisions in Perez, Karake and so forth, Delatorre,
that once there’s a capital indictment, we are entitled to
mitigation evidence. We are entitled to helpful evidence.
For the government to say, They have their investigators, we have ours, frankly, is ridiculous. Yes, we
have investigators. We do not have a network of hundreds, maybe thousands, of law enforcement, FBI agents

548
all over the world who are working on this case. As
your Honor well knows, we have a small group of people
who are doing our best with a large amount of information, much of which does not relate to mitigation.
In addition, we do not have a grand jury. I’m not
saying we should have one. But frankly, this is not a
level playing field. We do not have the power to subpoena witnesses and hold them in contempt if they fail
to appear or refuse to testify.
[54]
So the government has all these resources and the
government also has, as a result, a proportional obligation to at least level the playing field a little bit. And
to say that the Court can’t second-guess but has to take
their representation at face value that they have provided everything that they’re required to, when it is
based on a cribbed reading of their obligation, an erroneous view of the timing obligation and an erroneous
view of 16(a)(1(E), it seems to me is just plain wrong.
And for them to say, We’ve given you virtually all of
the discovery evidence, doesn’t cut it. We are entitled
to all of it. And the Court is entitled to order the government to provide information in an orderly and efficient manner, especially if the government is eager for
a trial date as soon as possible. Thank you.
THE COURT:
advisement.

Okay.

I’ll take the matters under

And I think, unless there’s something else that we haven’t touched on—
MR. WEINREB:

Nothing for the government.

549
MR. CHAKRAVARTY: I’m sorry, your Honor.
Just excludable delay, your Honor.
MS. CONRAD: Oh, I’m sorry.
more thing? I apologize.

May I just say one

On the Waltham murder issue, as to that, I would [55]
stress that under the relevant cases the Court does
have—well, first of all, the government under 116.6 under the local rules bears the burden in showing why that
shouldn’t be disclosed. And the law enforcement privilege is a qualified privilege as explored in the In Re
Homeland Security case that we cited in our papers.
So if the government is going to continue to withhold
that evidence, we do urge the Court, at a minimum, to
look at that material in camera.
MR. WEINREB: Your Honor, we would ask that if
we are going to wait to set additional dates in the future,
that the defense agree to an order of excludable delay
and that the Court enter the order notwithstanding—
THE COURT: Until February 12th, which is our
next status conference?
MR. WEINREB:
MS. CLARKE:

Yes, your Honor.
No problem, your Honor.

THE COURT: I think it’s palpably appropriate under the statute, and I’ll so order. All right. We’ll be
in recess. Thank you.
THE CLERK:

All rise for the Court.

The Court will be in recess.

550
(The Court exits the courtroom and the proceedings
adjourned at 11:31 a.m.)
*

*

*

*

*

551
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Nov. 12, 2014
10:03 a.m.
STATUS CONFERENCE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

552
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

WILLIAM W. FICK, ESQ. and TIMOTHY G. WATKINS, E SQ.
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[12]

We have no other such reports. If any are produced, we will provide them to the defense when they
are produced.
MR. FICK:

If I might very briefly, your Honor?

THE COURT:

Go ahead.

MR. FICK: On the Waltham issue, first the government suggested that Middlesex is not part of the prosecution team. And that strikes me as an extraordinarily

553
artificial and erroneous distinction given the way events
in all of this transpired.
The investigation of Waltham involving Mr. Tsarnaev
that led to all of this sort of hubbub began with the marathon bombings. A joint team of Massachusetts state
troopers and FBI agents, according to the Florida Attorney General’s report, went down and interviewed Mr.
Todashev when the supposed confession was made and
when Mr. Todashev was killed. So we have joint federal and state involvement at that point from inception.
We also have in this case a second search warrant for
Tamerlan Tsarnaev’s Honda CR-V that we cited—a federal [13] search warrant, approved in federal court, submitted by federal agents, that we cited chapter and
verse the supposed probable cause they had to believe
Tamerlan Tsarnaev might have been involved in the
Waltham murders.
So from the very beginning the investigation of Waltham has been a joint federal-state enterprise that
flowed out of the marathon bombing investigation.
And so for the government to suggest now that they’re
taking a see-no-evil, hear-no-evil approach, “We don’t
want to know what Middlesex knows anymore,” I would
suggest is an artificial attempt to evade its discovery obligations that are clearly set forth in all of the case law.
The second thing that the government argues is that
it would not be relevant. And here I think there likely
will be litigation around a potential sentencing phase,
but for the government to say the only thing that matters is the relative culpability of two individuals within
the four corners of what is charged in this case clearly

554
can’t stand up for the case law which says that any potential sentencing phase in terms of mitigation and aggravation, all kinds of factors, both aggravating and mitigating about participants in the crime, can be taken into
consideration. So to suggest that Waltham can’t be
part of that I think is simply not supported in the law.
*

*

*

*

*

555
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Thurs., Apr. 9, 2015
9:37 a.m.
STATUS CONFERENCE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

556
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD and WILLIAM W. FICK, Federal
Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[16]
MR. BRUCK: In connection with that, I think I
should apprise the Court, first, that we would like to file
something responsive to the Waltham motion the government has filed. We had earlier advised that we did

557
not intend to go into that at the guilt phase, and of
course we didn’t attempt to. We do intend to raise it, if
we’re permitted to do so, at the penalty phase; and, in
fact, plan to submit a Touhy request for an FBI agent
with knowledge of the confession of the decedent who
implicated Tamerlan Tsarnaev.
That there is further motions in limine that the government has with respect to other bad acts of Tamerlan
Tsarnaev is news to us. We think that probably this is
going to have to be—we would like written notice of
what it is and—so that we can respond to it. Right off
the cuff, it is so obvious that the relationship between
the older brother and the youngest child in the family is
so critical to this story and the question of who Tamerlan
Tsarnaev was. His manner of interacting with the
world, his violence, his aggressiveness are all parts of
the penalty-phase story of the likely relationship between our client and his oldest brother.
There is also testimony the Court has not yet heard
concerning the cultural background to this issue, the
special dominance of the oldest brother in a Chechen
family that is unfamiliar, and we plan to present expert
testimony and also lay testimony on that issue.
[17]
So to some degree this is not something that can be
resolved—or I think can be best resolved as a pretrial—
you know, before the evidence has begun to develop, including our expert and some of our lay testimony that
provides the cultural background that one would need to
assess relevance and any 403 claim, but it’s certainly not
something that we can respond to before we know with

558
more precision other than Waltham what it is the government objects to.
MR. WEINREB: So, your Honor, the motions that
the government filed that is still pending was a motion
to exclude any reference or evidence of the Waltham triple homicide and any other prior bad acts of Tamerlan
Tsarnaev. So that actually was filed months ago and
briefed by the government months ago. This isn’t the
first time the defense is hearing about it.
We didn’t specifically enumerate particular bad acts,
but we did, I think, set out our theory of the reason to
exclude them, which is both relevance, but largely more
the penalty-phase equivalent of 403, that in a case where
the defense is laying a huge amount of emphasis in their
mitigation case on both relative culpability for the
crimes that were committed and any influence that Tamerlan Tsarnaev may have had on their client, that the
risk that the jury will be confused and misled by evidence of prior bad acts by Tamerlan Tsarnaev of which
there’s no evidence that the defendant had any idea or
[18] influenced him in any way but simply invite the jury
to speculate is extremely high. So, again, we don’t
need to further argue it or resolve it now, but that’s
simply background.
THE COURT:

Well, I think what we’ll—

MR. WEINREB: If I may just say one more thing.
With respect to Ms. Vogelsang, the other thing I wanted
to add is that she was originally noticed as a biopsychosocial expert, and she’s now being cast as a social historian. When she was a biopsychosocial expert, we assumed there were going to be opinions made by her relating to biological and psychological evidence. And in

559
particular, since no psychiatrist or psychologists have
been noticed by the defense in light of their withdrawal
of their 12.2 notice, it’s unclear to us whether Ms. Vogelsang now intends to render opinions of a psychological
nature.
We have received no notice of any opinion testimony
by her whatsoever, and we assume, therefore, there will
not be and she will not be standing in for psychologists
or psychiatrists who are not going to testify but she may
have consulted with and spoken to and . . .
THE COURT:

Can we get a quick answer to that?

MR. BRUCK: Yes. Ms. Vogelsang has not met
the client. She is not going to provide opinion testimony. She, in effect, is going to organize so much of
the social history [19] and the family history as does not
come out through lay witnesses—
*

*

*

*

*

560
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
REDACTED
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Oct. 7, 2013
MOTION TO COMPEL DISCOVERY

*

*

*

*

*

Defense Request # 8. All documents concerning or
comprising “tips,” warnings, or other information
provided by Russian authorities concerning Tsarnaev family members.
To each of these two requests, the government responded: “To the extent such information exists, the
government will follow all legal requirements respecting
its production.” Ex. A at 10.
The government’s evasive answer, which fails to confirm the existence of these materials or the basis on
which it will or will not produce them, is unsatisfactory.
The defense has a strong basis to believe that materials
responsive to both requests exist. See, e.g., Bender &
Bierman, THE BOSTON GLOBE, supra. To the extent
the government is relying upon FISA or other authority
to resist disclosure, it still must disclose information that

561
is relevant and helpful to the defense. Amawi, 695 F.3d
at 470. Information concerning the development of radical views or suspicious activity by Tamerlan Tsarnaev
bears on the relative culpability of the defendant in comparison.
Defense Request # 9. All documents concerning the
investigation of the triple homicide that occurred in
Waltham, MA on September 10-11, 2011, including
without limitation documents concerning investigation of the alleged involvement of Tamerlan Tsarnaev, Ibragim Todashev, and/or our client in those
murders.
The government responded:

[REDACTED]

The government’s response is not satisfactory. The
law enforcement investigative privilege cannot trump
the government’s Brady obligations. See Delatorre,
438 F. Supp. 2d at 902 (ordering government to produce
various categories of materials in capital prosecution;
“[t]he law enforcement investigatory privilege is not absolute. It can be overridden in appropriate cases by
the need for the privileged materials.”). Here, evidence
about the nature and extent of Tamerlan’s alleged involvement in the Waltham murders, and the absence of
information about any involvement by our client, provides critical mitigating information.
Conclusion

For the foregoing reasons, this Court should order
the Government to produce the requested discovery.
Respectfully submitted,
DZHOKHAR TSARNAEV
by his attorneys

562
/s/

WILLIAM FICK
WILLIAM FICK
Judy Clarke, Esq.
California Bar: 76071
CLARKE & RICE, APC
1010 Second Avenue, Suite 1800
San Diego, CA 92101
(619) 308-8484
JUDYCLARKE@JCSRLAW.NET
Miriam Conrad, Esq. (BBO # 550223)
Timothy Watkins, Esq. (BBO # 567992)
William Fick, Esq. (BBO # 650562)
FEDERAL PUBLIC DEFENDER OFFICE
51 Sleeper Street, 5th Floor
(617) 223-8061
MIRIAM_CONRAD@FD.ORG
TIMOTHY_WATKINS@FD.ORG
WILLIAM_FICK@FD.ORG
Certificate of Service

I hereby certify that true copies of this document and
all exhibits have been served by email PDF upon counsel
of record for the United States on this 7th day of October, 2013.
/s/

WILLIAM FICK
WILLIAM FICK

563
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Oct. 21, 2013
GOVERNMENT’S OPPOSITION TO DEFENDANT’S
MOTION TO COMPEL DISCOVERY

*

*

*

*

*

Defense Request #9. This request is patently overbroad insofar as it seeks “all documents” concerning the
investigation of the triple homicide that occurred in
Waltham on September 11, 2011, regardless of whether
those documents relate to Tsarnaev or his brother. It
should be denied on that basis alone.
To the extent this request seeks documents that relate to Ibragim Todashev’s involvement in the triple
homicide, it should be denied on the ground that such
documents are not discoverable under the Federal or
Local Rules of Criminal Procedure or Brady.
To the extent this request seeks documents that relate to Tamerlan Tsarnaev’s involvement in the triple
homicide, it is premature. As Tsarnaev concedes, information about his brother’s criminal history will be
relevant, if at all, only in a future sentencing hearing to

564
determine whether Tsarnaev himself should receive the
death penalty. As noted earlier, such a hearing may
never occur, in which case Tsarnaev will never have a
right to the information. And even if such a hearing
does occur, many other phases of this case must first be
completed.
Without intending to waive any of these arguments,
the government has declined to produce all documents
relating to the triple homicide investigation pursuant to
Local Rule 116.6. It is well-settled that “’[f]ederal
common law recognizes a qualified privilege protecting
investigative files in an ongoing criminal investigation.’ ”
In re Department of Homeland Security, 459 F.3d 565,
569 (5th Cir. 2006) (citation omitted) (collecting cases).
That privilege can be overcome only if “the harm to the
government if the privilege is lifted” is outweighed by
the “need of the litigant who is seeking privileged investigative materials.” Id. That test is not met here.
The Middlesex District Attorney’s Office is engaged in
an active, ongoing investigation into the Waltham triple
homicide. Disclosure of the details of that investigation could jeopardize it. Tsarnaev, in contrast, has no
urgent need for the privileged investigative materials he
seeks. Even assuming, as Tsarnaev claims, that “the
nature and extent of Tamerlan’s alleged involvement” in
the Waltham triple homicide is “critical mitigation information,” Tsarnaev Mot. at 16, this case has not yet even
been set down for a trial date, let alone sentencing.
In any event, the government has already disclosed
to Tsarnaev that, according to Todashev, Tamerlan
Tsarnaev participated in the Waltham triple homicide.
Any benefit to Tsarnaev of knowing more about the precise “nature and extent” of his brother’s involvement

565
does not outweigh the potential harm of exposing details
of an ongoing investigation into an extremely serious
crime, especially at this stage of the proceedings.
WHEREFORE, the government respectfully requests that the Court deny Tsarnaev’s Motion to Compel Production.
Respectfully Submitted,
CARMEN M. ORTIZ
United States Attorney
/s/

WILLIAM WEINREB
WILLIAM WEINREB
Aloke S. Chakavarty
Nadine Pellegrini
Assistant U.S. Attorneys

566
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Mar. 28, 2014
FURTHER MOTION TO COMPEL DISCOVERY OF
FAVORABLE EVIDENCE

*

*

*

*

*

4. Information obtained during law enforcement interviews with Ibragim Todashev concerning
Tamerlan and the 2011 Waltham murders
FBI agents reportedly interviewed Tamerlan’s friend
Ibragim Todashev on at least two occasions prior to May
22, 2013, when he was shot and killed during questioning
by the FBI and state police. Law enforcement has
publicly disclosed that Todashev confessed during his final interview that he and Tamerlan Tsarnaev committed
the September 11, 2011 Waltham murders together.
Todashev’s statements to the FBI are also highly likely
to have focused on Tamerlan’s religious beliefs, his mental condition, his violent behavior apart from the Waltham murders, his trip to Dagestan, and his relationship
with his younger brother. The materiality of this infor-

567
mation to the question of the brothers’ relative culpability has already been explained. Indeed, media reports
of interviews with Todashev’s girlfriend, Tatiana
Gruzdeva—who has since been deported—indicate that
the earlier police interviews of Todashev focused on
Tamerlan and the Boston bombings, and did not even
touch on the Waltham murders. The government’s unexplained claim that all of this information is protected
by the law enforcement investigative privilege—a claim
which should be evaluated by the Court, and balanced
against the defendant’s need for the evidence, see generally, Association for Reduction of Violence v. Hall, 734
F.2d 63 (1st Cir, 1984)—does not excuse its failure to
disclose any of the information provided by Todashev
and his friends.
As for the Waltham crimes themselves, it should be
added that Tamerlan’s having committed a gruesome
triple murder—and having included a “close friend”
among the victims—would powerfully support the inference that Dzhokhar experienced his older brother as an
all-powerful force who could not be ignored or disobeyed. Since Todashev was shot and killed by FBI
agents while confessing to his role in the Waltham murders, the defense has no remaining source for what Todashev knew other than the government. The Todashev
302s and any other memorialization or records of his
May, 2013 interviews are Brady material and should be
disclosed.
5. Withheld memoranda of FBI interviews with immediate family members
The defendant’s prior Motion to Compel Discovery
sought production of unedited FBI 302s (Memoranda of
Interviews) with his close family members (hereinafter

568
“Family 302s”), over and beyond the short summaries of
“Brady” material from the 302s that the government
had provided. The Court denied this request as overly
broad, and because the motion did not specifically identify why the Family 302s themselves were likely to contain exculpatory material. DE 151, at 1-4. The defendant has now spelled out with greater specificity why
a broad range of information concerning the defendant’s
family is not merely material but critical to his case in
mitigation, and on this basis he renews his request for
disclosure of these 302s.
*

*

*

*

*

569
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: June 13, 2014
SUPPLEMENTAL MEMORANDUM RESPECTING
DEFENDANT’S SECOND MOTION TO COMPEL
DISCOVERY OF FAVORABLE EVIDENCE
(TODASHEV STATEMENTS CONCERNING
WALTHAM MURDERS)

The Court currently has pending before it the defendant’s request, DE 233 at 19-20, to compel disclosure
of statements made by Ibragim Todashev describing
Tamerlan Tsarnaev’s alleged murders of three people in
Waltham, Massachusetts on September 11, 2011. On
April 25, at the Court’s direction, the government submitted “items relating to Ibragim Todashev . . . for
an in camera ex parte review.” DE 266. Since the
submissions were made ex parte, defense counsel do not,
of course, know what these items are. When it first ordered the in-camera submissions, the Court appears to
have assumed that the best evidence of the Todashev
statements regarding the Waltham murders would be
contained in FBI 302s:
THE COURT:

What's the volume of this material?

570
MR. WEINREB: Are you referring to the material—
THE COURT:

The 302s.

MR. WEINREB: Solely related to any purported
involvement by Tamerlan Tsarnaev in both murders?
THE COURT:

Both, I guess.

MR. WEINREB:
THE COURT:
in camera.

I would say not great.

Well, my thought is I may review it

Transcript of 4/16/2014 Hearing at 21, DE 270.
The March 28, 2014 defense request which led to this
submission was for “[t]he Todashev 302s and any other
memorialization or records of his May, 2013 interviews” with the FBI (emphasis added). DE 233 at 20.
To be sure, when defense counsel filed this discovery request on March 28, we had not yet had the opportunity
to scrutinize a 161-page report by the State’s Attorney
for the Ninth Judicial Circuit of Florida, released just
three days earlier, that revealed that the Massachusetts
State Police had created no fewer than four video (with
audio) recordings and one audio-only recording of the
Todashev interviews on the night he was killed.12 The
full Florida State’s Attorney’s report is attached to this

After a careful review of the Florida state investigative report
that could not have been conducted in the few days between its release and our last discovery motion deadline, as well as additional
public information that has become available since then, we have
identified many additional items regarding Todashev and Tamerlan’s involvement in the Waltham murders that should be provided
to us. We will be requesting by letter in the very near future that
the government furnish this evidence.
1

571
filing. The pertinent portion of the report, found at
page 42, reads as follows:
Three recording devices were used by the MSP at
various times during the interview due to battery life.
This resulted in a total of four video recordings with
audio and one audio only recording. The recordings
captured the majority of the interview and confession
of Todashev . . .
It is entirely possible, of course, that the government
has already provided these MSP electronic verbatim recordings to the Court for its in-camera review. Out of
an abundance of caution, however, counsel wish to bring
the existence of these recordings to the Court’s attention, in case the government’s in-camera submission did
not include them.
The electronic recordings of the Todashev interviews
disclosed by the Florida state investigators’ March, 2014
report would have been the best evidence of what
Todashev said about Tamerlan Tsarnaev under any circumstances. But the fatal ending of the FBI’s May 22,
2013 interview with Todashev, and the controversy that
followed, provide particular reasons why the Court should
examine the actual video and audio recordings of the
Todashev statements, rather than confining its review
to second-hand renditions by the very FBI agent whose
conduct has been under intense scrutiny ever since.
As Dzhokhar Tsarnaev’s prior filings have made
clear, any sentencing proceeding in this case will likely
center on a comparison of the defendant’s character,
record, and conduct with those of his considerably older
brother. Had the FBI not killed Todashev in the middle of his description of Tamerlan’s commission of a bloody

572
triple-murder, Todashev’s in-court description of Tamerlan’s violence and brutality on September 11, 2011,
would have been an important part of the story. Indeed, were Todashev appearing as a mitigation witness
to describe Tamerlan’s behavior and character as exemplified by the sequence of events leading to the Waltham
murders, it is hard to imagine that the government
would even object. In addition, how Tamerlan induced
Todashev to participate in this very serious crime may
shed light on the process by which he allegedly drew his
younger brother into violence some 19 months later.
Given that the FBI has rendered Todashev forever unavailable as a mitigation witness—and because the
Rules of Evidence do not apply at the penalty phase of a
capital case under the Federal Death Penalty Act, 18
U.S.C. § 3593(c)—the defendant submits that he is entitled to obtain the best surviving evidence of Todashev’s
eyewitness account of Tamerlan’s murderous behavior.
And that evidence is the MSP’s actual contemporaneous
recording of Todashev’s account, not the subsequent
memorialization of that account by the very agents who
killed him before he finished it.
CONCLUSION

For the foregoing reasons, counsel for the defendant
Dzhokhar Tsarnaev renew their request that the government be required to disclose all eyewitness and other
accounts by the late Ibragim Todashev of murders committed by Tamerlan Tsarnaev on or about September
11, 2011, and that such disclosure include the best evidence of Todashev’s statements, which are the contemporaneous video and audio recordings made by the Massachusetts State Police on May 22, 2013.

573
Respectfully Submitted,
DZHOKHAR TSARNAEV
By his attorneys
/s/

DAVID I. BRUCK
DAVID I. BRUCK
Judy Clarke, Esq. (CA Bar# 76071)
CLARKE & RICE, APC
1010 Second Avenue, Suite 1800
San Diego, CA 92101
(619) 308-8484
JUDYCLARKE@JCSRLAW.NET
David I. Bruck, Esq. (SC Bar # 967)
220 Sydney Lewis Hall
Lexington, VA 24450
(540) 460-8188
BRUCKD@WLU.EDU
Miriam Conrad, Esq. (BBO # 550223)
Timothy Watkins, Esq. (BBO # 567992)
William Fick, Esq. (BBO # 650562)
FEDERAL PUBLIC DEFENDER OFFICE
51 Sleeper Street, 5th Floor
(617) 223-8061
MIRIAM_CONRAD@FD.ORG
TIMOTHY_WATKINS@FD.ORG
WILLIAM_FICK@FD.ORG

574
Certificate of Service

I hereby certify that this document filed through the
ECF system will be sent electronically to the registered
participants as identified on the Notice of Electronic Filing (NEF) and paper copies will be sent to those indicated as non-registered participants on June 13, 2014.
/s/ MIRIAM CONRAD
MIRIAM CONRAD

575
[Florida State Attorney’s Office report on Agent-

Involved Shooting of Ibragim Todashev]
INVESTIGATION REPORT
CASE NUMBER: 2013-IN-0063

CASE BACKGROUND:

Shortly after the Boston Marathon bombing, which occurred on April 15, 2013, Federal and State law enforcement agencies identified bombing suspects, Dzhokhar
and Tamerlan Tsarnaev, as criminally responsible for
the deaths of three (3) civilians, one (1) police officer and
for the injuries of numerous others. According to documents provided by the Federal Bureau of Investigation
(FBI), Ibragim Todashev was contacted on April 21,
2013, due to his association with bombing suspect Tamerlan Tsarnaev. During the course of the FBI’s ongoing, open and active criminal investigation, members of
the Massachusetts State Police and the FBI Field Office
in Boston established Mr. Todashev was residing in Orlando, Florida. The assistance of the FBI Field Office
in Tampa was then requested by the investigators in
Boston. The FBI Resident Agency (ORA) in Orlando
was contacted and the TF Officer was assigned to assist
with the investigation of Mr. Todashev. Based on information discovered by law enforcement officers in Boston, Mr. Todashev was determined to be a person of interest regarding a triple homicide, which occurred in
Waltham, Massachusetts on September 11, 2011.
The spelling of Mr. Todashev’s name, by the
authors of the FBI documents; “Todaschev” and
Note:

576
“Todoshev,” are quoted as they actually appear
throughout the narratives reviewed.
In one of the first FBI documents63reviewed, titled Synopsis Agent-Involved Shooting, the narration indicates
the following:
“ . . . In the weeks following, Tampa [TF Officer
and other members of the [REDACTED] FBI Office]
conducted interviews with Todaschev and received
information indicating Todaschev’s possible involvement in a triple homicide in Waltham, Massachusetts on 09/11/2011. Based on this information
Boston (BS) Field Office SA . . . [FBI Agent],
Massachusetts State Police (MSP) Troopers . . .
[Trooper One and Trooper Two], and TP TFO . . .
[TF Officer] planned to conduct an interview of
Todaschev in Orlando, Florida at Todaschev’s apartment. . . . “ [Paragraph one]
The interview of Mr. Todashev was conducted inside his
home address of 6022 Peregrine Avenue. The following excerpt is also taken from this document:
“ . . . On 05/22/2013 the interview of Todaschev
took place at his apartment located at 6022 Peregrine
Avenue, Orlando, Florida 32819. The interview
was conducted by the LEOs [Law Enforcement Officers] and lasted approximately five hours from 7:30 PM
to 12:00 AM. During that time . . . [FBI Agent]
and the two Troopers were in the apartment questioning Todaschev about his connection to the triple
homicide. . . . [TF Officer] remained outside of

The aforementioned FBI document is memorialized as attachment number 8, pages 27-28.
6

577
the apartment providing security for the duration of
the interview. About 12:00 AM . . . [Trooper
Two] stepped outside of the apartment to call a prosecutor in Boston, to explain Todaschev had confessed
to a role in the triple homicide [REDACTED].”
[Emphasis added, Paragraph two]
Based on the information provided, when Trooper Two
exited Mr. Todashev’s apartment for the purpose of making contact with the prosecutor in Boston, Mr. Todachev
attacked the two remaining officers, Trooper One and
the FBI Agent. What is described as a sudden attack
by Mr. Todashev led to a serious head injury to the FBI
Agent. Reportedly, the ongoing aggressive behavior of
Mr. Todashev led to the use of deadly force by the injured FBI Agent. The following excerpts are taken
from the aforementioned FBI document:
“ . . . At approximately 12:04 AM Todaschev was
in the process of writing a confession . . . when
he suddenly attacked. He flipped the table he was
writing on which was believed to have struck . . .
[the FBI Agent] in the head and ran to the kitchen.
Todaschev was heard frantically grabbing items in
the kitchen and reappeared in the doorway wielding
a long metal handle of a mop or broom. He [Mr.
Todashev] took an attack stance with the weapon,
. . . [the FBI Agent] issued verbal commands, to
which Todaschev did not comply, and violently
lunged towards . . . [the FBI Agent] and . . .
[Trooper One].” [Paragraph three]
“Having already been wounded and fearing for his
safety, . . . [FBI Agent] fired 3-4 rounds striking
Todaschev. Todaschev went down on his knees momentarily then ‘sprang’ to his feet and launched to

578
attack again. . . . [FBI Agent] fired another 3-4
rounds dropping Todaschev to the floor.
. . .
[FBI Agent] fired seven shots in total, Todaschev
was hit seven times with fatal shots to his head and
piercing his heart. He [Mr. Todashev] was instantly incapacitated and died on the scene . . . “
[Paragraph three]
The scene was secured by the officers involved and an
investigation was initiated by the FBI. Mr. Todaschev’s
body was later recovered by the District Nine Medical
Examiner’s Office and an autopsy7 4 was conducted on
“May 22, 2013 at 11:00 am.” The Report of Autopsy
authored by Doctor Gary Lee Utz indicates the cause of
Mr. Todashev’s death was due to “Multiple gunshot
wounds” and the manner of his death was ruled a “Homicide.”
*

*

*

*

*

Summary

During the course of Federal and State investigative efforts surrounding Boston Marathon bombing suspect
Tamerlan Tsarnaev, Ibragim Todashev became a person
of interest in a triple homicide which occurred in Waltham, Massachusetts on September 11, 2011. On May
21, 2013, Federal and State Law Enforcement Officers
from Massachusetts and Florida made contact with Mr.
Todashev in Orlando, Florida. Prior to contact being
made on this date, each of the officers involved was
aware Mr. Todashev was a skilled Mixed Martial Arts
(MMA) fighter. During the course of a non-custodial,
The aforementioned autopsy was documented by Medical Examiner report case number ME 13-00623 and is memorialized as attachment numbers 1, pages 1-16, and 2, pages 17-19.
7

579
consensual interview, which occurred in the confined
space of Mr. Todashev’s apartment, Mr. Todashev spontaneously attacked and struck the FBI Agent with a coffee table, causing a laceration to the back of the FBI
Agent’s head. Mr. Todashev then ran past both officers
towards the kitchen area of the apartment. As Mr.
Todashev armed himself with a broomstick type pole, he
aggressively charged back towards Trooper One and the
FBI Agent in a manner they both perceived as being life
threatening.
Based on the actions of Mr. Todashev, the FBI Agent responded to the imminent threat by discharging his firearm at Mr. Todashev. During the initial volley of gunfire, Mr. Todashev twisted his upper torso twice as he was
being struck by the projectiles. This caused Mr. Todashev to pause during his attack. As Mr. Todashev regained his footing and made a headlong lunge towards
the officers, the FBI Agent continued to engage the
threat by discharging a second volley of gunfire at Mr.
Todashev.

The FBI Agent fired his issued handgun a total of seven (7) times in an effort to eliminate the threat
posed by Mr. Todashev.

Given the totality of the circumstances at the time of this
incident, in my opinion, the use of deadly force by the
FBI Agent on May 22, 2013, was reasonable and justified,
and therefore, lawful.
/s/ ERIC EDWARDS
ERIC EDWARDS
State Attorney’s Office
Ninth Judicial Circuit of Florida
Chief of Investigations

03/17/2014
Date

580
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Oct. 10, 2014
MOTION TO COMPEL DISCOVERY

*

*

*

*

*

Our request was clear—we asked for access to the
full report. We did so in part because the chronology included in report was prefaced by the statement
that “[m]any of the activities and events that occurred during the period [prior to the Marathon
Bombing] cannot be included in this unclassified
summary.” Given that the subject matter of the
chronology is the activities of older, dominant members of Dzhokhar’s family—notably Tamerlan and
Zubeidat—it appears that the classified report contains additional information that is mitigating with
respect to Dzhokhar because it tends to demonstrate
Tamerlan’s (and perhaps others’) dominance, leadership, priority, and control. For this reason, an itemization of unclassified materials mentioned in the
publicly-available summary cannot substitute for access to the entire classified report.

581
Exhibit F. By letter dated August 15, the government
stated: “We have conducted a thorough review of all of
the information that underlies the references in the OIG
report cited in your letter. The review revealed no additional discoverable information. Accordingly, we decline this request.” Exhibit G.
The government should be required to submit the
OIG report to the Court for in camera review.
Waltham Murders

The defense previously moved to compel the production of information and evidence concerning a 2011 triple homicide in Waltham, allegedly committed by Tamerlan Tsarnaev and Ibragim Todashev. The government declined production on the basis of the law enforcement investigation privilege. The Court, after ordering production of Ibragim Todashev’s statements for
in camera review, ultimately denied the motion without
comment. This issue is now ripe for renewed examination (including the continuing viability and weight of any
investigative privilege) as the trial nears.
Simply put, information and evidence tending to show
that Tamerlan Tsarnaev participated in a triple homicide in 2011, and information depicting the brutality of
those murders, is critical to the defense case in mitigation. Such evidence would tend to corroborate Tamerlan’s dominant role in the charged offenses and would
place the brothers’ respective personal characteristics
and relative culpability into stark relief.
More narrowly, even the government has conceded
that evidence concerning Tamerlan’s participation in
Waltham murders might be relevant if Dzhokhar were

582
aware of it. See, e.g., DE 243 at 24.25 By letter dated
August 15, 2014, the government disclosed that an identified witness would be prepared to testify that Dzhokhar had such awareness.
See Sealed Exhibit H.
Thus, Tamerlan’s alleged role in the Waltham murders
is now relevant even on the government’s crabbed reasoning.
For these reasons, evidence of Tamerlan’s role in the
Waltham murders and evidence concerning the brutality of those murders should be produced.
Zubeidat Tsarnaeva’s Emails

The government has produced in discovery certain emails from “yahoo.com” attributed to defendant’s mother
Zubeidat Tsarnaeva, for which the government obtained
and executed a search warrant. By letter dated July 29,
2014, the defense requested production of a forensic
copy of the search warrant return from Yahoo. See Exhibit I.

* * * * *

“Even assuming Tamerlan participated in the triple homicide,
the defense has not even alleged that Dzhokhar Tsarnaev knew about
Tamerlan’s purported involvement. Absent such knowledge, there
is simply no logical connection between Tamerlan’s purported involvement in the murders and Dzhokhar Tsarnaev’s experience of
Tamerlan.” Government’s Opposition to Defendant’s Motions to
Compel at 24, DE 243 (April 11, 2014).
2

583
U.S. Department of Justice
Carmen M. Ortiz
United States Attorney
District of Massachusetts

Main Reception
(617) 748-3100

John Joseph Moakley
United States Courthouse
1 Courthouse Way
Suite 9200
Boston, Massachusetts 02210
Aug. 15, 2014

BY ELECTRONIC MAIL

Timothy Watkins, Esq.
William Fick, Esq.
Miriam Conrad, Esq. Judy Clarke, Esq.
David Bruck, Esq.
Federal Defender’s Office
51 Sleeper Street, 5th Floor
Boston, MA 02210
Re: United States v. Dzhokhar Tsarnaev, Crim.
No. 13-10200-GAO
Dear Counsel:
We write to provide you with the following information.
In recent discussions with Assistant U.S. Attorneys
prosecuting the case of United States v. Dias Kadyrbavev, Robert Stahl, Mr. Kadyrbayev’s attorney, told
the prosecutors that he believed that Mr. Kadyrbayev,

584
may be able to provide information along the following
lines:
• Kadyrbayev learned in the fall of 2012 from Dzhokhar Tsarnaev that Tamerlan Tsarnaev was involved in the Waltham murders;
• Dzhohkar Tsarnaev told Kadyrbayev that his
brother “had committed jihad” in Waltham;
• Tamerlan Tsarnaev had a knife collection;
• Tamerlan Tsarnaev had possession of a gun, which
he got rid of before being interviewed by law enforcement;
• Dzhokhar Tsarnaev had a conversation with Kadyrbayev approximately one month before the Marathon bombings during which he told Kadyrbayev
and Tazhayakov that he knew how to make a
bomb and discussed the virtues of being a Shaheed and of martyrdom;
• Starting in January 2013 and continuing until
April 2013, Kadyrbayev noticed a change in Dzhokhar Tsarnaev’s demeanor and behaviors. For
example, Tsarnaev stopped drinking and smoking, began praying more, started regularly watching Islamic videos on YouTube, showed jihadi videos to Kadyrbayev, did not socialize as much with
Kadyrbayev, made up excuses as to why he
couldn’t spend time with Kadyrbayev, and did not
attend Kadyrbayev’s birthday celebration or
travel with Kadyrbayev and Tazhayakov for
spring break;
• Dzhokhar Tsarnaev obtained a gun from Silva;

585
• Dzhokhar Tsarnaev obtained ammunition for that
gun from Silva’s residence without Silva’s
knowledge;
• Kadyrbayev and Dzhokhar Tsarnaev exchanged
text messages about Tsarnaev’s desire for a gun
and about how he intended to lie to Silva to keep
the gun that Silva loaned him; and
• Kadyrbayev did not see the gun Silva gave to
Tsarnaev but did see the ammunition.
This information was provided orally by Mr. Stahl.
This letter is a complete and accurate summary of Mr.
Stahl’s statements, to the best of the AUSAs’ ability to
remember them. This information should be treated
as sensitive under the terms of the protective order.
Very truly yours,
CARMEN M. ORTIZ
United States Attorney
By:

/s/

ALOKE CHAKRAVARTY
ALOKE CHAKRAVARTY
William Weinreb
Nadine Pellegrini
Assistant U.S. Attorneys

586
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Oct. 24, 2014
GOVERNMENT’S OPPOSITION TO DEFENDANT’S
FOURTH MOTION TO COMPEL

*

*

*

*

*

7. Offices of Inspectors General (“OIG”) report.
Tsarnaev has offered no reason whatsoever to doubt the
government’s representation that it reviewed the April
14, 2014, classified OIG report concerning the Marathon
bombings in light of the portions of the unclassified OIG
report cited by Tsarnaev in his discovery request and
determined that it contains no additional discoverable
information. Consequently, there is no basis for ordering an in camera review of the classified report.
8. Waltham triple homicide. The government informed Tsarnaev over a year ago that Ibragim Todashev
told police that Tamerlan Tsarnaev participated in the
Waltham triple homicide. Tsarnaev subsequently moved
for production of any written or recorded account of
Todashev’s statement concerning Tamerlan Tsarnaev’s
involvement. The government opposed the motion on

587
the grounds that production of any such writing or recording (as opposed to the information itself) was not required by the rules of discovery and would needlessly
jeopardize the Middlesex District Attorney’s ongoing investigation of the triple homicide. After reviewing pertinent materials in camera, the Court denied the motion
to compel.
Nothing has occurred to warrant reconsideration of
the Court’s earlier ruling. The government has no additional evidence that Tamerlan Tsarnaev participated
in the Waltham triple homicide. And we have been informed by the Middlesex District Attorney that her investigation of the Waltham murders remains active and
ongoing.
As the government previously pointed out, moreover,
the defense has not articulated a mitigation theory that
would make Tamerlan Tsarnaev’s actual participation
in the Waltham triple homicide relevant. If Tamerlan
Tsarnaev actually participated in that crime but Dzhokhar Tsarnaev knew nothing about it, then Tamerlan’s
participation could have had no bearing on Dzhokhar
Tsarnaev’s mental state. If, on the other hand, Dzhokhar Tsarnaev believed his brother had committed the
Waltham murders, then it makes no difference from a
mitigation standpoint whether Tamerlan committed the
murders or not, and the facts related to the murders
would similarly be irrelevant.
Tsarnaev’s motion inaccurately states that “the government disclosed that an identified witness would be
prepared to testify that Dzhokhar had such awareness”
(i.e. awareness of his brother’s involvement in the Waltham murders). In fact, the government disclosed only
that a third party had informed the government that

588
there was someone who might say such a thing.
Whether that person would actually say it, let alone testify to it, is another matter entirely. In any event, as
noted above, the government has no evidence that Tamerlan Tsarnaev actually participated in the Waltham
murders, so there is nothing to produce.
9. Zubeidat Tsarnaeva’s emails.
Local Rule
116.1(C)(1)(b) requires production of a search warrant
return only if the search warrant (1) was for the defendant’s property or (2) resulted in the seizure of evidence
that the government intends to use in its case-in-chief.
Neither is the case here. The government has produced all of the actual emails that are even arguably required by the rules of discovery.
CONCLUSION

WHEREFORE, the government respectfully requests that the Court deny Tsarnaev’s Motion to Compel.
Respectfully Submitted,
CARMEN M. ORTIZ
United States Attorney
/s/

WILLIAM WEINREB
WILLIAM WEINREB
Aloke S. Chakavarty
Nadine Pellegrini
Assistant U.S. Attorneys

589
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Apr. 24, 2015
SUPPLEMENTAL MEMORANDUM IN OPPOSITION
TO GOVERNMENT’S MOTION IN LIMINE TO
PRECLUDE ANY REFERENCE TO WALTHAM
TRIPLE HOMICIDE OR OTHER ALLEGED BAD
ACTS OF TAMERLIN TSARNAEV

Defendant, Dzhokhar Tsarnaev, by and through
counsel, respectfully submits this supplemental memorandum in opposition to the government’s Motion in
Limine to Preclude Any Reference to Waltham Triple
Homicide or Other Alleged Bad Acts of Tamerlan Tsarnaev. [DE 867 (filed under seal).]
At the motion hearing on April 13, 2014, the Court
inquired whether there was any activity on Tamerlan
Tsarnaev’s laptop computer associated with the Waltham murders that took place on September 11, 2011.
Counsel was uaware of any, and on further reflection realized that there could not be any such evidence because
Tamerlan’s Samsung laptop (1W3), was not initially configured until months later, on December 21, 2011. See

590
Trial Exhibit 3308. It is not known what if any computer Tamerlan Tsarnaev principally used in September
2011.
However, review of the internet search history on
Katherine Tsarnaeva’s MacBook Pro computer reveals
the following activity approximately one week after the
murders:
Date (UTC)

Search Term

9/18/11 14:04
9/19/11 05:15
9/19/11 05:18

3 men killed in waltham
men kill in waltham
tamerlan tsarnaev

See Ex. A (excerpt of search history, attached).
This activity provides additional circumstantial evidence of a connection between Tamerlan Tsarnaev and
the Waltham homicides, whether the searches were conducted by Katherine Tsarnaeva or Tamerlan Tsarnaev
himself.
Respectfully Submitted,
DZHOKHAR TSARNAEV
By his attorneys
/s/

[ILLEGIBLE]
Judy Clarke, Esq. (CA Bar# 76071)
CLARKE & RICE, APC
1010 Second Avenue, Suite 1800
San Diego, CA 92101
(619) 308-8484
JUDYCLARKE@JCSRLAW.NET

591
David I. Bruck, Esq. (SC Bar # 967)
220 Sydney Lewis Hall
Lexington, VA 24450
(540) 458-8188
BRUCKD@WLU.EDU

592
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, A/K/A “JAHAR TSARNI,”
DEFENDANT

Filed: May 15, 2015
PENALTY PHASE VERDICT
SECTION I.

AGE OF DEFENDANT

General directions for Section I:

•

As used in this section, the term “capital counts”
refers to:
Count One (1): Conspiracy to use a weapon of
mass destruction resulting in death of Krystle
Marie Campbell, Officer Sean Collier, Lingzi Lu,
and Martin Richard
Count Two (2): Use of a weapon of mass destruction (Pressure Cooker Bomb #1) on or
about April 15, 2013, in the vicinity of 671
Boylston Street in Boston, Massachusetts, and
aiding and abetting, resulting in death of Krystle
Marie Campbell

593
Count Three (3): Possession or use of a firearm
(Pressure Cooker Bomb #1) during and in relation to a crime of violence, namely, use of a
weapon of mass destruction as in Count Two of
this section, and aiding and abetting, resulting in
death of Krystle Marie Campbell
Count Four (4): Use of a weapon of mass destruction (Pressure Cooker Bomb #2) on or
about April 15, 2013, in the vicinity of 755
Boylston Street in Boston, Massachusetts, and
aiding and abetting, resulting in deaths of Lingzi
Lu and Martin Richard
Count Five (5): Possession or use of a firearm
(Pressure Cooker Bomb #2) during and in relation to a crime of violence, namely use of a
weapon of mass destruction as in Count Four of
this section, and aiding and abetting, resulting in
deaths of Lingzi Lu and Martin Richard
Count Six (6): Conspiracy to bomb a place of
public use, resulting in deaths of Krystle Marie
Campbell, Officer Sean Collier, Lingzi Lu, and
Martin Richard
Count Seven (7): Bombing of a place of public
use (Pressure Cooker Bomb #1) on or about
April 15, 2013, in the vicinity of 671 Boylston
Street, Boston, Massachusetts, and aiding and
abetting, resulting in death of Krystle Marie
Campbell
Count Eight (8): Possession or use of a firearm
(Pressure Cooker Bomb #1) during and in relation to a crime of violence, namely, the bombing
of a place of public use as in Count Seven of this

594
section, and aiding and abetting, resulting in
death of Krystle Marie Campbell
Count Nine (9): Bombing of a place of public
use (Pressure Cooker Bomb #2) on or about
April 15, 2013, in the vicinity of 755 Boylston
Street, Boston, Massachusetts, and aiding and
abetting, resulting in deaths of Lingzi Lu and
Martin Richard
Count Ten (10): Possession or use of a firearm
(Pressure Cooker Bomb #2) during and in relation to a crime of violence, namely, the bombing
of a place of public use as in Count Nine of this
section, and aiding and abetting, resulting in
deaths of Lingzi Lu and Martin Richard
Count Twelve (12): Malicious destruction of
property by means of an explosive (Pressure
Cooker Bomb #1) on or about April 15, 2013, in
the vicinity of 671 Boylston Street in Boston,
Massachusetts, and aiding and abetting, resulting in death of Krystle Marie Campbell
Count Thirteen (13): Possession or use of a firearm (Pressure Cooker Bomb #1) during and in
relation to a crime of violence, namely, the malicious destruction of property as in Count Twelve
of this section, and aiding and abetting, resulting
in death of Krystle Marie Campbell
Count Fourteen (14): Malicious destruction of
property by means of an explosive (Pressure
Cooker Bomb #2) on or about April 15, 2013, in
the vicinity of 755 Boylston Street in Boston,
Massachusetts, and aiding and abetting, resulting in deaths of Lingzi Lu and Martin Richard

595
Count Fifteen (15): Possession or use of a firearm (Pressure Cooker Bomb #2) during and in
relation to a crime of violence, namely, malicious
destruction of property as in Count Fourteen of
this section, and aiding and abetting, resulting in
deaths of Lingzi Lu and Martin Richard
Count Sixteen (16): Possession or use of a firearm (Ruger P95 9mm semiautomatic handgun)
on or about April 18, 2013, during and in relation
to a crime of violence, namely, conspiracy to use
a weapon of mass destruction as in Count One of
this section, and aiding and abetting, resulting in
death of Officer Sean Collier
Count Seventeen (17): Possession or use of a
firearm (Ruger P95 9mm semiautomatic handgun) on or about April 18, 2013, during and in relation to a crime of violence, namely, conspiracy
to bomb a place of public use as in Count Six of
this section, and aiding and abetting, resulting in
death of Officer Sean Collier
Count Eighteen (18): Possession or use of a
firearm (Ruger P95 9mm semiautomatic handgun) on or about April 18, 2013, during and in relation to a crime of violence, namely, conspiracy
to maliciously destroy property, and aiding and
abetting, resulting in death of Officer Sean Collier
•

In this section, please indicate whether you
unanimously find the government has established beyond a reasonable doubt that the defendant, Dzhokhar Tsarnaev, was eighteen (18)
years of age or older at the time of the offense

596
charged under the particular capital count.
must mark one of the responses.
1.

You

Dzhokhar Tsarnaev was eighteen (18) years of age
or older at the time of the offense charged under
the particular capital count.
√

We unanimously find that this has been
proved beyond a reasonable doubt with
regard to all of the capital counts.
We do not unanimously find that this has
been proved beyond a reasonable doubt
with regard to any of the capital counts.
We unanimously find that this has been
proved beyond a reasonable doubt only
with regard to the following capital
counts. Identify each count by count
number.

Directions:

• For each capital count, if you do not unanimously
find the government has proven beyond a reasonable doubt the defendant was eighteen years of
age or older at the time of the offense charged under the particular capital count, then your deliberations are over as to that count.
• If there is no capital count for which you unanimously find the government has proven beyond a
reasonable doubt the defendant was eighteen
years of age or older at the time of the offense,
skip forward to Section VII and complete that
section in accordance with the directions there.

597
Then notify the Court that you have completed
your deliberations.
• If you have found the government has proven beyond a reasonable doubt the defendant was eighteen years of age or older at the time of the offense
charged with regard to one or more capital counts,
continue on to Section II.
SECTION II.

GATEWAY FACTORS

General directions for Section II:

• As used in this section, the term “capital count(s)”
refers only to those counts for which you found
the defendant was eighteen years of age or older
at the time of the offense charged under the particular count in Section I. Do not consider gateway factors in this section with regard to any
counts for which you have not found the defendant
was eighteen years of age or older at the time of
the offense charged under the count in Section I.
• In this section, please indicate which, if any, of the
following gateway factors you unanimously find
the government has proven beyond a reasonable
doubt. For each of the four gateway factors
listed below, you must mark one of the responses.
1. Dzhokhar Tsarnaev intentionally killed the victim
or victims of the particular capital count you are
considering.

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital counts.

598
_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable capital counts.

√

We unanimously find that this has been
proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.
[1, 4, 5, 6, 9, 10, 14, 15]

2. Dzhokhar Tsarnaev intentionally inflicted serious
bodily injury that resulted in the death of the victim or victims of the particular capital count you
are considering.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable capital counts.

√

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.
[1, 4, 5, 6, 9, 10, 14, 15]

599
3.

4.

Dzhokhar Tsarnaev intentionally participated in
an act, contemplating that the life of a person
would be taken or intending that lethal force
would be used in connection with a person, other
than one of the participants in the offense, and the
victim or victims of the particular capital count
you are considering died as a direct result of the
act.
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

Dzhokhar Tsarnaev intentionally and specifically
engaged in an act of violence, knowing that the act
created a grave risk of death to a person, other
than one of the participants in the offense, such
that participation in the act constituted a reckless
disregard for human life and the victim or victims
of the particular capital count you are considering
died as a direct result of the act.

600
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

Directions:

• For each capital count you are considering in this
section, if you do not unanimously find the government has proven beyond a reasonable doubt at
least one of the above gateway factors with respect to that count, then your deliberations are
over as to that count.
• If there is no capital count for which you unanimously find a gateway factor has been proved beyond a reasonable doubt, skip forward to Section
VII and complete that section in accordance with
the directions there. Then notify the Court that
you have completed your deliberations.
• If you have found at least one gateway factor with
regard to one or more capital counts, continue on
to Section III.

601
SECTION III. STATUTORY AGGRAVATING
FACTORS
General directions for Section III:

• As used in this section, the term “capital count(s)”
refers only to those counts for which you found
the defendant was eighteen years of age or older
at the time of the offense charged under the count
in Section I and at least one gateway factor in Section II. Do not consider statutory aggravating
factors in this section with regard to any counts
for which you have not found the defendant was
eighteen years of age or older at the time of the
offense charged under the count in Section I and
at least one gateway factor in Section II.
• In this section, please indicate which, if any, of the
following six (6) statutory aggravating factors you
unanimously find the government has proven beyond a reasonable doubt. For each of the six
statutory aggravating factors listed below, you
must mark one of the responses.
1.

The death, and injury resulting in death, occurred
during the commission and attempted commission
of, and during the immediate flight from the commission of, an offense under:
a. 18 U.S.C. § 2332a (use of a weapon of mass destruction) [Applies to all capital counts];
and/or
b. 18 U.S.C. § 844(i) (destruction of property
affecting interstate commerce by explosives)
[Only applies to capital counts 1-10 and 1215.]

602
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

2. Dzhokhar Tsarnaev knowingly created a grave risk
of death to one or more persons in addition to the
victim of the offense in the commission of the offense and in escaping apprehension for the violation of the offense. [Applies to all capital counts.]

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

√

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital

603
counts. Identify each count by count
number.
[1, 4, 5, 6, 9, 10, 14, 15]
[16, 17, 18]
3. Dzhokhar Tsarnaev committed the offense in an especially heinous, cruel and depraved manner in that
it involved serious physical abuse to the victim.
[Only applies to capital counts 1-10 and 12-15.]

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

√

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.
[1, 4, 5, 6, 9, 10, 14, 15]

4. Dzhokhar Tsarnaev committed the offense after
substantial planning and premeditation to cause
the death of a person and commit an act of terrorism. [Only applies to counts 1-10 and 12-15.]
√

We unanimously find that this factor has
been proved beyond a reasonable doubt

604
with regard to all of the applicable capital
counts.
_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

5. Dzhokhar Tsarnaev intentionally killed and attempted to kill more than one person in a single
criminal episode. [Only applies to capital counts
1-10 and 12-15.]
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

605

6. Dzhokhar Tsarnaev is responsible for the death of
a victim, Martin Richard, who was particularly vulnerable due to youth. [Only applies to capital
counts 1, 4, 5, 6, 9, 10, 14, and 15.]
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

Directions:

• For each capital count you are considering in this
section, if you do not unanimously find the government has proven beyond a reasonable doubt at
least one of the above statutory aggravating factors with respect to that count, then your deliberations are over as to that capital count.

606
• If there is no capital count for which you unanimously find at least one statutory aggravating factor has been proved beyond a reasonable doubt,
skip forward to Section VII and complete that section in accordance with the directions there.
Then notify the Court that you have completed
your deliberations.
• If you have found one or more statutory aggravating factors with regard to one or more capital
counts, continue on to Section IV.

607
SECTION IV. NON-STATUTORY
AGGRAVATING FACTORS
General directions for Section IV:

• As used in this section, the term “capital count(s)”
refers only to those counts for which you have
found that the defendant was eighteen years of
age or older at the time of the offense charged under the count in Section I, and at least one gateway factor in Section II, and at least one statutory
aggravating factor in Section III. Do not consider non-statutory aggravating factors in this
section with regard to the counts for which you
have not found that the defendant was eighteen
years of age or older at the time of the offense
charged under the count in Section I, and at least
one gateway factor in Section II, and at least one
statutory aggravating factor in Section III.
• In this section, please indicate which, if any, of the
following six (6) non-statutory aggravating factors
you unanimously find the government has proven
beyond a reasonable doubt. For each of the proposed factors, you must mark one of the responses
provided.
1. In conjunction with committing acts of violence
and terrorism, Dzhokhar Tsarnaev made statements suggesting that others would be justified in
committing additional acts of violence and terrorism against the United States. [Applies to all capital counts.]

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt

608
with regard to all of the applicable capital
counts.
√

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

2. Dzhokhar Tsarnaev caused injury, harm and loss
to:
a.

Krystle Marie Campbell and her family and
friends [Only applies to capital counts 1, 2, 3,
6, 7, 8, 12, and 13];

b.

Martin Richard and his family and friends
[Only applies to capital counts 1, 4, 5, 6, 9, 10,
14, and 15];

c.

Lingzi Lu and her family and friends [Only
applies to capital counts 1, 4, 5, 6, 9, 10, 14,
and 15]; and/or

d.

Officer Sean Collier and his family and
friends [Only applies to capital counts 1, 6,
16, 17, and 18].

√

We unanimously find that this factor has
been proved beyond a reasonable doubt

609
with regard to all of the applicable capital
counts.
_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

3. Dzhokhar Tsarnaev targeted the Boston Marathon,
an iconic event that draws large crowds of men,
women and children to its final stretch, making it
especially susceptible to the act and effects of terrorism. [Only applies to capital counts 1-10 and
12-15.]
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital

610
counts. Identify each count by count
number.

4. Dzhokhar Tsarnaev demonstrated a lack
remorse. [Applies to all capital counts.]
√

of

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

5. Dzhokbar Tsarnaev murdered Officer Sean Collier,
a law enforcement officer who was engaged in the
performance of his official duties at the time of his
death. [Only applies to capital counts 1, 6, 16, 17,
and 18.)
√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

611
_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt
only with regard to the following capital
counts. Identify each count by count
number.

6. Dzhokhar Tsarnaev participated in additional uncharged crimes of violence, including assault with
a dangerous weapon, assault with intent to maim,
mayhem, and attempted murder:
a.

On April 15, 2013, in Boston, Massachusetts
[Only applies to capital counts 1-10 and 1215]; and/or

b.

On or about April 19, 2013, in Watertown,
Massachusetts [Applies to all capital counts].

√

We unanimously find that this factor has
been proved beyond a reasonable doubt
with regard to all of the applicable capital
counts.

_____

We do not unanimously find that this factor has been proved beyond a reasonable
doubt with regard to any of the applicable
capital counts.

_____

We unanimously find that this factor has
been proved beyond a reasonable doubt

612
only with regard to the following capital
counts. Identify each count by count
number.

Directions:

• After you have completed your findings in this
section (whether or not you have found any of the
above non-statutory aggravating factors to have
been proved), continue on to Section V.

613
SECTION V.

MITIGATING FACTORS

General directions for Section V:

• As used in this section, the term “capital count(s)”
refers only to those counts for which you have
found that the defendant was eighteen years of
age or older at the time of the offense charged under the count in Section I, and at least one gateway factor in Section II, and at least one statutory
aggravating factor in Section III.
• As to the alleged mitigating factors listed below,
please indicate which, if any, you find Dzhokhar
Tsarnaev has proven by a preponderance of the
evidence.
• Recall that your vote as a jury need not be unanimous with regard to each question in this section.
A finding with respect to a mitigating factor may
be made by one or more of the members of the
jury, and any member of the jury who finds the
existence of a mitigating factor may consider such
a factor established in making his or her individual determination of whether or not a sentence of
death shall be imposed, regardless of the number
of other jurors who agree that the factor has been
established.
• In the space provided, please indicate the number
of jurors who have found the existence of that mitigating factor to be proven by a preponderance of
the evidence with regard to each of the capital
counts.

614
1. Dzhokhar Tsarnaev was 19 years old at the time of
the offenses.

Number of jurors who so find:

[12]

2. Dzhokhar Tsarnaev had no prior history of violent
behavior.

Number of jurors who so find:

[11]

3. Dzhokhar Tsarnaev acted under the influence of
his older brother.

Number of jurors who so find:

[3]

4. Whether because of Tamerlan’s age, size, aggressiveness, domineering personality, privileged status in the family, traditional authority as the eldest
brother, or other reasons, Dzhokhar Tsarnaev was
particularly susceptible to his older brother’s influence.

Number of jurors who so find:

[3]

5. Dzhokhar Tsarnaev’s brother Tamerlan planned,
led, and directed the Marathon bombing.

Number of jurors who so find:

[3]

6. Dzhokhar Tsarnaev’s brother Tamerlan was the
person who shot and killed Officer Sean Collier.

Number of jurors who so find:

[2]

7. Dzhokhar Tsarnaev would not have committed the
crimes but for bis older brother Tamerlan.

Number of jurors who so find:

[3]

8. Dzhokhar Tsarnaev’s teachers in elementary
school, middle school, and high school knew him to
be hardworking, respectful, kind, and considerate.

615
Number of jurors who so find:

[12]

9. Dzhokhar Tsarnaev’s friends in high school and
college knew him to be thoughtful, caring, and respectful of the rights and feelings of others.

Number of jurors who so find:

[11]

10. Dzhokhar Tsarnaev’s teachers and friends still
care for him.

Number of jurors who so find:

[3]

11. Dzhokhar Tsarnaev’s aunts and cousins love and
care for him.

Number of jurors who so find:

[12]

12. Mental illness and brain damage disabled Dzhokhar Tsarnaev’s father.

Number of jurors who so find:

[12]

13. Dzhokhar Tsarnaev was deprived of needed stability and guidance during his adolescence by his father’s mental illness and brain damage.

Number of jurors who so find:

[2]

14. Dzhokhar Tsarnaev’s father’s illness and disability
made Tamerlan the dominant male figure in Dzhokhar’s life.

Number of jurors who so find:

[2]

15. Dzhokhar Tsarnaev was deprived of the stability
and guidance he needed during his adolescence due
to his mother’s emotional volatility and religious
extremism.

Number of jurors who so find:

[1]

616
16. Dzhokhar Tsarnaev’s mother facilitated
brother Tamerlan’s radicalization.

Number of jurors who so find:

his

[10]

17. Tamerlan Tsarnaev became radicalized first, and
then encouraged his younger brother to follow
him.

Number of jurors who so find:

[8]

18. Dzhokbar Tsarnaev’s parents’ return to Russia in
2012 made Tamerlan the dominant adult in Dzhokhar’s life.

Number of jurors who so find:

[2]

19. Dzhokhar Tsarnaev is highly unlikely to commit,
incite, or facilitate any acts of violence in the future while serving a life-without-release sentence
in federal custody.

Number of jurors who so find:

[1]

20. The government has the power to severely restrict
Dzhokbar Tsarnaev’s communications with the
outside world.

Number of jurors who so find:

[2]

21. Dzhokbar Tsarnaev has expressed sorrow and remorse for what he did and for the suffering he
caused.

Number of jurors who so find:

[2]

617
General directions for Section V, continued:

• The law does not limit your consideration of mitigating factors to those that can be articulated in
advance. Therefore, you may consider during
your deliberations any other factor or factors in
Dzhokhar Tsarnaev’s background, record, character, or any other circumstances of the offense that
mitigate against imposition of a death sentence.
• The following extra spaces are provided to write
in additional mitigating factors, if any, found by
any one or more jurors.
• If more space is needed, write “CONTINUED”
and use the reverse side of this page.
22.

Number of jurors who so find:
23.

Number of jurors who so find:
24.

Number of jurors who so find:
25.

Number of jurors who so find:
26.

618
Number of jurors who so find:
27.

Number of jurors who so find:
28.

Number of jurors who so find:
29.

Number of jurors who so find:
30.

Number of jurors who so find:
31.

Number of jurors who so find:
Directions:

• After you have completed your findings in this
section (whether or not you have found any mitigating factors in this section), continue on to Section VI.

619
SECTION VI. DETERMINATION OF SENTENCE
General directions for Section VI:

• As used in this section, the term “capital counts”
refers only to those counts for which you found
the defendant was eighteen years of age or older
at the time of the offense charged in the count in
Section I, and at least one gateway factor in Section II, and at least one statutory aggravating factor in Section III. You may not impose a sentence of death on a particular capital count unless
you have first found with regard to that count,
unanimously and beyond a reasonable doubt, the
defendant was eighteen years of age or older at
the time of the offense charged in the count in
Section I, and at least one gateway factor in Section II, and at least one statutory aggravating factor in Section III.
• In this section, enter your determination of Dzhokhar Tsarnaev’s sentence with regard to each of
the capital counts.
Based upon consideration of whether the aggravating
factor or factors found to exist for each count sufficiently
outweigh the mitigating factor or factors found to exist
for that count to justify a sentence of death, or, in the absence of a mitigating factor, whether the aggravating factor or factors alone are sufficient to justify a sentence of
death:

_____ We, the jury, unanimously find, for all the
capital counts, that the aggravating factor
or factors found to exist sufficiently outweigh the mitigating factor or factors
found to exist or, in the absence of any

620
mitigating factors, that the aggravating
factor or factors are alone sufficient—so
that death is the appropriate sentence for
Dzhokhar Tsarnaev.
We vote unanimously that Dzhokhar Tsarnaev shall be
sentenced to death separately as to each
count.

_____

We, the jury, unanimously find that a sentence of life in prison without the possibility of release is the appropriate sentence
for Dzhokhar Tsarnaev for all of the capital counts. We vote unanimously that
Dzhokhar Tsarnaev shall be sentenced to
life imprisonment without the possibility
of release separately as to each count.

√

We, the jury, unanimously find, for some
of the capital counts, that the aggravating
factor or factors found to exist sufficiently
outweigh the mitigating factor or factors
found to exist or, in the absence of any
mitigating factors, that the aggravating
factor or factors are themselves sufficient
—so that death is the appropriate sentence for Dzhokhar Tsarnaev with regard
to each of the following capital counts
only (identify each count by count number):

[4, 5, 9, 10, 14, 15]

621
With regard to the above listed capital
counts, we vote unanimously that Dzhokhar Tsarnaev shall be sentenced to death
as to each count.

_____ Based upon our consideration of the evidence and in accordance with the Court’s
instructions, after making all reasonable
efforts, we, the jury, are unable to reach a
unanimous verdict in favor of a life sentence or in favor of a death sentence, for
any of the capital counts.
Directions:

• After you have completed your sentence determination in this section (regardless of what the determination was), continue on to Section VII.

622
SECTION VII. CERTIFICATION REGARDING
DETERMINATION OF SENTENCE

Each juror must sign his or her name and juror number
below, indicating that the above sentence determination
accurately reflect the jury’s decisions:

Date:

[5/15/15]

Directions:

• After you have completed this section, continue on
to Section VIII.

623
SECTION VIII.

CERTIFICATION

By signing your name below, each of you individually
certifies that consideration of the race, color, religious
beliefs, national origin, or the sex of Dzhokhar Tsarnaev
or the victims was not involved in reaching your individual decision. Each of you further certifies that you, as
an individual, would have made the same recommendation regarding a sentence for the crime or crimes in
question regardless of the race, color, religious beliefs,
national origin, or the sex of Dzhokhar Tsarnaev, or the
victims.

Date:

[5/15/15]

624
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Apr. 16, 2014
10:01 a.m.
MOTION HEARING

*

*

*

*

*

*

*

*

*

*

[18]
MS. CONRAD: There was one more area which I
believe were interviews with Todashev.
MR. WEINREB: So with respect to the interviews
with Todashev, as we state in our motion, the Middlesex
District Attorney’s Office is continuing to actively investigate the Waltham triple homicide. And we maintain
what we said in our first motion and continue to say in

625
this motion, which is that it would jeopardize that investigation unnecessarily by publicizing details of it just as
it would in the case of any homicide investigation.
The defense has since narrowed its focus to certain
areas of information that relates specifically to their client and the degree to which he may have been radicalized at different points in his life and other materials
which they laid out in their motion. We have agreed to
provide all information in the reports responsive to
those four areas and have omitted only the ones that relate specifically to the triple homicide and that fit within
the perimeter of our [19] earlier concerns about jeopardizing the investigation.
THE COURT:

Okay.

Mr. Bruck?

MR. BRUCK: Your Honor, I would like to just respond to the last area and then Ms. Conrad will deal with
the rest.
We do not yet have the Todashev interview materials
that the government has agreed to disclose, so I’m a little bit at a disadvantage in responding to those disclosures, but the one thing that we know we're not going to
get under the government’s latest response is the information that Todashev provided about the Waltham murders, which as we understand it and as anybody who
reads the newspapers knows, apparently implicated
himself and Tamerlan Tsarnaev, not our client. I think
Mr. Weinreb may have misspoken. We were not looking for materials from Todashev about our client’s radicalization, but about his brother Tamerlan’s.
MR. WEINREB:
Tamerlan’s.

I did misspeak.

I meant to say

626
MR. BRUCK: What I said at the beginning of this
hearing continues to loom large. This case is largely
about a family and the relationships between it—
between, in this instance, these two brothers. And the
fact, if it is a fact, that Tamerlan Tsarnaev slit the
throats of three helpless people, one of whom was described as a close friend, whether the defendant ever
learned of it or not is clearly a very important part of the
story in terms of who is the motivating, [20] the leading,
the active participant in what happened later.
We think we’re entitled to know what Todashev said
about this crime. We realize that he was apparently—
or from accounts he was apparently shot and killed before he could finish describing the Waltham murders,
but we think it’s critically important to find out what he
said about Tamerlan Tsarnaev’s involvement as long as
the interview lasted. The government says no unless
we apparently make some greater showing of relevance
to our own client's state of mind, but I think what I’ve
said is gracious plenty and that we ought to know that.
This is not disclosing to the public anything about an
ongoing investigation. We obviously are subject to a
protective order. We don’t share this with anybody
who’s not entitled to have it, that doesn't need to have it
on the defense team. It’s information in the broad
strokes that seem to have been leaked out or published
in all different sorts of ways already anyway, so it’s a
little difficult to see how this additional part of the
Todashev interviews is going to prejudice anything
about an ongoing investigation that apparently is directed, as far as we know, as two people who are both
dead.

627
We think this is important and we’re entitled to it,
and we would like the Court to order that that additional
portion of the Todashev information be disclosed.
[21]
THE COURT:

What’s the volume of this material?

MR. WEINREB: Are you referring to the material—
THE COURT:

The 302s.

MR. WEINREB: Solely related to any purported
involvement by Tamerlan Tsarnaev in both murders?
THE COURT:

Both, I guess.

MR. WEINREB:
THE COURT:
in camera.

I would say not great.

Well, my thought is I may review it

MR. WEINREB: We have no dispute with that,
your Honor. But I would like to emphasize we have noticed a tendency in the defense pleadings to attempt to
establish the materiality of large categories of information simply by labeling it critically important. We really dispute the idea that details about Tamerlan Tsarnaev’s purported involvement in the Waltham homicides
is critically important, particularly in the absence of any
allegation that Dzhokhar Tsarnaev knew anything about
it.
We have already disclosed that Tamerlan Tsarnaev
was implicated by this man, Todashev, in the triple homicides. Unless there is something that—in it that somehow relates to Dzhokhar Tsarnaev, either that he knew
about it, that he somehow participated in it, anything
like that, it has—far from being critically important, it
really seems to have no relevance. Their mitigation

628
theory, which is that Mr. Tsarnaev [22] was influenced
by his older brother, depends on what Mr. Tsarnaev believed to be the case, not what Mr. Todashev may or may
not have said was the case. And there is nothing in
those statements that would indicate that Tamerlan
Tsarnaev, to the extent that he was involved in the triple
homicide at all, conveyed that to the younger Mr. Tsarnaev.
So we don’t think it has any relevance at all, let alone
critical importance, to the mitigation strategy.
THE COURT: I understand the parties’ disagreement about the critical importance and materiality issue. And let me just say that as a general matter, it
seems that a good part of the defense argument is—sort
of going over that ground by way of general advisory,
I’m not inclined to change the view that I took last November about materiality as it relates to discovery issues either as a Brady matter or as a Rule 16 matter.
That’s a general observation occasioned by Mr.
Weinreb’s comments.
So with respect to this particular problem, then why
don’t we follow that course. If the government would
make a submission in camera indicating what has been
provided, what—the portions that have been provided to
the defense and what is at issue and the government
would seek to withhold, and I’ll examine it and make a
determination.
I’m not sure that there are a lot of issues that—I
mean, the papers—as I've said, I think the papers are
pretty [23] complete on setting forth your positions on
this, so I guess I’d look to anything that you really want
to highlight and—

629
MS. CONRAD: Sure. Thank you, your Honor.
will try not to go over old ground.

I

THE COURT: And, again, I say it in the context of
what I’ve just said, which is I think a lot of the defense
argument was asking, in a sense, for a reconsideration
of the materiality assessment.
MS. CONRAD: But it apparently succeeded in getting the government to reconsider on some of these issues.
THE COURT:

On some of the things you did?

MS. CONRAD: So in that respect I suppose I
should maybe on those issues quit while I’m ahead.
Your Honor, I would like to focus my attention on two
matters primarily, and that is the FTK, Forensic Toolkit, and the FISA. I do think there are outstanding issues with respect to lab reports. I just want the Court
to know that we are working very hard. We’ve had a
team go down to Quantico to review discovery there.
We’ve gone to the Mass. State Police. We’ve gone to
two FBI locations. We have reviewed thousands and
thousands of items. We have—are in the process of organizing and reviewing the information provided to
date.
*

*

*

*

*

630
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Thurs., Aug. 14, 2014
10:03 a.m.
STATUS CONFERENCE

*

*

*

*

*

*

*

*

*

*

[5]
Is that something the government would find acceptable?
MS. PELLEGRINI: Yes, your Honor.
communicate that to the firewall.

And I’ll

THE COURT: Okay. Other than, with respect to
communications to the Court, I would expect them to be
in writing in the ordinary course anyway, so I don't think
we have to provide for that. To the extent they would

631
not be in writing, they would likely be on the record.
So I don’t think we have to take any steps on that.
So beyond that, adding the requirement of the log for
communications, I see no reason for any further relief.
There were four points raised, and the government
agreed with 1 and 4. So this addresses Number 2, I
think. So that resolves that motion.
To the extent there is a still outstanding issue about
further discovery of what we might call Todashev matters, I thought actually we had resolved it. I had reviewed the matters that the government submitted in
camera, including recordings, and I see no reason to
compel any further discovery from that material.
*

*

*

*

*

632
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., Apr. 13, 2015
10:04 a.m.
SEALED
MOTION HEARING

*

*

*

*

*

[3]
PROCEEDINGS
THE CLERK:

All rise.

(The Court enters the courtroom at 10:04 a.m.)
THE CLERK: For a motion hearing, United States
versus Dzhokhar Tsarnaev, 13-10200. Will counsel
identify yourselves for the record, please.

633
MR. WEINREB:
Good morning, your Honor.
Bill Weinreb for the United States.
MR. CHAKRAVARTY:
MS. PELLEGRINI:
Nadine Pellegrini.
MR. MELLIN:
Steve Mellin.

Aloke Chakravarty.
Good morning, your Honor.

Good morning, your Honor.

MR. BRUCK: Good morning, your Honor. David
Bruck for the defendant with Judy Clarke and Bill Fick.
THE COURT:

Good morning.

All right. So we’re going to have argument on some
of the pending motions relating to evidence in the penalty phase. Let’s start with the government’s motion
regarding evidence of the Waltham murders.
MR. WEINREB: Your Honor, the defendant’s opposition to the motion makes clear that their argument
is purely a—essentially a 403(b) type of argument, that
it’s an argument that Tamerlan Tsarnaev had a propensity to commit violent crimes and to rope others into
committing them with him, and the jury should infer
from that that he is the type of person [4] who does this
and that he acted in conformity with that trait or that
character when he—in this case as well.
Putting aside for a moment the relevance of that kind
of argument, which as the Court knows is quite suspect
and problematic under the law, a condition precedent to
that kind of evidence every time it’s ever offered is that
there is enough evidence for the jury to believe that the
prior bad act, in this case Tamerlan Tsarnaev’s committing of the murders in Waltham, actually happened.
And that evidence is completely lacking in this case.

634
The only thing that the defense has to offer is the uncross-examined and uncross-examinable statement of
someone who was clearly somewhat unbalanced, if not
deranged at the time he made it, Abraham Todashev.
And I say that because right after making it, as he was
writing it down, he attacked a Massachusetts state police officer with the intent to kill him and, as the Court
knows, was shot dead in the course of doing that.
It’s important to take a look at just how unreliable
that statement by Mr. Todashev is. He was interviewed several times about Tamerlan Tsarnaev after the
marathon bombings. Three or four at least. In the
first of those interviews he never said anything about
Tamerlan Tsarnaev being involved in the Waltham triple homicides; in fact, he said that he and Tamerlan
Tsarnaev were never close, that they had had a fallingout in 2010 after which they essentially stopped [5] talking.
It was not until agents asked Mr. Todashev about his
own potential involvement in the Waltham triple homicides that he first implicated Tamerlan Tsarnaev in
them and tried to blame the whole thing on Tamerlan
Tsarnaev. He did that at a time when he knew that
Tamerlan Tsarnaev had been implicated as a murderer
in the Boston Marathon bombings and, therefore, it was
plausible to blame the whole thing on Tamerlan Tsarnaev, but he did it when he also knew that Tamerlan
Tsarnaev was dead and therefore could not deny his involvement in the Waltham triple homicides. And before saying anything about Tamerlan Tsarnaev at all, he
first asked for a deal that would protect him from his
own liability in connection with those homicides.

635
The first time he told the story of what happened that
night in Waltham, he blamed the entire thing on Tamerlan Tsarnaev. He said that he personally wasn’t even
there, that he was there beforehand and that he learned
about the murders the next day afterwards. When the
police confronted him with evidence suggesting that they
could prove differently, that he himself, Todashev, had
personally participated in the homicides, he took back
everything he had just said, admitted that it was all a lie,
and then admitted that he did, in fact, participate in the
homicides. But he still tried to blame everything on
Tamerlan Tsarnaev, saying that Tamerlan had masterminded it, Tamerlan had actually committed the murders, [6] that Todashev was actually, you know, a somewhat passive participant who just went along.
Even then his story was internally inconsistent. He
made statements during it which contradicted each other.
When they were pointed out to him, he just took them
back and said other things. He said things that seemed
fairly, if not wildly, implausible, such as that Tamerlan
Tsarnaev proposed the crime at a mosque during Ramadan despite the fact that Tsarnaev had just become
very religious. He also said that Tamerlan Tsarnaev
had a gun, even though we know that during the marathon bombings he had to use his brother’s gun and was
very much in search of a gun, and all of the evidence
points to the fact that Tamerlan Tsarnaev did not own a
gun.
But most importantly, because Mr. Todashev is dead,
he can’t be cross-examined about any of this. It’s little
different than if the defense had just picked up a rumor
that Tamerlan Tsarnaev had participated in these murders and wanted to put that in front of the jury and have

636
them conclude on the basis of all of that that Mr. Todashev actually committed them—I’m sorry—that Tamerlan Tsarnaev committed them.
So the Court should exclude the evidence to begin
with on the grounds that even assuming that it was relevant and even assuming it was not more prejudicial
than probative, which I’ll address in a minute, that there
simply is not enough evidence that Tamerlan Tsarnaev
actually committed these murders. The [7] only evidence again that they offer to propose is this single
statement by a person who gave it under circumstances
indicating that he had every motive to lie, to implicate
somebody else, to cover up his own involvement in it, and
he made an accusation against someone he knew was a
murderer but who he also knew was dead and couldn’t
respond to it. And he then himself, immediately after
giving it, engaged in an act of violence that resulted in
his own death and he can no longer be cross-examined
about it. That is about as unreliable a basis for the jury
to conclude that this happened as it gets.
The government also moves to exclude it on the
grounds that it is—this type of argument in general
about propensity and this particular argument is prone
to confusing, misleading and distracting this jury. The
first thing that will confuse, distract and mislead them
is the need for them to determine whether Tamerlan
Tsarnaev participated in the murders at all. This is going to require them to consider in detail a great deal of
evidence about Mr. Todashev’s credibility because if the
defense is permitted to put into evidence the statement
of Mr. Todashev, the government will be obliged to
bring in all the evidence it has to show that Mr. Toda-

637
shev is not credible. And there is a boatload of evidence. And the jury will be distracted into a sideshow
of trying to figure out whether somebody—whether
Tamerlan Tsarnaev is guilty of some other crime entirely separate from the one that they are—they just [8]
decided. They’ll have to be debating or deciding the
outcome of a murder case that has nothing to do—or almost nothing to do with the sentencing of the defendant,
which is the reason they’re here today.
And even if they conclude that based on Mr. Todashev’s statement there is reason to believe that Tamerlan Tsarnaev was involved in the triple homicides,
they’re still going to have to conclude that he was involved in it in the way that Mr. Todashev says that he
was because, for example, if Mr. Todashev planned the
robbery and just asked Tamerlan Tsarnaev to participate and Tamerlan Tsarnaev was the one who just went
along and so on, then the information has zero relevance.
There’s no propensity argument that could even be
made on the basis of it. And the government, therefore, will be obligated to offer evidence to that effect,
that there is nothing to corroborate Mr. Todashev’s account, at least as far as the government knows, of the
respective roles that he says that he and Tamerlan Tsarnaev played in this.
So again, we will be having a mini trial on this that
will get involved in forensic evidence, the scope of the
investigation, what other witnesses have said about Mr.
Todashev, about Tamerlan Tsarnaev, about their relationship with one another and so on.

638
Then even assuming we get past all of that, the jury
still has to decide what weight to give propensity of evidence. [9] And that’s something they could also conceivably hear evidence on.
And then the fourth thing they would have to do is
figure out what bearing all of this should have on the
sentence of Dzhokhar Tsarnaev, which is the reason
they’re here in the first place. The connection between
Tamerlan Tsarnaev’s potential involvement in a murder,
the circumstances of which will forever be murky and
perhaps unknowable because Mr. Todashev, who was
the one person who confessed to actually being involved
in it, is dead, that is going to become part of the mix of
this very difficult decision that the jurors have to make
—an individualized decision about the culpability of this
defendant, Dzhokhar Tsarnaev, for these crimes. And
it’s simply too much of a distraction, it’s too confusing, it
has too much of a risk of misleading them for the Court
to admit it given its very, very slim, if existent, probative
value.
THE COURT:
MR. FICK:

Mr. Fick?

Thank you, your Honor.

On the question of reliability, I guess the first thing
I would say is all of the things that Mr. Weinreb just said
really go more to weight than to admissibility, particularly in a capital sentencing proceeding where the rules
of evidence on this kind of thing are relaxed. And the
government is, I think, overstating the extent to which
the confession is unreliable. I mean, to hear everything
the [10] government says, if those arguments could be
employed, for example, by a defendant whose admission

639
is sought to be admitted into evidence, then I would suspect there would be many, many more excluded defendants’ confessions in other cases and verdicts of acquittal.
Essentially, all of these things are issues for the jury to
decide: whether the confession is reliable and why or
why not.
The government is also, I think, overstating the extent to which the confession is the only evidence of Tamerlan’s involvement in this murder. First of all, you
have the computer file that apparently Tamerlan was
reading within weeks of the Todashev murder—of the
Waltham murders about stealing or taking or seizing the
property of infidels. Within a couple of weeks of that
the Waltham murders happened. It’s characterized as
a drug rip-off. And it would seem then that Tamerlan
has found the ideological basis for what he’s about to do
and then goes about doing it with the assistance of his
friend Mr. Todashev.
THE COURT: You have, I presume, thoroughly
looked at Tamerlan’s computers and his files. Is there
any connection in there—any mention of Waltham?
MR. FICK:

Any mention of Waltham?

THE COURT: Not necessarily by using the word
“Waltham,” but anything to suggest he was writing
about the events that are suspected?
[11]
MR. FICK: Not that I’m aware of, writing about
the events either before or after in any specific way.
THE COURT:

Are there references to Todashev?

MR. FICK: There’s extensive communication, particularly by Skype, with Todashev. Mr. Tamerlan sends

640
back and forth messages to Mr. Todashev including
links to various radical, one might say, jihadist images
and videos on the Internet, so they’re certainly in communication in the years surrounding all of these events
about the views of radical Islam, one might say.
THE COURT:
And anything that sounds like
they’re talking about the Waltham events?
MR. FICK: Not in any explicit way other than the
extent to which they’re conferring with each other about
religiously motivated violence and why that may or may
not be justified.
THE COURT:
MR. FICK:
here right now.

How about selling marijuana?
I don’t have—I’m not sure standing
It’s not something that I focused on.

I’d also note that the government sought a search
warrant or search warrants—either the government or
the Massachusetts authorities. I’d have to look at the
warrant now to recall exactly, but it was in the discovery
—for Tamerlan’s vehicle based on probable cause to believe he was involved in the Waltham murders. And so
at least at some point [12] authorities believed there was
probable cause to believe that that occurred.
And the final thing is it’s a very peculiar argument
the government is making because they have chosen
taking their representations at face value to insulate
themselves from all of the investigation that Middlesex
has done about these homicides, and saying essentially,
We don’t know, and we don’t want to know, and in conjunction with that, essentially block the defendant from
pursuing additional investigations.

641
So we have a situation where there is a confession, a
confession and implication of Tamerlan Tsarnaev. The
person who made that confession was killed by the FBI
in circumstances that are, shall we say, murky and not
definitively resolved? And so—and at the same time
the government has chosen not to learn anything about
other evidence that may bear on those murders. And
so for all of those reasons, this is really, again, a question
of weight rather than admissibility. The jury is capable of sorting out evidence like this, they’re capable of
deciding what, if any, importance it deserves, and this is
not a reason to exclude it.
It’s particularly odd in the context of a capital proceeding because in any normal case where, say, two
brothers were not coconspirators or co-committers of
the underlying crime, part of the family history in any
normal capital sentencing presentation would talk about
instances of violence [13] or instances of bad conduct by
other members of the family, instances of mental health
problems by other members of the family.
And so this kind of evidence, even if there were no
connection to the underlying crimes which we have here,
would be sort of part and parcel of the overall family history picture that gets painted in a capital proceeding.
And so to exclude it here because it has particularly
strong relevance would be a peculiar result indeed.
And I think that essentially—you know, what the
government says about the reasons why this particular
species of propensity evidence in general would create a
sideshow, I mean, any piece of evidence, depending on
how the parties focus on it, argue it and the importance
the jury attributes to it, could wind up taking on outside
pieces of importance in their deliberations or it may not.

642
But, again, these are things that the parties are capable
of arguing and the jury is capable of deciding, whereas
here we have a clear—well, we have a variety of types of
evidence and types of personal history that we expect to
put in evidence about the nature of Tamerlan Tsarnaev,
the outside influence he had on his brother, the kinds of
interpersonal violence he exercised in a variety of settings to essentially coercively control other people.
The evidence that he committed a particularly gruesome
crime by sort of enlisting somebody who he had influence over is a very, [14] very—it’s an exceptionally
strong piece of evidence that the defense ought to be
able to introduce.
THE COURT: How would you present the evidence? What would it be?
MR. FICK: Well, in the first instance, we have
Todashev’s written confession itself, and then there are
various investigative materials from a Florida attorney
general investigation which we would submit are admissible under the government—official investigation against
the government hearsay exception. I mean, so those
would, at least in the first instance, paint the picture of
this is what Todashev said, this is what the interaction
was with law enforcement.
In addition to that, we have the evidence from the
computer about the relationship between Todashev and
Tamerlan, as well as the—just weeks before this ideological document, so to speak, about seizing or stealing
the property of infidels.
Whether we’re able to pursue more I guess would depend on the Court’s rule. If the Court determines this
is admissible, we can certainly pursue initial third-party

643
discovery of this issue as well. It seems to me that,
again, we don’t know what Middlesex authority’s position is sitting here today, but given the passage of time,
the likely—sort of the weighing of their law enforcement
privilege, so to speak, as that exists under the law versus
the need for the [15] evidence and the potential importance it has in this case, I think that weighing may
be different than it was early on when we were seeking
discovery really at the beginning of the case. So there
may well be forensic and other evidence in the possession of Middlesex authorities which we could obtain, although obviously we do not have it right now.
THE COURT:

Okay.

Go ahead.

MR. WEINREB: Your Honor, the government—
contrary to what Mr. Fick said, the government is not
questioning the reliability of Mr. Todashev’s confession
to his own criminal activity. That is a statement against
interests, and I believe that that alone gives that portion
of it some indicia of reliability. It’s his attempt to shift
blame onto a third person that is the opposite of—that’s
an indication of unreliability, well acknowledged under
the case law. The defense cites the hearsay exception
for statements against interest, but normally if somebody confesses but in the course of confessing they essentially try to shift all of the culpability onto somebody
else, that part is redacted and is excised out. It’s just
their own confession that is admitted in recognition of
the fact that the blame-shifting part is the opposite of
reliable and it’s only the self-implication part that is normally deemed reliable.
It is not true that the government has chosen to insulate itself from the Middlesex District Attorney’s [16] in-

644
vestigation of the Waltham triple homicides. The Middlesex district attorney’s office has decided to insulate
us from their investigation. We made requests for that
information. They said no. They said it’s a confidential investigation by a sovereign that is independent of
their investigation of this case, and they declined to allow us to view the file or to look at the evidence in that
case. And that position, as far as I know, has not
changed.
There is nothing murky about the circumstances under which Mr. Todashev was shot dead after confessing.
It was investigated thoroughly by three separate agencies who issued very lengthy published reports. No
need for me to repeat what’s in them. They speak for
themselves. But I think that is yet another example of
the kind of sideshow that we will see if this information
is put before the jury during the sentencing phase and
will just serve to further distract them from the job that
they have here, which is to make an individualized assessment of the defendant’s character and the nature of
his crimes, not the character and nature of other people
stretching from his brother all the way through Todashev to the officers who were present in the room when
Mr. Todashev was shot.
And then finally, this idea of coercive control, that’s
just not even in the statement itself. Even Mr. Todashev did not go so far in trying to shift blame onto [17]
Tamerlan Tsarnaev to say that Tamerlan Tsarnaev coercively controlled him nor would that have been remotely plausible. Mr. Todashev, as the Court is probably aware, was an extremely experienced mixed martial arts expert. He was a walking deadly weapon.
Shortly before he attacked the agents in his apartment,

645
he engaged in an episode of what’s commonly referred
to as road rage where he beat someone to a bloody pulp
who just got into a traffic altercation with him. There’s
no evidence that the defense can point to anywhere, including Mr. Todashev’s own statement, that Tamerlan
Tsarnaev controlled him in any way.
THE COURT:

Go ahead.

MR. FICK: Just very briefly on the statement
against interests, again, we’re, of course, operating not
in a strictly, you know, four corners of the rules of evidence. And certainly if Tamerlan Tsarnaev were on
trial, Todashev’s statement against interests implicating Tamerlan might be excludable in the sense that—
well, because the sort of due process right of Tamerlan
vis-à-vis the nature and reliability of the statement, that
weighing would be different.
But what we have here is a very different situation
where Todashev implicates himself. And the only way
that implicating of himself makes any sense is to talk
about what he did together with Tamerlan. I mean,
these people who were killed, Brendan Mess and the two
others, these are Tamerlan’s [18] friends. There’s no
indication that Todashev had any preexisting relationship with them. So everything about Todashev’s selfimplication only makes sense in the context of it being
part of what Tamerlan did.
THE COURT: Let me ask about the computer information. Again, with respect to the victims in Waltham, what, if anything, do Tamerlan’s computers have
to say about that? Do they show a dealing relationship,
for example?

646
MR. FICK: You know, Tamerlan did not communicate a lot on his computer except via Skype and so—and
that was largely with either Mr. Todashev in Florida or
here or people up overseas. His text messages and
emails are really not on the computer itself. There
were search warrant returns for providers for those
things, and you don’t really see a lot of interaction between him and Mr. Mess or others in the electronic evidence that we have.
THE COURT: So I guess what I’m looking for: Is
there anything that you’re aware of that would tend to
be some kind of objective corroboration for your theory
about the relationship of Todashev and Tamerlan?
MR. FICK: Well, many, many civilian witnesses,
including Tamerlan’s wife, although whether we would
call her or not is a question, but there’s ample sort of lay
witness evidence to suggest that Brendan Mess, one of
the three people killed, was one of Tamerlan’s best friends
for years, they [19] spent time together, they smoked
marijuana together. There may have been some sales
relationship back and forth. And certainly there’s evidence to suggest—or there is civilians who would suggest that Mess in particular and the others were sort of
large-scale marijuana dealers themselves.
You know, exactly how we could corroborate that in
terms of electronic evidence, I’m not certain. That
may not be something that within the four corners of
electronic evidence is there. But there’s—certainly lay
witnesses would be able to establish the basic bona fides
of the relationship between Tamerlan and the murder
victims.

647
Oh, and the other peculiar piece of behavior was—
and this is something that civilians have talked about—
Tamerlan did not attend Brendan Mess’s funeral, sort of
stayed away, even though for years they had been considered best friends. And that was something that people thought odd, that, you know, there had been questions
asked about why law enforcement didn’t think that odd
and investigate Tamerlan earlier. But, again, for what
it’s worth, that’s another piece of civilian testimony—or
available civilian evidence that would go to Tamerlan’s
peculiar behavior around these homicides and his relationship with those individuals.
And Ms. Clarke reminds me, again, I would have to
go back and look exactly at the call history, but there
may well have been some telephone calls around the
time of the homicide [20] either between Tamerlan and
one or more of the victims and/or between Tamerlan and
Todashev. But standing here right now, I don’t have
that sort of lined up in my head.
THE COURT:

Okay.

All right.

I’ll reserve on it.

I think the next—actually, the next one in sequence
on the docket is the government’s motion regarding plea
negotiations. That’s repeated in the omnibus motion.
I don’t know whether—why don’t we address that.
Mr. Mellin?
MR. MELLIN:

Thank you, your Honor.

Your Honor, as to that, there are actually three circuits that have kind of decided and discussed this issue.
It’s the Fourth, Sixth and Eighth Circuits have all come
out with either one circuit saying that this information
should not come in because it doesn’t go to acceptance
of responsibility, or the Fourth Circuit went a little more

648
restricted in saying that the district court in the Caro
case did not err in restricting that information from
coming in.
The basis of the argument is, your Honor, that under
Rule 410, plea negotiations are supposed to be kept private. I mean, that is the whole point of plea negotiations and that’s the point of Rule 410, that the information is not supposed to be used by either side later on
because that would tend to discourage plea negotiations
and not encourage plea negotiations.

649
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Apr. 7, 2015
12:08 p.m.
SEALED LOBBY CONFERENCE

*

*

*

*

*

[3]
PROCEEDINGS
THE CLERK:

All rise.

(The Court enters the courtroom at 12:08 p.m.)
THE CLERK: The United States District Court
for the District of Massachusetts. Court is in session.
Be seated.

650
For a lobby conference in the case of United States
versus Dzhokhar Tsarnaev, 13-10200. Will counsel
identify yourselves for the record.
MR. WEINREB: Good afternoon, your Honor.
William Weinreb for the United States.
MR. CHAKRAVARTY:
varty, your Honor.
MS. PELLEGRINI:
Nadine Pellegrini.

As well as Aloke Chakra-

Good afternoon, your Honor.

MR. BRUCK: Good afternoon, your Honor. David Bruck, Judy Clarke and Tim Watkins for the defendant.
THE COURT: Okay. Let me begin by resolving
some of the issues that were discussed the last occasion.
The government’s motion in limine to preclude reference to the Waltham triple homicide or other alleged
bad acts is granted as to the Waltham events. The reason is that there simply is insufficient evidence to describe what participation Tamerlan may have had in
those events. I know that the defense has a theory
about what those things were, but I don't believe there’s
any evidence that would permit a neutral finder of fact
[4] to conclude that from the evidence.
From my review of the evidence, which includes an in
camera review of some Todashev 302s, it is as plausible,
which is not very, that Todashev was the bad guy and
Tamerlan was the minor actor. There’s just no way of
telling who played what role, if they played roles. So it
simply would be confusing to the jury and a waste of
time, I think, without very—without any probative
value.

651
As to other bad acts, it will depend. I mean, I see on
the witness list witnesses who might be able to testify to
behavior of Tamerlan that would be relevant to the defense theory of domination. So I’m not going to, as a
blanket matter, exclude all bad acts. We’ll deal with
those issues as they arise.
With respect to the government's motion to preclude
reference to plea negotiations, to the extent the government presses its non-statutory aggravating factor of absence of remorse, I think it’s fair that the defendant
could respond by showing an offer to plead guilty, but it
would then be open to the government to explain the
conditions that were attached, including with respect to
the sentence and the refusal to participate in a proffer.
If that goes forward, let me just suggest that the best
way to handle that, if the parties wanted to, would be by
stipulation, perhaps.
*

*

*

*

*

652
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Nov. 27, 2013
ORDER

O’TOOLE, D.J.
* * * * *
What the standard is for assessing materiality under
Rule 16(a)(1)(E)(i) is somewhat unsettled. See United
States v. Pesaturo, 519 F. Supp. 2d 177, 190 (D. Mass.
2007). Some courts have concluded that it “essentially
tracks the Brady materiality rule.” United States v.
LaRouche Campaign, 695 F. Supp. 1290, 1306 (D. Mass.
1988). Others have had an arguably more latitudinarian view. See United States v. Lloyd, 992 F.2d 348, 351
(D.C. Cir. 1993) (stating that “evidence is material as
long as there is a strong indication that it will play an
important role in uncovering admissible evidence, aiding witness preparation, corroborating testimony, or assisting impeachment or rebuttal”) (quoting United
States v. Felt, 491 F. Supp. 179, 186 (D.D.C. 1979)).
Still others seem to cite both articulations, as if there
was no substantial difference between them.
See

653
United States v. George, 786 F. Supp. 56, 58 (D.D.C.
1992).
The defendant has not made a prima facie showing of
materiality under any of these formulations. He essentially seeks access to the government’s information haystack because he is confident there are useful evidentiary needles to be found there. That is simply not
enough to trigger a disclosure obligation under Rule
16(a)(1)(E)(i). Contrast the generality of the defendant’s presentation here with the very specific showing of
materiality made in Pesaturo. In that case, the defendant presented detailed information in support of his
claim to the discoverability of the identity of a non-testifying informant. 519 F. Supp. 2d at 181-83. There
is not a similar showing here.26
The defendant also contends that certain materials
are discoverable under Rule 16(a)(1)(E)(ii) as items that
the government “surely” intends to use in its case in
chief. The government represented at oral argument
that it has produced all such items. I accept that representation in the absence of any specific indication to
the contrary. As noted, the government’s discovery
obligations are ongoing, and if it later appears that the

In request 9, the defendant seeks “[a]ll documents concerning
the investigation of the 2011 triple homicide in Waltham, MA, on
September 10-11, 2011.” In addition to the reasons discussed in the
text as to all his requests, this request should also be denied because
of the qualified “law enforcement investigatory privilege,” which
protects from disclosure investigative files in an ongoing criminal investigation. See Cabral v. U.S. Dep’t of Justice, 587 F.3d 13, 23 (1st
Cir. 2009). The defendant has not articulated a specific need for
these privileged materials, much less a need which overrides the
need to keep confidential the details of an ongoing investigation.
2

654
government has not produced material covered by Rule
16(a)(1)(E)(ii), the matter can be revisited.
III.

Discovery under Federal Rule of Criminal Procedure 16(a)(1)(B)

In request 6, the defendant seeks production of all
“[a]udio recordings of telephone calls from FMC Devens
and reports/transcripts concerning/comprising those
calls if/as they are created” under Rule 16(a)(1)(B),
which states that:
Upon a defendant’s request, the government must
disclose to the defendant, and make available for inspection, copying, or photographing . . .
(i) any relevant written or recorded statement by
the defendant if:
• the statement is within the government’s
possession, custody, or control; and
• the attorney for the government knows—or
through due diligence could know—that the
statement exists. . . .
Fed. R. Crim. P. 16(a)(1)(B)(i). The government has
responded that while it is obliged only to produce “relevant” recorded statements by the defendant, it will voluntarily produce reports or transcripts of his calls on a
periodic basis.
*

*

*

*

*

655
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Apr. 17, 2014
ORDER

O’TOOLE, D.J.
The defendant’s discovery motions (dkt. nos. 233,
235) are DENIED with the exception that reports of
Ibragim Todashev’s statements to the FBI are to be
submitted to the Court for in camera review in a way
that indicates: (a) what will be produced to the defendant, and (b) what the government seeks to withhold from
production.
It is SO ORDERED.
/s/

GEORGE A. O’TOOLE, JR.
GEORGE A. O’TOOLE, JR.
United States District Judge

656
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Nov. 25, 2014
OPINION AND ORDER

O’TOOLE, D.J.
The defendant’s Motion to Compel Discovery (dkt.
no. 602) is DENIED.
Documents from the Russian Government: The defendant’s request for unredacted copies of documents
furnished by the Russian government after the Marathon bombings is denied at this time. If the defendant’s ability to use disclosed information at trial is hampered by the redactions, the matter can be revisited.
In addition, the defendant’s request for complete copies
of pages with text which appears to have been cut off
inadvertently is moot in light of the government’s representations that it will try to obtain a copy of the materials with the text restored and will produce the material
if successful.
Pre-2013 Communication from the Russian Government: The government represents that it has disclosed

657
the substance of the communication. It does not appear that the production of a copy of the communication
would furnish additional information that would be helpful or material to the defense. The defendant’s request
for a copy of the communication itself, which the government describes as consisting of an unidentified Russian
analyst’s opinion about the significance of the underlying information, is therefore denied.
Transcripts/Translations of the Defendant’s BOP
Calls: In light of the government’s agreement to produce any transcripts in its possession, the defendant’s
request is moot.
Reports of Computer Forensic Examinations: The
government has represented that there are no other reports of examination similar to the analysis of the defendant’s computer referred to in the defendant’s motion. (Mot. to Compel Ex. E (dkt. no. 602-5) (under
seal).) In light of the representation, the defendant’s
request is moot.
List of Digital Devices: The defendant’s request for
the “government’s list identifying which among [the digital] devices it actually intends to use at trial,” (Mot. to
Compel) (dkt. no. 602), is denied in light of the scheduling order establishing a deadline for production of the
government’s exhibit list.
Russian Communications Regarding Defense Team
Travel Issues: The defendant’s request is denied.
OIG Report: The defendant’s request is denied.
FBI Todashev Materials: The defendant seeks production of certain FBI materials related to Ibragim
Todashev’s statements about Tamerlan Tsarnaev’s participation in the murder of three men in Waltham in

658
2011. With respect to this issue, the government had
submitted to me for in camera review FBI 302 reports
of interviews of Todashev, as well as a video and audio
recording of an additional interview. Only one of these
materials, an FBI 302 report dated June 7, 2013, is pertinent to the request. The government objects to the
request.
The government represents that a state law enforcement investigation of the Waltham murders is ongoing
and for that reason invokes the limited investigatory
privilege. See Comm. of Puerto Rico v. United States,
490 F.3d 50, 62-64 (1st Cir. 2007). It also asserts that
it has already conveyed the fact and general substance
of Todashev’s statements concerning the murders, and
principles governing discovery in criminal cases do not
require more.
After careful consideration, I agree with the government as to both points. As to the first, disclosure of the
report risks revealing facts seemingly innocuous on
their face, such as times of day or sequences of events,
revelation of which would have a real potential to interfere with the ongoing state investigation. As to the
second, I fully understand the mitigation theory the defense thinks the requested discovery may advance. After review, it is my judgment that, contrary to the defense speculation, the report does not materially advance that theory beyond what is already available to
the defense from discovery and other sources. It
would be a different matter if Todashev were available
as a potential witness. Without that possibility, the
utility of the report to the defense in building a mitigation case is very low at best. I conclude that the report
is not material and helpful in the necessary sense.

659
The defendant’s motion regarding this topic is denied.
Search Warrant Return for Zubeidat Tsarnaeva’s
Emails: The requested materials do not appear to fall
within the scope of Local Rule 116.1(c)(1)(B).17 The defendant’s request is therefore denied.
It is SO ORDERED.
/s/

GEORGE A. O’TOOLE, JR.
GEORGE A. O’TOOLE, JR.
United States District Judge

Implicit in this ruling is my understanding that the government
represents that the search warrant also did not lead to the discovery
of evidence that the government intends to use in its case-in-chief.
See L.R. 116.1(c)(1)(B)(i).
1

660
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

No. 13-CR-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Nov. 7, 2013
REPLY TO GOVERNMENT’S OPPOSITION
TO MOTION TO COMPEL DISCOVERY

*

*

*

*

*

Defense Request # 9. All documents concerning the
investigation of the triple homicide that occurred in
Waltham, MA on September 10-11, 2011, including
without limitation documents concerning investigation of the alleged involvement of Tamerlan Tsarnaev, Ibragim Todashev, and/or our client in those
murders.
The government argues that disclosure related to
Tamerlan Tsarnaev’s alleged involvement in the triple
homicide is premature and goes on to invoke the common law privilege protecting an ongoing investigation.
(Opp. at 21-22.) The government is wrong about timing for the reasons explained above. As to the purported law enforcement privilege, according to the very
case that the government cites, it must submit responsive documents to the Court for in camera inspection in

661
order to determine whether the government’s interest
in protecting details of the investigation outweighs the
defendant’s interest in disclosure. See In re Department of Homeland Security, 459 F.3d 565, 570 (5th Cir.
2006) (“On remand, the district court should review the
documents at issue in camera to evaluate whether the
law enforcement privilege applies to the documents at
issue. In making its determinations, the court must
balance the government's interest in confidentiality
against the litigant’s need for the documents.”) (internal
quotation marks omitted).
*

*

*

*

*

662
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Crim. No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV, DEFENDANT
Filed: Apr. 11, 2014
GOVERNMENT’S OPPOSITION TO DEFENDANT’S
MOTIONS TO COMPEL

*

*

*

*

*

Although the government maintains its position that
Anzor and Tamerlan’s A-files are not discoverable under
either Rule 16 or Brady, it will nevertheless produce
them based on the defense representation that receipt
of this information will save them considerable time and
effort and therefore help ensure that there are no delays
in the existing motion and trial schedule.
7.

Information relating to FBI contacts with Tamerlan

On April 14, 2011, an FBI agent interviewed Anzor
Tsarnaev (with Zubeidat Tsarnaev present). On April
22, 2011, an FBI agent interviewed Tamerlan Tsarnaev
(with Anzor Tsarnaev present). The government will
provide both interviews to the defense shortly. The
FBI did not ask Tamerlan Tsarnaev to be a government
informant in either of those interviews (or in any other

663
interaction of which the government is aware). Indeed, we are not aware of any other FBI interviews of
Tamerlan Tsarnaev at all.
8.

Ibragim Todashev interviews

Ibragim Todashev’s interviews with the FBI do not
contain information that is favorable and material within
the meaning of Brady or material to preparing the defense within the meaning of Rule 16. Moreover, the
Middlesex District Attorney’s Office is actively investigating the Waltham triple homicide and continues to believe that disclosure of Todashev’s statements concerning that crime would jeopardize its ongoing investigation. Nevertheless, with the exception of information
relating to the triple homicide, we will produce all information in the Todashev interviews that relates to Tamerlan Tsarnaev.
Tsarnaev’s speculation about the contents of the
Todashev interview reports is wrong. Tsarnaev speculates that Todashev’s statements about the triple homicide “focused on Tamerlan’s religious beliefs, his mental
condition, his violent behavior apart from the Waltham
murders, his trip to Dagestan, and his relationship with
his younger brother.” (Deft. Mot. at 19). In fact,
Todashev’s statements regarding the Waltham murders
mention none of those things. All of Todashev’s statements to the FBI that relate to Tamerlan’s religious beliefs, his mental condition, his violent behavior apart
from the Waltham murders, his trip to Dagestan, and
his relationship with his younger brother will be produced to the defense.
The government does not agree with the defense that
Tamerlan’s having committed a gruesome triple murder

664
—and having a ‘close friend’ among the victims—would
powerfully support the inference that Dzhokhar experienced his older brother as an all-powerful force who
could not be ignored or disobeyed.” (Deft. Mot. at 20).
Even assuming Tamerlan participated in the triple homicide, the defense has not even alleged that Dzhokhar
Tsarnaev knew about Tamerlan’s purported involvement. Absent such knowledge, there is simply no logical connection between Tamerlan’s purported involvement in the murders and Dzhokhar Tsarnaev’s experience of Tamerlan.
Indeed, whether Tamerlan Tsarnaev actually participated in the Waltham triple homicide is irrelevant to
the question of whether Dzhokhar Tsarnaev’s crimes
warrant the death penalty. If the defense theory is
that Dzhokhar Tsarnaev heeded and obeyed Tamerlan
because he believed Tamerlan was a murderer, then it is
Tsarnaev’s belief that matters, not whether Tamerlan
actually committed the Waltham murders. The Court
should not permit Tsarnaev to conduct a mini-trial of
Tamerlan’s involvement in the Waltham murders because it has nothing to do with the brothers’ relative culpability for the murders they committed together.
And in any case, Todashev, now deceased, could not be
a witness at such a mini-trial, making his statements legally immaterial.
*

*

*

*

*

665
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Nov. 4, 2014
REPLY TO GOVERNMENT’S OPPOSITION TO
MOTION TO COMPEL DISCOVERY

*

*

*

*

*

Waltham Murders

The government states that “nothing has changed to
warrant reconsideration of the Court’s earlier ruling,”
that the Middlesex investigation “remains active and ongoing,” that Tamerlan’s “actual participation in the Waltham homicides” would not be relevant, and that “the
government has no evidence that Tamerlan Tsarnaev
actually participated in the Waltham murders.” Opp.
at 6-8.
What has changed are (1) the passage of time in which
the Middlesex investigation has proceeded, and (2) the
rapid approach of the trial date. The need for the government to withhold information based on the theoretical risk that its disclosure (subject to a stringent protective order) could jeopardize an investigation shrinks as

666
time passes and the defense need for the information becomes more critical. The Court should reassess the
considerations surrounding the government’s assertion
of an investigative privilege.
The government is simply mistaken to think that actual participation of Tamerlan in the Waltham homicides
is not relevant. Part of the jury’s assessment in a penalty phase would be the relative culpability and contrasting personal attributes of those implicated in the
charged crimes. Evidence of Tamerlan’s past participation in an unusually brutal triple homicide, in contrast
to Dzhokhar’s non-violent reputation and lack of a prior
record of violence, is mitigating with respect to Dzhokhar’s relative role.
The government’s assertion that it “has no evidence”
of Tamerlan’s participation in the Waltham murders is
puzzling given its earlier assertions, set forth in defendant’s motion. Presumably this means that it has no evidence other than Todashev’s alleged confession. Whatever it means, the statement begs the question of whether local law enforcement, which undeniably is part of the
“prosecution team” for the Marathon investigation, has
forensic or any other evidence of Tamerlan’s participation in the murders that federal prosecutors don’t physically possess. In any event, evidence concerning the
murders, in particular their singular brutality, nevertheless would be relevant when coupled with Todashev’s
supposed statement implicating Tamerlan.
*

*

*

*

*

667
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
FILED UNDER SEAL

Criminal No. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV
Filed: Apr. 14, 2014
OPPOSITION TO GOVERNMENT’S MOTION IN
LIMINE TO PRECLUDE ANY REFERENCE TO
WALTHAM TRIPLE HOMICIDE OR OTHER
ALLEGED BAD ACTS OF TAMLERAN TSARNAEV

Defendant, Dzhokhar Tsarnaev, by and through
counsel, respectfully submits this opposition to the government’s Motion in Limine to Preclude Any Reference
to Waltham Triple Homicide or Other Alleged Bad Acts
of Tamerlan Tsarnaev. [DE 867 (filed under seal).]
The government’s motion should be denied because
Tamerlan’s participation in the Waltham murders and
evidence of his other “bad acts” support multiple aspects
of the defense mitigation case regardless of whether or
not Dzhokhar had specific awareness of any particular
instance of Tamerlan’s conduct.
The defense seeks to establish that “[b]ut for the influence of his older brother Tamerlan, the defendant
would not have committed any of the crimes of which he
was convicted.” The government concedes that “the

668
jury may consider as a mitigating factor the Tsarnaev
brothers’ relative responsibility” for those offenses.
Mtn. at 4. The defense therefore already has started
to elicit and will continue to elicit evidence that Tamerlan played the lead role in planning and carrying out the
offenses of conviction and that he exercised dominating
influence over Dzhokhar for reasons including age, size,
culture, character, and behavior. In addition, the defense
is entitled to counter the government’s “motive” evidence
purportedly suggesting Dzhokhar’s “self-radicalization”
by showing instead that Tamerlan was the first to adopt
violent “jihadist” beliefs and then sought to draw his
younger brother into that belief system. Evidence of
the Waltham murders, specifically, and other “bad acts”
of Tamerlan, more generally, strongly support all of
these facets of the defense case.
I.

EVIDENCE OF THE WALTHAM MURDERS IS RELEVANT
AND POSES NO RISK OF UNFAIR PREJUDICE.

The government contends that evidence concerning
Tamerlan’s participation in the Waltham murders should
be excluded because “the jury may not spare the defendant merely because his brother was a ‘worse criminal’ or
more reprehensible person based on other criminal acts.”
Mtn. at 4. But that is not the purpose for which the evidence would be offered. Evidence tending to show
that Tamerlan committed the Waltham murders, and information depicting the brutality of those murders,
would tend to corroborate Tamerlan’s dominant role in
planning and carrying out the charged offenses. Evidence that Tamerlan planned and committed the Waltham murders makes it more plausible to believe that he
planned and played the lead role in the offenses of conviction. It reinforces other evidence concerning Tamerlan’s violent character and supports the proposition

669
that he exercised coercive control over his brother.
[REDACTED]. Simply put, Tamerlan’s participation in
the Waltham murders is probative of multiple issues
even assuming, arguendo, that Dzhokhar was unaware
of it at the time.
Notably, even if the Rules of Evidence applied in the
penalty phase (they do not), [REDACTED] If the government wishes to disprove or impeach the statement
with other evidence it may certainly try to do so. [REDACTED]. [REDACTED]
The Waltham homicides also provide important evidence of the apparent nature and depth of Tamerlan’s
extremist Islamist beliefs as early as September 2011.
[REDACTED]
II. OTHER EVIDENCE OF “BAD ACTS’’ BY TAMERLAN
TSARNAEV IS RELEVANT AND POSES NO RISK OF UNFAIR PREJUDICE.

The government also seeks to bar “mention of any
other bad acts by Tamerlan” without identifying specific
any particular evidence or acts that it seeks to bar.
Mtn. at 5. Lacking any trial context, the government’s
blanket request should be denied as too abstract. Generally speaking, the defense should be permitted to elicit
evidence concerning Tamerlan’s extremist beliefs and
behavior as well as his proclivity for violence generally,
and his use of violence and intimidation as a means of
exercising coercive control over others, specifically. Such
evidence provides direct support for the mitigating factors that the defense is entitled to prove.

670
Conclusion

For the foregoing reasons, the government’s motion
should be denied.
Respectfully submitted,
DZHOKHAR TSARNAEV
by his attorneys
/s/

WILLIAM FICK
WILLIAM FICK
Judy Clarke, Esq. (CA Bar # 76071)
CLARKE & RICE, APC
1010 Second Avenue, Suite 1800
San Diego, CA 92101
(619) 308-8484
JUDYCLARKE@JCSRLAW.NET
David I. Bruck, Esq.
220 Sydney Lewis Hall
Lexington, VA 24450
(540) 458-8188
BRUCKD@WLU.EDU
Miriam Conrad, Esq. (BBO # 550223)
Timothy Watkins, Esq. (BBO # 567992)
William Fick, Esq. (BBO # 650562)
FEDERAL PUBLIC DEFENDER OFFICE
51 Sleeper Street, 5th Floor
(617) 223-8061
MIRIAM_CONRAD@FD.ORG
TIMOTHY_WATKINS@FD.ORG
WILLIAM_FICK@FD.ORG

671
Certificate of Service

I hereby certify that I have caused this document to
be served upon counsel for the United States by e-mail
PDF on April 11, 2015.
/s/

WILLIAM FICK
WILLIAM FICK

672
[Photo of Tsarnaev showing middle finger to
camera while in federal-court holding cell]

673
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Mar. 17, 2015
9:35 a.m.
JURY TRIAL—DAY THIRTY-FOUR

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

674
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[34-52]
Q. Who else was there?
A. Nicholas, my twin brother, and my friend Abdul.
Q. And what did you guys do?

675
A. We just hung out, chilled, smoked weed. Same thing
we usually do.
Q. At some point did the conversation turn to the gun?
A. Yes.
Q. What did you do?
A. I took the gun out the ceiling panel and showed it to
the defendant and Dias.
Q. What was the gun stored in?
A. It was stored in a sock.
Q. Just a regular tube sock?
A. Yes.
Q. Did you hand the defendant the gun?
A. Yes.
Q. What did he do with it?
A. Handled it, acknowledged it, tried to pass it to Dias.
Dias didn’t want to touch it. And he gave it back to me
and I put it away.
Q. Did you talk about ammunition?
A. Yes.
Q. Did you have ammunition?
A. Yes.
Q. Where was that?
*
[34-73]
A. Yes.

*

*

*

*

676
MR. CHAKRAVARTY:
1178.
MS. CONRAD:

I’d move into evidence

No objection.

(Government Exhibit No. 1178 received into evidence.)
MR. CHAKRAVARTY:

Thank you, your Honor.

BY MR. CHAKRAVARTY:
Q. For the jury, can you just circle Aza and Dias again?
A. This is Aza, Dias.
Q. Do you know how often the defendant would go to
New York?
A. No, I do not.

I know he went there a few times.

Q. Did you ever go with him?
A. No.
Q. Do you know whether he went with his Kazakh
friends aside from this occasion?
MS. CONRAD:

Object, your Honor.

MR. CHAKRAVARTY:
your Honor.

Foundation.

I’ll ask another question,

BY MR. CHAKRAVARTY:
Q. Do you know whether he went in February of 2013?
A. No, I do not.
Q. When’s the last time you saw the defendant?
A. About a day or two after my 20th birthday.
Q. When was that?
A. April 2013.

677
Q. Was it early April?
[34-74]
A. Yes.
Q. And where did you see him?
A. I met with him inside the parking lot of my mother’s
apartment complex.
MR. CHAKRAVARTY: Go to Exhibit 743, please.
I think this is in evidence, your Honor.
I’m sorry.

744.

Your Honor, I believe this is in evidence.
know if it’s been published.
THE COURT:

I don’t

It is.

MR. CHAKRAVARTY:

Thank you.

BY MR. CHAKRAVARTY:
Q. So do you recognize this intersection?
A. Yes, I do.
Q. Is this the intersection where the Shell Gas Station
is on one side and the Mobil Gas Station is on the other?
A. Yes, it is.
Q. And where on this picture is your mother’s apartment?
A. (Witness indicates.)
Q. That building?

And that's a tower?

And where is the parking lot in which you met the
defendant?
A. (Witness indicates.)

678
Q. Okay.
structure.
right?

You’ve circled what appears to be a parking
That’s the second main building on the

[34-75]
A. Yes.
Q. Why were you meeting with the defendant after
your birthday?
A. He was meeting with me to purchase some marijuana.
Q. And was he with anyone?
A. Yes.
Q. Who?
A. Dias.
Q. What happened when you guys met?
A. He was in—I believe that day he was in Dias’s
BMW. I went downstairs, I met up with him inside the
car. I was with my twin brother, Steven.
I got in the car. The defendant was driving, Dias
was in the passenger seat. We had talked very shortly.
The defendant handed me some money, and then I left
the car to go grab the marijuana.
Q. And you went to somebody else’s car to do that?
A. Yes.
Q. Did you get the marijuana?
A. Yes.
Q. Did you come back?
A. Yes.

679
Q. What happened?
A. Can you repeat that?
Q. What happened when you got back?
*

*

*

*

*

680
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., Apr. 27, 2015
9:05 a.m.
JURY TRIAL—DAY FIFTY

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

681
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[50-93]
Q. And tell us about that conversation.
begin?

How did it

A. You know, just sort of regular, you know, “Hey,
what’s up? And how are you doing?” I asked, you

682
know, how Jahar was doing. And, you know, [Tamerlan] told me a little bit about Jahar. And I asked him
about whether he hung out with Sebastian and those—
that group of friends, and he said he hadn’t been recently.
Q. And did he say why he hadn’t been?
A. Yeah, he said something along the lines of they need
to drink or smoke to socialize, and “I don’t really do that
stuff” or “I can’t do that stuff anymore.”
Q. Do you remember whether it was “I don’t do that
stuff” or “I can’t do that stuff”?
A. I don’t.
Q. Describe physically what he was wearing. Was anything notable about that?
A. Yeah. He was wearing—he was wearing some
longer garments, I don’t know what to call it. I guess
a robe. And he was wearing a beard at that point.
Q. Had you ever seen him in a beard before?
A. I don’t think so.
Q. And generally, was his appearance different from
when you had seen him at the Fredduras’?
A. Yeah.
*

*

*

*

*

683
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Apr. 28, 2015
9:15 a.m.
JURY TRIAL—DAY FIFTY-ONE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

684
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[51-9]
A. It was one year and a half; one year, seven months.

685
Q. During that time there, did you also meet a Russian
by the name of Tamerlan Tsarnaev?
A. Not in that first location.
Q. But sometime during your stay in Allston and
Brighton living there, did you meet Tamerlan Tsarnaev?
A. Yes, I did.
Q. And what were the circumstances of meeting Tamerlan Tsarnaev?
A. For me was kind of like became another friend like
the others.
Q. Was he friends with the Russians that you met?
A. Yes.
Q. What kinds of things would you and the Russians do
socially?
A. Well, having fun, go outside, talking, sometimes go
to the party.
Q. Now, the Russians, did they like to drink alcohol?
A. Yes, usually they used to drink.
Q. Did they sometimes like to smoke marijuana?
A. Yes, they do.
Q. And was that true of all of them?
A. No.
Q. Was it true of Tamerlan Tsarnaev?
[51-10]
A. Yes.

686
Q. Now, you were living at a different apartment than
the Russians while you were in Allston and Brighton?
A. Yes.
Q. At some point did you move to Cambridge?
A. Yes.
Q. What street in Cambridge did you move to?
A. Cambridge Street.
Q. Actually, in Cambridge, Massachusetts, what street
did you move there?
A. I don’t understand your question.
your question again, please?

Can you make

Q. You mentioned that you had moved to Cambridge
Street. Was that Cambridge Street in Allston or Cambridge Street in Cambridge?
A. Brighton.
Q. In Brighton?
A. Brighton.
Q. And then after you lived on Cambridge Street in
Brighton, did you move to Cambridge, Massachusetts?
A. Yes, I did.
Q. And what street was that?
A. 20 Harding Street.
Q. And when was that that you moved to Cambridge,
as best you can recall?
*

*

*

*

*

687
[51-147]
*

*

*

*

*

Q. And please continue reading the next paragraph.
A. (As read:) Vakhabov and Tamerlan Tsarnaev used
to go out and have fun. They would smoke, drink and
go to clubs. Tamerlan Tsarnaev introduced Vakhabov
to some of his “weed” smoking friends in Cambridge.
Many years ago, Tamerlan Tsarnaev gave Vakhabov
a “moderate” version of the Qur’an. However, as of approximately two years ago, Vakhabov noticed a change
in Tamerlan Tsarnaev’s behavior. Tamerlan Tsarnaev
told Vakhabov that a true Muslim would not go out and
smoke and chill out. Tamerlan Tsarnaev told him that
just because you say you are a Muslim, it does not mean
that you really are.
Q. Would you go to the last line, please, of that page.
A. (As read:) Approximately one year ago, Tamerlan
Tsarnaev traveled from the United States to Dagestan.
Tamerlan Tsarnaev telephonically contacted Vakhabov
one time from Dagestan. Vakhabov does not know the
purpose of Tamerlan Tsarnaev’s travel to Dagestan.
Tamerlan Tsarnaev’s father was residing in the United
States during the time period Tamerlan Tsarnaev traveled to Dagestan. Tamerlan Tsarnaev’s father told
Vakhabov that Tamerlan Tsarnaev was in Chechnya,
and that Tamerlan Tsarnaev had not been there since he
was a little baby. Dzhokhar Tsarnaev was at UMass
Dartmouth during the time period that Tamerlan Tsarnaev was traveling overseas.
*

*

*

*

*

688
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Apr. 29, 2015
10:20 a.m.
JURY TRIAL—DAY FIFTY-TWO

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

689
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[52-136]
A. We had been drinking. It was a fun time. I was
excited to see him because I didn’t expect him to be
there. I didn’t know he was going to be there. And so

690
when I seen him, I was like, “Jahar, let’s take a picture,”
and we did.
Q. So did you and your group of friends continue to be
close over the freshman year, get together for bro
nights?
A. Yes.
Q. Did you also do other things together?
A. Yes. Sometimes Jahar would take us to Target
just to grab a few things. Even picked my boyfriend
up at the terminal once. And—
Q. Did you have a car down at UMass Dartmouth?
A. No.
Q. Did Jahar have a car there?
A. Yes.
Q. Would he offer, then, to take you places—
A. Yes.
Q. —you needed to go?
A. Yes.
Q. Did you know that Jahar was Muslim as his faith?
A. No.
Q. Did he ever talk about that at all?
A. No.
Q. Did he try to push any kind of belief system on you?
A. No.
*

*

*

*

*

691
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., May 4, 2015
9:17 a.m.
JURY TRIAL—DAY FIFTY-FOUR

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

692
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[54-100]

THE COURT: Okay.
permit some of it in.

It can go too far, but I’ll

693
(In open court:)
BY MS. PELLEGRINI:
Q. Ms. Guevara, do you know if Jahar Tsarnaev got extra money from selling drugs?
A. Yes.
Q. And how do you know that?
A. I just heard that he sold—
MS. CONRAD: Objection. Move to strike.
personal knowledge.
THE COURT:

No

Yes, I’ll strike it on that answer.

BY MS. PELLEGRINI:
Q. Ms. Guevara, you smoked marijuana with Dzhokhar
Tsarnaev, correct?
THE COURT: Let me just remind the jury that if
it’s stricken evidence, it’s no longer evidence, and you
can disregard it.
BY MS. PELLEGRINI:
Q. Correct?
A. Correct.
Q. All right. In fact, when you were talking with Ms.
Conrad about that the last time, on spring break when
you and the [54-101] defendant, Dzhokhar Tsarnaev,
and others went out for dinner, isn’t it true that all of
you were looking to buy marijuana?
A. Eventually by the end of the night.
Q. Right.
A. Yes.

And did you do so?

694
Q. And, in fact, when you—you indicated that you
played a game with your phone with the defendant. Is
that correct? A Scrabble game?
A. Yes.
Q. But you also used your phone to communicate with
him about doing drugs. Isn’t that correct?
A. No, it’s not correct.
Q. Do you recall testifying in the summer of 2014?
MS. CONRAD:
THE COURT:

Objection, your Honor.
Let me see you.

(Discussion at sidebar and out of the hearing of the
jury:)
MS. CONRAD: She acknowledged that they did
drugs together, so I don’t know what the relevance of
the text is because she’s not really impeaching her because she already acknowledged it.
THE COURT:

Yeah.
*

*

Where are you heading?
*

*

*

695
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Mar. 11, 2015
9:14 a.m.
JURY TRIAL—DAY THIRTY-ONE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

696
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD and WILLIAM W. FICK, Federal
Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[31-65]

697
MR. CHAKRAVARTY: I would move into evidence
Exhibit 1485 which for all intents and purposes is just
another page to the presentation that he had just done.
MS. CONRAD:
THE COURT:
MS. CONRAD:
data.
THE COURT:

Your Honor—
The same situation?
Well, yes, and also the underlying
Yeah.

That objection’s overruled.

This was so far—you may use it—we’re deferring the
exhibit/chalk question, but it may be used as a chalk and
I’ll expose it now to the jury.
MR. CHAKRAVARTY:

Thank you, your Honor.

BY MR. CHAKRAVARTY:
Q. Agent Fitzgerald, is this also, as with the phone records that you described, about the phone activity on the
Tsarnaev brothers’ phones the week of the marathon
bombing—does this show the use of the Jahar Tsarnaev
AT&T phone on December 25th and 26th of 2012?
A. Yes.
Q. And can you go through and explain what the phone
activity shows you?
A. So there were several text messages—mostly text
messaging, if not all—utilizing, what—one, two, three,
four—five different sectors in the Cambridge area over
that time period.
[31-66]
Q. And, again, as with some of the previous plots, you
showed where the Tsarnaev family residence was at 410
Norfolk Street?

698
A. Yes.
Q. And this was that Prospect Street cell tower that
you were talking about—or actually, this is an AT&T
cell tower also in the vicinity of Prospect Street?
A. Right. It might be at the same location. I don’t
recall. Like I say, sometimes they co-locate on the
same structure, the same building, and sometimes they
are just nearby each other. I can’t remember if exactly
—if this was in the same exact location, but it’s definitely
near that.
Q. And does this show that this phone, the one that
ends in 5112, was using cell towers in the Cambridge
area from December 25th in through December 26th, at
least through 12:35 of that day?
A. Right. I believe that—I think this one over here
might be 12—yeah, 12:31. So, yeah, through 12:35,
noon. And it starts as early as a little after—well,
there’s actually—on 12:26 there’s another one up here,
5:55. So all the way through 5:55. And then it starts
as early as—let’s see, a little after noon on Christmas
Day.
Q. So if that’s when Christmas break was for—or the
holiday break, I should say, for UMass Dartmouth, then
it’s possible that the phone was being used back at home
on Norfolk Street?
[31-67]
A. I mean, my kids were on break those same two days.
I mean, as far as the university, I assume that they’re
also on break Christmastime. But, yes, the phone was
being utilized in Cambridge, and it definitely could have
been 410 Norfolk Street. In that area for sure. That

699
tower and sector to the north is providing service to that
address.
MR. CHAKRAVARTY:
Honor.

Just a moment, your

(Counsel confer off the record.)
MR. CHAKRAVARTY:

No further questions.

MS. CONRAD:
Your Honor, I do have crossexamination, but there’s a discovery issue that I would
like to discuss with your Honor, and perhaps if we could
take a break and discuss that.
THE COURT:
sume?
MS. CONRAD:
THE COURT:
MS. CONRAD:
THE COURT:
recess.

All right.

A different one, I pre-

I’m sorry?
A different one?
Yes.
All right.

We’ll take the morning

THE CLERK: All rise for the Court and the jury.
And we’ll take the morning recess.
(The Court and jury exit the courtroom at there is a
recess at 10:57 a.m.)
THE CLERK:

All rise for the Court.

(The Court enters the courtroom at 11:21 a.m.)
THE CLERK:

Be seated.
*

*

*

*

*

700
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Mar. 17, 2015
9:35 a.m.
JURY TRIAL—DAY THIRTY-FOUR

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

701
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[34-45]
A. My brother and my cousin, my friend Nick.
Q. And what was that conversation?

702
A. After my brother was robbed, we just started talking about maybe obtaining a gun, you know, for protection.
Q. And near the end of 2012 did an opportunity arise to
obtain—
A. Yes.
Q. Explain that opportunity.
A. Well, like I said, me and my brother and my friend
had been talking about obtaining a gun, and around the
same time a friend of mine from my neighborhood, he
had asked me if I could do him a favor and hold down a
firearm for him because he needed to get it out of his
house.
Q. What was his name?
A. Howie.
Q. And did you agree to take the gun?
A. Yes.
Q. Did he get you the gun?
A. Excuse me.

Repeat that?

Q. Did he get you the gun?
A. Yes.
Q. What kind of gun was it?
A. It was a P95 Ruger.
Q. After you got the gun, what did you do with it?
*

*

*

*

*

703
[34-49]
A. He laughed.
Q. Did you take the gun out of your residence again?
A. Yes, one more time.
Q. When was that?
A. New Year’s Eve 2012.
Q. And where did you take it?
A. To a friend’s apartment in Medford, Massachusetts.
Q. What was happening there?
A. Nothing.
Eve party.

We were just throwing a New Year’s

Q. Why did you take it there?
A. I was just being stupid.

I wanted to show it off.

Q. And did you?
A. Yes.
Q. Did the defendant come to that house?
A. Yes.
Q. Did you bring it back ultimately to your apartment
at some point?
A. Yes, I did.
Q. You say you did.

Who else knew about the gun?

A. Me, my twin brother, the defendant and a few close
associates.
Q. And how about Nicholas?
A. Yes.

704
Q. Now, after that early January trip with the gun, did
you talk to the defendant again about the gun?
[34-50]
A. Yes.
Q. About when was that?
A. Sometime in January.
Q. How did you have that conversation?
A. It started over the phone and then talked about it
with him in person.
Q. When you talked to him about the gun, did he ask
you for anything?
A. Yes.
Q. What did he ask you for?
A. He asked me to potentially borrow the gun.
Q. Why did he ask you to borrow the gun?
MS. CONRAD:
THE COURT:
tion.

Objection to that in that form.
Sustained to the form of the ques-

BY MR. CHAKRAVARTY:
Q. For what purpose did he ask for the gun?
MS. CONRAD:
THE COURT:

Objection.

Same objection.

Yeah, rephrase it.

BY MR. CHAKRAVARTY:
Q. Did he tell you why he needed the gun?
A. Yes.

705
Q. What did he tell you?
A. He said he wanted to rip some kids from URI.
Q. When you say “rip,” what does that mean?
A. Rob.
[34-51]
Q. Is that what you did with Nicholas a few months earlier?
A. Yes.
Q. Did he make arrangements to come by your apartment?
A. Yes.
Q. Approximately when did he come by your apartment?
A. Within the next couple of weeks after we started
talking about the gun.
Q. And was he regularly coming to your apartment
around this time?
A. Yes, about a few times a month when he could.
Q. And did he actually come to talk about the gun?
A. Yes.
Q. Was he with anyone?
A. Yes, he was.
Q. Who was he with?
A. Dias.

I can’t pronounce his last name.

Q. Is it Dias Kadyrbayev?
A. Yes.

706
Q. Was he a friend of the defendant’s?
A. Yes.
Q. Did you know him as well?
A. Yes, I did.
Q. Where did you know him from?
A. He was a good friend of my brother and the defendant’s from UMass Dartmouth.
[34-52]
Q. Who else was there?
A. Nicholas, my twin brother, and my friend Abdul.
Q. And what did you guys do?
A. We just hung out, chilled, smoked weed.
thing we usually do.

Same

Q. At some point did the conversation turn to the gun?
A. Yes.
Q. What did you do?
A. I took the gun out the ceiling panel and showed it to
the defendant and Dias.
Q. What was the gun stored in?
A. It was stored in a sock.
Q. Just a regular tube sock?
A. Yes.
Q. Did you hand the defendant the gun?
A. Yes.
Q. What did he do with it?

707
A. Handled it, acknowledged it, tried to pass it to Dias.
Dias didn’t want to touch it. And he gave it back to me
and I put it away.
Q. Did you talk about ammunition?
A. Yes.
Q. Did you have ammunition?
A. Yes.
Q. Where was that?
[34-53]
A. It was in another sock inside the ceiling panel.
Q. Did you show him that?
A. Yes.
Q. About how much ammunition did you have?
A. About ten rounds.
Q. Is ten rounds ten bullets?
A. Yes.
Q. Was there a magazine as well?
A. Yes.
Q. Did the defendant say anything when you handed
him the gun or the ammunition?
A. He just took the gun, looked at it, acknowledged it,
didn’t really say much.
Q. Describe the gun.
A. The gun’s black. It was kind of—looked a little
rusty. The top slat part had kind of like a little red-

708
dish-orange hue to it. The serial number was obliterated on a silver panel. And it said “P95” on the top
slide, and it also says “Ruger” on the side of the gun.
Q. Now, do you know much about guns?
A. No, not really.
Q. You said the serial number was obliterated.
does that mean?

What

A. Scratched off, or made to appear so that you can’t
read it.
*

*

*

*

*

709
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Mar. 24, 2015
9:10 a.m.
JURY TRIAL—DAY THIRTY-EIGHT

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

710
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

[38-109]
BY MR. WEINREB:
Q. Good afternoon.
A. Good afternoon.

*

*

*

*

711
Q. Where do you work?
A. At the FBI in Boston.
Q. How long have you worked there?
A. Approximately two and a half years.
Q. What’s your current assignment there?
A. I’m on the FBI Boston Organized Crime Task
Force.
Q. What kind of training have you received as an FBI
agent?
A. I had 21 weeks of training at the FBI Academy in
Quantico.
Q. Despite being assigned to the organized crime unit
at the FBI, did you participate in the Boston Marathon
bombing investigation in the weeks after it occurred?
A. I did.
Q. And in the course of that investigation, on April 24th
of 2013, did you go to the Manchester firing range in
New Hampshire to obtain some records?
A. I did, but on a different date.
Q. I’m sorry.

April 23rd.

April 23rd.

And what is the Manchester firing range?
A. It is a gun supply store as well as a firing range
that’s open to the public that they can practice their firearm skills.
Q. What does that mean?

What’s a firing range?

A. A range where you can go and have a target, and
you can [38-110] shoot a gun at a target.
Q. Do you have to bring your own gun?

712
A. No, you do not; you can rent guns.
Q. Do they have a variety of guns that you can rent?
A. Yes, I believe they do.
Q. Do you have to bring your own ammo?
A. No.
Q. How do you shoot if you don’t have ammo?
A. You can buy ammo from the place as well.
Q. And do they have the ammo necessary for the variety of guns that they rent out?
A. Yes.
Q. When you got to the Manchester firing range, did
you talk to the owner?
A. I did.
Q. What was his name?
A. Jim McCloud.
Q. What, if anything, did you ask him to do?
A. I asked him if we could have permission to look
through video and paperwork that he had related to
Dzhokhar and/or Tamerlan Tsarnaev.
Q. And in response to that, did he give you some records?
A. He did.
MR. WEINREB:

Mr. Bruemmer—

Q. Did you review those records in my office the other
day?

713
[38-111]
A. Yes, I did.
Q. Did you also ask Mr. McCloud if there was surveillance video?
A. I did.
Q. For that date and time?
A. Yes.
Q. And as a result of that request, did you obtain some
video?
A. Yes, I did.
Q. Did you also review that video in my office the other
day?
A. Yes, I did.
Q. So the records are Exhibit 1164 and the video is Exhibit 1165. Were the records that you obtained, fair
and accurate copy—the ones you viewed, were they fair
and accurate copies of the records that you obtained that
day?
A. Yes, they were.
Q. And the video that you viewed, is that a fair and accurate excerpt of the surveillance camera video that you
obtained that day?
A. Yes, it was.
MR. WEINREB:
1165.
MR. WATKINS:
THE COURT:

The government offers 1164 and
No objection.

Okay.

714
(Government Exhibit Nos. 1164 and 1165 received
into evidence.)
[38-112]
MR. WEINREB:
please.

Can we have 1164 on the screen,

BY MR. WEINREB:
Q. Do you see that?
A. Yes.
Q. I’m just going to wait for it to come up on the big
screen.
So is this one of the records you received?
A. Yes, it is.
Q. I’m going to enlarge the top portion of it. Actually,
this is a record, and stapled to the front there appears
to be a receipt?
A. Yes.
Q. All right.
MR. WEINREB:
that exhibit, please?

Can we have the next page of

Q. So is this the same record but without the receipt on
top?
A. Yes, that’s correct.
Q. Let me—so what does it say up here at the very top?
What kind of document is this?
A. This is the check-in card.
Q. And who’s the customer?
A. Dzhokhar Tsarnaev.

715
Q. Does it give an address for him?
A. 410 Norfolk Street, Number 3, Cambridge, Massachusetts.
Q. And does it give a date of birth?
[38-113]
A. Dated 7/22/93.
Q. Phone number?
A. (857) 247-5112.
Q. So over here next to “firearm,” what’s the description that’s given here?
A. A Glock 17.
Q. And what’s the next one?
A. The second one I originally thought said Glock 39,
but now I actually believe it’s a Glock 34. That’s a four,
not a nine.
Q. Are you familiar with what is the caliber of those
two weapons?
A. I am.
Q. What are they?
A. 9 mm.
Q. Does this indicate the rental of two 9 mm weapons?
A. Yes.
Q. And what’s next to the word “ammunition”?
What’s indicated here?
A. 9 mm.
Q. And what do these marks mean?

716
A. Four dashes, which I was told meant four boxes of 9
mm ammo.
Q. Do you see the boxes that say “in” and “out”?
A. Yes.
Q. What do they indicate?
[38-114]
A. The time in the range and then the time out of the
range.
Q. So roughly an hour?
A. Roughly an hour, yes.
Q. The grand total cost for renting these two weapons
and buying the four boxes of ammunition?
A. $170.75.
MR. WEINREB:

Can we have the next page?

Q. So this actually—
MR. WEINREB:
. . .

I’m sorry, can you go back to the

Q. So this says “firearms experience,” “range safety”
and “release”?
A. Yes.
Q. And here, the person is asked to check certain
boxes?
A. That’s correct.
Q. Okay. What did Dzhokhar Tsarnaev say his experience was with a handgun?
A. Intermediate.

717
Q. And in response to the question of whether he had a
history of mental illness, what did he say?
A. No.
Q. And when he was asked if he was a user or addicted
to marijuana or any other drug, what did he say?
A. No.
Q. And that’s dated and then there’s a signature?
A. That’s correct.
[38-115]
MR. WEINREB:

Can we have the next page.

Q. Is this the same kind of check-in card we saw before?
A. Yes.
Q. And it gives the name of Tamerlan Tsarnaev?
A. That’s correct.
Q. And the same address?
A. That’s correct.
Q. And what’s the phone number given?
A. (857) 928-4634.
Q. But he didn’t rent or buy anything or pay for anything?
A. Based off of that, no.
MR. WEINREB:
please?

Can we have the next page,

Q. So when it came to his experience with a handgun,
what did he say?
A. That he was an intermediate.

718
Q. The same as his brother?
A. Correct.
Q. And when asked whether he had any history of mental illness, he also said no?
A. That’s correct.
MR. WEINREB:
please.

Can we now have Exhibit 1165,

Q. Do you recognize what’s in this frame that I’ve frozen here?
A. I do.
Q. What is it?
[38-116]
A. It’s part of the security video that we obtained from
the Manchester firing range.
Q. You actually went there?
A. I did.
Q. So is this what you see outside the door of the Manchester firing range?
A. Yes.
(Video played.)
Q. Is that the door?
A. Yes.
Q. This indicates March 20th at—it’s clipped off the
right-hand side of the screen, but a time around two
o’clock. Is that during the—is that at one end of the
period when the receipt indicated that Dzhokhar Tsarnaev and his brother had been in the range practicing?
A. Yes, shortly after.

719
Q. All right. I’m going to finish running it at this size
and then I think we’re going to make it smaller and I’ll
run it again. There we go.
(Video played.)
Q. Have you seen those two individuals before, or images of them before?
A. I’ve seen images of them before.
Q. Okay.

And who’s the one on the left?

A. Would be Dzhokhar Tsarnaev.
[38-117]
Q. And the one on the right?
A. I believe that to be Tamerlan Tsarnaev.
MR. WEINREB:

I have no further questions.

MR. WATKINS:

No questions.

THE COURT:
No questions?
Thank you. You may step down.
THE WITNESS:

All right, sir.

Thank you.

(The witness is excused.)
MR. WEINREB:
Dowd.

The United States calls Timothy

TIMOTHY E. DOWD, duly sworn
THE CLERK: State your name, spell your last
name for the record, keep your voice up and speak into
the mic.
THE WITNESS:

Timothy E. Dowd, D-O-W-D.

DIRECT EXAMINATION

720
BY MR. WEINREB:
Q. Good afternoon.
A. Good afternoon.
Q. Where do you work?
A. I work for the Massachusetts State Police.
Q. How long have you worked there?
A. Twenty years.
Q. What is your official title?
A. Sergeant.
Q. What are your job responsibilities?
*

*

*

*

*

721
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Mar. 25, 2015
9:13 a.m.
JURY TRIAL—DAY THIRTY-NINE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

722
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[39-175]

Q. “Oxford or are all those schools too easy for you?”

723
A. “Nah, not ivy.”
Q. “Ivy schools are a force. Oh, shit. He’s going to
Harvard. That’s crazy. None other reason than this.
No point in going there other than to look good.”
A. “Something manageable. Not for working, slaving
myself and crying myself to sleep.”
Q. N word “need to understand you don’t ivy school to
be successful.”
A. “I’m trying to go to an ivy for masters though.
going to lie.”

Not

Q. “What do you want to be? Sniper? Pyro? Engineer?
Knowledge to become imam? Biologist? That shit
crazy. WTF.” Is that a phrase for, what, the F word?
A. Yes.
Q. “Imam Tsarnaev then?

Spy?”

A. “I wanna bring justice for my people.”
MR. CHAKRAVARTY:

Go to Exhibit 1388, please.

Q. Now, is this later that evening at about 11:43 p.m.
and two seconds, again on Christmas Day, December 25,
2012?
A. Yes.
Q. And these are texts from the defendant?
A. Yes.
Q. And do you know if they were to the same person?
[39-176]
A. Yes, they are.
Q. And what did the defendant say?

724
A. “Doing something with Tamerlan. I’ll hit you up in
a bit, bro.”
MR. CHAKRAVARTY:
1395, please.

Could we go to Exhibit

Q. Now, is this another exchange between the defendant and the same person?
A. Yes, it is.
Q. And was this about a month later, on January 28th,
2013, beginning at about 11:36 p.m. and 12 seconds?
A. Yes.
Q. Okay. If you could begin with reading the defendant’s part?
A. “Come May I’m out.”
Q. “Oh, yeah.

You’re getting yourself a wifey?”

“You getting yourself a wifey?

Good shit.”

A. Well, IDK,” I believe to be I don’t know “about that,
but we’ll see.”
Q. “I think it’s a little too early.
I want I get married, bro.”
A. “LOL.
school.”

Yea, I know.

I don’t even know if

I’m just trying to finish

Q. “To?.”
A. “I mean, there’s one other option, bro.
est level of Jannah.”
*

*

*

*

*

The high-

725
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Apr. 21, 2015
10:08 a.m.
JURY TRIAL—DAY FORTY-SEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

726
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[47-19]

I will repeat and elaborate on these points after you
have heard all the evidence and before you begin your

727
deliberations. As in the prior proceedings, you’ll have
a special verdict form to assist you and guide you in your
deliberations.
But because these procedures are
unique to capital cases and so fundamentally important
to your decision-making, I thought it advisable for you
to have this preliminary explanation.
So thank you for your attention. We’re now ready
for the government’s opening statement.
Ms. Pellegrini.
MR. WEINREB:
to lift their screens.
THE COURT:
the screens.

Your Honor, we’d ask the jurors

Okay.

MS. PELLEGRINI:
THE JURORS:

I guess there will be use of
Good morning.

Good morning.

MS. PELLEGRINI:
Unbearable, indescribable,
inexcusable and senseless. All of those words have
been used to describe the murders committed by Dzhokhar Tsarnaev. Yes, the deaths of Krystle Campbell,
of Lingzi Lu, of Martin Richard and of Officer Sean Collier have been all of those things for [47-20] their families and for their friends.
But don’t let those descriptions make you think that
you’ll never really understand what Dzhokhar Tsarnaev
did to those victims and don’t think that you won’t know
the full impact of his crimes, or that you won’t be able to
comprehend what those murders did to their families,
their friends and their colleagues. You will know the
story of those four families.

728
The deaths committed by Dzhokhar Tsarnaev were
deliberate, intentional and cruel. You know how Krystle,
Lingzi, Martin and Sean died. Now you need to know
how they lived. You need to know and understand why
their lives mattered. You will begin to know Krystle
Campbell and understand what it meant to lose the
young woman that her father, Bill Campbell, nicknamed
“Princess.” You’ll hear more about Lingzi, and you
will understand what it meant to lose the young woman
that her father, Jun Lu, remembered as a jolly girl.
You’ll see Martin Richard who so resembles his dad,
and see him in photos that will remind you of what an
eight-year-old boy’s life is like. Should be like. And
you will know Sean Collier, the officer who inspired
these words spoken to those who mourned him: “Live
long, like he would. Big hearts, big smiles, big service.
All love.”
These young women, this young man and this little
boy, [47-21] all of them were loved and they loved in return. This is how we should know them, because they
weren’t always just the victims of Dzhokhar Tsarnaev.
Before he murdered them in some of the cruellest ways
imaginable, they were sons, they were daughters, they
were grandchildren, they were brothers and they were
sisters. And all of them had rich and fulfilling lives
even at their young age.
But now these beautiful faces are memories and memorials. They’re symbols, even, of loss, when all their
families would want is to have them back one more time
to be their son, their daughter, their best friend. When
all they want is to have them come home one more time.
For Lingzi, that would mean home to China, as she’s pictured here, so that her parents could tell her that they

729
kept their promise, they kept her beloved music collection safe when she left China to travel halfway around
the world to come to Boston to study.
One more time just to see them laugh and joke, like
Krystle here celebrating after a wedding that she had
successfully planned and pulled off on Spectacle Island.
Just to watch them smile proudly, like Sean here at a
family wedding. And just to see Martin decked out in
green beads one more time for one more St. Patrick’s
Day.
Their families had every right to expect they would
live out their lives and realize the potential of these
young lives, but Dzhokhar Tsarnaev took them all away,
in the most [47-22] painful and brutal ways possible.
They were all beautiful, and they’re all now gone.
And there are others who, while they survived, found
their lives dramatically, irrevocably changed in an instant by Dzhokhar Tsarnaev: Jessica Kensky, Roseann Sdoia, Karen McWatters, Jeff Bauman, Rebekah
Gregory. They’re just a few of the victim survivors.
Roseann, Karen and Rebekah each suffered the amputation of one leg; Jessica and Jeff have now lost both
legs. You heard and you saw what they went through,
what they suffered through and the terrible injuries inflicted by Dzhokhar Tsarnaev.
And, yes, when they testified, they were brave, they
were resilient and they were open. They faced you, as
they still face life, with great humor and good grace.
But now you need to know the full story of all of them,
of all of the survivors. You need to know how close
they came to death as a result of the actions of Dzhokhar

730
Tsarnaev; how close they came and others came, and
how close others still might be.
The question of guilt has been answered, and the
question of sentence remains. You have heard testimony and you’ve seen photos and videos; you’ve heard
the graphic descriptions and the wrenching testimony of
the victims and the witnesses. You needed to know all
of that evidence because you needed to know what happened on Boylston Street, in Cambridge and in Watertown.
[47-23]
The verdicts don’t supply you the answer to the next
question that you must answer, but the evidence will assist you. And you could consider everything that you
have heard in the guilt phase and everything that you
are about to hear in this phase; you’ll just look at it in a
slightly different way. Because now all of the evidence
and all of the information will help to assist you in answering one more question. And we phrase the question as this: Why? Why? After weighing all of the
aggravating factors and mitigating factors, why is the
death penalty the appropriate and just sentence for
Dzhokhar Tsarnaev?
The answer, we suggest, will be found in the entire
sum of Dzhokhar Tsarnaev’s own character and his own
actions. Every gateway factor that the Court mentioned and every aggravating factor will be proven to
you beyond a reasonable doubt. Why is the death penalty the appropriate and just sentence? Because Dzhokhar Tsarnaev planned and he plotted to kill. Because
when Dzhokhar Tsarnaev sauntered down Boylston
Street and took a pressure cooker bomb into the crowds,

731
he created a grave risk of death for every person within
a radius of that bomb. And later he created that same
risk for every officer and every person in the radius of
the bombs that he threw down Laurel Street, and every
officer in the range of the car that he gunned down Laurel Street.
Why? Because Dzhokhar Tsarnaev created grave
risk of [47-24] death for every single one of the 17 victims who had to undergo amputations, many undergoing
multiple operations, some undergoing multiple amputations, all of them being put at risk and some still, I’d suggest.
Because in the course of four days he took the lives
of these four young, beautiful people. Three died on
the streets of Boston, killed by pressure cooker bombs
that exploded with such lethal force that pieces of them
were embedded in the concrete buildings across the
street. Dzhokhar Tsarnaev murdered each one of them
in a way that they had time to feel pain, they had time to
be scared and frightened, but they had no time to say
good-bye. And that is the very essence of terror.
Why? Because Dzhokhar Tsarnaev executed a police officer targeted simply because he was an officer
and Dzhokhar Tsarnaev wanted his gun, an officer who
sat in his cruiser on that quiet Cambridge campus and
died after he was shot between the eyes.
The ultimate question requires you to make a determination, but as the Court just instructed you, you cannot make that final determination until you have made
certain gateway findings. So let’s look at what you already know and what you will know.

732
Dzhokhar Tsarnaev was 19 and a half years old when
he walked down Boylston Street, just three months shy
of his 20th [47-25] birthday. He carried a backpack
stuffed with a heavy took time to build pressure cooker,
itself lined with nails and BBs that would become embedded in the bodies of his victims. He carried a
weapon of mass destruction; not simply a random and
quick means, an opportunity to commit a crime. It took
time to build the bombs. It took time and planning to
get Dzhokhar Tsarnaev and the bombs into his hands.
It took planning and it took coordination to get him and
the bombs to Boylston Street. And quite obviously, his
detonation of the bomb seconds after the first blast was
carefully coordinated and calculated. You saw the images of Dzhokhar Tsarnaev on his phone at the Forum
site. You saw the phone records.
As Dzhokhar Tsarnaev walked with his partner, his
coconspirator, his brother, he could see what the Boston
Marathon represented in those few blocks, and how could
he not see or know the vulnerability of each and every
one of those spectators? There he is, a 26.2-mile road race
that culminates in the heart of Boston, surrounded—the
course surrounded by well-wishers, celebrants, avid
fans and casual observers. The finish line just ahead
beckoning thousands of runners. And people stood cheering and ringing bells and clapping and laughing.
And after Tamerlan Tsarnaev walked toward the finish line, Dzhokhar Tsarnaev stood alone at the site of the
Forum. He stood alone, but he was in a crowd. His
lethal bomb at his [47-26] feet represented a grave risk
of death and, of course, death for those who died. He
stood, he looked, he called his brother and he acted.

733
After both bombs exploded, three people lay dying,
and many people were so badly injured that their limbs
were already amputated or shortly would be. And among
the deceased was a small eight-year-old boy. Three
days later Dzhokhar Tsarnaev shot and killed a police
officer. After the carjacking that followed that murder, he tried to murder police officers in Watertown.
He threw bombs, and he was the one who drove the car
directly at those same officers. Four deaths in four
days.
In just that short retelling, you already have evidence
of age: 18 years or older; intentional killing of four victims, because every death was intended. There was no
mistake or accident about any one of these. And you
have and will have evidence of the following factors:
the death of individuals during the commission of other
crimes; the grave risk of death to people other than the
victims; the heinous, cruel and depraved method of committing these crimes; substantial planning and premeditation; multiple killings and a vulnerable victim.
You have that information, but there will be more.
Keep asking the question: Why is the death penalty
the appropriate and just sentence for Dzhokhar Tsarnaev? Because the evidence has shown and will show
that Dzhokhar Tsarnaev [47-27] deliberately selected a
glorious and famous international sporting event for its
fame and for the vulnerability of its spectators; because
he twisted the marathon into something cruel and ugly
for his own purposes, and because he took the marathon
and turned it into a political statement to bring attention
to himself, to his own beliefs, and to others who would
share those beliefs.

734
But the horror and the death of the victims, that told
you what Dzhokhar Tsarnaev did and how he did it, but
that horror is now joined with the impact of the neverending loss upon the families of the victims. Only when
all of those facts come together will you know the full
effect of Dzhokhar Tsarnaev’s acts upon the families left
behind, and only then can you carefully weigh the factor
of victim impact.
Your sentencing decision will be a consideration of
Dzhokhar Tsarnaev’s character and his actions, and it is
not an exercise in comparison. Each and every time
you hear Tamerlan Tsarnaev’s name or any other person’s name, you can ask yourselves why. Why are you
hearing that? Tamerlan Tsarnaev, he’s an easy target.
Easy target while he lived, certainly an easy target
when he’s dead. He’s not a substitute for his brother.
But it’s much more than that. Because ask yourselves
if there’s anything about Tamerlan Tsarnaev or any other
person that will explain to you how Dzhokhar Tsarnaev
could take a [47-28] bomb, leave it behind a row of children, walk away, down the street, and detonate it. Is
there anything that will explain how he could walk away
from that happy and crowded scene, look back over his
shoulder, knowing that he just left death there to go off,
and he kept on going?
You may hear about family dynamics, family history,
family dysfunction. But many people—millions of people, one would venture—face troubles throughout their
lives. Who among them murders a child with a bomb?
You may see photos of Dzhokhar Tsarnaev at family
gatherings, school events, dances, at camp, playing the
drums. That might tell you he had the advantages of a

735
good education at schools; that he led others, like those
on his wrestling team; that he was taken care of, and
that he was educated.
But nothing will explain his cruelty and his indifference. Nothing will, other than his own character.
And everything you know and will know about Dzhokhar
Tsarnaev and the crimes that he committed will reinforce he simply is callous and indifferent to human life.
These personal characteristics are what set him apart,
and it’s his character that makes the death penalty appropriate and just.
It’s not that hate and callous indifference to human
life are anything new. Sadly, they’re not. But neither
are the notions of jihad or radicalization. Those didn’t
start with Dzhokhar Tsarnaev, and they certainly didn’t
start with [47-29] Tamerlan Tsarnaev, and it is tempting
to look elsewhere when one’s beliefs and actions are so
fundamentally different than what you would expect
from another human being.
So when Shakespeare wrote that “The fault, dear
Brutus, is not in our stars but in ourselves,” he was reminding us that we have to look inward. We have to
look towards the person in whom the fault lies. No
alignment of the heavens will explain or excuse Dzhokhar Tsarnaev.
The evidence presented and to be presented will
show a person whose cruel character can be found in the
way that he murdered and in his own reactions to those
murders, his own beliefs, and his own motivations. It’s
the lines that he was so willing to cross that make him
fundamentally different. And it may have been hard to
imagine that an individual would have such feelings and

736
then act upon them in such a way, but you no longer have
to imagine. You’ve seen it.
If you want to understand Dzhokhar Tsarnaev and
what he did, you don’t have to look to the heavens for an
answer. You can look for the man who walked alone
down Boylston Street, knowing that his brother had
taken up his own place at another location. You can
look for the man who stood alone behind the Richard
family for almost four minutes. You can look for the
man who then walked off alone, leaving behind a bomb
that would kill Lingzi and Martin; who, without his
brother, got back to the UMass Dartmouth campus and
three days later came back.
[47-30]
Look for the man who alone got the gun that killed
Sean Collier; who alone went into the bank and used the
debit card of a terrified carjacking victim to get money;
and who drove alone down Laurel Street trying to mow
down Watertown police officers; who escaped alone; and
who then, alone with his own thoughts, wrote in his own
words—wrote and carved his manifesto into the inside
of that boat on Franklin Street, declaring his beliefs and
righteousness of his own actions.
All of that evidence, and that which will follow, will
tell you that Dzhokhar Tsarnaev was and is unrepentant, uncaring, and untouched by the havoc and the sorrow that he has created. Remember Dr. Levitt said a
small number of people cross the line into radicalization.
But in reality, Dzhokhar Tsarnaev was willing to cross
every line for personal glory and for reward. Kill innocents with a bomb:
Done.
Kill a police officer:
Done. Kill a child: Done. All of those lines were

737
crossed. They were erased. All those boundaries
were shattered. It was done by Dzhokhar Tsarnaev.
You’ve seen the milk-buying video. You’ve seen the
gym video. You’ve seen the Shell gas station video
where he shops for snacks less than two hours after Officer Collier had been executed. And you know he was
in Officer Collier’s car. And he shops while a terrified
carjacking victim sits outside.
You’ve also seen the Bank of America video. And
while it hasn’t received the attention of the others, it
may be just [47-31] as telling. Dun Meng has been carjacked. He’s been forced to give up his car and his PIN
number. You watch Dzhokhar Tsarnaev as he enters
that bank. He calmly examines the card in his hand.
During the course of the next three minutes, he first
punches in the number, and it’s wrong. Does he panic?
Does he run outside and seek the assistance of his
brother? No. He calmly reenters that number. He
gets into the account, and he steals money. And then,
as if he had all the time in the world, he tries to get more
money.
Dzhokhar Tsarnaev was as successful as only he and
Inspire magazine could have hoped. “Successful means,”
Inspire magazine wrote, “are through explosive devices
and sacrificing souls.” These—these are the souls that
he sacrificed.
You’re considering Dzhokhar Tsarnaev’s character.
And you’re free to ask, does it really matter who came
first in the long line of radicalization? As I said, Dzhokhar Tsarnaev wasn’t the first to radicalize. Neither
was Tamerlan. And whether Dzhokhar Tsarnaev was
radicalized by his brother, by Anwar al-Awlaki, by some

738
Internet lecture, by a song, or by a terrorist-to-go magazine, the origin and the lineage of terrorism don’t matter. What matters are his beliefs in terrorism, his actions of terror, and the consequences of his actions upon
others.
He believed, because terrorism sang to him, and then
he acted. He killed. Nothing was forced upon him.
He simply [47-32] shared. He shared his belief in terrorism, and he shared it with his brother and others.
These people, they were the enemy to Dzhokhar
Tsarnaev. He knew they were innocents. He even
called them that. But it didn’t stop him from murdering them. Two young women and a young man that
won’t ever reach the age of 30. And a little boy who will
never reach the third grade. This will be their story.
The impact that each of these young people had in their
lives and the impact of their death far exceeds the scant
number of years of life that they were given.
You know, some milestones in life are easy to spot,
easy to prepare yourself for: birthdays and anniversaries, graduations. And then there are the little
things: teaching your child how to ride a bike, drive a
car, taking him to dancing lessons or watching him go
off to the prom, going to ball games with him or watching them play baseball, going to visit the grandparents
or just hiking a trail.
But it’s the very smallest of details woven together
that make up a life, and that’s where grief resides. It’s
every minute of every day, grief and loss, and it is inescapable. It’s the laugh that no one will ever hear again.
It’s the talented fingers that won’t ever touch the keyboard again. It’s the selfies that won’t be shared or

739
laughed over. It’s the phone calls and texts that won’t
be sent or received. It’s even the little irritations of life.
Who drives you crazy [47-33] when they leave their
sports equipment in the hallway? Who doesn’t put
away the laundry? Who ate the last piece of cake?
Things that make you laugh and make you cry at the
same time. And even in moments of happiness, sadness will remain. And the thoughts of the future will
bring no peace. Every time someone thinks, Oh, he really would have enjoyed that game. Or, Look at that,
she would have looked great in that dress. Or, Remember that grandpa was so proud of him? It will come
with a wrenching ache.
All of this loss is senseless, and it will remain so because there’s no sense to be made of it. And these
deaths are inexplicable because there are no explanations. And these crimes are inexcusable because there
should be no excuses.
The Boston-born poet and philosopher, Ralph Waldo
Emerson, wrote, “The only person you are destined to
become is the person you decide to be.” Destiny: It’s
the sum of one’s decisions and actions and beliefs. It’s
as personal and individual as a fingerprint. And for
Dzhokhar Tsarnaev, his decisions and his actions and his
beliefs made up who he was and who he is. His destiny
was determined by him, and he was determined and destined to be America’s worst nightmare.
You can keep your hearts and minds open, and you’ll
find a man whose heart was full of rage and whose mind
was dead set on the path that he took.
On July 10th, 2013, almost three months after Dzhokhar [47-34] Tsarnaev had murdered Krystle Marie

740
Campbell, Lingzi Lu, Martin Richard, and Officer Sean
Collier, he was here in this courthouse. He knew the
United States had charged him for his crimes. In the
room that he was in, there was a video camera. Dzhokhar Tsarnaev was alone. There was no brother with
him. And once more, just as he had done with the boat
on Franklin Street, he had one more message to send.
(Photograph displayed.)
MS. PELLEGRINI:

This should be on the screens.

This is Dzhokhar Tsarnaev, unconcerned, unrepentant, and unchanged. Without remorse, he remains untouched by the grief and the loss that he caused. And
without assistance, he remains the unrepentant killer
that he is. It is because of who Dzhokhar Tsarnaev is
that the United States will return and ask you to find
that the just and appropriate sentence for Dzhokhar
Tsarnaev is death.
Thank you.
THE COURT:
MR. MELLIN:

All right, Mr. Mellin.
Thank you, your Honor.

Your Honor, the United States calls Celeste Corcoran.
CELESTE CORCORAN, duly sworn
THE CLERK: Have a seat. State your name and
spell your last name for the record, if you would, please.
*

*

*

*

*

741
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., Apr. 27, 2015
9:05 a.m.
JURY TRIAL—DAY FIFTY

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

742
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[50-32]

THE COURT:
the table?

Is it the CART feed as opposed to

743
MR. WATKINS:

Yes.

THE COURT:

Okay.

MR. BRUCK:

Everybody ready?

THE COURT: No notes during the opening statement. That’s because? You know the answer. Because it’s not part of the evidence.
MR. WATKINS:
any of our monitors.
THE COURT:
Try again.
There.

Judge, it’s not yet feeding into
I don’t have it yet here myself.

I’m getting it now.

MR. WATKINS:
MR. BRUCK:
THE JURY:

Thank you, your Honor.

Good morning.
Good morning.

MR. BRUCK: We’ve now seen more pain and more
horror and more grief in this courtroom than any of you
would have thought possible. And we have heard from
so many survivors who have testified with such courage
and such dignity. And it now falls to you to decide what
is the best, what is the most appropriate, response, not
just to the crime but to the person who is being sentenced for committing it. As you know, there are only
two punishments for you to choose from: death and
[50-33] life imprisonment without any possibility of release or parole.
Judge O’Toole has already told you the law never requires you to vote for death. That is different than the
first phase of the trial. When you took an oath to well
and truly try this case, with respect to the issue of guilt

744
or innocence, that oath meant that when the government
proved the defendant’s guilt beyond a reasonable doubt
as to any count in the Indictment, it was your duty to
vote guilty. You were required to vote guilty when the
evidence reached the point of proof beyond a reasonable
doubt.
But the death penalty doesn’t work that way. Whether you vote for death is up to each one of you. The law
doesn’t tell you what to do. Each one of you has to decide that for yourself and only after you take everything
into account.
We are asking you to punish Jahar by imprisoning
him for the rest of his life. And for the next few
minutes, I’d like to tell you some of the reasons why and
about some of the evidence that you will be hearing in
this phase of the case. The choice might be easier if
you only had to consider the evidence of these awful
crimes. But the man who conceived, planned, and led
this crime is beyond our power to punish. Only the 19year-old younger brother who helped is left. So the
question of what makes most sense, death or a lifetime
of unrelenting punishment, is more complicated than
just the crimes themselves.
[50-34]
Now, you’ve all probably realized by now that no punishment, no punishment, could ever be equal to the terrible effects of these crimes on the innocent people who
were killed and hurt or on their families. There is no
evening the scales. There’s no point in trying to hurt
him as he hurt because it can’t be done. All we can do,
all you can do, is to make the best choice. And if there’s
one thing to remember through all of this, it is that

745
Jahar will be severely punished either way. Your
guilty verdicts have already guaranteed that. One
punishment is over quickly, although after more media
attention and fame and notoriety. The other will last
for years and decades while he is locked away and forgotten.
As you’ll soon learn, if you sentence him to life, this
is where he will be. Administrative Maximum Facility
in Florence, Colorado, also known as ADMAX or ADX.
The ADX facility is on the left here. A little more about
that later.
But for now, I just want to make the point that this
hearing is not about whether to punish Jahar Tsarnaev.
It’s only about how. No matter what Jahar does now,
no matter what regrets he feels, no matter how much he
matures, no matter what amends he may wish to make,
his last chance came when he was 19, and he will never
be given another. We’ll bring you evidence about that,
and we’ll let you see how the government will ensure
that Jahar will be securely locked away, safely and securely, where he can never hurt anyone or even be heard
from [50-35] ever again if any of you choose to punish
him with life imprisonment.
Now, maybe we could have shown you this and stopped.
He goes here and he’s forgotten. No more spotlight
like the death penalty brings. His legal case will be
over for good. And no martyrdom. Just years and years
of punishment, day after day, while he grows up to face
the lonely struggle of dealing with what he did. And all
the while society is protected. That might be—that
should be—enough to vote for life for Tamerlan Tsarnaev’s younger brother. But each of you said that
you’d want to know everything about Jahar as well as

746
about the crime before you made this decision. Whether you realized it or not, each of you persuaded Judge
O’Toole that you meant it, and that is why you were
found to be qualified to sit on this jury.
Miss Pellegrini said in her opening statement last
week that all you need to know about Jahar Tsarnaev is
what he did on Boylston Street because, she said, that’s
who he is. That’s his character. Simple as that. You
think about it for a moment what that really means, if it
were true, is that Jahar is someone who would have conceived and committed these crimes on his own. And
that’s the question—there’s the question—you’ll need to
answer. Miss Pellegrini said that Tamerlan doesn’t
matter. He’s just an easy target. But if Tamerlan
hadn’t been in the picture, would Jahar have done this
on his [50-36] own or anything even remotely like it?
So we’re going to bring you more evidence to help you
answer that question.
Now, let me be clear about something. No one is going to claim that Tamerlan forced Jahar to help him
commit these terrible crimes. Miss Clarke told you
that at the very beginning of this trial. But it bears repeating. When Tamerlan decided that it was time, his
little brother went with him. And once he did, he was
all in. But the evidence will show that, if Tamerlan
hadn’t led the way, Jahar would never have done any of
this no matter what was on his computer and no matter
what kinds of songs he listened to. How do we know
that? First, because Tamerlan’s motivation to commit
this attack was so much stronger and had existed for
much longer; secondly, because their personalities were
so different; and, third, because Tamerlan had power
over Jahar.

747
Our case is going to start today with some of the people who encountered Tamerlan in the last months before
the bombings and can describe a little about what sort
of person he was, at least near the end. Now, it’s probably going to be hard for some of these people to testify.
They may be scared, and they may show it. But they
should be able to shed some light.
We’ll start at the Islamic Society of Boston, which is
a mosque on Prospect Street in Cambridge where Tamerlan used to go. And you’ll hear about how, six months
before the bombing [50-37] and four months before the
bombing, Tamerlan had come to the point where he had
interrupted Friday sermon, the most sacred service of
the week, screaming and yelling at the Imam, the minister, in the middle of the ceremony because Tamerlan
had got to the point where he was so sure that he knew
what was true and everyone else did not that he could
take that extreme step. And he did, not once but twice,
and you’ll hear that described by people who were there.
You’ll get a little bit of a picture of what Tamerlan
was like on the street, picking fights with people sort of
randomly about religion, aggressive, extreme, and walking around dressed in flowing white robes like a Saudi
sheikh, not the clothes of the Chechen people, where he
originated from, but something very, very different.
You’ll learn that about 15 months before the bombing, in January 2012, Tamerlan left his wife and his oneyear-old daughter to travel to Russia with plans to go
into the forest. That means to join radical jihadi fighters, insurgents there. And relatives who have come
here from Russia will describe, with the help of a translator, how fanatical and unreasoning Tamerlan seemed
to them when they saw him in 2012 during that visit.

748
You’ll also learn that Tamerlan was a very tough guy,
a good boxer, who was suspended from high school for
assaulting another student and who was later arrested
for assaulting his [50-38] own girlfriend. Tamerlan
turned a lot of people off, as you’ll hear, from his angry
aggressive preaching. But he also clearly had a kind of
magnetism because he was able to pull a young college
student from Rhode Island into his gravitational field.
And she became his wife, the mother of his child, and
took on the role of a conservative Muslim mother and
wife, swathed in a traditional head covering, a hijab, and
working long hours as a home healthcare aid for people
with disabilities while he stayed home and obsessively
cruised the internet for scenes of massacred women and
children in the Middle East, jihadi warfare in Russia,
and fundamentalist preaching about the fires of hell that
awaited any Muslim man who did not step up and fight.
That was his world.
We’ll have to reconstruct who Tamerlan was from
people who knew him, from FBI reports, and other evidence about his attempts to join the jihadi insurgents in
Russia in 2012. And we’ll see that he had already been
planning to wage jihad in Russia back when Jahar was
still a 17-year-old high school senior. Some of the evidence about Tamerlan will come from documents, not
witnesses, because the witnesses aren’t available. So
part of our case is unavoidably going to have to involve
reading the important parts of FBI interviews and
email. That will not be as gripping as some of the unforgettable testimony that you have heard from the witness stand in the last few weeks. But it will be important because [50-39] it will shed some light on why
Tamerlan set himself and his brother on this terrible
course.

749
In this part of the trial, we’ll also be able to show you
the rest of what was on Tamerlan’s Samsung computer.
Remember Mark Spencer, the forensic computer analyst? He will come back and unpack what we were not
able to show you at the first part of the trial. The first
phase, you were mostly limited to what was on Jahar’s
computer. In isolation, his computer created the impression that he had “self-radicalized,” and that was the
way the government presented it. It looked horrible
because the computer had documents on it which you
could, if you wanted to, sort of match up to the facts of
the crime. And so it looked like Jahar was taking his
direction directly from things he was getting online or
downloading from the internet or wherever, that he was
the one, he was the motivating force, that it had started
with him. That was the impression that was created
because you were not seeing him in context.
But the picture looks very different once you open up
Tamerlan’s computer and compare because not only was
the radical material on Jahar’s computer, mostly dumped
there by Tamerlan, as you began to hear a little bit of in
the first phase of the trial, but because Jahar’s radical
internet activity was just a faint echo of Tamerlan’s.
What Tamerlan’s computer shows is obsession. He
was consumed by jihad. It had [50-40] become almost
all he did and all he thought about.
Comparing Tamerlan’s computer to Jahar’s leaves no
doubt as to where the impulse for the Boston Marathon
bombing came from, who drove this plot, and who just
followed, not just who bought the parts, not just who
built the bombs, not just who led the way, but where the
fuel for this came from, the fanatical emotions and ideology that propelled this crime.

750
We all know that younger brothers tend to look up to
older brothers, especially when there is an almost sevenyear difference between them. But the evidence here
will show that this was especially true here for two reasons: one was the culture into which Tamerlan and
Jahar were born and in which they were raised, and the
other has to do with their own particular family. So
when the older brother went off the rails in this family,
there was every reason to expect that he would pull the
younger brother with him.
To get oriented, we’ll call a historian called Michael
Reynolds probably tomorrow.
Professor Reynolds
teaches at Princeton, and he studies the part of the
world where Russia meets the Middle East, the Islamic
Southern Caucasus Region of Russia. Let’s get oriented. Let’s go back out for a minute. This is the map
that shows the great distances involved. There’s us.
There’s Chechnya and Dagestan, the South Caucasus,
and here, as you’ll learn, is where Jahar spent the first
six years of his life. And Professor Reynolds will explain the [50-41] history behind that. This is the country of Kyrgyzstan, which is actually on the border of
China. Want to bring it up? Expand.
So here is the region of Southern Russia and Central
Asia in which our family’s story begins. Professor
Reynolds will just give you some background. His testimony is not going to explain why this happened. It’s
just going to give you some background, some sense, of
who this family was, where they came from, what their
story is, so that you can have a fuller understanding of
who they are, of who Tamerlan is, was, and who Jahar
is.

751
Professor Reynolds will tell you who the Chechen
people are, a people who have lived independently in the
mountains of Southern Russia for thousands of years.
He’ll tell you a little about their culture. It is a patriarchal culture. He’ll explain the reasons why it developed the way it did. Importantly for our story, what
that means is that it is a culture in which in each family
the father is all powerful, and the eldest brother has tremendous power. And when the father can no longer
fulfill his role, the elder brother rules the family.
While he’s here, Professor Reynolds will also tell us
a little bit about the fate of Chechnya in the modern
world. It’s a small country, still about only a million
people. He’ll tell you about what has happened in
Chechnya over the last 20 [50-42] years in the course of
two appalling wars, two invasions by Russia, in which
countless thousands of people have died, and much of
the country has been laid waste. He’ll explain that the
Chechen wars began as a nationalist uprising, not a religious war at all but just—by people who wanted to be
free of Russia. But after unimaginable death and destruction, violent Islamist jihadis have effectively hijacked
the struggling Chechnya so that when a young Chechen
overseas goes online to find out about his roots and his
origin, what pops up is sophisticated extremist propaganda. You’ll see some examples of that.
Professor Reynolds will give you a very small sample
of things Tamerlan was doing online. He speaks fluent
Russian, by the way, and a great deal of this material is
in the Russian language. And that was why we thought
it was important to get his help in explaining what was
there, what Tamerlan’s online world had begun. And
we hope that some of this material will give you some

752
little sense of the deadly allure of this stuff. And he’ll
point you to some of the clues on Tamerlan’s computer
that shows quite precisely, with recordings of his own
voice, what he was thinking and doing in Russia when he
was there in 2012.
Now, let me be clear about something. To say that
Tamerlan had power over Jahar does not mean that Jahar
had no freewill. Jahar could and did try to get around
Tamerlan. He [50-43] hid his own pot smoking from
him all the time. Around his own friends, Jahar is
somebody who seemed independent and cool or chill.
And the government, I’m sure, will point that out before
we’re done.
But the idea the younger brother follows and supports the older brother is part of who they both were.
Culture is what’s bred in the bone. And a family like
Jahar’s, turn your back on your older brother and you
are no one. So Jahar did not defy Tamerlan to his face,
not ever. And when Tamerlan made a decision, Jahar’s
role was to support him.
Now, of course, the cultural rules that I’ve mentioned
and the historical experiences apply to a lot of people
who never become violent. So we’ll need to widen the
frame and let you know a little bit about Jahar’s family
of origin because part of the reason why Tamerlan had
such power, why he became so extreme, and why he was
left in charge of Jahar when the parents both left for
Russia for the last time in mid-2012, has to do with his
particular family. It’s a long and complicated story,
but I’ll try to outline the bare bones of it right now for
you.

753
I told you that Jahar was born in Kyrgyzstan, which
is a country almost to China. It used to be part of the
Soviet Union, very, very far from Chechnya, very far
from the North Caucasus. Professor Reynolds will explain, the historical reason for that is that the entire
Chechen people were loaded [50-44] onto cattle cars and
deported en masse, in the third week of February 1944,
in the middle of World War II, by Joseph Stalin, and
dumped in Central Asia, 2,200, 2,400 miles away, a third
to a half of the Chechen people died during that, what
was one of the great crimes of the 20th Century, something that very few people know anything about. I
mention that only because it explains why Jahar, in a
Chechen family, grew up thousands of miles from
Chechnya and has never set foot there.
Jahar’s father, Anzor Tsarnaev, was born in Kyrgyzstan, in the Chechen exile there, of parents who were
both child survivors of those cattle cars. And Jahar’s
mother, Zubeidat Tsarnaeva, was born back in the Caucasus. She is not Chechen. She is a member of the Avar
ethnic group in a region called Dagestan, which is right
next to Chechnya. And they might never have met but
for the fact that she was living with a brother in Siberia.
Anzor was in the Soviet Army in Siberia. They’re teenagers. She’s 18; he’s 19. They meet. They marry.
He brings her back to meet his family in Kyrgyzstan.
And immediately his family realized that something
is very seriously wrong. Chechen culture puts great
emphasis—it insists upon modesty, self-effacement.
And Zubeidat was everything that Chechen culture
does not permit. She was loud. She was over the top.

754
She was self-aggrandizing. And Anzor’s family rejected her, said she cannot be part of our family. Send
her back. But he didn’t. He stayed with her.
[50-45]
And thus began 15 years of wandering, of intermittent traveling and trips in which, for thousands and
thousands of miles across Central Asia, Siberia, back to
Chechnya and Dagestan, while the couple had four children, starting with Tamerlan in 1986 and ending with
Jahar in 1993. These are the moves, the relocations,
that this couple, and eventually their four children,
made between 1985 and when they left for America in
2002. And this gives you some sense of the instability,
the turmoil, in which these children first entered the
world.
The pattern of this nomadic life was always the same.
Anzor and Zubeidat would head off to some new place
with great, unrealistic hopes and ended up having to go
back to Anzor’s family in Kyrgyzstan to bail them out,
give them a place to live, put them back on their feet.
They tried to return to Chechnya in the early 1990s but
had to go back to Anzor’s relatives in Central Asia just
before the first Chechen war began, just before Russia
attacked, to such devastating effect, 1994. In 2000,
they thought it would be a good time to move back to
Dagestan just as the second Chechen war was getting
underway and as war broke out in the region, a terribly
dangerous time for them to be going where they went.
Finally, Anzor’s relatives saw what desperate shape
this family was in and helped them emigrate to the
United States. And they arrived in Cambridge, Massachusetts, in 2002, with higher hopes than ever. But

755
nothing worked out. They [50-46] worked hard and
they tried everything, but within a couple of years both
parents were diagnosed with serious mental illness, and
their family’s disintegration had begun. Anzor especially
was badly damaged. He worked as a self-employed
auto mechanic, fixing cars outdoors in empty lots and in
parking spaces on the street. He worked hard, but he
never learned English well enough to get a regular job,
and his physical and mental illnesses were soon severe
enough that he was placed on S.S.I., although he continued to work as much as he could.
Later on in this hearing, you’ll see some of his medical and psychiatric records, and you’ll see how afflicted
he was with Post-Traumatic Stress Disorder, with organic delusional disorder, with panic attacks over the
ten years in which he—that he spent in Cambridge.
Anzor, the man in the family, was supposed to lay down
the law, make sure everyone did what was expected of
him, but he was too sick to fulfill that role. And eventually, as you’ll see, that would leave Tamerlan in
charge.
Zubeidat also worked hard, but she had wildly unrealistic dreams that went nowhere. She took what she
wanted. She got in trouble with the law. She alienated much of the small Chechen community in Boston.
She proved a destructive force in the lives of everyone
around her. She was desperate for praise and validation, and her children existed to reflect glory back on
her. As her dreams in America began [50-47] to crumble, Zubeidat began to turn to fundamentalist religion,
and she made sure that Tamerlan learned about it, too.
Although the family had not been very religious in
Russia and nor when they first lived in Cambridge, after

756
several years in Boston, Zubeidat began to dress all in
black and in the—with a hijab, a head covering, like a
devout Muslim woman in the Middle East, and she was
becoming more and more radical in her thinking. Her
own family in Russia was, and still is, as you’ll hear, mystified by the changes.
But throughout all this, the oldest son, Tamerlan, was
the answer to all the family’s mounting problems. He
was going to be a boxing champion and compete for the
United States in the Olympics. He was going to go to
Harvard. He was going to become a famous musician.
He was going to become a lawyer. He was going to become a dentist. He could do anything. Tamerlan was
the reason the family existed. Only great things lay
ahead. What made this so wonderful for Zubeidat was
that Tamerlan loved and adored his mother so much.
That was the atmosphere of maternal delusion in which
Jahar grew up. He not only had an older brother to
look up to obey, but his older brother was Superman.
But the evidence will show that Tamerlan failed at
everything. After a mediocre high school career, he
made three tries at community college and music school
and dropped out or never even attended all three times.
He had almost no [50-48] legitimate work history, just a
handful of occasional low-paying jobs. Despite his
deepening interest in Islam, he spent most of his time
drinking, chasing women in clubs, partying, smoking
pot. His boxing career petered out partly because he
never obtained his U.S. citizenship, as you’ll learn, but
also for what looks like lack of motivation. After he
married and fathered a child, his wife went to work, as
I’ve told you, as a home healthcare aid, to support the
little family while Tamerlan stayed home becoming

757
steadily more focused on extremist ideas that he was absorbing online. By the end of 2012, Tamerlan had received an eviction notice. He was about to lose the only
home that the family had ever had in America. But
Tamerlan was ready to step into an alternate reality
where none of this would matter, where he would be important, where he would be remembered; and in all the
world, there was one person he could take with him.
In 2009, Anzor is badly beaten in a parking lot outside
a restaurant where he had gotten into some kind of argument. His skull is bashed in. His brain is damaged.
And his psychiatric problems become even
worse than they already were. In 2012, in January, as
I’ve told you, Tamerlan leaves his wife and his one-yearold daughter to go to Russia to wage jihad. Anzor
leaves for Southern Russia for Dagestan in May, telling
people he is going home to die. Tamerlan comes back
from Russia in July 2012 having failed to find a holy war
to [50-49] fight in. His mother Zubeidat leaves for
Russia in September.
Jahar has just turned 19. He’s a sophomore in college. He’s drifting and he’s failing. Now Tamerlan is
in charge. He has always been the most important
member of the family, and now he’s the last adult family
member in Jahar’s life. The evidence about Jahar will
look very, very different in what I’ve just described to
you. Through all of the family chaos and that tiny, twobedroom apartment that you’ve already seen, he was the
quiet, helpful kid who did his homework, cared for his
relatives’ children, was loved by his teachers and appreciated by his friends. He didn’t beat anyone up. He
didn’t take advantage of people. He did well in school.

758
You’ll hear from a few of his friends in high school
and college. It’s hard for them to come forward now.
But some of them will. Even Stephan Silva, remember
him? The government’s witness who was hoping for a
good deal on his own charges. He didn’t have a lot of
running room to say anything nice about Jahar, but he
still did. One of the realist and coolest kids he knew,
he said. Never seen him violent. Never picked on anybody. But no one said—no one says anything like that
about Tamerlan. When people who knew Tamerlan
heard that he’d bombed the Marathon, it kind of fit.
But people who knew Jahar were stunned.
Now, I’m sure there are people now who don’t want
to hear what Jahar was like all through elementary and
high [50-50] school. That’s understandable, at least for
people who don’t sit where you do. But it’s all true.
He was a good kid. Now, the government will tell you
that the good kid was a fake and that only the Jahar that
followed his brother down Boylston Street was real.
But does that really make sense? When did this fake
self start?
College?
Twelfth grade?
Eleventh?
Tenth? Was he fake when he was eight? What about
when he started that Al-Firdaus Islamic Twitter account a month before the bombings, the Twitter feed
that the government made such a big deal about during
the first phase of the trial? Was he faking when he lost
interest after seven tweets? It doesn’t really make
sense. I think, when you look at all the evidence, you’ll
find that Jahar really was what he appeared to be: a
lost teenager with very little motivation to do anything
much on his own, who had been raised all his life to take
direction from the most powerful adult, by 2013, the only
powerful adult in his world.

759
When you look at all the evidence—that reminds me
of something that happened last week: the still photo
of Jahar with his middle finger out. I could almost hear
you gasp when Miss Pellegrini put that still up on the
easel. And she did it between those four photographs
of the victims, those beautiful photos of those people so
young and full of promise. And it took us a whole day
before you found out what you had and hadn’t seen because, when you finally got to see the 30-second [50-51]
clip, it turned out that that shocking gesture wasn’t
quite as advertised.
What you saw was that Jahar had just been unchained after who knows how many hours, and he starts
looking and walking around his cell. He finally has use
of his hands. He starts to fiddle with his hair and starts
using the plastic housing of the security camera as a mirror. Then he stands up close to it. He flashes a peace
sign and, for just a split second, sticks out his middle
finger. To who? To himself? What did it mean? It
meant that he was acting like an immature 19-year-old
is what it meant.
Then there’s his facial expression which looks like a
sneer until you know—and there will be evidence about
this later on—that he had been shot in the face on April
19th, and his face was slightly twisted to one side by the
wound. You can still see some of the effects of that
wound on the left side of his face and his closed left eye.
You also found out that the deputy marshal who saw
whatever it was didn’t think anything of it until the order came from higher-ups two days later to write a little
report. Enough said about that, more than enough.
But it’s worth remembering for this reason: because it’s an example of how you can’t ever accurately

760
evaluate anything, not even a picture, until you know the
context. Whether it’s a grainy still from a surveillance
camera or a [50-52] young man’s life, you have to know
the context.
You’ll also hear a little bit in this trial about where
Jahar will go if you punish him with life in prison. This
is another photograph of ADX. Can you see it on your
monitors? This is where the government keeps other
terrorists who used to be famous but aren’t anymore.
It’s a place so secure that he won’t even be able to
glimpse the outside world. All you can see from the
narrow cell windows or from the small, one-man exercise cages is a patch of sky. It’s right near the Rocky
Mountains, but no one in the prison can see that.
Importantly, communications are strictly limited,
and the few that are allowed are monitored in real time.
There is no privacy. There is a video camera trained
on the inside of his cell and on him every minute of the
day. There are no interviews with the news media.
There will be no autobiography. There will be no messages relayed from Jahar onto the internet. There will
be no nothing. There will be no media spotlight coming
back on him as an execution date approaches. And one
important thing you’ll learn is that the FBI and the U.S.
Attorney’s Office here in Boston are in a position to help
ensure that Jahar is cut off from the outside world forever if they think it best.
So the evidence will show that if you sentence Jahar
to a lifetime of thinking about what he did, you’ll both
punish him and protect society at the same time.

761
[50-53]
The government has called a number of expert witnesses, and we expect to call some experts, too, to shed
light on particular issues or items of evidence. I’m not
going to tell you about them all now, but I do want to
mention one. Dr. Jay Giedd is one of the country’s top
researchers on how the human brain matures and what
that means for adolescent behavior.
Everyone who’s ever been or raised a teenager
knows that they don’t have the same judgment and maturity as adults. The death penalty law recognizes that
by drawing an absolute line at age 18. Under 18, even
by a single day, no one can even be considered for the
death penalty no matter how horrible the crime that he
commits. Well, in April 2013, Jahar was 19. He was
21 months past his 18th birthday. But he was still at
an age too young to legally buy a beer, at which many,
many people make horribly bad self-destructive decisions, the sort of decision that leave the people who
know them and care about them thinking, asking, What
was he thinking?
And one of the things you’ll each have to decide for
yourself is how to weigh his young age as an mitigating
factor, that is, as a factor against imposing death. In
the last few years, modern science has begun to understand why it is that adolescents so—it’s such a characteristic of adolescents to make such terrible decisions.
As Dr. Giedd will explain, the answer has to do with
[50-54] the way the different parts of the brain mature
at different rates. The impulse, risk-taking parts of
our brain mature before the parts that regulate our actions, our judgment, and help us weigh consequences.

762
So adolescence is a time when we’re like cars with very
powerful engines and faulty brakes. It’s a time to be
more stirred by powerful emotions, rage at supposed injustice, love for a charismatic older brother, and less by
logic and good judgment.
Now, Dr. Giedd will make clear that no one can say
where a particular individual is on the path to maturation, and he certainly will not suggest, and neither will
we, that Jahar could not have controlled his behavior because of his age or for any other reason. Let me say
that again. Nothing you’re going to hear from the defense in the coming days is going to suggest that Jahar
couldn’t control himself. No one is going to say that he
didn’t know what he was doing. No one is going to say
that his brother actually forced him to commit these horrible crimes. And no one is going to tell you that you
should feel sorry for him.
But when all is said and done, the evidence will still
show that Jahar was the 19-year-old little brother.
And considered with everything else, we think it will
show that, as awful as this crime was, a lifetime in prison
to face what he has done is the better choice for everyone. Thank you.
THE COURT:

Mr. Fick.
*

*

*

*

*

[50-58]
Q. From your prior encounters with Mr. Tsarnaev in
the store over the years, how would you describe him
physically, his demeanor? What do you mean by him?
A. Well, he’s a big guy. He’s a muscly guy. And to
be honest, the conversation between me and him, it was

763
only, like, normal chatting, like, Hi, how are you? How
is everything? How is your daughter? Because he
has a daughter same age as my daughter. So most of
the conversation was about how is the girl and does she
speak? Does she walk? That’s it. No more.
Q. Did you have any observations of how he sort of—
how he carried himself, how he shook hands with you?
A. He’s a big guy, so when he shake your hand, he
just—he’s—what you can say—is proud of his muscles.
Like, he show off that I’m a big guy, and I can squeeze
your hand.
Q. Now, in addition to seeing him at the store—first of
all, let me ask you: Do you sometimes yourself attend
the Islamic Society mosque on Prospect Street?
A. Yes, I do. Every Friday in the Jumu’ah prayer, I
work in the store, and we close during the prayer time,
and I go to pray and come back to work.
Q. And did you observe an incident involving Tamerlan
Tsarnaev at the mosque in the fall of 2012?
A. I did, yes.
Q. Can you describe what you observed?
A. Well, I think it was before the election. And to be
[50-59] honest, I can’t remember which election, the
presidential election or the governor of the city. And
Imam, during the speech, the lecture, at prayer, he was
saying that—he was encouraging everybody to go and
elect and choose one of the guys. And then we have—
by participating in the election, we can be a full-time citizen and so on and so on. He didn’t like that. So he
stood up, and he told him we shouldn’t do that.

764
Q. Do you remember any of the words he used?
A. He called the Imam, You are monafiq.
means, like, hypocrite.
Q. What was his demeanor like?
sound like?

Monafiq

What did his voice

A. He always—as I said, he’s full of—he’s proud of his
muscles and his voice. When he talks, he’s loud. He
doesn’t speak—he has loud voice, yeah.
Q. Did he make any gestures or anything like that?
A. Say it again, please.
Q. Did he make any gestures with his hands as he did
this?
A. Yeah. He said to Imam—when he was talking to
the Imam, he was using his hand.
Q. How long did the interruption last?
A. A few seconds, maybe ten, twenty seconds, and he—
then he sat down.
Q. Okay. Now, were you there for a second incident
involving Tamerlan a few months later?
[50-60]
A. Yes, I was there.
Q. Can you describe what happened that time?
A. That week, it was Martin Luther King week or holiday, and also it was the Prophet Mohamed’s, Sallah Allah alihe wa Salam, birthday. So, as Muslims, we celebrate the birthday of the prophet, Sallah Allah alihe wa
Salam. So the Imam was saying that this week we have
Martin Luther King and he was a great guy, and he did

765
so and so for human rights and for—the history of Martin Luther King as everybody knows. Also in the same
week we have the Prophet Mohamed, Sallah Allah alihe
wa Salam. He did that for mankind. He was doing
comparison between Martin Luther King and the Prophet Mohamed, Sallah Allah alihe wa Salam.
The first part of the speech was in Arabic, so I think
he didn’t understand what was going on.
Q. When you say “he,” who do you mean?
ferring to Tamerlan?

Are you re-

A. Yes, yes, sorry.
And then when the second half Imam say in English.
And when he start to do it to compare between Martin
Luther King and what he did and the Prophet Mohamed,
Sallah Allah Alihe wa Salam, he didn’t like it. And he
stood up and he said, Imam, you are monafiq. He
didn’t like it, and he was shouting at him.
Q. He was shouting this time?
[50-61]
A. Yeah. He was saying that he shouldn’t do this.
This is—you cannot compare the prophet with kafir person. Kafir is infidel. So he was saying that. You
cannot compare the prophet himself and a kafir person.
Q. How long did this incident last?
A. Again, maybe 30 seconds or something like that.
can’t remember to be honest.
Q. How did it end?

What happened?

I

766
A. He look at everybody in the masjid and he said, You
guys, you should kick him out or he should go. People
tell him, No, you go out. And then he left.
Q. Thank you, Mr. Albehacy.
for you.

I have nothing further

A. Thank you.
CROSS-EXAMINATION BY MR. CHAKRAVARTY:
Q. Good morning.
A. Good morning, sir.
Q. I’m one of the prosecuting attorneys.
Mr. Albehacy, when Tamerlan came to the—your
store, the Al-barra, on April 15th—
A. I don’t own the store.
Q. I’m sorry.
an employee?

I work there.

You don’t own the store.

You’re just

A. Yes.
Q. Do you still work there?
A. Yes, I do.
*

*

*

*

*

*

*

*

*

*

[50-69]
Q. Okay. Do you recall an incident at the Cambridge
mosque in 2012 when you were preaching involving a
person you later learned was named Tamerlan Tsarnaev?
A. Yes.

767
Q. Can you please describe what happened on that occasion in the fall of 2012?
A. Sure. So during that period of time, there was an
event in the Muslim calendar called the Ashura, which
is—kind of commemorate the time when Prophet Muhammad, peace be upon him, migrated from Mecca to
Medina, and he interacted with the Jewish community
there and learned that they’re celebrating a particular
celebration.
So he asked them about this celebration and said this
is the time when Prophet Moses, peace be upon him, and
the Israelites were rescued from Pharaoh. That’s why
we’re celebrating it. So the Prophet, peace be upon
him, he ordered the believers then to celebrate and join
the society by fasting.
So I wanted to take advantage of this incident, especially that this is kind of the right time frame for it, everybody’s celebrating the Ashura, they—to take a lesson
so [50-70] people can learn about, you know, how the
Prophet did it, integrate in this society, especially that
many of those who attend the prayers there and the ISB,
the Islamic Society of Boston, are mostly immigrants.
So that was my message to them.
So during this sermon, I mentioned, you know, the
idea of, you know, we’re here, many of us come, so nothing wrong for us to be part of this society and, you know,
celebrate Thanksgiving is coming and—because it was
also around that time. And Fourth of July, there are
so many events that we should, you know, celebrate.
At that moment, the older brother—I didn’t know his
name at that time; I didn’t recognize him—stood up, and
he was shouting at me and so angry and fired up that

768
“This is not Islamic. This is wrong. You should not
say that,” and he would just keep repeating this. I kept
quiet, silent, give him the room to say whatever he want.
I felt that awkward, honestly, because usually people
don’t do this in such ceremonies.
Later on he—within a couple of minutes or so he left
the room and I continued the sermon. After we’re done
with the service, he came back. And many people came
kind of to support me, and they say, you know, “This is
wrong,” and they’re trying, kind of, to calm me down. I
was not so angry to begin with. But he came, and people surrounded us.
I was hoping to kind of understand his point of view,
[50-71] where he’s coming from, so I had a dialogue with
him explaining to him my kind of basis, my—the principles from which I’m bringing my thoughts and asking
him, you know, “Show me why you’re saying this is
wrong, what—on what basis?” And he kept repeating
the same thing, “This is wrong. This is not Islamic.
You should not say that,” without giving me any proof or
any reference to, you know, events in the holy Qur’an or
a saying of the Prophet or any reference material that
can be used.
Then I think there were so many people around us,
and I cannot remember exactly how he left, but he left,
and I then left after that.
Q. Okay. And is it unusual for someone to interrupt a
sermon during the Friday prayers?
A. Oh, yes. The—so in the tradition, the Friday
prayer sermon is like once a week. It starts by a sermon and then followed by a prayer service. During the

769
sermon, people are not allowed to be distracted.
traction means voiding the whole prayer service.

Dis-

And there is different saying of the Prophet, peace be
upon him, describing what distraction means. So in
one of these sayings he said if you turn to the person
next to you and say “hush,” that’s a distraction, and your
prayer is voided. Another saying he was describing
that—at the time they were sitting on pillows because
there were no carpets, and if you [50-72] touch and play
with these pillows, that’s a distraction and you will void
your prayer.
So imagine a person standing and shouting and putting a whole act like this. That was my main concern,
that he was voiding his prayer. And people don’t usually do this. I haven’t seen that happening before that
time. That was my first experience.
Q. So in other words, across all of the times you’ve
given sermons, this was the first time anybody interrupted like that?
A. Yes.
Q. Was there another incident involving Tamerlan
Tsarnaev in January 2013?
A. That’s correct.

Yeah.

Q. Can you describe that for us, please?
A. Sure. So again, January, third Friday, I come
again. At that time, it was the kind of the time we’re
celebrating Martin Luther King Day. It was like
within the week or so. So I take advantage of this opportunity, try to highlight that Martin Luther King is a
great man, done a lot for his community. He had the

770
cause, and he fought for this just cause, and we can see
the fruits of his efforts.
So, again, as a Muslim community, we—many of us
think and feel that a lot of our rights are not served.
Again, there are so many analogies there. So I want to
kind of entice people to be part of this society and speak
up for their civic [50-703] rights and be part of the whole
civic engagement movement.
So I was kind of approaching this from an angle that
it’s not just Martin Luther King who’s done that; it’s
many, and pretty much all of the great people, including
the prophets in the past. And great people always had
a mission to serve the society. They cared less about
themselves personally. They were not selfish. They
faced some opposition, and they overcame that opposition by being persistent on the true path.
So I was mentioning different names, including
Prophet Muhammad, peace be upon him, as a role model
for the Muslims, and I also mentioned Martin Luther
King. And when I mentioned that, again, the older
brother stood up, and he was fired up, very hot. And
you can see his face like tomato red. And he was shouting that, “This is wrong. I remember you from last
time,” and even his stance was fighting stance.
I later on, actually after the bombing incident,
learned that he was a boxer because he was doing something like this (indicating). “I know you from last time.
I remember you,” and he kept saying this—”This is not
Islamic. This is not right, and you are hypocrite,” kind
of insulting me with this.

771
And the people at the time was—were shouting at
him, asking him to shut up and to sit down. That incident took longer than the first one in terms of time.
Then he left the room.
*

*

*

*

*

[50-77]
Q. And what is your educational background?
A. Okay. I finish my college in Morocco back home,
in law, public law.
Q. And, I’m sorry.

You said Morocco?

A. Yes.
Q. Okay.

And that’s where you’re from originally?

A. Yes.
Q. Do you live in the Boston area now?
A. Yeah.

I live in Cambridge, Massachusetts.

Q. And how long have you lived in the Boston area?
A. Okay.

I’m here close to six years.

Q. And do you have a family here?
A. Yes.
Q. How are you currently employed?
A. Say again?
Q. How are you currently employed?
A. Now I work in Al-Bara, on 304 Prospect Street,
Cambridge, Massachusetts.
Q. And is that a sort of Middle Eastern food and halal
meat store in Cambridge?

772
A. Yes.

Yes.

Yes.

Q. How long have you been working there?
A. So I work in there—it’s almost five years, but sometimes I left and I came back, so almost five years, yeah.
Q. Now, while you were working in that store, did you
[50-78] occasionally see a person who you later learned
was named Tamerlan Tsarnaev?
(The interpreter translates the question.)
A. Yes.
Q. Do you recall a particular incident with Tamerlan
Tsarnaev in the fall of 2012 where he—well, do you recall an incident from the fall of 2012?
(The interpreter translates the question.)
A. Yes, an important event.
Q. And can you describe, please, what was that important event?
A. Okay. I’m going to try with English.
going to—okay.

If not, I’m

So he’s a customer of the store, so I see him over
there in the store. So probably three or four, five time.
Okay? But the time that I can remember 100 percent,
so a time when it’s Thanksgiving. So we—and we have
a sign in the show, so we put a sign that we sell halal
turkey for Thanksgiving. Okay? So when he’s come
in the store, so he was try to buy some stuff, and he see
the sign, so he ask me, “Why you sell the turkey?” So
I told him because this is at Thanksgiving.
I’m going to use him.
Q. That’s fine.

Sorry.

773
(The interpreter translates the question.)
[50-79]
A. He yelled at me, and he said, “This is haram, which
is not right to sell turkeys.” And he was so nervous and
spoken very loudly using hand gestures too.
Q. I’m sorry.

Hand gesture?

THE INTERPRETER:

Hand gestures.

(The interpreter translates the question.)
A. And he said, “You shouldn’t be selling this.
not right.”

That’s

Q. Can you sort of demonstrate the hand gestures he
used and what his face looked like?
(The interpreter translates the question.)
A. So he’s standing like that, and the show, it’s in the
front of him, and he use his hand exactly—he show me,
for example, the paper, why you put the sign here, so
like that. He’s using his hands like that. (Indicating.)
Q. And what kind of expression is on his face?
A. He’s angry.
Q. And just so everyone understands, can you explain,
what is halal meat?
A. Halal meat? So the halal meat, it’s—for example,
the—it’s the Islamic way to slaughter the animal. So
we have to use the knife—okay. For example, there’s
another way here, for example, you use the gun, and the
only one—it’s gun, so you going to skin the animals and
serve it to eat.

774
[50-80]
But for our way, for the Islamic way, so you have to
use the knife, and you have—before you slice the animal,
you have to say “Allahu Akbar,” name of God. That’s
halal meat.
Q. So these were halal turkeys that you were selling?
A. Yes.
Q. And, nevertheless, Tamerlan Tsarnaev did what you
just described?
A. Yeah. So it’s—in America, it’s—Islamic society, so
even—they live in America, so they want to celebrate
turkey [sic], so automatically we try to provide halal turkey for them.
MR. FICK:
ing further.

Thank you, Mr. Razak.

I have noth-

CROSS-EXAMINATION
BY MR. WEINREB:
Q. Good morning, Mr. Razak.
A. Good morning.
Q. In all the time you were working at the store, you
only saw Tamerlan Tsarnaev three or four times, correct?
A. Yeah.

Or four times.

Q. And you only saw him because he was shopping for
food at your store?
A. Yes.

775
Q. You didn’t know him personally?
(The interpreter translates the question.)
*

*

*

*

*

776
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Apr. 28, 2015
9:15 a.m.
JURY TRIAL—DAY FIFTY-ONE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

777
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[51-116]

MR. MELLIN:
THE COURT:

Objection.
Sustained.

778
Q. Over time, did you begin to see changes in Tamerlan
Tsarnaev’s demeanor?
A. Yes, sir.
Q. Describe those changes.
A. There were physical changes. His dress changed.
The beard obviously was a pretty drastic departure.
Q. Well, let me unpack that a little bit. The dress,
when he first started coming to Wai Kru, what kind of
clothing would he wear?
A. He was a very flashy dresser, you know, shiny, alligator shoes, and things of that nature.
Q. Was he clean shaven?
A. Yes, sir.
Q. And then later when you saw him, how did those two
things change?
A. He was dressed much more conservatively, and he
had a large, bushy beard.
Q. Did you talk about politics and religion over time?
A. After that point, no.
Q. Was there always a certain amount of friction between the staff at Wai Kru and Tamerlan?
A. Always?
[51-117]
Q. Yes.
A. No.
Q. Over time, did there become friction between the
staff at Wai Kru and Tamerlan?

779
A. Yes.
Q. Explain how that friction got started.
A. I’m not sure how it started.
manifested.

I can tell you how it

Q. Why don’t you tell us how it manifested itself.
A. There were instances where Tamerlan would wear
street shoes on the mats and in the rest of the gym
downstairs, which is highly frowned upon in that community. He would use people’s equipment without asking. He could be loud and disruptive to classes. In
addition, he would do his own thing, which wasn’t entirely frowned upon, but when you’re trying to run an
organized program, having individuals there being loud
and disruptive was definitely damaging to class to a
point and that created friction, yes.
Q. Was he ever approached and asked to stop those behaviors?
A. Yes. There was one incident that I can recall
where that happened, yes.
Q. Did he stop?
A. Not that I’m aware of, no.
Q. I want to turn now to April 14 of 2013.
time, you were training less at Wai Kru?

By that

[51-118]
A. I mean, define “less.”
Q. Well, how much would you be at Wai Kru?
A. Two to three days a week.
Q. Friday, April 14th, you were in the Wai Kru gym?

780
A. That evening, yes.
Q. I’m sorry. That’s not correct. Friday, April 12th,
which is three days before the Marathon bombing?
A. That Friday evening, yes.
Q. On that day, did you see Tamerlan Tsarnaev in the
gym?
A. No, sir, I didn’t.
Q. Who else did you see in the gym with Tamerlan
Tsarnaev?
A. I didn’t see Tamerlan in the gym.
Q. I’m sorry?
A. I didn’t see him in the gym that evening.
there after he had already left.

I was

Q. Right. You knew that Tamerlan Tsarnaev had
been in the gym?
MR. MELLIN:

Objection.

THE COURT:

Overruled.

You may answer.

A. Yes. I was aware that he had been in the gym earlier that day.
Q. And as a—were you still working for Wai Kru gym
on April 12 of 2013?
A. Part time, yes.
Q. So you knew other employees there?
[51-119]
A. I knew all the employees there.

781
Q. Do you also know that Wai Kru gym has a number
of surveillance cameras?
A. I do.

I’m aware.

MR. WATKINS: Your Honor, I’d like to show Mr.
Douglas a video from April 12 of 2013.
THE COURT:
MR. MELLIN:
ask, your Honor.
THE COURT:

I’ll allow it.
Thank you.

What number is it?

MR. WATKINS:
THE COURT:

I know better than to

Exhibit 3273.
All right.

Q. I’m going to stop it here and ask if you recognize
anybody in this video.
A. Yes.
Q. If you tap on the screen, you can identify.
that?

Who’s

A. That’s Tamerlan.
Q. And do you see Jahar Tsarnaev?
A. (Indicating.)
Q. And there’s a third man in this video.
to identify him?
A. No, sir.

Are you able

I don’t know who that is.

Q. What do you recognize this—where is this video clip
from?
A. That’s in the boxing ring at Wai Kru.

782
[51-120]
Q. I’m going to play the remainder of the video.
(Video recording played.)
Q. Now, I’m going to stop it there. We just saw Tamerlan Tsarnaev throw a piece of equipment at Jahar
Tsarnaev?
A. Yes.
Q. What is that?
A. Those are hand wraps.
Q. Did you later learn that your gloves had been used
at Wai Kru gym?
A. Yes, sir.
Q. What did you learn about that?
A. I learned that Tamerlan had gone in the back and
took two pairs of gloves, one for himself and one for his
brother.
Q. Was that from your own property?
A. One of those was, yes.
Q. Was that something he’d ask for permission from
you for?
A. No, not from me or the other instructor involved.
Q. Was that something that you would condone?
A. No, not at all.
Q. You mention that you were not present at that time
but came into the gym shortly after that?

783
A. Sometime later that evening, yes, after I got out of
work.
Q. And did you actually see Tamerlan Tsarnaev there?
Did you cross paths?
A. Not that I recall.
[51-121]
Q. Did you speak with an employee at the—at Wai Kru
gym about what had happened that day?
MR. MELLIN:
THE COURT:

Objection.
Yeah, sustained.

MR. WATKINS: Your Honor, may we—this will be
the last thing. Perhaps we could—
THE COURT: I know what you have in mind. I
would exclude it at this point because he’s testified to
the subject.
MR. WATKINS:

I’m sorry?

THE COURT: He’s testified to the subject or he
can if he hasn’t completed it.
Q. So in speaking—so what did you learn about Tamerlan’s behavior that day?
MR. MELLIN:
THE COURT:

Objection.
Sustained, at least to that question.

MR. WATKINS:
Honor?

May I have just a moment, your

(Discussion held off the record.)
Q. Do you know of any action that was taken after
Tamerlan’s behavior that day?

784
MR. MELLIN:
THE COURT:

Objection.
You may answer that.

A. Yes, sir.
Q. What action was taken?
A. The general manager of the gym emailed the owner
to express his displeasure with Tamerlan’s behavior that
evening.
[51-122]
MR. WATKINS: Your Honor, for the record, I’d
move in Exhibit 3230.
MR. MELLIN:
THE COURT:

Objection.
I’ll exclude it as cumulative.

MR. WATKINS:
Honor.
MR. MELLIN:

I have nothing further, your
Very short.

CROSS-EXAMINATION BY MR. MELLIN:
Q. Good afternoon, sir.
A. Good afternoon.
Q. The last time that you talked to Tamerlan Tsarnaev
was in January or February of 2013, is that right?
A. Yes.
Q. Okay. And that’s the last time you actually saw
him, too, correct?
A. Yes.
Q. And you pointed out the defendant in the video.
Had you ever met the defendant?

785
A. No, sir.
Q. Never seen him boxing or doing anything at Wai
Kru?
A. No, sir.
MR. MELLIN:
your Honor.

Thank you.

MR. WATKINS:

Nothing further,

Nothing, your Honor.

THE COURT: All right, sir. Thank you.
may step down. We will take the lunch recess.
*

*

*

*

*

You

786
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., May 5, 2015
9:12 a.m.
JURY TRIAL—DAY FIFTY-FIVE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

787
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[55-17]
Q. And what changes did you notice in—if any, did you
notice in Katherine at that point?

788
A. Besides not really being involved in her daily life
that much anymore, she started to change her dress at
that point, and she was wearing a hijab.
Q. And what were some of the other changes that you
noticed?
A. I don’t remember what month, but she had started
to dress fully—she had started to fully cover herself,
and she just became very quiet and, obviously, alienated
from myself and Stephanie.
Q. I’m sorry.

I missed the word.

A. Alienated from Stephanie and myself.
Q. “Alienated”?
Did you try during that summer and fall to maintain
what had been a very close friendship?
A. Yes.
Q. And how would she respond?
A. I don’t recall exactly what was said, but it was unsuccessful.
Q. Did something happen at the end of 2009 that
caused you to move out of that apartment?
A. Yes.
Q. What was it?
A. I had—I had heard an argument between them, and
I attempted to help Katherine and—
[55-18]
Q. What did you do?

789
A. I went downstairs to her room, and I banged on the
door. And I knew that she needed help because I could
hear her asking for it earlier, before I ran downstairs.
And she said it was none of my business and wanted me
to go away. And—
Q. Let me just stop you right there. Do you remember what time of day or night this was?
A. It was, I think, about one o’clock in the morning, two
o’clock in the morning.
Q. And what exactly did you hear, as best you recall
and as best you can describe it?
A. I could hear—I was sleeping with my TV on, and I
was woken up by how loud they were fighting, and I
could hear banging, and I don’t know what the noises
were, but it was screaming as well as throwing things or
. . .
Q. Did you think it was just a verbal argument?
A. No.
MS. PELLEGRINI:
THE COURT:

Objection.

Overruled.

You may answer it.
BY MS. CONRAD:
Q. What did you hear that made you think that it might
be a physical fight?
A. I could hear things being physically either thrown
or moved or . . .

790
[55-19]
Q. When you went downstairs, how did Katherine
sound?
A. She sounded frantic, but when I spoke to her, she
was very calm and stern with me.
Q. So when you—after she told you it was none of your
business, what did you do?
A. I said that he needed to get out of our house.
Q. And this was still—you were outside the bedroom
door?
A. Yes.
Q. And did either of them respond?
A. She repeated that it was none of my business.
Q. So what did you do?
A. I went back upstairs to go talk to Stephanie.
Q. And what happened after you went upstairs?
A. Their door opened, and he, I think, came out. I
didn’t see because when I heard their door open, I had
gone in my room. And he was speaking to me from the
bottom of the stairwell.
Q. So let me just stop you there. So you’re in your
room. Did you have a lock on the door of your room?
A. No.
Q. Did you do anything to secure the door?
A. Yes. After he spoke to me, I moved my desk to
barricade my door.
Q. What did he say?

791
A. He—it was repeating, very angrily, “Get down here
right [55-20] now.”
Q. And did he say anything after that?
A. When I said no, he said, “If I ever see you again.”
Q. And how did you interpret that?
A. I was very scared.
Q. Did you take it as a threat?
A. Yes.
Q. And is that when you barricaded the door?
A. It was when he was asking me to come downstairs.
Q. So what did you do at that point?
what, one-thirty, two in the morning?

This is now,

A. Uh-huh.
Q. So what did you do?
A. When I heard their door shut again, I ran into
Stephanie’s room to ask if she had heard everything that
had happened, and she was also wide awake with her
light on, and she was scared. And we packed bags, and
we left.
Q. Now, you say you left.

Where did you go?

A. We went to a friend from high school that I knew
who lived in Boston’s house, apartment.
Q. Why did you leave?
A. We were scared.
Q. Did you take time to change clothes?
A. I’m sorry?

792
Q. Did you take time to change clothes?
[55-21]
A. No.
Q. So you left in your pajamas?
A. Yes.
Q. And did you call the police?
A. No.
Q. Why not?
A. I was thinking that she would deny anything ever
having happened and he wouldn’t be put in jail, and
therefore he would be more agitated with me.
Q. Did you take some action, though?
A. I had asked a lawyer for advice on how to get out of
our lease.
Q. And did you actually send the lawyer an email that
night?
A. Yes.
Q. At about three in the morning?
A. Yes.
MS. CONRAD:
your Honor.

I’d offer, at this time, Exhibit 3238,

MS. PELLEGRINI:
THE COURT:
MS. CONRAD:
please?
THE COURT:

Objection, your Honor.

Sustained.
May I show it just to the witness,
Yes.

793
MS. CONRAD:

Thank you.

Just for the witness.
*

Do you have 3238?
*

*

*

*

794
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., May 13, 2015
9:36 a.m.
JURY TRIAL—DAY FIFTY-NINE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

795
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[59-61]

MR. MELLIN:
Good morning.

Thank you, your Honor.

796
THE JURORS:

Good morning.

MR. MELLIN: There’s a certain clarity that comes
to you when you are close to death. Remember the testimony of Jeff Bauman and Sydney Corcoran. Even as
they lay bleeding on that sidewalk on Boylston Street,
they made peace with death.
As the defendant lay bleeding in that boat, he too
made peace with death. In his moment of clarity, he
wrote what he thought would be his lasting testament.
He wrote, “Now, I don’t like killing innocent people, but
in this case it is allowed because Americans need to be
punished.” No remorse, no apology. Those are the
words of a terrorist convinced that he has done the right
thing. He felt justified in killing and maiming and seriously injuring innocent men, women and children.
I want to start back on Boylston Street, back where
the carnage began. Picture the scene on Boylston just
before the first blast. It’s a beautiful, sunny Patriots’
Day. It’s 2:45 p.m. And the defendant walks up. He
walks up past the Forum restaurant, sees how crowded
it is, and decides that’s the place to put his bomb. He
placed it there because his goal was to murder and mutilate. He wanted to murder as many people as possible.
[59-62]
When he looked up, what did he see? He saw that
he had placed that bomb approximately four feet behind
a row of children. Six-year-old Jane Richard, eightyear-old Martin Richard, 11-year-old Aaron Hern, 12year-old Henry Richard. He was right here. The
children were right there (indicating).

797
But seeing them didn’t deter him. He didn’t pick up
that backpack, and he didn’t move it. He didn’t care if
he killed them along with everyone else because he had
already decided that killing innocents was justified. In
fact, killing innocents was the whole point. It’s the way
you terrorize an entire population. The more vulnerable and unsuspecting the victim, the more terrifying the
murder. The defendant picked the Boston Marathon.
He picked the Forum restaurant. And he chose to remain there right by that tree because it was the best way
he could punish his perceived enemies.
The defendant put the backpack down behind those
children, and he waited.
(Pause.)
MR. MELLIN: That was 20 seconds. He waited
almost 12 times that long before giving his brother the
go-ahead and then detonating his own bomb. Remember what Alan Hern said, the father of 11-year-old Aaron Hern. He said he was helpless trying to save Aaron. Remember what Steve Woolfenden said. He was
terrified and helpless as little Leo was carried away, little Leo screaming for mommy and daddy, being handed
off to [59-63] strangers. Steve Woolfenden didn’t know
if he would live or die, and he didn’t know if he would live
to ever see Leo again. These fathers were helpless.
They were helpless in saving the lives of their own children because of that defendant.
This is what terrorism looks like. It’s Martin Richard bleeding on the ground in agony while his mother
bends over him, injured in one eye, and begs him to stay
alive, saying, “Please, Martin. Please, Martin.”

798
It’s Lingzi Lu screaming in pain as she dies on that
street while her friend Danling tries to hold her abdominal organs inside.
It’s Krystle Campbell, burned all over her body, filled
with shrapnel, with smoke coming out of her mouth.
And it’s Sean Collier, a loving son and dedicated public servant, sitting in his cruiser with three bullet holes
in his head, dying as his own blood pools in that car seat.
And it’s nearly 20 other people staring in shock at
their mangled and ruined limbs when just moments before they were fine.
It’s not just the dead and the wounded who were injured by the defendant’s crimes. Others suffered unspeakable pain and will do so for the rest of their lives.
Bill Richard told you that he had to choose between saving Jane, who was near certain death, or going back and
seeing Martin in his last moments of life. Do you think
that memory ever goes away? that [59-64] pain ever
goes away?
The defense will ask you to value the defendant’s life,
but he did not value the lives of his victims, not even the
lives of children. He killed indiscriminately to make a
political statement, and he placed no value on the lives
and didn’t care for a second what impact his actions and
his killings would have on so many other innocent family
members and friends. His actions have earned him a
sentence of death.
There is so much death and loss and devastation in
this case, it’s hard to know where to begin. The defendant planted a bomb that led to painful eulogies and
terrifying memories. Surviving family members were
left to attend to funerals and live lives with bittersweet

799
memories of those lost forever and painful reminders of
what could have been.
You heard how Krystle Campbell was her dad’s princess. She was the light in his life. He told you that
she would call him every day. Now that light is out,
and no phone call will ever come.
Krystle’s brother told you how the family got word
that Krystle was still alive and at the hospital. Finally,
some good news on that awful day. Only it turned out
it was Karen McWatters who was alive. Krystle was
dead. You heard that Krystle’s dad fainted when he
heard that news. Two years later, Bill still feels the
loss, the loss of his sister, and his son feels the loss of an
amazing aunt.
[59-65]
Sean Collier was the moral compass in the family.
Now he is gone forever. His brother told you that Sean
loved helping people, and as Andrew said, there will always be a cloud over family events, forever. Or a cloud
over the family tailgates at the Patriots’ games. Joe
Rogers will never be able to go to another game with
Sean.
This is Sean’s graduation. Mr. Rogers told you the
happiest day of Sean’s life. He was murdered while
performing that job.
Even to this date, the pain and suffering and loss is
too much to bear for that family. Sean Collier’s murder caused his family a new world of pain. Joe Rogers
told you how his wife can no longer go to work after seeing Sean murdered. She suffers from PTSD and could
not even get out of bed for two months after Sean’s murder.

800
Sean’s mother cried the entire weekend of the second
anniversary of his death, and Easter will never be the
same for that family. If you remember, that was the
last time the family got together before April 18th, 2013.
Chief DiFava told you that one word described Sean
Collier:
character.
Now that character is gone.
And two years later, the grief still remains.
Lingzi Lu’s aunt, Aunt Helen, told you that her parents were too devastated to come to the United States
initially when they got the news. Lingzi was their only
child, [59-66] their future. That future ended on April
15th, 2013. She was her father’s jolly elf. She was the
beautiful nerd.
Lingzi’s father read a poem at her memorial service.
You heard it here in court: “There will be no bombs or
terrorist attacks in its path. In tears, we hear you say,
the forever young, ‘Dear Mom and Dad, don’t cry. I
love you. If there is an afterlife, I will be your daughter again.’ ” Her dad.
Her father said, “She’s gone. How can our living go
on?” So unbelievably sad, and yet so true. Their pain
will never go away.
Bill Richard knew immediately that there was no
chance for Martin. He saw his little boy’s severely
damaged body. He embraced his son Henry for a moment and then told Henry, “You have to help me find
Jane.” After finding Jane, Bill Richard made sure she
got the help she needed. Denise Richard was left with
Martin for the final moments of his life. Martin’s body
was ultimately covered by a tablecloth on Boylston
Street. Those are the lasting images Denise Richard
has for the rest of her life.

801
And think back to what Bill Richard said about telling
Jane about her brother’s death. Jane was still in surgery, coming in and out of consciousness, and each time
she was awake she would ask, “How is Martin?” And
each time they had to tell her Martin was dead. That’s
another lasting memory for that [59-67] family.
Bill Richard did tell you that he can “still hear the
beautiful voices of my family.” Unfortunately, because
of this defendant, he will never hear Martin’s voice
again. So much loss and suffering for one family to
bear. It’s too much.
Martin will never get to play high school sports or attend college or form lifelong friendships. Life for the
Richard parents and their children will never be the
same. Every race is an awful reminder that Martin is
not running and Martin is not there.
The defendant took all of that away from four lovely,
loving, caring, positive people. This defendant blinded
the mother, maimed their six-year-old daughter, ripping
off her leg, and blew apart eight-year-old Martin right
in front of their son and the father. There is no just
punishment just for that other than death.
All of this loss is overwhelming in scope and impact,
yet after causing all of this pain and suffering, this defendant bought a half gallon of milk without shedding a
tear or expressing a care for the lives of the people that
were forever altered or destroyed. He acted like it was
any other day. He was stress free and remorse free.
He didn’t care because the death and misery was
what he sought that day. His actions destroyed so
many families. And he, and he alone, is responsible for

802
his actions in causing [59-68] so much sadness, death and
fear.
I want to turn briefly to the verdict form. We just
went over it in detail. Your decision in this case will be
assisted by kind of a record-keeping process.
As
Judge O’Toole has instructed you, the United States has
to prove three elements before you reach the larger
task, which is an assessment of a just punishment in this
case. It’s a lengthy form, but it will guide you through
all of the steps.
And once you go through this form and this process
and the weighing of the factors, you will see how the aggravating factors so clearly point to only one result: a
sentence of death.
First, the government must prove the defendant was
at least 18 in April of 2013. You know from his school
records and from his naturalization documents that he
was born on July 22nd, 1993. He was almost 20 years
old in April 2013.
Second, we must prove at least one of the intent factors. As to the intent factors, the same evidence that
supported your finding of intent in the guilt phase is the
same evidence that will assist you in finding the intent
in this phase.
Remember also a passage from the Inspire magazine, 2010. Page 33, it educates the defendant, right at
the bottom, “In one or two days, the bomb could be
ready to kill at least ten people. In a month, you may
make a bigger and more lethal [59-69] bomb that could
kill tens of people.”
The defendant knew what kind of hell was going to
happen and be unleashed, and he intended to kill people.

803
How many did he think would die? You have heard
throughout this case so much evidence of his intent, but
just be mindful that there are four intent factors in this
phase. You need only find one applies, but you should
consider all four. And if you find all four factors apply,
you should indicate that.
Now, why do these murders deserve the death penalty when other murders do not? The aggravating factors are circumstances that by law—that the law says
makes some murders worse than others. You need
only find one statutory aggravating factor to justify a
sentence of death, but in this case we have six.
First, the defendant didn’t simply kill people; he
killed them using a weapon of mass destruction. It’s
obvious why the law considers murders committed in
that way to be worse than other murders. A weapon of
mass destruction is a tool of terrorists. Its purpose is
not to kill a particular victim; its purpose is to kill indiscriminately. And not just kill, but destroy.
Remember the massive fireball, the deafening explosion, the acrid smoke, the searing heat, the broken glass
of the windows, the chaos and the noise, and the river of
blood running down that sidewalk? All those things
make weapons of [59-70] mass destruction terrifying
and make the deaths that they cause worse than others.
Second, the defendant killed multiple people in a single criminal episode. The number of deaths is seen by
the law, understandably, as a reason to distinguish between murder cases. A case involving multiple killings
should carry a greater punishment than a case involving
a single killing. It’s clear the defendant killed more

804
than one person by using a weapon of mass destruction
in this case.
Third, the defendant engaged in substantial planning
and premeditation. The law punishes more harshly
those like the defendant who take considerable time to
deliberate, plan and carry out their murderous attacks.
Between the time this whole conspiracy started and the
time he finished carrying it out, the defendant had
plenty of time to reflect, to reconsider and think better
of this plan.
He didn’t set out to commit acts of terrorism on an
impulse. The whole plan was well thought out and a
long time in the making. It began for him with reading
terrorist writings and listening to terrorist lectures,
adopting the beliefs that would enable him to kill without remorse. He read the Inspire article, “Make a
bomb in the kitchen of your mom.” It’s a recipe book
for the bombs that were used in this case. Little
Christmas lights, pipe bombs like the ones used in this
case, and the pressure cookers.
[59-71]
The defendant acquired the 9-millimeter semiautomatic weapon. Remember the 9-millimeter gun? That’s
an essential ingredient in this plan as well. He got
that from Stephen Silva in January or February 2013.
He bought ammunition and practiced shooting the
9-millimeter at that firing range in Manchester. That
was March 20th. On the very same day, he tweeted,
“Evil triumphs when good men do nothing.” “Evil triumphs.”
On April 7th, the defendant tweeted, “If you have the
knowledge and the inspiration, all that’s left is to take

805
action.”
tion.

April 7th.

Within eight days they took ac-

On April 14th, the day before, he purchased that SIM
card, the SIM card he used to call his brother to give
him the go-ahead to detonate the bomb. And he waited
to commit these murders and these attacks on Patriots’
Day, a school holiday and the day of the marathon. He
did that so the bombings would be as terrifying and devastating as possible. And all of this is proof of substantial planning and premeditation.
Also consider how the defendant and his brother
killed Officer Sean Collier. That was not impulsive or
reflexive; it was an ambush. You saw how they deliberately walked together across the campus, and they
went straight to the door of his car. They knew he was
parked there. And once they got there, they did not
hesitate because they knew exactly what they were going to do. They needed another gun, and they were going to [59-72] murder him and take his service weapon.
At any point along this long journey to committing
terrorism, the defendant could have reflected, reconsidered, and stood down. The fact that he marched resolutely on towards his goal makes him more culpable and
his crimes worse.
The fourth aggravating factor is that the defendant
knowingly created a grave risk of death to additional
persons other than the dead victims. Judge O’Toole instructed you that “a grave risk of death” means significant and considerable possibility that another person
might be killed. In other words, putting others at risk
in addition to those who died.

806
The defendant killed and helped kill four people.
How many others did he nearly kill? Jim Hooley, the
head of Boston EMS, he told you that he and other EMS
workers sorted the wounded into three categories. Thirty
of the wounded were given red tags—30—meaning that
if they did not get to the hospital within 60 minutes,
there was a high likelihood that they would die. But 60
minutes would have been an eternity to some who were
wounded.
Sydney Corcoran told you that she felt her whole
body go cold as blood flowed from her severed femoral
artery on that sidewalk. Celeste Corcoran told you she
remembered every detail of the blast. She suffered excruciating pain as both of her legs were destroyed. She
said she just wanted to die because the pain was too
much. When she finally had enough [59-73] breath to
breathe, she said she screamed in agony. She was left
to try to recover in the same hospital room as her daughter Sydney, another family blown apart by this defendant and his brother.
Exhibit 20. Look at all of the mayhem. In the middle sits Jeff Bauman. Jeff Bauman described for you
how he could see his bone, and all he could say was, “This
is really messed up.” He told you to this day he doesn’t
know how he stayed conscious throughout. All he
said—or as he said, “I knew my legs were gone. I knew
it instantly.”
You saw video of Marc Fucarile lying on the street on
fire with a severed leg gushing blood. There’s Marc
Fucarile in the middle (indicating). Marc Fucarile had
to endure more than 60 operations in the months after
the bombings. Over 60. As Dr. King told you, every
surgery is dangerous and can itself be life threatening.

807
And after all of those surgeries, Marc Fucarile still
isn’t out of the woods. His body is still filled with shrapnel. It’s too dangerous to remove. And one of those
pieces of shrapnel is lodged in his heart. At any time
that could travel to his lungs, and he might die.
It’s a miracle that Marc Fucarile, Jeff Bauman, Sydney Corcoran, Celeste Corcoran or so many others survived.
And none of this was by accident. Just the opposite.
Remember what Inspire magazine says? Page 40 of
the same [59-74] volume. It recommends using a pressure cooker and placing it in a crowded area. In fact,
what it says is, “With that said, here are some important
steps to take for an effective explosive device: One,
place the device in a crowded area; two, camouflage the
device with something that would not hinder the shrapnel, such as cardboard.”
You place it in a crowded area because that pressure
cooker will be more effective in that crowded area. The
grave risk of death to others is part of the reason why a
pressure cooker bomb is so effective.
The fifth statutory aggravating factor is the cruel,
heinous and depraved manner of committing the offense
in that it involved serious physical abuse to the victims.
Judge O’Toole just instructed you that “serious physical
abuse” means a considerable amount of injury and damage to the body. “Cruel” means the defendant intended to inflict the high degree of pain by physical
abuse to the victim in addition to just killing them.
The evidence that the defendant caused injury and
damage to the victims’ bodies could not be clearer. You

808
saw the autopsy photos of Martin Richard, Krystle Campbell and Lingzi Lu. The bombs burned their skin, shattered their bones and ripped their flesh. It disfigured
their bodies, twisted their limbs and punched gaping
holes into their legs and torsos.
[59-75]
And none of that was accidental. It’s what the defendant intended to do to them. That’s the entire reason for filling the bombs with little nails and BBs and
other tiny pieces of shrapnel, because merely killing a
person isn’t nearly as terrifying as shredding them
apart.
Remember what was said in the Inspire magazine,
again on page 40: “However, in order to fill, for example, a pressure cooker with a substance from matches, it
may take a lot of matches to do so, and therefore you
may want to use gunpowder or the powder from fireworks.” Sound familiar?
It goes on to say, “You need to also include shrapnel.
The best shrapnel are the spherical-shaped ones. As
you can see in the figures below, you need to glue them
to the surface of your canister. (If steel pellets are not
available, you may use nails instead.)”
That’s exactly what the defendant did. You recall
the testimony of those victims outside the Forum?
They were full of nails and BBs.
The defendant wasn’t out just to kill innocents in order to punish America. He wanted to torment them to
make a political statement. He knew these bombs
would make people suffer because murders are more
terrifying and they make a better political statement
this way. It’s a better political statement if you force

809
the victims to suffer, suffer excruciating pain in front of
their parents and their friends. [59-76] That’s what
the defendant did to Martin Richard.
Dr. King told you that Martin did not die right away
and that the shattering of his arm and the twisting of his
internal organs were excruciatingly painful.
Dr. Jennifer Hammers told you the same thing about
Krystle’s broken leg. You know that Krystle lived to
experience that excruciating pain because you can see
her here screaming on the sidewalk before she dies.
And this, this is how Karen McWatters, her best friend,
will have to remember her.
The same, of course, is true for Lingzi Lu. You saw
the photos of her screaming as she lay dying, and you
heard Danling tell you how it pained her that she couldn’t
help her, that she was of no use to her friend at that time.
The sixth statutory aggravating factor is the vulnerability of Martin Richard due to his youth. No one deserves to be killed by a terrorist bomb, but some people
are more vulnerable, more vulnerable to the harm done.
Can there be anyone more vulnerable than a little boy
next to a weapon of mass destruction? In this case, an
eight-year-old boy named Martin Richard. There isn’t
a part of his body that was not affected.
Both the chief medical examiner and Dr. King explained to you that Martin was more vulnerable because
he was a little boy and his abdomen and key organs were
closer to the ground. [59-77] The defendant placed
that bomb on the ground, so the smaller the victims
were, the more exposed they were to the shrapnel.
Martin, he was 53 inches, just over four feet tall, and he
weighed 69 pounds.

810
Where the shrapnel from that bomb ripped apart the
top of Lingzi Lu’s legs, that same shrapnel headed right
for the middle of Martin’s midsection. Also because of
Martin’s youth, his body would not be able to sustain
those injuries as long as an adult. The evidence shows
you that there can be no doubt that Martin Richard was
a vulnerable victim.
There are five other aggravating factors in this case.
One is the impact of these crimes on the victims and
their surviving family members. I already talked a little bit about the impact of the crimes on the families, and
I won’t say more at this point because I suspect you remember quite well what those family members had to
say.
Another aggravating factor is the selection of the
Boston Marathon as a targeted site for terrorism. Committing murder during an act of terrorism is enough by
itself to make that murder worse than others, but choosing the Boston Marathon as the site for the terrorist attack makes it even worse.
That’s in part because the Boston Marathon is a family event. It takes place on a school holiday. As Stephen Silva had told you, the defendant had gone to the
marathon the year before, 2012. He knew that the
marathon attracted families and [59-78] that people go
there with their friends, so he knew that his bomb was
likely to kill and mutilate parents in front of their children or children in front of their parents or both.
He also knew that the last stretch down Boylston
Street, all the way to the finish line, drew huge crowds.
He knew that by placing his bomb there, he had a good

811
chance of killing and injuring hundreds of people, which
is exactly what happened.
He knew that the marathon draws an international
crowd so that the news of his bombing would be of interest in every corner of the world. And he knew that the
marathon is televised. His bombing would be played
and replayed over and over again, allowing him to terrorize people not just in Boston, but all over the country
and all over the world.
And of course the marathon takes place on Patriots’
Day, a day when we celebrate an important milestone in
the birth of American independence. It’s hard to think
of a better place to murder people than the Boston Marathon if you want to make a political statement, if you
want to make Americans—or if you believe Americans
are in need of punishment.
Another aggravating factor is that the defendant and
his brother chose to murder Sean Collier precisely because he was a police officer, a police officer with a gun.
Police officers carry guns because it is their job to protect us, and they put their lives at risk doing so. To kill
a police [59-79] officer makes all of us more vulnerable.
Sean Collier was a compassionate soul, a dedicated
young man who had devoted himself to protecting everyone on that MIT campus, from the students to the
homeless men who wandered onto campus. He was
everything a police officer should be. The fact that the
defendant and his brother targeted him because he was
a police officer is another aggravating factor for you to
consider.
Another factor is the defendant’s participation in additional uncharged crimes of violence, like Judge O’Toole

812
just talked about, like assault with a deadly weapon, or
attempted murder on others. You heard plenty of evidence about how the defendant attempted to murder as
many people as possible on Boylston Street and how
close he came to murdering dozens.
I want to talk for just a minute about how hard he
tried to kill other police officers, the officers in Watertown. Officer Reynolds told you that after he learned
the police were looking for the Mercedes SUV, he saw
it. He saw the defendant and his brother driving down
in his direction. The defendant was in front.
When he passed them and made a U-turn to follow,
the defendant turned down Laurel Street and his brother
followed. And the defendant stopped in the middle of
Laurel Street and his brother stopped behind him.
Both got out.
[59-80]
What was the defendant planning when he stopped
his car in the middle of Laurel Street and got out? You
know what he was planning because you know what he
did next. While his brother provided cover and shot at
the officers, the defendant lit bombs, the pipe bombs,
and a pressure cooker bomb, and hurdled them at the
officers. His goal was to kill them.
His brother was also trying to kill them, and the defendant shared in that goal. You know that was exactly
what he was trying to do because when his brother was
on the ground and the officers were trying to arrest him,
the defendant made one last attempt to kill police officers. He got back into that Mercedes, and instead of
driving away from the officers where he had a clear
route of escape, he turned around that SUV and drove it

813
at top speed right at them. He didn’t care that his
brother was on the ground. He saw an opportunity to
inflict even more pain, even more punishment on America, and he wasn’t going to pass it up. Once again, he
nearly succeeded.
Sergeant Pugliese rolled out of the way just in time,
or he, like Tamerlan Tsarnaev, would likely have been
run over and killed.
The last aggravator I want to discuss is the defendant’s demonstrated and disturbing lack of remorse, his
lack of remorse during the commission of the crime and
on the date of the arraignment.
20 minutes—20 minutes—after exploding his bomb,
[59-81] while his victims lay dead and dying and bleeding
—20 minutes—that’s a lot less than 60 minutes that
some of them had—20 minutes later, there’s the defendant. He strolled into Whole Foods like it was an ordinary day and shopped for milk.
That same evening, at 8 p.m., he got on the Internet
and tweeted to his friends, “Ain’t no love in the heart of
the city.” “Ain’t no love in the heart of the city.”
Hours after he fled the carnage that he had unleashed in Boston, he had the gall to tweet, “Ain’t no love
in the heart of the city.” As to that, he couldn’t have
been more wrong. As the defendant sat at home drinking his milk and tweeting his glib commentary, the heartbreaking love of a mother comforting her dying child
played out in the heart of Boston. Also on display were
the bravery, the strength, the efforts of strangers trying
to help those who had been injured, injured by the bomb
planted by this defendant. He failed miserably in try-

814
ing to blow apart the fabric of society. Make no mistake: Love prevailed in the heart of Boston on April
15th. But his true character was on display that night.
It was on display in his words, in his callousness in that
tweet.
The next day, April 16th, while victims awoke in cold,
antiseptic hospitals to the new reality that they were
amputees, the defendant went to the gym and worked
out. An hour later, he tweeted this: “I’m a stressfree kind of guy.” [59-82] He’s stress free, April 16th.
Then on April 18th, while Dun Meng, terrified, sits in
the SUV with Tamerlan Tsarnaev, the defendant walks
into that ATM and coolly withdraws money from Meng’s
account like it’s any other day. Later at the gas station, he slowly takes his time buying snacks for that trip
to New York where he wants to unleash even more
havoc.
And then finally, on July 10th, 2013, three months after the bombings, the defendant comes into court to be
formally charged with murdering a little boy, murdering
two women and a police officer. He has had months to
reflect on the pain and suffering that he has caused.
But when he’s put in that holding cell, you cannot see a
trace of remorse on his face. He paces, he fluffs his
hair, and he makes obscene gestures at the marshals
watching over him and watching over the surveillance
cameras.
Who is capable of being so stress free after committing the crimes he committed? Who is capable of showing so little remorse? Only a terrorist, someone who
had no reason for remorse because he believed that he

815
had done something brave and something good. Someone who had set out to make a political statement, to
commit a political crime and then firmly believed in the
righteousness of what he had done.
Alone, and certainly together, these aggravating factors sufficiently outweigh any mitigating factors to justify [59-83] your imposition of a sentence of death.
Frankly, it’s not even close. The magnitude and the
gravity of the aggravating factors overwhelmingly tilt
the scales of justice in only one direction.
The defense has proposed a number of mitigating factors. A number of them are unsurprisingly focused on
the defendant’s family life and his age. I want to discuss a few of those factors very briefly right now, and
Mr. Weinreb will discuss them in greater detail during
the government’s rebuttal.
Many of these mitigating factors concern issues we
all deal with in our daily lives every single day. These
factors are deserving of little weight in your analysis.
None of the factors about the defendant’s age or childhood meaningfully mitigate the terrorist attacks in this
case.
His age: The defendant was almost 20 years old
when he committed these crimes, old enough to know
right from wrong. At 18, young men and women leave
home. They join the military, start families, and they
can vote. The law states that a defendant must be at
least 18 before a sentence of death may be imposed.
Because when you are 18 or older, you are responsible
for your actions. Dr. Giedd’s observations regarding
the development of the brain are in line with the law, and
the law was informed by these understandings.

816
Now, you heard an enormous amount of evidence in
this [59-84] case about Tamerlan Tsarnaev, but Tamerlan Tsarnaev was not the defendant’s master. They
were partners in crime and brothers in arms. Each
had a role to play, and each played it. Both came to
believe in the teachings of Anwar al-Awlaki and the
other terrorists. Both decided that they wanted to
punish America in a way that would win them glory and
win them a place in paradise.
The defendant would like to focus all of your attention on something you can never know, namely, what influence, if any, did Tamerlan Tsarnaev have on the defendant’s decision to commit these crimes? You can’t
know it because there’s no evidence of it in this case.
What you do know from the evidence is what things the
defendant actually did and what he wrote. Those are
the things that really matter in deciding what his punishment should be.
The defendant independently got the gun used to
murder Officer Sean Collier. He independently chose
the Forum restaurant as a bombing site, and he stayed
there in spite of the children. He called his brother to
initiate the attack. And because of his actions and role
in this conspiracy, he maimed Jeff Bauman, Erika Brannock, Celeste Corcoran, Mery Daniel, Rebekah Gregory, Patrick Downes, Jessica Kensky, Karen McWatters, William White, Heather Abbott, Roseann Sdoia,
Marc Fucarile, Paul Norden, JP Norden, Adrianne
Haslet-Davis, Steve Woolfenden, and little Jane Richard, whose leg looked like it [59-85] went through a meat
grinder, as Matt Patterson described it.

817
The defendant murdered Krystle Campbell, Martin
Richard and Lingzi Lu. He returned to UMass Dartmouth in secret triumph and posted tweets that reflected his satisfaction with his own work. Not once in
those tweets does he say, “Tamerlan made me do it.”
He independently returned to Cambridge when he
saw his face on the news to rejoin his brother for their
final acts of terror. He murdered Sean Collier. He
tried to steal his gun. He robbed Dun Meng. He
loaded bombs in the Mercedes. He went to buy the
Red Bull and snacks for the trip to New York. And
when the police caught up with him, he led the way to
the site of the last stand. He tried to kill the officers,
first with bombs and then with an SUV, without any help
from his brother or anyone else. He wrote a manifesto
that explained their actions and took credit for what
they had done.
As the defendant so clearly wrote, “I can’t stand to
see such evil go unpunished.” That’s what he wrote.
“I can’t stand.” “I,” not “we.” Not “my brother.”
Nowhere in that manifesto does he write, “My brother
made me do it.”
What deserves more weight: the things the defendant did in his written confession of guilt or the speculation about what Tamerlan might have said? You heard
that the defendant learned the value of love and caring
and support from his family and friends, yet he made a
conscious decision to destroy [59-86] loving and caring
families without any regard for the consequences. In
total, the mitigating factors are essentially weightless
when compared to the gravity of the terror, devastation
and murder perpetrated by the defendant.

818
Now, some of you expressed the opinion during voir
dire that a life sentence may be worse than death. You
now know, after hearing from Warden John Oliver, the
warden at ADX, his life will not be worse than death.
He won’t be put in a dungeon. He won’t be in a black
hole. He’ll have his own cell with a window. He’ll
take separate showers. He’ll have a toilet and a sink.
He can view prison programming in his cell. He can
take courses and get a college degree. He can write a
book. He can exercise inside and outside of his cell.
He’ll be able to talk to other inmates and to the staff.
And he won’t need to deal with the fear of others hurting
him because the staff will be there.
He will be able to visit with family and approved contacts. He gets to see them in person, speak with them
on the phone and exchange an unlimited number of letters. Unlimited. He can ultimately step down and
have more privileges.
He is a young man in good health. As you’ve heard,
SAMs restrictions are not permanent. They must be
renewed yearly. And they can only be renewed if they
meet the requirements. If those restrictions are lifted,
he will be [59-87] allowed more privileges and more contacts. Times change. No one can predict the future.
But his life will not be worse than death, especially if he
steps down during that process.
This defendant does not want to die. You know that
because he had many opportunities to die on the streets
of Boston and Watertown. But unlike his brother, he
made a different choice. In the manifesto he wrote in
the boat, he praises his brother for dying a martyr, but
he did everything in his power to avoid becoming one
himself. He didn’t take on the officers after he ran out

819
of pipe bombs. The defendant managed to escape.
He escaped in Dun Meng’s SUV down Laurel Street,
and then he hid—he ran, and then he hid in the boat.
A death sentence is not giving him what he wants.
It is giving him what he deserves.
This is a solemn day. Nothing is ever going to bring
back Krystle Campbell, Lingzi Lu, Martin Richard or
Officer Sean Collier. No one will ever be able to put
the amputees back in the position they were to run on
their own two legs again. We understand this is a
weighty decision, and we appreciate the need to be circumspect and thoughtful in making that decision, but
you all said in the right case, if the government proved
it was an extreme case, a heinous case, that you could
vote to impose a sentence of death. This is that case.
Don’t be swayed by the many cute photos you saw of
the [59-88] defendant as a child. All murderers start
out as cute children, but sometimes cute children grow
up to be bad people. When the defendant became an
adult, he changed into someone else. He found terrorist writings, he found terrorist lectures, and read and
listened to them. He found them compelling and convincing, so much so that he became one of the extremely
few people in the world who acted on those. He acted
on the beliefs and the writings and the lectures, and he
acted on it to carry out a terrorist attack.
He was an adult. He made an adult decision and the
damage will last forever. Now he has to face the consequences. He struck at what citizens hold dear to
cause the greatest amount of pain, fear and panic. He
went after the core values of society: children, family,
neighborhoods, public safety.

820
After all of the carnage and fear and terror that he
has caused, the right decision is clear. It is your job to
determine a just sentence. The only sentence that will
do justice in this case is a sentence of death.
Thank you.
THE COURT: I think, because of the time, we’ll
take the lunch recess at this point and have the—but I
propose to make it a little shorter than an hour. We’ll
come back at 1:15. All right, jurors? I’m told that
lunch is available for you.
* * * * *
[59-96]
MS. CLARKE:

Thank you, your Honor.

May we have the screen?
Hello.
THE JURORS:

Hello.

MS. CLARKE: Ten weeks ago, you took your oath
as jurors in this trial, United States versus Dzhokhar
Tsarnaev, and now the time’s come for you to decide
what to do with Dzhokhar.
It’s—I’m sure it was clear from the beginning of the
case that the prosecution would come to you and ask you
to impose a sentence of death. That came as no surprise. And I’m sure it’s no surprise to you that I come
before you on behalf of all of his attorneys and ask you
to choose life.
And now you have the unenviable task, each of you—
each of you individually have the unenviable task of considering everything you’ve heard in court, considering

821
all of the instructions from Judge O’Toole, considering
your life experiences, considering your wisdom, and considering your moral sense in deciding the answer to that
question.
Miriam, David, Tim, Bill and I have stood with Dzhokhar Tsarnaev for many months. We’ve tried to bring
you information to help you do your job. We’ve told
you when we agreed with the evidence of the prosecution, and we’ve told you when we’ve disagreed about
their theories and about why.
We brought witnesses to tell you about Dzhokhar’s
[59-97] background, his life, his life experience as a child,
as a teenager, and now. And I need to talk with you
about Dzhokhar.
But before I do, I want to make one thing very, very,
very clear. The story of the Boston Marathon bombing
is not about Tamerlan and Dzhokhar Tsarnaev. The
story of the Boston Marathon bombing is one of tragedy
of their making, but it is more than that. Family members of those who lost their loved ones came into this
courtroom, either in the first phase or this phase, and
testified from the depth of their grief and with great dignity and spoke to you about their heartbreaking loss.
Those who were hurt beyond imagination came into this
courtroom and testified about their pain and anguish.
But every person—in each person, you saw a will and a
determination to survive and thrive.
First responders told us about their—what can only
be described as brave and heroic acts. They came in
here and told us about their efforts to comfort the injured, to save the seriously injured and to protect others. The story of the Boston Marathon bombing is about

822
resilience and the strength of the spirit of those so
deeply affected by these senseless and catastrophic acts.
But I’m going to spend some time talking with you
about Dzhokhar and his life because he’s the person
you’ve got to sentence. He’s the person you’ve got to
make your individual decisions about. You’re not just
making a decision [59-98] about the horrific nature of the
crimes. You did that in returning your verdict of guilty
on every count in this indictment.
You did that.
You’ve done that. You’re now to make a decision about
who he is, who he was and who he might become.
I’m not asking you to excuse him. There are no excuses. I’m not asking you for sympathy. Our sympathies lie with those who were harmed and killed and
their families.
What I am asking you to do when I talk with you
about Dzhokhar is to listen. And I’m asking you to hold
open your minds, as you promised that you would do,
and I’m asking you to try to understand—it’s a mighty
big task for all of us to do—try to understand how the
unimaginable occurred.
You heard from the witness stand a little bit about
Dzhokhar’s parents, very—sort of very young and very
rocky beginning. Neither thought they should marry.
One was a Chechen, one was an Avar, and they shouldn’t
marry.
You heard a little bit about Zubeidat. You heard the
name pronounced a couple of times, Zubeidat or Zubeida,
Dzhokhar’s mom, and you heard about how she was
fashionable and flashy and loud, and Anzor was a hardworking, quiet man. They moved a lot, often thousands
of miles.

823
And from Kyrgyzstan—I think we’ve got a map. I
think you saw this chalk during the testimony. And
you heard about how they moved from Kyrgyzstan to
Kazakhstan to Chechnya [59-99] to Dagestan, often
thousands of miles, and required the help of Zubeidat’s
sisters and their children to help the family make it.
Zubeidat and Anzor had four kids in seven years. They
often landed with relatives thousands of miles from
where they had been living, uprooting the kids.
Now, the prosecution tried to make it sound like they
were summering on the Caspian Sea. We know that’s
not true. We heard from the women that came here
from Russia that that wasn’t true. There was a twobedroom apartment where they crammed in with several other relatives and stayed for months. Even the
women that came here to talk with you from Russia told
you how unsettling all of those moves were for that family.
The women who came here, two sisters of Zubeidat,
and the cousins of Dzhokhar didn’t even know until coming here where Tamerlan had been born. They didn’t
know that Dzhokhar’s birth certificate showed that he
was born in Kyrgyzstan and were somewhat surprised
to learn that because some of them were there when he
was born in Dagestan, 2,000 miles away.
While most folks described Anzor as a quiet, hardworking dad, there were mixed reviews on Dzhokhar’s
mom. She ranged from fashionable and flashy and
loud. Her family was stunned, shocked when she began
covering in dark. Her somewhat skeptical son-in-law,
who we—former son-in-law who we saw coming to Boston by way of video from Kazakhstan, talked of her—

824
about her as controlling and didn’t believe the [59-100]
reasons for her covering up.
You heard her described as intense and intimidating
and attending a baby shower and acting like the queen
bee. A wide range of descriptions for Zubeida. The
one thing we really got out of that is she was a force in
the family.
So when—in 2002, when Dzhokhar—eight-year-old
Dzhokhar came with his mom and dad to the United
States, they came over here with one child, leaving 15or 16-year-old Tamerlan in Kazakhstan with his two sisters, with family, and they tried to make their way in the
United States. A year later, the whole family joined up
in Cambridge and set on hopes and dreams and unrealistic expectations for Tamerlan.
Tamerlan would go on to do great things. Tamerlan
would be a famous musician. Tamerlan would be an
Olympic boxer. Tamerlan would be the savior of the
family. Where was Dzhokhar in this entire time and
this entire discussion? He was the quiet kid who kept
his head down and did his homework. He was the shy,
quiet, respectful, hard-working kid that the teachers
and friends came in here and told you about.
Katie Charner-Laird, the third-grade teacher—she
came in and said, “Look, he came in speaking Russian.
He learned English. He learned it well. He worked
hard. He wanted to do everything right.”
Tracey Gordon told you about the fifth-grader who
enjoyed the farm club. He was hard-working. She
recalled his [59-101] enthusiasm when he went to the
farm school. We saw several pictures of that. She re-

825
calls him dancing in the classroom. She met his parents, and his parents wanted him to skip a grade and go
ahead. And that happened.
Becki Norris taught Dzhokhar in middle school.
You may remember Ms. Norris when she came in. She
loved that kid. She spoke Russian. She became his
advisor. She got to know him very well. Her husband
got to know him. They saw great promise in this kid.
Her husband was a soccer coach. They cared deeply
for Dzhokhar then, and they care deeply for him now.
Becki Norris remembered Dzhokhar coming to school
one day in the wrong color pants. Do you remember
that testimony? And he got sent back home. And
when he came back, he said his mother was pulling him
out of school, and Becki Norris was devastated. She
even remembers that feeling today. She was devastated by that and said, “I’ll call your mom.”
What did Dzhokhar say?
good.”

“Don’t.

It won’t do any

You heard Dzhokhar followed his big brother around
the boxing gym, followed Tamerlan around the boxing
gym like a puppy. So Dzhokhar was at the boxing gym,
but unlike with Tamerlan—and I don’t want to miss the
picture that made Becki Norris almost tear up on us.
She was pregnant the year she taught Dzhokhar, and
one of the children that she was able [59-102] to let hold
her infant was Dzhokhar. She still holds that memory.
But where was Dzhokhar’s dad when he’s taking pictures with Tamerlan? Where are the pictures of Dzhokhar? He was the invisible kid. But, you know, Dzhokhar tried. He still tried hard.

826
Eric Traub, remember him? He lives in Washington, D.C., now. He taught Dzhokhar in the ninth and
the twelfth grade. And he remembers him very, very
well and wrote a letter of recommendation in December
2010.
And I asked him to look at it, and he read it out loud
to you, and I said to him, “Did you believe it then?”
“Yes.
“Do you believe it now?
“Yes.”
“Dzhokhar is a good student. He quickly absorbs
new ideas. He’s amiable with peers and adults. His
good nature and positive spirit have made Dzhokhar a
pleasure to know over the last four years. He’s polite
and respectful and enters class with a warm greeting.”
This was a man that fondly remembers Dzhokhar and
remembers stepping into a photo—I think he called it a
photo bomb. He stepped into the photo with Dzhokhar
and another student.
Dzhokhar did the Model U.N. club. He did Best
[59-103] Buddies. He was good with disabled kids.
He seemed to do high school on his own, though. Even
his wrestling coach, Roy Howard—remember the man
who came in, and he was the volunteer wrestling coach.
And he—because he had another job. And he came in
and he said, “Yeah. I always liked to talk to the parents about the nutrition and all of the demands of wrestling. Wrestling has some of the most demanding, you
know, practices to it and—you know, because the weight
has to be managed and all of that. And I like to talk to

827
the parents about the demands on the kids, and I like to
talk to them about nutrition.”
Did he ever meet Dzhokhar’s parents? No. They
didn’t show up for senior day, the big day for the wrestlers when the wrestlers get their rose.
We now know that something was going on at home.
Dzhokhar’s dad was becoming more disabled. His mother
and older brother began to listen to an Armenian man
named Misha who brought his own special version of Islam into the home and began to teach them about it.
We know that Tamerlan began to have ideas and obsessions about conspiracy theories and about religious extremism.
We know that by 2010 Zubeidat, Dzhokhar’s mom,
had changed in many ways. Zubeida, who had been a
flashy dresser, described by many people that way, and
who enjoyed a good party, and whose parenting skills
were probably learned in the [59-104] chaotic shuttling
that she went through as a young child in the villages of
Dagestan—we know that she had changed to conservative dress and conservative religious views and was not
a safe harbor for Dzhokhar.
You heard from Zubeida’s own family, her sisters and
her nieces. What a shock it was, how scary it was to
them to see her covered in dark. What did they say to
you? “That is not how our family was raised.”
And you know from the government’s own intelligence committee report that Zubeida was radicalizing.
Two years before the Boston Marathon bombings, Tamerlan and Zubeida came to the attention of the FBI
based on information received from the Russian Federal

828
Security Service. In March 2011, the FBI received information from the FSB alleging that Tamerlan and
Zubeidat were adherents of radical Islam and that Tamerlan was preparing to travel to Russia to join unspecified underground groups in Dagestan and Chechnya.
So that’s what was happening to Dzhokhar’s mom
and Dzhokhar’s older brother. And what was going on
with his dad? Anzor was becoming more and more disabled. And you heard from Dr. Niss that when Anzor
came to the United States, he came with a series of mental health problems. He began getting treatment when
Dr. Niss was here in 2003, 2004 and 2005. And they
only increased in intensity over time, and then he suffered that remarkably damaging head injury.
[59-105]
You heard about the medical records. And we read
some of the records to you. They’re in evidence. You
can see the entirety of the records. In 2007, “Patient
complains of attacks with flashbacks and out-of-body visions, of having some auditory hallucinations and his
name being called, difficulty falling and staying asleep.
And will go on for days without being asleep.”
“Patient reports having auditory hallucinations”—
later in 2009—”voices screaming his name or whispering
and some visual hallucinations, little lizard-like creatures, for the past three to four weeks.”
“Anzor reports severe frontal and left side headaches
with decreased sensation on left side of face. Patient
reports unsteady gait, visual changes, tremor, auditory
hallucinations, multiple voices screaming his name.”
This was Dzhokhar’s dad.

829
2011, “Anzor reports feeling quite overwhelmed, appears depressed, tearful, having difficulty functioning,
upset with minor things. ‘If I’m not getting better, my
wife would divorce me.’ ”
2014, shortly before he leaves the United States and
returns to Russia for good, “To whom it may concern:
Patient suffering from mental illness. Not able to
work. Needs constant supervision and support.”
Sam Lipson came before you. He’s known the family for a long time. His mom was the landlady. Sam
Lipson came and [59-106] told you about the changes in
Anzor and changes in his friend. He viewed Anzor as
his friend. He saw him losing weight. He saw him
feeling burdened and unhappy. We know there were
serious problems in the home.
But Dzhokhar still had friends. They didn’t know
much about his family. They hadn’t been to his house.
But they cared for him. You could see that when they
came before you. He was loyal. He was laid back.
He was funny. He was quiet. He was shy.
Rosa Booth, a young woman, came in and described
him as sweet, shy and goofy. And she had a crush on
him, but she was so shy she wouldn’t accept his invitation to go to the prom.
Bett Zamparelli knew him in Best Buddies. He
made her laugh and feel good. He was respectful to the
other girls. He treated them with respect. And when
Bett saw the pictures of the Boston Marathon bombers,
one looked like Dzhokhar, but she very quickly set that
thought aside.
Dzhokhar had a bond with his wrestling buddies.
Remember Henry Alvarez came in. He was kind of

830
funny about comparing the various sports. He said
that Dzhokhar was kind and funny and would dance to a
song to break the tension in a room. He asked Dzhokhar to come to his senior night and to be there when he
got his rose. He couldn’t imagine that Dzhokhar could
do something like he did.
[59-107]
Coach Howard, who chose Dzhokhar to be co-captain
of the wrestling team, described him as a quiet, hard
worker and dedicated. He was a good wrestler.
One thing that was consistent in all of the family
chaos and craziness was Dzhokhar remained the invisible child. His parents weren’t there for his wrestling
match. His parents never met his teachers in high
school.
In the fall of 2011, Dzhokhar went off to UMass Dartmouth. On the surface, his college years started out
sort of ordinary. He did okay in school. He had
friends. He drank, although he was too young. He
smoked and sold some pot. He was with his friends the
first year. Remember Tiarrah Dottin describing the
bro nights that they had, and she recalled that very
fondly. She even recalled very fondly the selfie when
they clearly are—having been done something that they
shouldn’t have been doing, but she remembered it, and
she teared up over the memory of her good friend, Dzhokhar.
Alexa Guevara came before you and she described
Dzhokhar as approachable, kind and accepting. He
was more respectful than the others. Remember when
she said, We played Ruzzle together, the Internet Scrabble game. Dzhokhar encouraged her to go to art school.

831
She cried when she told you she misses the guy she
knew.
Even with his friends, 2012 was a fairly unsettling—
“fairly” is a light word—a remarkably unsettling year
for [59-108] Dzhokhar. His dad left the United States
for Russia and never returned. His brother Tamerlan,
who had changed dramatically, becoming very radical,
left for Russia on a trip we now know was to wage jihad,
to take up the fight in the mountains—or to take up the
fight.
When Tamerlan returned from his unsuccessful joinup with the jihadi movement, he was frustrated and determined to find a new war to express his rage. Dzhokhar’s mom left and went to Russia for good. She
wasn’t available, even with her limited parenting skills,
to help this kid, to be there to provide any guidance or
support that a parent does. Many of us have seen kids
go off to college. They graduate from high school, and
they go off to college. They’re not done. They need a
tremendous amount of support from their parents.
They still need guidance from their parents. And what
little parental guidance and support Dzhokhar had by
September of 2012 was gone.
And perhaps more significant than that was who he
was left with. His sole source of family, of support, of
strength by the fall of 2012 was his older brother, Tamerlan. Tamerlan had charisma. Tamerlan was bigger
than him. Tamerlan was older than him. It’s not uncommon, in any of our experiences, whether you’re Chechen or Avar or—or us—it’s not uncommon in any experience that a younger brother will revere and adore an
older brother and not really understand the logic of why.

832
[59-109]
But it’s particularly significant in the culture of the
Chechens and on both sides of Dzhokhar’s family tree.
You heard about the Avar—the women that came in
from Russia: “Yes, it’s very important. Our fathers
and our older brothers make decisions for us.” In the
Chechen culture, it goes back thousands of years.
But what Elmirza, who came in from Kazakhstan by
video—I point over there because that’s where I saw
him. What did Elmirza tell us? He had a very interesting little quote that he said.
And remember,
Elmirza is in the picture as the Chechenian. But
Elmirza came in and he said, “We have a funny quote in
our culture. It’s better to be a dog than the youngest
of seven brothers.” And he explained that because you
owe allegiance to so many people above you.
So we need to talk about Tamerlan. The government, from the attorney box to the witness stand, continue to try to minimize any interest in Tamerlan and
has complained that we have focused on Tamerlan. Today for the first time we hear, “Well, Tamerlan didn’t
influence Dzhokhar.” At least they’re recognizing that
Tamerlan was there.
Tamerlan did influence Dzhokhar, and we need to talk
about Tamerlan. Somebody needs to talk about Tamerlan. The story of Dzhokhar cannot be told without
knowing the story of Tamerlan. The horrific events of
the Boston Marathon bombing cannot be told or understood in any degree of reality without [59-110] talking
about Tamerlan.
We know that Dzhokhar respected and loved his
older brother. We know that his older brother was a

833
major influence in his life. We can see it in the pictures
from very young what these kids meant to each other.
We can see it in the size difference, in the age difference
and just how they interacted. We can see it in this
photo with the older brother and the much smaller
younger brother.
He seemed deferential to his older brother. One
witness came in and said he followed Tamerlan around
like a puppy. Vishkan Vakhabov, who did not come before you but whose FBI 302 was read to you, talked
about Dzhokhar being like a little boy. We know from
a lot of evidence and witnesses that Tamerlan was charming. He was charismatic. He was a flashy dresser.
He thought of himself as the professor. Again,
Elmirza made this—Elmirza, the Chechenian, Tamerlan, the professor. He was a skilled boxer. The boxers came in, and they said he was a skilled boxer, but he
would listen to no one.
And something happened to Tamerlan. He tried,
and he failed. He couldn’t stay in school. He couldn’t
get a job. He couldn’t stick with boxing. He couldn’t
go to the Olympics. Something happened.
And Misha turned up at the house, and Tamerlan began [59-111] to learn more about Islam, an unusual form
of Islam, discussions of demons. And he got obsessions, and he got into conspiracy theories, and he got
into politics, and he changed.
Elmirza saw the change in his friend and brother-inlaw. Robbie Barnes, who came in and testified, saw the
change in his dress and how he interacted with people.
Roger Franca, who used to smoke pot and drink and

834
party and club with Tamerlan, saw the dramatic change
in him, the man dressed in white and wearing the beard.
You may recall the chance meeting that Roger
Franca said he had with Tamerlan walking down the
street. I think Boylston Street. And Katherine stepped
back behind as they greeted each other and would only
nod and shake her head in greeting.
You recall the testimony of Mr. Assaf, the imam at
the mosque where Tamerlan attended, where Tamerlan
disrupted the mosque twice, the sermon. It’s unheard
of. It’s inappropriate. It violates the prayer. It’s
not done. And Tamerlan did that twice. He told his
friend, Vishkan Vakhabov, who, again, you heard from
the 302, that extremist violent jihad was the proper
path.
Tamerlan’s power over those who he encountered is
seen no better than in his relationship with Katherine.
Katherine Russell, a beautiful, young college student,
falls in love with Tamerlan. She was an attractive young
woman. She enjoyed fun [59-112] with her friends.
And she changed dramatically under Tamerlan’s influence.
Judith Russell, her mom, you saw her. She came in.
It’s a difficult thing for her to do, to come in and talk to
you. And she told you about her concerns with Tamerlan. She told you how she tried to work with her daughter about it. And she told you how she tried to be gentle so that she could keep her daughter and her granddaughter in her life. But her daughter changed.
Gina Crawford, Katherine’s best friend from fifth
grade on, saw the changes in her best friend and chose
to be non-judgmental about it so that she could keep the

835
friendship. Amanda Ranson, the former roommate of
Katherine, came in and told you that she feared for
Katherine, she feared Tamerlan, and she was so afraid
from a fight that they had that she moved out.
Yes, this strong-willed, independent, young college
student, daughter of a doctor and a nurse from Rhode
Island, fell to Tamerlan’s sway. Judith Russell showed
you the picture. He left her and he left her young
daughter with her when he went to Russia in 2012.
And this isn’t just our guesswork about why he went.
You heard about it from the Homeland Security report.
It’s in evidence. And you heard about it from the Intelligence Committee report.
And you heard about it through the—again, through
[59-113] the 302 of a guy named Magomed Kartashov,
who was a relative of Zubeida, and living in Dagestan in
jail. And what he said to the FBI was: Tamerlan was
under the impression there was jihad in the streets.
Tamerlan’s expectations of how it was going to be when
he got to Dagestan came from Internet sites like Kavkaz
Center. Tamerlan came to Russia with the intent to
fight jihad in the forest. Kartashov told him to stop
talking like that or he wouldn’t make it to the next tree.
Tamerlan told Kartashov, “I came here to get involved
in jihad.” Eventually Tamerlan told Kartashov, “You
have convinced my head but my heart still wants to do
something.”
Tamerlan’s decision to pursue jihad was not a decision he made yesterday. Tamerlan was on the radar.
He was on the terrorist watch list. You saw pictures of
him there. You heard about recordings on his computer where he is talking to other people involved in the

836
movement, and he talked about the rage he had and his
call to action.
To say that Tamerlan did not influence Dzhokhar defies the reality of the series of email exchanges with
Tamerlan and Dzhokhar when Tamerlan was over in
Russia. Tamerlan was consistently sending materials,
jihadi kinds of materials, radical extremism materials,
to Dzhokhar.
And in a telling exchange of emails while Dzhokhar
was over there [sic]—well, this slide sort of popped up
on me. But do you know what happened? Before he
went, you can see [59-114] part of the purpose of his
departure—Katherine was worried about it. These
are searches on Katherine Russell’s computer: “If
your husband becomes a shahid, what are the rewards
for you?” “Can women become shahid?” “Wife of the
mujahidin. Rewards for the wife.” Katherine was
worried about what Tamerlan was doing.
You know from Tamerlan’s computer that he gave
the radical materials to Dzhokhar. We looked at this
in the first phase, and I’ll go through it quickly in this
phase. But this was the complete Inspire. Remember the missing Patriot thumb drive? The missing Patriot thumb drive attaches on the day that Tamerlan
leaves for Russia, attaches into the Samsung, Tamerlan’s computer, and then the file is created, the complete
Inspire file is created, and then it is attached into the
Sony, Dzhokhar’s computer.
The other Inspire magazines follow a similar path.
The vast majority of the materials that you heard about
all throughout this trial that landed on—and that Mr.

837
Mellin talked about in closing, that landed on Dzhokhar’s computer, landed there from Tamerlan. Tamerlan spent a lot of his time focused on radical websites
and radical ideas. And his desktop, you know, the
background on his computer, the screen that you stare
at when you don’t have a document up, here it is. This
is what Tamerlan looked at every day when he looked at
his computer.
[59-115]
And the sticky notes—here’s one of the translations.
There’s another translation for the other note in
evidence—is jihad.
“If Allah had so willed, he would have taken revenge
himself, but he wanted to test some of you by means of
others.”
“And if they turn him away, it’s enough for me to have
Allah. There’s no god. I trust in him. He is the lord
of the great throne.”
“Truth has arrived and falsehood perished, for falsehood is bound to perish.”
“Allah says in the Qur’an fighting may be imposed on
you, even though you dislike it. You may dislike something which is good for you, and you may like something
which is bad for you. Allah knows what you do not
know.”
This is what Tamerlan looked at every day. This is
what he wrote. This is the sticky note on his computer.
Other notes were found in the Norfolk Street apartment. You may remember there were these composition notebooks, and his fingerprints were all over them.
We brought you the translations of the notes. It’s a

838
similar kind of writing. He was consumed with radical
extreme ideas, and he pushed and pushed. Remember
the little video of his daughter, Zahara, at the park, and
she’s climbing on the contraption there, and he’s saying,
“Al Akhbar, Al Akhbar.” And she starts to repeat it
back to him: “Al Akhbar.” I mean, here’s a [59-116]
toddler playing in the park.
Naida, his cousin from Russia, was so undone by his
radical change and radical extremism when she saw him
in Russia in 2012 that she did not want her son to spend
any time with him.
So that’s Tamerlan.
What was going on with Dzhokhar while Tamerlan
was in Russia? While he was in Russia, Dzhokhar was
going to bro nights. He was posting on Instagram.
He was posting on Facebook. He was hanging out with
his friends. He was doing a little underaged drinking.
He was spoking pot with his friends. He was missing
some classes. He was flunking out of school. He was
not engaged in radical jihad.
In a very telling set of emails, though, when Tamerlan kept sending stuff to Dzhokhar, Dzhokhar writes
back, “Tamerlan, I miss you. I hope everything’s all
right. I can’t get through to you, no matter how many
times I try to call. Thanks for the video. Take care of
yourself. I’ll call today. Inshallah.”
The only other response while Tamerlan was in Russia from Dzhokhar, when Tamerlan is sending him materials, is to send back to Tamerlan what Professor
Reynolds told you about was a—sort of an anti-jihad
site. It was a government-sponsored site with a text
from a 13th century mystic. But the jihadis reject it.

839
So this wasn’t Dzhokhar [59-117] weighing in and supporting and liking or encouraging Tamerlan.
Dzhokhar’s other—and they’re in evidence. His
other emails to Tamerlan were about cars. That’s who
that kid was. Tamerlan left the United States wanting
to wage war. He was rejected as a warrior. He left
the United States for Russia as a jihadi wannabe. He
couldn’t make it. He came back to the United States as
a jihadi wannabe. He couldn’t fit into any movement.
So he created his own.
It was not Dzhokhar at this point in his sophomore
year in college that was like that. You know it; I know
it; we all know it. And to say that Dzhokhar was a jihadi in his—the beginning of his sophomore year in college is just wrong.
After he came back to the United States, Tamerlan
went on his search through the Internet. He found
these extremist articles. He looked at violent YouTube
sites. You saw some of the clips from YouTube sites,
and you saw that chart that showed how much time you
spent on YouTube. And Professor Reynolds told you
he went in and looked at the kinds of YouTubes that
Tamerlan was looking at, and they were either preaching about religious extremism or teaching or somehow
encouraging that movement.
He also looked for a P95 Ruger. He looked for
bomb-making parts. He ordered the materials that he
built the bombs with. And as we talked about and
showed you in the first [59-118] phase of this case, his
fingerprints were all over the materials; not Dzhokhar’s.
We’ve told you that Dzhokhar followed his brother
down Boylston because that is the tragic truth. But if

840
not for Tamerlan, this wouldn’t have happened. Dzhokhar would never have done this but for Tamerlan.
The tragedy would never have occurred but for Tamerlan. None of it.
Dzhokhar became convinced of the fallacy of the
cause of his brother’s passion and became a participant.
He carried a backpack, and he put it down in a crowd of
people, believing that it would be detonated and people
would be hurt and killed.
To replay for you today, after you’ve made your decisions in the first phase, the picture of Dzhokhar standing by the tree and to replay with the mockup of the
grill, is misleading. We do not deny, and we have never
denied, and we came to you at the very beginning of this
case and acknowledged that Dzhokhar put that backpack down. But you saw the films, and we don’t need
to see them again, the Forum video films with the
crowds going back and forth. And to take a clip and to
show Dzhokhar standing behind the tree and to argue
that there was nothing between him and the children
makes more of something that was already horrible
enough. Let’s not make it worse.
He was foolish enough to get a gun for his brother.
He was foolish enough to go with his brother. Do you
really [59-119] think that he used that gun? Do you really think he got it for anybody other than his brother?
The evidence would really tell us that that’s who he got
it for.
Tamerlan—at Watertown, who had the gun? Who
was shooting at the police? Who shot Collier with the
gun? Whose fingerprints are on the magazine inside

841
that gun? Tamerlan’s. Who had the BB gun and the
fingerprints on the BB gun? Dzhokhar.
Tamerlan was determined to die in a blaze of gunfire,
and Tamerlan—and Dzhokhar panicked and got into the
car and escaped. Hundreds of bullets went into that
Mercedes and didn’t kill this young man. He ran—how
it didn’t kill him, I don’t know. He ran, and he hid in a
boat, and he wrote. And you know what he wrote, words
that had been introduced to him by his brother; words
that he had listened to, that were sent to him by his
brother; words that he had read that were sent to him
by his brother until at least—he could at least recite
them. But we’re not sure with how much certainty he
could recite them.
Remember he also wrote, “I am jealous of my brother
who has gone to paradise”? What’s the first thing he
asked the EMTs when he was being taken to the hospital? “Where’s my brother?”
The differences in Dzhokhar and Tamerlan can be
seen in other ways, from how they reacted when they
knew the police [59-120] had them. Tamerlan shoots
straight at them, walks into the blaze of gunfire and
throws the gun at them and resists, fights and yells and
screams when the EMTs are trying to give him aid.
When Dzhokhar was spotted in the boat with no
weapon and ordered out, he came out of the boat. You
saw the boat. We all went out and saw the boat. You
saw the hundreds of bullet holes in the boat. He
wasn’t, again, killed, but he was shot. He was hit in the
head and the face, the hand. You see him coming out

842
of the boat. And what did he do? He followed the directions of the EMTs. He answered their questions, he
accepted treatment, and he asked about his brother.
So how does all of this happen? How does this good
kid, this youngster, this young man who was described
as gentle by friends and family and teachers—how does
he do it? How did this happen? If there were an
easy—if only there were an easy and succinct answer to
that question, that will haunt many of us for years to
come, I would give it to you.
Sometimes star-crossed lovers whose families don’t
want them to marry, marry anyway, and their marriages
work out. Sometimes people who have serious mental
illnesses and get help can function. That didn’t happen
for Dzhokhar’s parents.
Sometimes refugee families can come from difficult
circumstances in war-torn countries and come to the
United States and embody the American dream, despite
their past. That didn’t happen for the Tsarnaev family.
[59-121]
Sometimes children who are forgotten or neglected
or raised in chaos and craziness are able to recognize
that they don’t have to protect their families and they
can ask for help and get it and their hollowness does not
get filled up by the darkness of the most dominant person in their lives, who they happen to love beyond their
understanding. Not so with Dzhokhar.
If you’re looking to me for a simple and clean answer
as to why this young man, who had never been arrested,
who had never sassed a teacher, who spent his free time
in school working with disabled kids—if you ask me—if
you expect me to have an answer, a simple, clean answer

843
as to how this could happen, I don’t have it.
have it.

I don’t

I can tell you this, and we’ve shown you, that Dzhokhar Tsarnaev is not the worst of the worst. And that’s
what the death penalty is reserved for, is the worst of
the worst.
The prosecutors want you to believe that Dzhokhar
is a bad seed, and they had everyone fooled, every
teacher, every friend, every person who came before you
and risked public exposure coming to you to testify—
every one of those people were fooled. He committed
a heinous crime and must be executed. That is the
prosecution’s theory.
The crime is heinous; that much is true. But you
promised us when you took your oath as jurors that
when the [59-122] time came for sentencing, you would
look beyond—you would look beyond the crime, you
would look at the person, and you would look at all of the
reasons that the law allows you to consider life without
the possibility of release could be the appropriate sentence.
And when you deliberate—when you get the case,
when you deliberate, you’ll have the aggravating and mitigating factors that the judge has gone through and the
prosecutor has gone through and hear the aggravating
—and you’ll get to consider them and hear the aggravating factors are primarily focused on the crime. There
are no aggravating factors that the government alleges
that focus on Dzhokhar being a danger, Dzhokhar leading a life of crime and violence, or that he will continue
to be some lawless, violent person, unable to be housed
in prison. The aggravating factors in this case you

844
pretty much have already decided by your verdict in the
first phase.
The mitigating factors are going to ask you to look to
Dzhokhar’s past as well as who he is now and his future.
They look to his background. They look to the circumstances of the crime, his role in the crime, and his future.
Is his a life worth saving? Is there hope for him? Is
there hope for redemption?
The law recognizes that all people convicted of the
same crime don’t get the same sentence. Whether it’s
murder or [59-123] murder by weapon of mass destruction, you’ve got to the look at the person. So in a minute I’m going to talk to you about a couple of things in
the verdict form that I want you to sort of untangle or
figure out, but first let me talk a little bit about the categories of mitigation that you’ll see. You’ve seen the
list. The judge read you the list. You saw the list
come down on your screens.
There will be factors that you consider about his family, about Dzhokhar’s background, about the lack of parental support that he had. There are mitigating factors having to do with his role in the crimes. We
brought you evidence that although both Tsarnaev brothers are responsible, they had very different roles.
Those are things you need to consider.
What was Dzhokhar like in the life that he led before
these crimes?
Something to be considered.
You
know from his teachers, from his friends that he was a
kind and gentle boy, that he cared for people and he
sought to help others.
You know that in high school, just two years before
the bombing, he took pride in his schoolwork and in his

845
athletic ability, and he was motivated to help other disabled schoolmates. He was in the Model U.N. He
was in Best Buddies. He was a wrestler. He was well
liked and well loved.
You’ve also heard that he’s young. He was 19 at the
time. Dr. Giedd came before you, Jay Giedd. You may
remember his testimony. And Dr. Giedd has spent
some decades studying [59-124] brain development, and
he’s been studying primarily the adolescent brain development.
And his bottom line of his testimony was something
that we all know, if you’ve ever been a teenager, had a
teenager, known a teenager. We all know it’s not a finished product. And Dr. Giedd was able to show you
from brain studies the reason why teenagers are the—
the way they are, why that time in life is so topsy-turvy,
why you can make some good decisions and make some
bad decision. It’s what’s going on.
There’s a biological reason that we have teenagers,
and he’s spent his life studying it. Sure, there are averages. Sure, you don’t know from any brain scan how
mature any individual was. Could you imagine that, as
a parent? You’d like to have that.
There are categories of mitigation that look at who
Dzhokhar was in the past. There are categories of mitigation that look at who he is now and who he’s likely to
be. There’s nothing in the evidence, nothing at all, to
suggest that Dzhokhar is likely to be difficult to supervise or manage or house in a prison. He’s never tried
to influence anybody about his beliefs. He’s never
tried to break the rules or disobey the law. And he’s
been incarcerated for two years.

846
And what does the government bring to you after
over two years of incarceration? A video—not even a
video, a picture, an instant, the one second of Dzhokhar
shooting the [59-125] finger at the camera. Now, most
—that’s probably a first. I doubt anybody has ever
been written up for shooting a finger at the camera. It’s
the kind of scrutiny this kid is under. And if there were
more, believe me, you would have been hearing about it.
What surprises me the most about the government’s
attempt to persuade you based on that evidence is that
they took the instant clip and took it entirely out of context. Didn’t show you the sort of childish, silliness
about it, stupidity about it. And what’s more important
is what they didn’t tell you when he was called on it.
What did he say? “I’m sorry.” He apologized.
Finally, we think that we have shown you that it’s not
only possible but probable that Dzhokhar has potential
for redemption. Sister Helen Prejean testified and
told you about her visits with Dzhokhar. She’s spent
five visits with him. She shared her insight into him
and his potential for redemption. As you know, she’s a
nun, and she runs a—part of her ministry is to work with
prisoners who have committed horrible crimes.
She met Dzhokhar. They discussed religious beliefs. This young Muslim guy and this older Catholic
nun discussed their religious beliefs. He was open.
He was respectful. And what was the first thing she
noticed about him? So young. And then what did she
tell you? He’s genuinely sorry for what he’s [59-126]
done. “When I asked him about the crimes, he lowered
his head, he lowered his voice, and he said, ‘No one deserves to suffer like they did.’ ”

847
That just does not sound like the same boy who wrote
in the boat, “I don’t like killing innocents unless it’s necessary.” “It’s necessary.” That is growth. That is
maturity. Most of us hope that we have a chance to mature more from age 19 to age 21. And what Sister
Helen gave you the opportunity to see is that this kid is
on that path of growth and remorse.
The young man that Sister Helen sat with is not the
angry, vengeful, uncaring, unrepentant, unchanged, untouched young man that the prosecution has described
to you. What unrepentant, unchanged, untouched jihadi is going to meet with a Catholic nun, connect with
her, talk with her and have her enjoy the conversation
with him? What unrepentant, uncaring, untouched
young jihadi is going to reveal his regret for the suffering that he caused?
I suppose the government’s going to argue that this
young man pulled the wool over Sister Helen’s eyes.
That is simply not going to happen. She’s been at this
work since 1957.
THE COURT:

Be careful of experience.

MS. CLARKE: She works—she is experienced.
She may be against the death penalty, and that was the
[59-127] cross-examination.
Many religious figures
are against the death penalty. She’s against the death
penalty, but she’s not going to come in here and lie to
you about her observations of this young man. And
what unrepentant, hate-filled jihadi would even bother
to try to get her to be fooled?
We ask you to reflect on her testimony.
short. It was direct. It was to the point.

It was
And it

848
shows the potential—the great potential for redemption.
The verdict form. The judge went through it. It’s
23 or 24 pages long. It begins with the threshold intent
factors. Those are factors that you have to find—
you’ve already found them in the first phase of this case.
Those are factors that you have to find to make the case
eligible for the death penalty. It is eligible for the
death penalty. You can check them off.
The statutory aggravating factors are a similar narrowing so that you can have the decision about whether
to impose death or life. You can check them off. You
have found them in the first phase of this case. You
have already discussed the facts that give rise to those
statutory aggravating factors.
There are non-statutory aggravating factors that the
prosecutor went over with you. You can check them
off.
There are two, though, I would like for you to look at
and think about because they just may not apply.
“Dzhokhar [59-128] Tsarnaev demonstrated a lack of remorse.” Now, the prosecution has come to you and
said what that means is what he wrote in the boat and
the fact that he was not remorseful during the time of
the crime.
Well, that calls on a little bit much. The crime
charged is conspiracy that lasted up through the 19th of
April. And you don’t know many people who are remorseful during the commission of the crime. It’s okay
if you make that finding. The critical thing is that
Dzhokhar is remorseful today. He’s grown in the last
two years. He is sorry, and he is remorseful.

849
The other one that raised some concern is the—and
that is on page 14. It’s Number 4. The next one is the
allegation that Dzhokhar murdered Officer Collier.
Now, we know that you have found him legally responsible. He was charged as an aider and abetter. You
found him legally responsible for the death of Officer
Collier.
He didn’t pull the trigger. He may be responsible
for the death of Officer Collier, but in a sense of weighing that for punishment, consider who killed Officer Collier, who pulled the trigger. We talked long and hard
during the guilt phase about that—that evidence. It
didn’t matter because of the legal responsibility that the
aiding and abetting charge carries.
The verdict form also contains the list of mitigating
[59-129] factors that the judge went over, and it includes
blanks if those aren’t all of the factors. The only thing
I want to caution you about the mitigating factors, and
the judge’s instruction covers it, that if you find by a preponderance of the evidence, by 51 percent of the evidence, that the factor was proven, then you note that.
So if you find that Dzhokhar was 19 years old at the
time of the offenses, which he was, you write in 12. If
you find that Dzhokhar had no prior history of violent
behavior, which is true, you write in 12.
Now, the 12 doesn’t necessarily tell you what kind of
weight you’re going to give to that factor, but this is the
factual finding that you write in.
Tamerlan—Dzhokhar acted under the influence of
his brother, which is true. 12. And I believe you can
go down the line of all the mitigating factors—
MR. WEINREB:

Your Honor, I think this is—

850
THE COURT:
MS. CLARKE:

No.

Go ahead.

—and make your finding.

And in the end, there are several blanks for other
mitigating factors that any of you might find appropriate. In other words, it’s not a finite list. If there are
other reasons that you believe weigh in favor of a life
sentence, you can write them in.
Then the last section, Section VI, is really where
[59-130] your work is. Because I think you can check
off these threshold factors, check off these statutory aggravating factors, check off most of the non-statutory
aggravating factors, discuss and check off the mitigating
factors. But where your work comes in is in the determination of the sentence.
The law that Judge O’Toole has given you and will
finish up with tells you to make findings about aggravating and mitigating factors. You make the finding that
they exist. And then it’s not a numbers game. It
isn’t, “There are six factors here and 17 factors there.”
It isn’t a numbers game. It isn’t list and list and then
the longest list wins. You don’t make a list and look at
the columns. You can find that one mitigating factor
outweighs all the aggravating factors. You can find
that there are no mitigating factors and that the aggravating factors do not justify the sentence of death.
Whether a sentence of death is justified is your own
individual decision. The judge’s instructions tell you
that. And I know during voir dire we talked a lot about,
you know, “Well, I’ll follow the law, and I can follow the
law and do what the law requires me to do.” Well, the
law requires you to make these findings. The law requires you to make findings as to aggravation, findings

851
as to mitigation, to weigh them, and then the law leaves
it entirely up to you.
There is no law that ever requires that a sentence of
[59-131] death be imposed. That is an individual decision for each of you to make. It is an individual reasoned judgment that you make. You have a duty to deliberate with each other. You have an obligation to discuss with each other. You have an obligation to hear
each other’s views. But the law values life, and you
have no obligation to vote for death.
Each one of you individually, each one of you, is a
safeguard against the death penalty. Each individual.
You’ve been through a lot together. We’ve all been
through a lot together. But you’ve been through a lot
together sitting here for the last ten weeks, and I’m sure
you want to support each other. But that is not your
job in this phase. You have a job to deliberate, listen,
discuss and respect.
Everyone respects everyone
else’s views. No one of you ever, ever has to vote for
the death penalty.
A sentence of death is only imposed if it is unanimous.
The questions on Section IV guide you through this.
“We, the jury, unanimously find all of the capital
counts and that aggravation significantly outweighs mitigation.” If you make that unanimous finding, it is
death.
“We, the jury, unanimously find that a sentence of life
in prison without the possibility of release for all of the
counts.” If you make that decision, it is life.
“We, the jury, unanimously find for some of the
capital counts.” If you make a finding as to any of the

852
[59-132] capital counts that—unanimously that death is
appropriate, that is the sentence. It will override any
life sentence.
The judge, in the instructions—and it’s really important to listen to this. You should understand that if
you impose the death penalty as to any count or counts,
the death sentence will control, regardless of any life
sentences that may be imposed on other counts. A single count with a death sentence is death.
The judge also cautions you in the instructions, “The
government was entitled to bring multiple charges with
respect to each homicide, but the number of counts does
not by itself mean that the defendant’s conduct is more
blameworthy or he is worthy of greater punishment.”
A death sentence will not be imposed unless each one
of you decides that it should be.
A sentence of life in prison without the possibility of
release sends Dzhokhar Tsarnaev to ADX. Now, we
use those initials rather freely, like we know what it is.
Administrative maximum prison in Florence, Colorado.
We flung those initials around, but that’s what ADX—
it’s the administration maximum prison in Florence,
Colorado. There was no dispute about that, that that’s
where he’s going. And he will be under the SAM.
He’s under—“the SAM,” special administrative measures
—he will be under them. He’s under them now.
[59-133]
Warden Bezy and the prosecutor sort of scuffled over
how long Dzhokhar may stay under the SAM and whether
he’ll get to write or receive letters. And the prosecution spent a long time telling you that it doesn’t snow

853
that much in Colorado and that there will be heat control
in the rooms.
There’s a concrete bed with a mattress on it and heat
control and a pillow. And for some reason, there was
great discussion about this being at the foothills of the
Rocky Mountains. It doesn’t much matter because
Dzhokhar Tsarnaev’s not going to see the Rocky Mountains. He won’t have a room with a view, and they
know it.
Let’s get real. This isn’t a club. This isn’t a resort.
This is the most rigid, punitive prison in America. It’s
a place where 29 men—you heard the testimony about
it—29 men vie for the privilege of cleaning the showers,
and two get the job.
The same government that asked you to sentence
Dzhokhar Tsarnaev to death has the power to cut him
off from the world. The FBI and the U.S. Attorney in
Boston will never be out of that loop. He is under the
SAM. What is clear is that the FBI and the U.S. Attorney in Boston, the offices of the people sitting at this
table, will decide how long he’ll stay under SAM. I’m
baffled by their argument.
Are they telling you that they—you shouldn’t trust
them to provide protection and security, but you should
trust [59-134] them when they say that the justice that
is required in this case is a sentence of death and execution?
No one’s going to give you 100 percent guarantee that
Dzhokhar will remain in the H unit at ADX forever.
What is guaranteed is that the decision-makers, the offices of the folks sitting at this table, will be involved,
and they are hardly softies on convicted terrorists.

854
They know what they need to do. They know what’s
necessary to do. And they’re in a position to know
what’s necessary to do.
And if, for some reason, Dzhokhar Tsarnaev gets off
of H unit, the SAM unit, he’s still going to be in isolation
for the rest of his life. His mail, his phones, any visits
that he may have will be strictly controlled and monitored. There will be no book. There will be no coded
messages. There will be nothing.
There’s no disputing that both punishment options in
this that are before you are harsh and severe. With either of the options Dzhokhar Tsarnaev dies in prison.
The question is when and how. We’re asking you to
choose life. Yes, even for the Boston Marathon bomber.
You might say, how can I do that? How can I ask
you to choose life after all of the pain that he’s caused?
If this crime doesn’t require the death penalty, what
crime does? The question could be, why should he have
the opportunity to live when he didn’t give it to others?
Why shouldn’t he suffer as [59-135] his victims did.
Mercy? He didn’t offer any mercy to his victims and to
the people whose lives were ripped apart.
And all of those thoughts and those questions that I
just ran through are completely understandable.
They’re driven by anger, emotion, disgust, fear, pain.
Some of them might sound like they are based in vengeance. But really what they’re based in is the search for
fairness and justice.
There’s nothing wrong with having those questions
and searching in that way, but there is something wrong
with thinking that the answer will be found in imposing

855
the sentence of death.
There’s no punishment—
there’s no punishment, not even a death sentence—that
could balance the scales. There’s no punishment, even
a death sentence, that could equal the impact on these
families. And as David Bruck said to you in the opening of our part of the penalty phase, there’s no even-ing
of the scales. It can’t be done.
A sentence of life in prison without the possibility of
release is not a lesser sentences than death; it is an other
sentence than death. It ensures that Dzhokhar Tsarnaev will be locked away in a bleak environment, in
bleak conditions. He will have no fame, no notoriety.
He will have no media attention. And if there are those
that wish to make him so, he’ll have no glory and stature
that martyrdom could bring. His name will fade from
the headlines. It will fade from the front page. It will
fade from the inside page. It will fade [59-136] from
the news altogether. And those who so desperately no
longer want to be reminded of him won’t be.
A sentence of life in prison doesn’t dishonor the victims in this case. It does not in any way minimize what
happened and what was caused by his crimes.
In closing argument in the first phase of this case, the
prosecutor stood in front of Dzhokhar and pointed at
him and said, and asserted to you, “What motivated his
actions was an eye for an eye. You kill us; we kill you.”
Even if you believe that that’s who Dzhokhar was,
even if you believe that that’s who Dzhokhar is, that is
not who we are. We can think and reason and decide
what is best for all involved, not just what fulfills the
need for vengeance and retribution.

856
Finally, a sentence of life in prison without the possibility of release allows for hope. If allows for the possibility of redemption and a greater opportunity for
healing for everyone involved. It’s a sentence that reflects justice and mercy. Mercy’s never earned; it’s bestowed. And the law allows you to choose justice and
mercy.
I ask you to make a decision of strength, a choice that
demonstrates the resilience of this community. We ask
you to choose life and impose a sentence of life in prison
without the possibility of release.
Thank you.
[59-137]
THE COURT: Jurors, why don’t we take another
break. Everybody, if you want, stand and stretch and
relax for a minute.
(Discussion off the record.)
THE COURT: Why don’t we just take a fiveminute break so everyone can use the restroom.
THE CLERK: The Court will take a five-minute
recess. (The Court and jury exit the courtroom and
there is a recess in the proceedings at 2:48 p.m.)
THE CLERK:

All rise for the Court and the jury.

(The Court and jury enter the courtroom at 2:56 p.m.)
THE CLERK:

Be seated.

THE COURT: The government has an opportunity
for a rebuttal argument.
Mr. Weinreb?
MR. WEINREB:

Good afternoon.

857
THE JURORS:

Good afternoon.

MR. WEINREB: As you can see from the list of
mitigating factors in this case, the bulk of the mitigation
case comes down to a single proposition: “His brother
made him do it.”
There are other mitigating factors, of course, related
to his family and his upbringing. But as Ms. Clarke’s
argument just made clear to you, they are there largely
to explain to you how his brother made him do it. The
defense may phrase it [59-138] in different ways, but
that’s the basic idea, and that’s the idea they’ve been trying to sell you on since day one in this case. That was
the defense in the guilt phase, and now it’s the heart of
the mitigation case.
No matter how many times they say that the defendant takes responsibilities for his actions, they actually
keep trying to pin the blame on his older brother. Our
response is just as easily stated: It’s not true. His
brother did not make him do it. And in any event, it
doesn’t matter what his brother did. He’s the one on
trial, not his brother. You need to sentence him for his
actions.
When you consider the mitigation case, keep in mind
that the defense bears the burden of proof. They have
to convince you that these things are true. An argument isn’t evidence. Things aren’t true just because
Ms. Clarke says they are. There has to be evidence
that proves them to be true. It’s up to you to decide
whether that evidence exists and, if it does, whether it’s
enough to convince you.
Also keep in mind that even if a mitigating factor is
proved, that doesn’t mean you have to give it any weight.

858
It’s easy to phrase mitigating factors in a way that can
be proved. Take the very first one on their list. The
defendant was 19 years old when he committed these offenses. That’s pretty easy to prove. But it’s entirely
up to you to decide if it makes a difference in this case.
Some 19-year-olds act like they’re [59-139] 14. Some
14-year-olds can be more mature than adults. Their
own expert told you that. It’s entirely up to you to decide whether the defendant deserves credit for his age
or for any other mitigating factor.
Now, I agree with Ms. Clarke that the weighing of
aggravating and mitigating factors is not a numbers
game. You can’t just total them both up and compare.
You have to decide how weighty each one is.
For example, you might decide that a particular aggravating factor, say that Martin Richard was especially
vulnerable to the effects of a shrapnel bomb because he
was a little boy, is more important than a mitigating factor, say that the defendant’s teachers had a high opinion
of him when he was in elementary school.
You may even decide that a few aggravating factors,
say that the defendant committed multiple murders in a
heinous, cruel and depraved manner during an act of
terrorism, outweigh all of the mitigating factors combined. That’s entirely up to you.
You heard an awful lot about Tamerlan Tsarnaev
during the mitigation case, and you heard Ms. Clarke
refer to Tamerlan Tsarnaev or to the older brother well
over 100 times just now. You also heard a lot about
Chechnya. What did all that really tell you? At times
it might have seemed to you as if Tamerlan Tsarnaev
were the one on trial or the Chechens.

859
[59-140]
But since it’s the defendant who’s on trial, consider
for a minute what all that evidence told you about the
defendant. He was born in central Asia, not the mountains of Chechnya. He was born in the same area
where his father and all of his paternal aunts and uncles
had been born. He spent his early years in the bosom
of a warm, extended family that included his parents,
grandparents, aunts, uncles, a brother and two sisters.
They loved him, supported him and doted on him.
He lived either in central Asia with—in Dagestan
with his mother’s family or with his cousins in a house
near the Caspian Sea. He has never—
MR. BRUCK:

Objection, your Honor.

THE COURT:

No.

MR. WEINREB:
nya in his life.

Overruled.

He has never set foot in Chech-

When he was eight, he moved with his parents from
one of the poorest parts of the world to the wealthiest.
They were looking for a better life, and they found it.
They got an apartment in Cambridge that was walking
distance to Harvard Square. Anyone who knows Cambridge knows how a desirable place it is to live. The
apartment was snug, but it was adequate. It had a bedroom for the parents, a separate bedroom for the girls,
another bedroom for the boys, a kitchen and a living
room with a TV.
[59-141]
Anzor and Zubeida were not well off, but they provided what kids need to thrive. The defendant and his
siblings had food, clothing, school supplies and a warm

860
home to share, and they also had a lot of the extras
American kids have come to take for granted in their
lives: cars, television, computers, iPods, cell phones.
The children had medical care and a free public education at excellent schools. They may not have been well
off, but they were rich in many things that a lot of kids
lack.
MS. CONRAD:
not rebuttal.
THE COURT:

Objection, your Honor.

This is

Overruled.

MR. WEINREB: Let’s talk a minute about school
because quite a number of the defense witnesses were
people who knew the defendant through school. What
did you learn from those witnesses?
One thing you learned is that the defendant was extremely lucky when it came to school. He had devoted
teachers who got to know him, appreciated him and
helped him succeed. He had dedicated coaches and
mentors who promoted him. He was well liked. In
short, everything you heard tells you that the defendant
had everything he needed to grow into a strong, independent, mature, resilient adult.
And the evidence shows that is just what happened.
Several of his teachers, coaches and mentors noted that
he was [59-142] unusually mature. He was the only boy
in elementary school who held the baby. He learned
English so quickly, he skipped fourth grade. His high
school friends made him captain of the wrestling team.
His friend Tiarrah Dottin told you that he was not easily
pushed around. He liked to say yes, but he knew how
to say no. He was not a follower. He was able to

861
make up his own mind. He knew his own mind. He
understood the difference between right and wrong.
Tamerlan, you heard, grew up in the same large family as the defendant. He was also loved, supported and
doted on. He had the same advantages the defendant
had when he came to the United States to live in Cambridge, and he also had a lot of strengths and successes.
He wasn’t as good in school as the defendant, but he was
a skilled boxer. Elmirza, the defendant’s brother-inlaw, who testified via video link, told you that Tamerlan
was handsome and could be charming, albeit it in a goofy
kind of way.
Of course Tamerlan and the defendant had very different personalities. Tamerlan was loud, flashy, in your
face. The defendant was quiet, polite and laid back.
Tamerlan couldn’t stop talking about his beliefs. The
defendant kept his beliefs to himself. Tamerlan sometimes lost his temper. The defendant knew how to
keep his cool.
But despite their differences, they were from the
same stock, they grew up in the same family, in the same
household, [59-143 and in many ways, they were very
much alike. They were both physically strong, one a
boxer, one a wrester, capable of defeating much larger
opponents.
They were both emotionally strong.
They took care of themselves and didn’t need anyone’s
shoulder to cry on. And they were both men of action.
When it was time to make a bomb, Tamerlan shopped
for pressure cookers and got on the Internet and ordered the parts he needed. When the defendant decided that he needed a gun, he got one from his friend
Stephen Silva by telling him he planned to rob some

862
drug dealers in Providence. Stephen Silva was surprised by that. He didn’t bat an eye.
Despite what Ms. Clarke just told you, there’s no evidence that Tamerlan told the defendant to get a gun.
None. That’s just something the defense wants you to
believe. Tamerlan didn’t search for “P95 Ruger” on
the Internet until well after the defendant got the gun.
Don’t be misled by that argument.
Of course you know the defendant’s strength of will,
his presence of mind in many other ways. You know
that even after his brother had been captured by police,
he had the grit to get back into that SUV, make a threepoint turn and try to run over three police officers, even
if it meant driving through a hail of bullets and running
over his own brother. How many people do you know
who could pull off something like that?
[59-144]
(There is an interruption in the proceedings.)
MR. WEINREB: And after ditching the Mercedes,
while whole police forces were searching for the defendant, he managed to pick his way through Watertown,
blood dripping from his gunshot wounds, find a hiding
place, smash his cell phones and pen a very coherent and
powerful message on the inside of a boat while nearly
evading capture altogether. That’s the kind of person
he is: strong and strong-willed, just like his brother,
Tamerlan.
When you think back over all the evidence you heard
during the mitigation case, ask yourself this: Did you
hear any evidence that convinces you that Tamerlan
Tsarnaev actually made Dzhokhar Tsarnaev commit
these crimes? Not “made him” in the sense of put a

863
gun to his head. Even the defense doesn’t claim that.
But “made him” in the sense that the defendant was coerced or controlled. “Made him” in the sense that he
was so vulnerable to Tamerlan’s influence and so influenced by Tamerlan that he should be excused from bearing moral responsibility for what he did.
Let’s look at some of the evidence. One of the main
arguments the defense makes is that when the defendant’s parents returned to Russia in the fall of 2012, they
left him in Tamerlan’s hands; that the defendant was already 19 years old in the fall of 2012. He hadn’t lived
at home for over a year. He lived at UMass Dartmouth, and he spent his days down [59-145] there hanging out with his friends, smoking pot and playing video
games. He wasn’t financially dependent on Tamerlan,
and he wasn’t—he was making ample pocket money selling drugs. And he wasn’t emotionally dependent on
him. He had plenty of his own friends.
Tamerlan, meanwhile, had become a scold. He condemned drinking, smoking, doing drugs. It wasn’t
much fun to be around him, so the defendant simply
stayed away. He spent his weekends at UMass Dartmouth instead of bringing friends home to the house at
410 Norfolk. He visited Tamerlan only now and then
on the occasional weekend or holiday. They seldom
saw each other or even spoke. That’s what the phone
records show.
What about the period before the parents left for
Russia in the fall of 2012? Well, for the entire first part
of that year, from January of 2012 to August 2012, Tamerlan himself was in Russia. For those six months, the
defendant never saw Tamerlan at all.
Tamerlan
emailed the defendant only six times during those entire

864
six months. That’s what the evidence shows.
he did, he sent him some jihadi videos.

When

But what was the defendant’s response? “Thanks.
That’s interesting.” That’s it. Where is the evidence
of brainwashing, of mind control? Where is the evidence that the defendant was under his brother’s spell?
You haven’t heard it from the mouth of any witness in
this case. You’ve only heard it from the mouths of defense attorneys.
[59-146]
What about the year before Tamerlan went to Russia? The defendant spent half that year finishing high
school and half that year in college. Again, you’ve
heard no evidence that Tamerlan exercised dominion or
control over the defendant during that year.
You heard evidence that Tamerlan may have given
the defendant jihadi materials to look at before he went
to Russia, but then Tamerlan went off to Russia, looking
for an opportunity to do jihad on his own. He didn’t try
and take the defendant with him. On the contrary, he
left his little brother behind, quite possibly intending
never to return. And as I just mentioned, he barely
wrote to him while he was away.
You did hear testimony that Tamerlan was bossy.
He had become abstinent himself, and he didn’t want the
defendant to smoke, drink or do drugs. He wanted him
to pray and go to the mosque more often. But that’s
the way a lot of older siblings are with their younger siblings, isn’t it? They admonish them to stay on the
straight and narrow. And a lot of younger siblings, like
the defendant, pretend to take that advice, even though
they go back to doing whatever they want once they’re

865
out of their older sibling’s sight.
coercion or control.

That is a far cry from

The defense argues that even before the defendant’s
parents left in the fall of 2012 to go back to Russia, they
were effectively absent anyway because Anzor’s illnesses and [59-147] Zubeida’s religious conversion left
them unable to parent him. Is that what it looked like
to you? Of course Anzor and Zubeida had their issues.
All parents do. But parents can go through a lot and
still have a lot left over for their children.
You saw the photos of the defendant in drum class,
dance class and at farm camp. As he gets older, you
see him with soccer trophies, winning wrestling matches, playing pool with his friends. Those aren’t the photos of a child who was neglected or overlooked with parents too crippled with problems to parent him. On the
contrary, the evidence is that both his parents were devoted to him.
And despite their problems, they stayed together and
maintained a family home until all of their children had
grown up, become adults and left home to begin leading
independent lives. Only then, once all their kids had
become adults and left the nest, did they return to their
families of origin from whom they had been away for so
long.
Moreover, we’re not just raised by our parents. Our
lives are shaped by uncles, aunts, teachers, friends,
neighbors, coaches, mentors. You heard evidence that
the defendant was surrounded, supported and guided by
some of the best. If his parents were ever unable to
support him or guide him, others were there to step in:

866
his teachers; his wrestling coach; his Model U.N. advisor; his kindly neighbor and [59-148] landlady, Joanna
Herlihy; his uncle Ruslan, who lived only a bus ride
away. That is considerably more support and guidance
than a lot of adolescents have.
The last thing the defense falls back on to prove that
there must have been coercion and control is the defendant’s Chechen heritage. It’s a tradition in Chechnya
going back thousands of years that elders control the
family. But traditions can change as times change.
Even Professor Reynolds, the defense expert on Chechnya, told you that. It happened in Chechnya itself in
the 1990s right around the time the defendant was born.
Can I have the screen, your Honor?
THE COURT: I don’t see an image.
a feed. There it is. Okay.

I don’t have

MR. BRUCK: We have to renew the objection.
This is far beyond any rebuttal. We already—
THE COURT:

Overruled.

MR. WEINREB: Here’s what Professor Reynolds
wrote back in May 2013.
MS. CONRAD: Objection, your Honor. That’s
not in evidence. It was not shown to the jury. It
should not be on the screen.
MR. WEINREB:
MS. CONRAD:
THE COURT:

It’s a chalk, your Honor.
It’s not a chalk.

I think it was shown during the trial.

867
[59-149]
MS. CONRAD:

No, it was not.

MR. WEINREB: It was handed to the witness, and
I reviewed it with the—
MS. CONRAD:

It was not shown.

May we be heard, your Honor?
THE COURT:

Put it up again.

MR. WEINREB:
keep it there.
THE COURT:

I don’t need to

Okay.

MR. WEINREB:
THE COURT:
chalk.

That’s all right.

But the next one is just a clip.

All right.

MR. WEINREB:
Okay.

You may use that as a

I can’t see it.

There we go.

MS. CONRAD: This was not shown to the jury,
your Honor. I would like to be heard at sidebar.
THE COURT:

This is used as a chalk.

Go ahead.
MR. WEINREB:
Mr. Bruck before—
THE COURT:
MS. CONRAD:
ment.
THE COURT:

Your Honor, I cleared this with

All right.

Go ahead.

Your Honor, this was impeachOverruled.

868
MR. WEINREB: This is what Professor Reynolds
wrote back in May of 2013 before the defense hired him
and explained to him what they were trying to prove in
the mitigation phase. He wrote, “The experience of
Chechnya in the 1990s profoundly [59-150] affected Chechen cultural norms. For example, the cult of the elders by which Chechens, like most North Caucasians,
would routinely accept the opinions of the older males as
law, declined precipitously.” Went down. “The masculine ideal of the Chechen as an irrepressible warrior
remained, but much of the culture that had nourished
that ideal and bounded it with obligation to others, that
part had withered away.”
And, in fact, you know that the defendant’s family
isn’t actually from Chechnya. His father and his father’s siblings were born in Kazakhstan, and his mother
and all her siblings were born in Dagestan. And the
defendant and his siblings certainly weren’t born or
raised in Chechnya.
Again, this is what Professor Reynolds wrote back in
May 2013 before he became a defense expert. He
wrote, “Tamerlan and Dzhokhar Tsarnaev were hardly
typical of Chechens, and one might justifiably question
whether they could even be properly described as Chechen. Their mother, Zubeida, was an ethic Avar. Both
brothers were born outside of Chechnya. Both brothers
grew up outside of Chechnya. And both brothers—
MS. CONRAD:
THE COURT:

Your Honor, I renew my objection.
Over-—

MS. CONRAD: This is being confused.
prior inconsistent statement.

This is a

869
THE COURT: No, the witness was examined on it
at the [59-151] time.
MS. CONRAD:
to respond to—
THE COURT:

And we don’t have an opportunity
The objection is overruled.

MR. WEINREB: And both brothers spent little or
no time in Chechnya.
No matter what things might be like for actual Chechen families that actually live in Chechnya, you know
from the evidence in this case that there was no tradition
of obeying elders in the defendant’s family. Anzor
Tsarnaev defied his own father by marrying Zubeidat,
an Avar, and an immodest dresser. Tamerlan, in turn,
defied Anzor by marrying Katherine Russell, a Christian. Ruslan Tsarnaev, the defendant’s uncle, defied
tradition by assuming leadership of the whole extended
family, even though he was the youngest of Anzor’s two
brothers.
And the defendant’s sister, who was married to
Ruslan’s nephew, Elmirza, defied both Ruslan and her
husband by calling the police on Elmirza and divorcing
him.
In fact, Elmirza—remember, he’s the—he’s
Ruslan’s son-in-law, the defendant’s ex-brother-in-law.
He’s the one who testified over the video link. He told
you something very telling. He said that Ruslan, the
youngest brother, became the leader of the family because he was the smartest and the most successful, even
though he was the youngest. That’s a typical American
[59-152] story. Who was the smartest and most successful in the defendant’s immediate family? It wasn’t
Tamerlan Tsarnaev.

870
What was modeled for the defendant his entire life
were family members making up their own minds and
making their own independent life choices, regardless of
what their elders wanted them to do.
If the defense wanted to prove to you that Tamerlan
Tsarnaev played a dominant role in the defendant’s
household and that his younger sibling was under his
sway, they had a funny way of going about it. You
didn’t hear testimony from his patients, his sisters or his
uncles. You didn’t hear testimony from any of Tamerlan’s best friends or from any of the defendant’s best
friends.
For the most part, the only witnesses the defense
subpoenaed to talk about Tamerlan were people who
happened to be present on an occasion when he lost his
temper or acted inappropriately. What about the people who spent time with him every day?
As for the defendant, you heard mainly from Russian
aunts and uncles who haven’t seen him for over a decade,
schoolteachers and coaches from years past. But none
of those people can tell you what things were like in the
Tsarnaev household. Isn’t that what really matters?
You also heard from a number of young women who
were sweet on the defendant. They took the witness
stand and got [59-153] teary seeing him in court. But
none of them had even been to his house. They hadn’t
even met his brother or anyone else in his family. One
last saw him at a barbecue in the summer of 2012. One
was only friends with him during his freshman year in
college. And one had just met him in college and only
hung out with him for a few months. How well did they
actually know him? Obviously not very well since none

871
of them had any idea that he was reading Inspire magazine, listening to Anwar al-Awlaki lectures, or listening
to jihadi nasheeds on his iPod or in his car. And he
didn’t care enough about them to warn them away from
Boylston Street on the day of the marathon.
The defense wants you to believe that Tamerlan coerced, dominated and controlled the defendant; that he
had such a great influence over the defendant that it
lessened his moral culpability for these crimes. That is
the centerpiece of their mitigation case. They have the
burden of proving it. Did they meet that burden?
Why did they spend days calling witnesses with so
little connection to Tamerlan and his brother? Why
didn’t they call anyone with actual insight into their relationship with one another? Ask yourselves those
questions when you go back to deliberate and when you
decide whether they have met their burden of proof.
What the whole claim of influence, dominance and
coercive control really boils down to in the end is the
[59-154] proposition that Tamerlan supplied the defendant with most of the jihadi files on his computer and sent
him a handful of jihadi links from Russia. Now, the
computer evidence, as you heard at very great length
during the trial, is open to interpretation, and I don’t intend to rehash all of that here.
Instead, I urge you to ask yourself this question: So
what? Even if it’s true, so what? Does it matter
whether you get your jihadi files from your brother, a
distant cousin, a quick search of the Internet or Anwar
al-Awlaki himself?

872
Tamerlan didn’t turn the defendant into a murderer
by giving him some magazines and lectures and then disappearing to Russia for six months. The defendant
had to become a believer, and that is something he did
entirely by himself.
He became so much of a believer that he began to
tweet what he had learned to others. He became so
much of a believer that he could summarize the teachings on the inside wall of a boat when he didn’t have any
books or lectures to crib from.
As Professor Levitt told you during the guilt phase,
a million people look at those materials. Only a handful
of people find the materials convincing. And of that
handful, only a tiny fraction consider them so convincing
that they’re willing to shred people alive in front of their
family members and friends in order to advance a political agenda. The defendant is one of that tiny fraction.
His actions are the best guide to the depths of his beliefs.
[59-155]
If you want to know why the defendant committed
these crimes, that’s the question Ms. Clarke just told
you is unanswerable. If you want to know—if you want
an explanation of how he became this person, of what
made him do it? What better place to look for the answer than in his own handwritten explanation of his actions.
He wrote in the boat, “I’m jealous of my brother who
has received the reward of martyrdom, but God has a
plan for each person. Mine was to hide in this boat and
shed some light on our actions.” “God has a plan for

873
each person.” That’s who he believed he was doing this
for. His god, not Tamerlan Tsarnaev.
He wrote, “He who Allah guides, no one can misguide.” Again, that’s who he believed was guiding him,
Allah, not his brother.
He wrote, “The U.S. government is killing our civilians. As a Muslim, I can’t stand to see such evil go unpunished.” He’s talking about himself. He doesn’t
even mention his brother.
He also wrote, “Now, I don’t like killing innocent people. It is forbidden in Islam, but in this case it is allowed.” Again, “I don’t like killing innocent people.”
He’s talking about himself.
His tweets are the same. They give the reasons—
they give his reasons for believing in violent jihad. Those
[59-156] tweets never even mentioned his brother.
In the end, the best evidence you have of the nature
of the defendant’s relationship with his brother, Tamerlan, is the evidence of how they actually committed these
crimes. They committed them together as partners.
Each one had an essential role to play.
Tamerlan was ready to commit violent jihad as early
as January 2012 when he left for Russia, but the defendant wasn’t ready yet. He was reading terrorist writings and listening to terrorist lectures, but he wasn’t yet
convinced. So Tamerlan left for Russia, hoping to find
a partner there. He came back when he didn’t succeed.
But by then, the defendant had steeped himself in the
writings of Inspire and Anwar al-Awlaki, and he had become inspired himself. He decided he was ready to
partner up. It was only then, when the defendant

874
made the decision to become a terrorist, that Tamerlan
was able to go into action. The defendant obtained a
gun and ammunition, a crucial ingredient in their plans.
He arranged for them to go to the range in Manchester
to practice firing it.
When Marathon Monday arrived, he let Tamerlan go
on ahead to the finish line, and then he chose on his own
where to place his bomb for maximum effect. Then he
called Tamerlan to give him the go-ahead.
Again, contrary to what Ms. Clarke just told you,
[59-157] later, on April 18th, both of them executed Sean
Collier. There’s no evidence of who pulled the trigger.
You know that Sean Collier’s blood was found on the defendant’s keychain and on the gloves that were on the
floor of the car by his feet, but the video doesn’t show
who pulled the trigger. Don’t mistake argument for
fact.
It was a full-on partnership, a partnership of equals.
They did not do the exact same things, but they were
both terrorists engaged in a joint effort. They bear the
same moral culpability for what they did together.
The very first mitigating factor on the defense list is
that the defendant was 19 years old when he committed
these crimes. In fact, he was just shy of 20. What
about that fact? And what about the fact that some of
the time he still acted like a teenager doing teenage
things? Is that a mitigating factor that deserves any
weight?
It might deserve some weight if these were youthful
crimes. For example, if the defendant and his brother
had robbed a liquor store and shot the clerk in a moment

875
of panic. But these weren’t youthful crimes. There
was nothing immature or impulsive about them.
These were political crimes, designed to harm the
United States, to punish Americans for our military actions overseas by killing and mutilating innocent civilians on U.S. soil. They were acts of terrorism planned
over a period of [59-158] months and carried out over
days. They were acts of terrorism so successful that
they not only killed four people and maimed 17 others,
but stopped the Boston Marathon, closed Logan Airport
and shut down the entire city of Boston for nearly a day.
The murders on Boylston Street were not a youthful
indiscretion. The cold-blooded execution of Sean Collier, a police officer, was not a rash or impulsive act.
The defendant was old enough to understand right from
wrong. He wrote in the boat, “I don’t like killing innocent people, but in this case it is allowed.” He decided
that the cause of his people, the ummah, justified the
murders of a small child, two young women and a police
officer. Does being nearly 20 years old mitigate any of
that?
Ms. Clarke said at the beginning of her closing that
these crimes were senseless and unimaginable, but they
made perfect sense to the defendant, and he was perfectly able to imagine the harm his actions would cause.
He was certainly old enough for that.
Mr. Mellin already talked at length about ADX and
the SAMs. I’m not going to repeat what he said. I
just want to emphasize one point that every witness who
testified agreed upon: There is no guarantee that the
defendant will spend the rest of his life in H unit or even
in ADX. In fact, the opposite is true. BOP tries to

876
step down inmates whenever [59-159] possible. And
BOP’s desires are taken into consideration whenever
SAMs are up for renewal.
Even if everyone in the government wanted the defendant to stay on SAMs, there are legal requirements
for keeping them in place. If those requirements are
not met, the SAMs can’t be renewed. There has been
litigation over SAMs. Will the defendant spend the
rest of his life on H unit or even in ADX? He has not
proved that to you because he can’t.
Let’s talk for a minute about Sister Helen. Why did
the defense choose her over all other clergy who could
have been invited to spend time with the defendant and
then testify about it in court? Why not call an imam
from the mosque here in Cambridge, like Loay Assaf,
who testified here in court? Why bring in someone
from Louisiana? Do you think it has anything to do
with the fact that Sister Helen is one of the leading
death penalty opponents in the United States?
Did Sister Helen’s testimony really give you much insight into what the defendant truly thinks and believes?
Put aside for a moment that, as a nun, she undoubtedly
tries to see the good in everyone. And put aside that,
as a committed opponent of the death penalty, she undoubtedly wants to help the defendant avoid it. Focus
instead on what she told you the defendant actually said
to her. What do those words really mean in the end?
They’re open to a lot of interpretation. And because of
that, they really don’t tell you anything at all. [59-160]
In the end, can you be confident that you really know
more about the defendant now than before Sister Helen
testified?

877
According to Sister Helen, the defendant said, “No
one should have to suffer like that.”
MR. BRUCK:

Objection.

MS. CONRAD:

Objection.

MR. BRUCK: Under the circumstances, we object.
Given the limitations on her testimony, this is not fair.
MS. CONRAD: And also that misstates the evidence. That’s not what she said.
THE COURT:
overruled.

Go ahead.

The objections are

MR. WEINREB: But he expressed pretty much
the same sentiment in the manifesto he wrote in the
boat. He wrote, “I don’t like having to kill people,” but
he went on to say that sometimes it is necessary to kill
people to advance the cause of the Muslim people.
That’s a core terrorist belief. The fact that now, while
he’s on trial for his life, the defendant is willing to go so
far as to say that no one should have to suffer like that
doesn’t tell you much about his core beliefs. When you
stack that up against his actions in this case, does it really make a difference to your decision?
Sister Helen said that the defendant seemed young
to her, and Ms. Clarke tries to spin that into a guarantee
that the defendant will become remorseful over time,
but there’s no evidence of that, no reason for you—
[59-161]
MS. CONRAD:
MR. WEINREB:

Your Honor, same objection.
—to believe that it’s true.

878
MS. CONRAD:
testimony.
THE COURT:

We were not allowed to elicit that
Overruled.

MR. WEINREB: Sister Helen is 76, and the defendant is 21. Of course he seems young to her.
What did their brain development expert, Dr. Giedd,
tell you? He testified that in determining a person’s
level of maturity, the single most important thing to look
at is his behavior. He told you that some people are
more mature at age 19 or even age 14 than some adults
will ever be. And he told you that there is absolutely
no guarantee that a 19-year-old will get any more mature or reflective just because his brain will continue to
grow over time.
Ms. Clarke criticizes the government for showing you
the image of the defendant in the holding cell giving the
camera the finger rather than showing you the whole
video, but the whole video is even worse. It shows just
how remorseless the defendant was when he came into
court to answer for his crimes three months after committing them.
Mr. Bruck said in his opening that if you sentence the
defendant to life, he’ll spend the rest of his life thinking
about his crimes. But that’s not true just because the
defense says it is. Where’s the evidence of that?
[59-162]
If the defendant goes to prison for life, he won’t be
free to come and go, but he will be safe, well fed and have
excellent medical care. Will he spend his days thinking
about the victims, or will he spend the rest of his life
thinking about himself, his family, his friends, his pen

879
pals, his next workout, his next visit, his next phone call,
his next meal?
Will he stare at the wall all day thinking about the
pain and suffering he has caused, or will he do many of
the very same things that people do every day to enjoy
life: read books and magazines; talk on the telephone
to his parents, his sisters and his friends; eat; pray;
sleep; exercise? Maybe he’ll even write a book.
You saw from the evidence what kind of a person he
is. Maybe he’ll leave behind his memories of Martin
Richard, Krystle and Lingzi Lu in the same way he left
them dying on the street when he went shopping at
Whole Foods. Maybe he’ll leave behind his memories
of Sean Collier, the same way he left him bleeding to
death in his patrol car as he drove into Boston to look
for another gun.
The callousness and indifference that allows you to
destroy people’s lives, to ignore their pain, to shrug off
their heartbreak, that doesn’t go away just because
you’re locked up in a prison cell. It’s what enables you
to be a terrorist, and it’s what insulates you from feelings of remorse.
[59-163]
In the end, did you hear any testimony from any witness that speaks louder about the appropriate punishment in this case than the defendant’s own actions on
Boylston Street or at Whole Foods or at MIT or on Laurel Street? The defendant deserves the death penalty,
not because he’s inhuman, but because he’s inhumane.
Because of his willingness to destroy other people’s lives
for an idea.

880
Most people can’t even imagine standing for four
minutes behind a row of children, sometimes only feet
away from them, and leaving behind a bomb that you
know will cause them excruciating pain and a lingering
death on the sidewalk. But that’s what it is to be a terrorist.
If you want to know who the defendant was, you have
the testimony of his relatives, his teachers and his
friends. But if you want to know who he turned into,
look at his actions. They tell you all you need to know
about the kind of person he became. His actions on
Boylston Street, afterwards at Whole Foods, at MIT
and in Watertown and in this courthouse on the day of
his arraignment, they are the best evidence you have
about who the defendant became.
Ms. Clarke urged you to just go through the intent
factors and the aggravating factors in the verdict form
and just check them off. I urge you to take your time
with each one and give it the consideration it deserves.
As for the mitigators, she urged you to go through
[59-164] them one by one and just fill in 12. But you
only write in 12 if all 12 of you find a mitigator to be
proved.
One final thought before I sit down: If you sentence
the defendant to life imprisonment, you will be giving
him the minimum punishment authorized by law for
these crimes. Contrary to what Ms. Clarke said, it is a
lesser punishment than death. Does he deserve the
minimum punishment or do these crimes, these four
deaths, demand something more? Please ask yourself
that question when you go back to deliberate.
Thank you.

881
THE COURT:

I’ll see you at the side.

(Discussion at sidebar and out of the hearing of the
jury:)
MS. CONRAD: Your Honor, first of all, as we had
previously objected, that this—that the government
should be limited to rebuttal, that was 45 minutes of preprepared, typewritten rebuttal. I watched Mr. Weinreb during Ms. Clarke’s closing. He made three—he
wrote down three words or three sentences on a piece of
paper. He didn’t refer to those at all. He had a canned
presentation that was not proper rebuttal.
*

*

*

*

*

882
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Apr. 21, 2014
10:08 a.m.
JURY TRIAL—DAY FORTY SEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

883
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[47-96]

884
Q. And, Billy, what was it like for you to learn that
Krystle was gone?
A. It wasn’t real at first. It was just something’s
wrong. This can’t be true. This isn’t real. Like you
just were stunned. You didn’t sleep. You were just
trying to rationalize everything in your own mind, trying
to make any type of reason. Maybe there was another
mistaken identity, maybe there was—just anything you
could tell yourself to calm yourself down at that point.
Q. And as time went on, how did you deal with it?
A. I had a hard time dealing with it. I went to bad
places. I didn’t do probably the right things. But I just
eventually had to deal with it. I had to deal with it for
my family, I had to deal with it for my son. I just eventually had to accept the facts.
[47-97]
Q. And how did your family react?
A. They were horrified. I mean, there was crying.
It was emotional. You don’t know what to say, you
don’t know what to do. There’s this heightened state
of panic and you don’t know what to say. You don’t
know what’s comforting. You’re trying to comfort
somebody else while you, yourself, need comforting.
You’re just lost.
Q. And since that time two years ago, what’s it been
like—or what’s it like now for your family without
Krystle?
A. It’s tough. It’s still tough. Every day, you know,
we still think about her. She’s—not a day goes by
when she doesn’t pop into your head at least in some aspect. I think the hardest time I had was trying not to

885
pick up my phone every time I wanted to call her if I’d
run into some friends or something. I think that was
the hardest thing to get over, just not being able to make
that phone call anymore.
Q. And for your mom and dad?
A. They still struggle with it daily. You know, they
have their okay days and then they have their bad days.
I mean . . .
*

*

*

*

*

886
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Apr. 22, 2015
9:13 a.m.
JURY TRIAL—DAY FORTY-EIGHT

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

887
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[48-122]

888
Q. How are you related to Lingzi Lu?
A. Lingzi call me “aunt” because my sister married to
Lingzi’s mother’s brother. So basically, you know,
Lingzi call my sister “aunt,” so she call me “aunt.”
Q. And in Chinese culture, she treated you as an aunt
and you treated her as a niece?
A. Yes, as a niece.
Q. Do you know her parents?
A. Yes.
Q. Were her parents able to travel from China to be
with us [48-123] here today?
A. No.
Q. Why not?
A. I don’t think they’re capable because the devastation that had—even mention about, you know, the whole
case, stuff. One time they told me, the husband—
things the father told me, the mom could not get out of
bed for two days just to hear, you know, something from
this side. So they absolutely cannot make it here.
*

*

*

*

*

889
[Map showing relative locations of homes of
Dzhokhar and Tamerlan Tsarnaev]

